                        The Soldier’s Creed
                               I am an American Soldier.
                       I am a Warrior and a member of a team.
                        I serve the people of the United States
                               and live the Army Values.

                         I will always place the mission first.
                                I will never accept defeat.




                                                                                      Fiscal Year 2007 United States Army Annual Financial Statement
                                       I will never quit.
                          I will never leave a fallen comrade.

                       I am disciplined, physically and mentally
                      tough, trained and proficient in my warrior
                         tasks and drills. I always maintain my
                            arms, my equipment and myself.

                       I am an expert and I am a professional.

                        I stand ready to deploy, engage, and
                      destroy the enemies of the United States
                             of America in close combat.

                         I am a guardian of freedom and the
                                American way of life.

                              I am an American Soldier.


                                                                                                                                                       Fiscal Year 2007 United States Army Annual Financial Statement


United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil                                                                    Commitment to Current and Future Readiness
                                                                                                                                                  We are interested in your feedback regarding the content of this report.
                                                                                                                                               Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                                                                                                                                                     Department of the Army
                                                                                                                                                                Office of the Deputy Assistant Secretary of the Army
                                                                                                                                                                     (Financial Management and Comptroller)
                                                                                                                                                                   Office of the Financial Reporting Directorate
                                                                                                                                                                         Room 3A312, 109 Army Pentagon
                                                                                                                                                                            Washington, DC 20310-0109

                                                                                                                                                  Additional copies of this report can be obtained by sending a written request to
                                                                                                                                                                     the e-mail or mailing address listed above.
About the Cover
                                                                                                                                               You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
Bottom Image
Soldiers from the 3rd Brigade Combat Team, 25th Infantry Division. The smoke is from a controlled IED detonation.

Top Image
Soldiers from the 58th Brigade Combat Team practice room-clearing procedures during training. The brigade is preparing to deploy to Iraq.   *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army
    Contents FY 2007
              Message from the Secretary of the Army                                iii

              Message from the Assistant Secretary of the Army
              (Financial Management and Comptroller)                                 v

              Message from the Assistant Secretary of the Army
              (Civil Works)                                                         vii

              Management’s Discussion & Analysis                                    1

              General Fund – Principal Financial Statements, Notes,
              and Supplementary Information                                        39

i             Working Capital Fund – Principal Financial Statements,
              Notes, and Supplementary Information                               117

              Civil Works Fund – Management’s Discussion & Analysis              163

              Civil Works Fund – Principal Financial Statements, Notes,
              and Supplementary Information                                      189




                                                         Commitment to Current and Future Readiness
Secretary of the Army
Fiscal Year 2007 United States Army Annual Financial Statement




Commitment to Current and Future Readiness




                                                                 ii
                                                  While the Army remains a resilient, committed, professional force, it is out
                                                  of balance. Six years of war and the demands of repeated deployments have
                                                  stretched and stressed our institutions, support structures, equipment, Soldiers,
                                                  Families and Army Civilians.

                                                  We are acting quickly to restore this balance—to preserve our All-Volunteer
                                                  Force, to rebuild the necessary depth and breadth of Army capabilities, and
                                                  to build essential capacity for the future. We have a plan centered on four
                                                  imperatives that frame what we must do: we need to improve the manner in
                                                  which we sustain the Army’s Soldiers, Families and Civilians; we must continue
                                                  to prepare our forces for success in the current conflict; we must continue to
                                                  reset our units and rebuild readiness for future deployments and contingencies;
                                                  and we must continue to transform our Army—including accelerating Army
                                                  growth—to meet the demands of the 21” Century.

                  The Honorable
                                                    Much of our Soldiers’ strength comes from the strength of their Families and
                                                    we’ve asked much of Army Families. In this era of persistent conflict, we will ask
                  Pete Geren
                   Secretary of the Army
                                                    more of Soldiers and we must do more for their Families. To that end, we are
                                                    committed to standardizing and funding existing Family programs and services:
      increasing accessibility and quality of health care; improving housing; ensuring excellence in schools, youth services, and
      child care; and expanding education and employment opportunities for Family members. We owe our Families a quality of
      life comparable to the quality of their service, and while we can never match their sacrifice, we can do more to recognize
      their service.

      Successfully restoring our balance through these imperatives will require considerable resources and several years. With
      your support, we have made significant progress in Fiscal Year 2007, but more remains to be accomplished. We need your
      continued support and partnership as we build the Army needed to protect our Nation in the 21” Century.




                                                 Pete Geren
                                                 Secretary of the Army




iii




                                                                                                     Commitment to Current and Future Readiness
Assistant Secretary of the Army (Financial Management and Comptroller)
Fiscal Year 2007 United States Army Annual Financial Statement




Commitment to Current and Future Readiness




                                                                         iv
                                                  With declining defense budgets a likely prospect in the near future, efficient
                                                  management of the Army’s finite resources will be the key to providing the
                                                  capabilities needed by Soldiers on the battlefield. To ensure that we can satisfy
                                                  this obligation, the Army must establish a “cost culture” now -- a culture in which
                                                  all leaders and managers factor cost into their decision-making and understand
                                                  both the near and long-term cost implications of their decisions.

                                                  An effective cost culture has three requirements: establishment of the doctrinal
                                                  Army’s cost, stronger internal controls and a modernized enterprise business
                                                  system. The Army already has developed a tool to assess the full cost of
                                                  producing and sustaining a force (institutional and operational) capable of
                                                  fulfilling the National Military Strategy. Our most recent analysis concluded
                                                  that the annual cost of this “doctrinal” Army in FY 2008 dollars is $152 billion,
                                                  a significant increase from last year’s estimate of $138 billion. This rise was
                                                  due largely to the President’s decision to grow the Army by 74,000 active- and
                  The Honorable
                                                  reserve-component personnel by FY 2010.
            Nelson M. Ford
              Assistant Secretary of the Army
                                                The Army is making good progress in implementing the second element of cost
         (Financial Management and Comptroller) culture. In FY 2007, we strengthened internal controls to improve compliance
                                                with laws and regulations and focused more attention on development and
    application of controls that safeguard both current appropriations and existing assets. These efforts have enabled the Army
    to reduce costs with no loss of mission effectiveness.

    With respect to systems modernization, the Army accelerated implementation of several systems, reducing transaction
    costs for vendor payments and travel vouchers and improving the linkage among the Army’s procurement, supply and
    finance functions.

    I see the eventual fielding of the General Fund Enterprise Business System (GFEBS) as a critical element of the cost culture
    for which we strive. Due for full deployment in FY 2011, GFEBS will not only eliminate 87 of our legacy financial systems
    and enable the creation of auditable financial statements; but will also place real time, high quality cost data in the hands
    of decision makers, empowering them to make prudent financial choices like never before. GFEBS Release 1.1 already
    has shown that the system can capture all real property inventory information and its associated financial data. Release
    1.2 will expand the system to 38 installation functions, including financial processes for command and staff, personnel
    and community, information technology, operations, logistics, engineering, resource management, acquisition and health
    services.

    The reliance on supplemental appropriations continues to be a concern. It is likely that large supplementals will shrink
    dramatically within the next five years.Yet, many of the requirements and missions now covered by supplemental funding
    will continue. It will be extremely difficult to absorb these costs into the Army’s current baseline. A simultaneous decrease
    to the Army’s base budget in real terms -- a distinct possibility, if history is any indicator – would make it impossible.
v
    It is critical that we be prepared to mitigate these budget pressures as much as possible. Army leaders must make the
    tough decisions that produce the best possible use of finite resources and improve the efficiency and effectiveness of
    our operations. Resource stewardship, and the tradeoffs between cost and performance, must become a part of every
    conversation. Only then can we be assured of maintaining an Army capable of meeting the Nation’s defense requirements.




                                                  Nelson M. Ford
                                                  Assistant Secretary of the Army (Financial Management and Comptroller)


                                                                                                                 Commitment to Current and Future Readiness
Assistant Secretary of the Army (Civil Works)
Fiscal Year 2007 United States Army Annual Financial Statement




Commitment to Current and Future Readiness




                                                                 vi
                                                 During Fiscal Year 2007, the Army Corps of Engineers continued to serve the
                                                 nation with its engineering and construction expertise both at home and abroad.
                                                 Today, the Corps is present in over one hundred countries throughout the world,
                                                 including Iraq and Afghanistan, where it is working to advance security, stability
                                                 and economic opportunity in these regions.

                                                 In addition to military programs at home and abroad, the Corps also attended
                                                 to its Civil Works mission in the United States, highlighted in large part by its
                                                 work in response to the destruction on the Gulf Coast and in the city of New
                                                 Orleans caused by Hurricanes Katrina and Rita in 2005. In FY 2007, the Corps
                                                 continued this massive effort to restore over 220 miles of damaged levees and
                                                 floodwalls in order to reduce the risk of flooding in the metropolitan New
                                                 Orleans area.

                                                 The Corps has looked beyond New Orleans and is applying the lessons learned
                                                 from Hurricanes Katrina and Rita into a major initiative to transform planning,
                   The Honorable                 design, construction, and operation and maintenance principles and decision-
         John Paul Woodley, Jr.                  making processes. Key elements of the initiative are changes that will enhance
              Assistant Secretary of the Army
                                                 the way the Corps uses risk management to guide decision making and ensures
                        (Civil Works)
                                                 that all stakeholders understand the risks associated with water resources
                                                 projects.

      Much more remains to be done. In 2001, the American Society of Civil Engineers gave America’s infrastructure an overall
      “D” condition rating. They repeated this unsatisfactory rating in 2005. Waterways and dams fared no better in either year.
      Deferred maintenance, rehabilitation and replacement of aging locks have driven up unscheduled closure times from an
      average of 12,000 to 22,000 hours per year. Harbor modernization is urgently needed to assure this Nation’s place in
      world trade. Many of the Nation’s busiest channels and harbors operate only 35 to 40 percent of the time at full depth
      over even half the authorized channel width. Hydropower facilities run by the Corps have been operating below industry
      standards by 8 to10 percentage points. The recent Minneapolis bridge collapse, flooding in the Midwest and Southwest,
      drought conditions in the Southeast, and the prospect for more severe floods and droughts, are stark reminders of the need
      to pay greater attention both to maintaining the integrity of our existing infrastructure and to planning for new investments.

      The annual report addresses these and other challenges the Corps is facing in each of its business programs. The Army is
      committed to advancing the Civil Works mission through its strategic goals of sustainable development, environmental
      restoration, infrastructure modernization, effective disaster response, and world-class public engineering. Achieving these
      goals enhances the Corps ability to serve the public, and contribute to the Nation’s economic strength and environmental
      well-being.



vii



                                                 John Paul Woodley, Jr.
                                                 Assistant Secretary of the Army (CivilWorks)




                                                                                                   Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




              “We have magnificent Soldiers, leaders and civilians. They
              are ordinary people who are doing extraordinary things for
              our country.”

                                                                 — General George Casey, Chief of Staff of the Army




                                                                                                                      viii
    Overview
    The Army today is a battle-hardened, all-volunteer force that has performed with courage,
    resourcefulness and resilience in the most grueling conditions. We have entered the
    seventh year of major combat operations in the Global War on Terrorism (GWOT). This
    war is the third-longest war in American history, after the Revolutionary War and the
    Vietnam War, and is the first extended conflict since the Revolution fought with an all-
    volunteer force.

    The Army — Soldiers and their Families — is stretched to meet the demands of the
    current conflict. Presently, more than 150,000 Soldiers are in Iraq and Afghanistan. Since
    the beginning of combat operations, more than 550,000 Soldiers have served in combat
    zones, with more than 200,000 deployed multiple times, many serving three or four
    tours. Dwell-time back home is neither sufficient to reintegrate fully with the Family
    nor to train for the full spectrum of combat operations expected of our Army under the
    National Military Strategy. Yet, our resilient Soldiers and their Families continue to answer
    the call to duty and to display courage, professionalism and distinction. Our Soldiers
    reenlist and go back to the fight again and again. And, their Families continue to stand
    with them. Their actions demonstrate that our Army is the strength of our nation.

     While we remain a resilient and committed professional force, our Army today is out of
     balance. Soldiers, Families, support systems and equipment are stretched and stressed
     by the demands of lengthy and repeated deployments, and insufficient recovery time.
     Equipment used for long periods in harsh environmental conditions is wearing out at a
     far greater pace than expected. Army support systems, including health care, education
     and Family programs that were designed for the pre-September 11 peacetime Army, are
    straining under the accumulated pressure of six years of war.

    To restore balance, we must focus on four imperatives: sustain Army Soldiers and their
    Families; prepare our forces to succeed in the current conflict; reset and repair units and
    equipment; and transform and grow the Army to be ready for current operations and
    future contingencies.

    The Army’s recently announced Family Covenant is a series of new programs and resources
    to sustain the continued strength and resilience of Army Families. We will also ensure that
    our Wounded Warriors receive the care and support they need to reintegrate effectively
    into the Army and society. We will never forget our moral obligation to the spouses and
    Families who have lost their Soldiers since September 11, 2001.

    We must prepare our forces to succeed in the current conflict. We have made great
1   strides in equipping our Soldiers, and we are continually adapting our training and
    warfighting systems to keep pace with an evolving enemy. We remain committed to
    providing all deploying Soldiers the best available equipment to ensure that they maintain
    a technological advantage over any enemy they face. We will continue to provide rigorous
    training at home stations and in our combat training centers to give Soldiers and their
    leaders the confidence they need to succeed in asymmetrical warfare. Military success
    in this war is tied to the capabilities of our leaders and our Soldiers — we will not fail to
    prepare them properly.




                                                                 Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




We continue to reset our units and prepare them for future deployments and future contingencies. Sustained combat
has taken a toll on our Soldiers, leaders, Families and equipment. Since 2003, Army equipment has been used at a rate
more than five times greater than expected. In addition to fixing, replacing and upgrading our equipment, and retraining
for future missions, we must also revitalize our Soldiers and Families by providing them the time and the opportunity to
recover and reverse the effects of sustained high operating tempo. This year, the Army will reset more than 130,000 pieces
of equipment and almost 200,000 Soldiers. Congress’ continued commitment to providing resources for reset is essential
to restoring balance and to providing strategic depth and flexibility for the nation.

Finally, the demands of the 21st century require the Army to transform. This is a holistic effort to adapt how we fight,
train, modernize, develop leaders, and station and support our Soldiers, Families and civilians. Transformation includes
giving Soldiers equipment that provides a decisive advantage over any enemy, and developing agile and adaptive leaders who
can handle the full spectrum of operations. It also entails modernizing business processes, through Lean Six Sigma, and our
business systems.

Our focus over the next several years will be to bring our Army back into balance while continuing to provide the forces
necessary for victory. Restoring this essential balance, and doing so as rapidly as possible, will be no easy task, and it will
require the full support of the Congress and the American people.


              “Our challenges in fighting a war and transforming our
              Army at the same time are formidable - but not unique.
              Other generations of Americans - Soldiers and civilians -
              have faced determined enemies while driving revolutionary
              change in the Armed Forces - in fact, it is often the
              crucible of war that demands and forces the change.”

                                                                                      – The Honorable Pete Geren, Secretary of the Army



Mission
                                                                                                                                          2
The Army’s mission is to support the National Military Strategy by providing well-trained, well-led and well-equipped
forces to the combatant commanders. This mission encompasses the intent of the U.S. Congress, as defined in Title 10 of
the U.S. Code, for the military to:

         Preserve the peace and security of, and provide the defense for, the United States, the Territories, Commonwealths
         and Possessions of the United States, and any areas occupied by the United States;

         Support the national policies;

         Implement national objectives; and

         Overcome any nations responsible for aggressive acts that imperil the peace and security of the United States.
    This mission has remained constant throughout the 232-year life of the Army; however, the environment and nature of conflict
    have changed dramatically over that same time, especially in the context of today’s GWOT. New adversaries and the growth
    in asymmetric warfare have compelled the Army to transform how it trains and equips its Soldiers, how those Soldiers are
    organized and how they fight. This near-revolution is progressing rapidly, and it must not slow or falter if the Army is to
    continue to meet the nation’s domestic and international security obligations today and into the future.

    Vision
    The Army is committed to remaining the world’s preeminent land power -- relevant and ready at all times to serve the
    nation and to support our allies. The Army will continue to supply U.S. combatant commanders with the forces necessary to
    defeat any adversary, in any situation, at any time. The Army, therefore, must fully train and appropriately organize its forces;
    develop innovative and adaptive leaders; and design support structures appropriate for the new global security environment.

    Figure 1. Army Vision Chart



                                       ARMY VISION
                                       The Army Vision is to remain the preeminent landpower on Earth—the
                                       ultimate instrument of national resolve—that is both ready to meet and
                                       relevant to the challenges of the dangerous and complex 21st century
                                       security environment.


                     LED BY CAPABLE LEADERS
                     Innovative, adaptive and confident in leading Soldiers and civilians. Leading change, building teams,
                     confronting uncertainty, and solving
                     complex problems.
                                                                       LEADERS
                                                                       DIERS
                                                                   SOL
                                                                   Living the
                      ORGANIZED                                  Warrior Ethos -                             SUPPORTED BY
                      INTO MODULAR                            on duty protecting the                                   THE
                      FORCES                                                                                   INSTITUTION
                      Rapidly deployable,
                                                              Nation and the society                           Providing relevant
                                           MODULA




                                                                   they serve.
                                                                                                     UTION




                      full-spectrum,                                                                              and ready land
                      networked,                                                                                       forces and
                      adaptive, and more                                                                       capabilities to the
                      powerful. Enabling                                                                               Combatant
                      joint and                                                                              Commanders while
                                                                                                  TIT




                      expeditionary                                                                                 transforming.
                                               R




                      operations with                         O                                               Leading change to
                                                                                                  S




                      interagency and                             UR             E                        create the future Army.
                                                 FO




                                                                                               IN




                      multinational partners.        RC                CENTERPIEC   E
                                                                                                           Providing the people,
                      Executing protracted
                      campaigns to protect
                                                          ES                      TH
                                                                                                       resources, quality of life,
                                                                                                     and infrastructure critical to
                      freedom and deter                                                         the success of America’s Army.
                      adversaries; if required, defeat
3                     our enemies, secure peace, and
                      provide stability and reconstruction.




    Organization of the Army
    The Army is a large and complex organization, with more than 522,000 active duty Soldiers and approximately 264,000
    active and reserve component Soldiers deployed or forward-stationed in nearly 80 countries overseas. These warfighters are
    supported by more than a quarter-million civilians, who are critical members of the institution at every level.



                                                                                                               Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




The Army is organized with the primary objective of supporting and sustaining the mobilization, training and deployment of
its Soldiers anywhere in the world. The Headquarters, Department of the Army (HQDA) (Figure 2), under the direction of
the Secretary of the Army and the Chief of Staff, leads and manages the entire Army.

Figure 2. Headquarters, Department of the Army (HQDA)

                                                                                                                                   Chief of Legislative
                                                                                                                                         Liaison

                                                                                                                                                          Chief of Public
                                                                                                                                                              Affairs
                                                                                                            The Inspector   Army Auditor
                                                                                                              General         General
                                                                                                                                                                Small &
                                                                                                                                                             Disadvantaged
                                                                                                                Admin.                                     Business Utilization
                                                                                                               Assistant


                                                                                                                                      SECARMY                      Executive
     ASA                 ASA
                                                    ASA Acquis            ASA                                                           USA                        Office the
  Manpower &         Installs and        ASA        Log. & Tech     Financial Mgmt. &      Chief Info    General     Director                                      HQDA
                                      Civil Works     [Mil Dep       Comptroller [Mil      Officer G-6   Counsel
 Reserve Affairs       Environ                       Acquis]***        Dep Budget]                                 Army Staff               CSA                    (EOH)
                                                                                                                                           VCSA
                                                                                                                                                                   Chief of
                   ACS Installation      Chief of Engrs                G-8*                                            The Judge                                  Chaplains
      G-1*            Mgmt.*                                 G-4*     D,PA&E         G-3/5/7    G-2                    Advocate
                                               **
                                                                                                                        General
                                                                                                                                               Chief        The Surgeon
                                                                                                                                               NGB           General **
                                                                                                                             SMA
               Responsible to ASA for advice and assistance within functional area
          *    DRU commanders
         **    Army Acquisition Executive
                                                                                                                                Provost
                                                                                                                            Marshall General
                                                                                                                                                  Chief Army
        ***    Defined responsibilities to ASAs
                                                                                                                                                   Reserve

               Oversight
               Director Army Staff - synchronize, integrate                                                                                            As of September 30, 2007




The Army’s organizational structure consists of two interdependent pieces: (1) the warfighting, operational Army; and (2)
the institutional Army, which supports those operational forces by providing the training, facilities and equipment necessary
to prepare and to sustain Soldiers.

The operational Army provides the land power capabilities for the combatant commander. Within the operational Army, the
transition from a division-centric warfighting force to a brigade-centric force continues. At the heart of this change is the
modularization and standardization of Army brigade combat teams (BCTs), a process that is essential to the development of
a more rapidly deployable, flexible and powerful force.
                                                                                                                                                                                  4
Viewed by its constituent elements, the Army can be separated into the active and reserve components.

The active component consists of full-time Soldiers assigned to the operational and institutional organizations that perform
day-to-day Army missions. The Congress annually reviews and mandates the number of Soldiers that the Army may
maintain.

The reserve component consists of the Army National Guard (ARNG) and the U.S. Army Reserve (USAR). The ARNG has
two missions: federal and state. Its federal mission is to provide trained and ready forces for wartime, national emergencies
and other requirements, as necessary. Its state mission is to train for, and respond to, domestic emergencies and other
missions as required by state law. Unless federally mobilized, ARNG units are commanded by their state executive, usually
the governor.
    The USAR is the primary federal reserve force of the Army. The USAR provides specialized units and resources to support
    the deployment and sustainment of Army forces around the globe. In addition, the USAR is the main source of individual
    Soldiers to augment headquarters staff and to fill vacancies in the active component.

    Throughout FY 2007 and several prior fiscal years, the Army experienced unprecedented high levels of reserve component
    activation and deployment.

    Performance Goals, Objectives and Results
    Our country has been at war for six years since the September 11, 2001, attacks on New York City and the Pentagon. The
    Army has been a leader in this war and in the liberation of 50 million people from tyranny and oppression. It has also been
    fully engaged in the difficult process of consolidating success, building stability and providing assistance in the development
    of local security forces and governance capacity. Over time, these operations have expanded in scope and duration. They
    have also stretched and, as a result, stressed our all-volunteer force.

    Our immediate challenge is to balance the current demands on the all-volunteer force with the need to transform, to
    implement the Army Force Generation Model and to build readiness for the future. These are not easy tasks and they
    require the full support of the Congress and the American people. The Army’s force generation process is continual and
    enables us to return deployed forces to a ready state as quickly as possible; but, over the last six years, we have consumed
    ready units as fast as we have built them.

    The Army Strategy Map, which consists of four overarching interrelated strategies and is supported by 19 strategic
    initiatives (Figure 3), continued to serve as the Army’s strategic framework in FY 2007. The eighteenth and nineteenth
    initiatives, Enhancing Strategic Communication and Securing Financial Resources and Legislative Authorities to Meet Requirements,
    support all other initiatives and provide the means for executing the Army’s strategic plans.




5




                                                                                                       Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Figure 3. Army Strategy Map

                     Army Vision: Relevant and Ready Landpower in Service to the Nation


                     Army Mission: To Provide Necessary Forces and Capabilities to the Combatant Commanders in
                                       Support of the National Security and Defense Strategies

                       Provide Relevant and     Train and Equip             Sustain an             Provide the
                       Ready Landpower for    Soldiers to Serve as     All-Volunteer Force     Infrastructure and
             Ends




                                                                                                                       Ends
                         the 21st Century     Warriors and Grow       Composed of Highly     Support to Enable the
                       Security Environment    Adaptive Leaders       Competent Soldiers        Force to Fulfill its
                                                                      that are Provided an    Strategic Roles and
                                                                      Equally High Quality          Missions
                                                                              of Life




                         Support Current                                                       Adjust the Global
                                                 Reinforce Our        Recruit and Retain
                        Global Operations                                                     Footprint to Create
                                                 Centerpiece:                 the
                        with Relevant and                                                       “Flagships of
                                              Soldiers as Warriors    All-Volunteer Force
                        Ready Landpower                                                          Readiness”




                        Build Modular Force
                            with Joint &                               Care for Soldiers     Implement Business
                                                 Train Soldiers
                           Expeditionary                              and Army Families        Transformation
                            Capabilities
             Ways




                                                                                                                       Ways
                       Develop LandWarNet                                                         Develop the
                                               Enhance Combat           Improve Soldier           LandWarNet
                           Operational         Training Centers       and Family Housing
                           Capabilities                                                           Institutional
                                                                                                 Infrastructure




                          Execute Major         Grow Adaptive                                 Enhance Logistics
                           Acquisition             Leaders                                       Readiness
                            Programs




                         Restructure Army      Equip our Soldiers
                             Aviation




                                                            Transformation                                                       6

                          Secure Financial Resources and Legislative Authorities to Meet Requirements
             Means




                                                                                                                       Means




                                               Enhance Strategic Communication




When the Honorable Pete Geren, Secretary of the Army, and General George Casey, Chief of Staff of the Army, assumed
their duties, they identified four critical Army imperatives necessary to restore balance. These four imperatives will sustain
our Soldiers, Families and civilians; prepare Soldiers for success in current operations; reset to restore readiness and depth
for future operations; and transform the Army into the force the nation needs today and in the future.
    In FY 2007, the Army updated its detailed analysis to validate the cost of the force structure associated with accomplishing
    the missions set forth by Office of the Secretary of Defense (OSD). The analysis identified that, in order to fully support
    the OSD strategy as laid out in the Quadrennial Defense Review (QDR), the Army requires annual basic appropriations of
    $152 billion in FY 2008 dollars, once the Army reaches the force structure levels approved by OSD and after operational
    demand reverts to that of a peacetime status.

    The Army’s four overarching interrelated strategies, in conjunction with the QDR, as shown in Figure 4, provide a
    framework to achieve the objective of building and transforming the force into a campaign-quality expeditionary Army
    capable of supporting the needs of combatant commanders across the spectrum of conflict. The Army Strategy Map will
    continue to evolve.

    Presently, Army programs remain aligned with the current 19 initiatives and continue to guide the Army through the
    transformation of the force and the streamlining of its business processes. To support transformation, the Army is working
    to ensure that it has effective performance measures for all current strategic initiatives. To date, most of these initiatives
    have matured and represent actionable performance measures. The following section discusses FY 2007 Army strategies,
    goals and program performance results.

    Figure 4. Army Strategic Objective Alignment to OSD Quadrennial Defense Review (QDR)


           OSD QDR                                                                                   Army Strategies


           Fight the Long War                                             Provide Relevant and Ready Landpower for
                                                                          the 21st Century Secuirty Environment



           Reorient Capabilities and Forces
                                                                          Train and Equip Soldiers to Serve as Warriors
                                                                          and Grow Adaptive Leaders

           Reshape the Defense Enterprise

                                                                          Sustian an All-Volunteer Force Composed of
                                                                          Highly Competent Soldiers that are Provided
                                                                          and Equally High Quality of Life
           Develop at 21st Century Force


                                                                          Provide the Infrastructure and Support to
                                                                          Enable the Force to Fulfill its Strategic Roles
           Achieve a Unity of Effort                                      and Missions



7         The OSD Management Initiative Decision 901 (dated 20 December 2002) directs the components, including
          the Army, to ensure that their individual performance plans and balanced scorecards:
              Reflect the balanced scorecard quadrants associated with the risk management framework;
              Reflect the performance objectives established under the Department’s balanced scorecard for the QDR
              risk management framework; and
              Align with and support the outcomes and supporting performance metrics of its next higher organization.




                                                                                                  Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




The first shipment of Mine Resistant Ambush Protected vehicles arrived at Camp Liberty in western Baghdad and are
being fielded to units who operate in areas with the highest threat levels.




                                                                                                                    8
    Provide Relevant and
                           Army Strategy: Provide Relevant and Ready Land Power for
    Ready Landpower for
      the 21st Century
                           the 21st Century Security Environment
    Security Environment
                           The initiatives which support this first overarching strategy are interrelated and include:
                                     Support current global operations with relevant and ready land power;

                                    Build a modular force with joint and expeditionary capabilities;
      Support Current
     Global Operations
     with Relevant and
                                    Develop LandWarNet operational capabilities;
     Ready Landpower
                                    Execute major acquisition programs; and
    Build Modular Force
        with Joint &
                                    Restructure Army aviation.
       Expeditionary
        Capabilities       The Army is simultaneously fighting today’s battles and transforming the operational
                           force into smaller, self-sufficient tactical units (the modular force). As part of the process,
                           the Army is rebalancing critical skill sets to ensure that all units have the knowledge and
    Develop LandWarNet
        Operational        capabilities required to succeed on the battlefield. Through LandWarNet, tactical units
        Capabilities
                           will attain improved situational awareness by way of voice, video and data transmissions
                           that are pushed to the individual Soldier. In addition, these units will be equipped with
                           Future Combat Systems (FCS) technology to improve lethality and survivability. The Army
       Execute Major
        Acquisition
                           continues to modernize its air capabilities to reduce maintenance, to increase survivability
         Programs          and to improve readiness.
                           Support Current Global Operations with Relevant and Ready Land
                           Power
     Restructure Army
         Aviation          The pace of operations in the new security environment presents a number of significant
                           force management challenges to the Army. As a result of the Army’s global commitments,
                           264,000 Soldiers are deployed or forward-stationed in nearly 80 countries overseas. As of
                           October 2007, approximately 522,000 personnel are serving in the active component, and
                           approximately 71,400 reserve-component Soldiers are authorized for mobilization or on
                           current orders.

                           Repeated deployments affect recruiting and retention, and they have a very real impact
                           on our ability to care for our Soldiers and their Families. To meet today’s challenges, and
                           to better position troops for the future, the Army is pursuing numerous initiatives that
                           will reduce force management risk. By developing the Army Modular Force, we will
                           significantly increase the pool of rotating units. By employing the Army Force Generation
                           Model (ARFORGEN), we will reduce the stress on the force. The results will be greater
                           stability, unit cohesion and readiness, and less uncertainty for Families.

                           The ARFORGEN process leverages modular unit designs and operational cycles to create
                           a sustainable deployment posture of operationally ready units in predictable patterns
9                          while retaining the capacity to surge combat power for major operations. When fully
                           operational, ARFORGEN will enable the Army to schedule effectively and efficiently fully
                           ready units for deployment, which will:

                                (1) Reduce uncertainty for Soldiers, Families and the communities that support
                                    installations;

                                (2) Improve the availability of forces for combatant commanders;
                                (3) Generate a continuous number of available brigade combat teams (BCTs),



                                                                                        Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




         augmented by all required supporting organizations (given appropriate mobilization authority); and

     (4) Enable the Army to surge additional BCTs augmented by all required supporting organizations (given appropriate
         mobilization authority).


                                                                             Upon return from deployment, Army
                                                                             units and equipment must be reset
                                                                             and repaired to ensure full readiness
                                                                             for future operations. In FY 2007,
                                                                             reset was highly successful despite a
                 Soldiers load up their gear onto a UH-60 Black Hawk         dynamic strategic environment. At the
                 helicopter before they start their trip from Camp Taji      beginning of the fiscal year, the Army
                 back to the United States.                                  received $17.1 billion in supplemental
                                                                             funding from the Congress. The Army
                                                                             aggressively executed this funding to
                                                                             restore units’ equipment readiness.
                                                                             The Army obligated the majority
                                                                             of procurement funding within 90
                                                                             days of receipt, while Operation and
                                                                             Maintenance, Army (OMA) obligations
                                                                             occurred throughout the fiscal year
                                                                             as equipment returned. The surge of
                                                                             additional forces to Iraq and Afghanistan
                                                                             and the extension of unit deployments
                                                                             to 15 months reduced the amount of
                                                                             equipment returning from theater.
Consequently, in July 2007, $0.7 billion in OMA funding was reprogrammed to support the Department of Defense’s
No. 1 acquisition priority, Mine-Resistant Ambush-Protected (MRAP) vehicles.

A fully funded Army reset program ensures that equipment is operationally ready for use by combat forces in Iraq,
Afghanistan and other potential contingencies, and by forces that are training prior to deployment. Reset funding
should match reset requirements and be provided in a timely manner at the beginning of each fiscal year to promote cost
efficiencies and process effectiveness while ensuring the timely return of equipment to Soldiers to support training and
future deployments. Even when fully funded, reset merely maintains equipment readiness so that it does not degrade
further. It is not the final answer for improving overall Army equipment readiness, but it does effectively support the rapid
return of equipment to a ready state for warfighting units.
                                                                                                                                 10

Build a Modular Force with Joint and Expeditionary Capabilities
The GWOT and the requirement to maintain a forward presence have created both the necessity and the opportunity
to accelerate change from the current to the future force. The Army’s conversion to a modular force, which is carefully
balanced between the active components (AC) and the reserve component (RC), is well under way. Modularity will make
the Army a more lethal, flexible, deployable and sustainable force. It also will allow the Army to shift its center of gravity
from a strategy focused heavily on traditional challenges to one centered on the full spectrum of traditional, irregular,
disruptive and catastrophic challenges.

The Army Modular Force reorganizes the operational Army into modular theater armies, theater support structures,
corps and division headquarters, BCTs, and multi-functional and functional support brigades, all based on standardized
organizational designs across the Army’s three components. The intent of this transformation is to:
          (1) Increase the number of available BCTs to meet operational requirements;
          (2) Create brigade-size combat support and combat service support formations of common organizational designs; and
          (3) Redesign organizations to perform as integral parts of the joint force, making them more effective across the range of
               military operations and enhancing their ability to contribute to joint, interagency and multinational efforts.

     The Army is increasing its operational end strength in order to man the modular force. The Congress has authorized the
     Army to add a total of 74,200 spaces, growing the active component from 482,400 to 547,400, the ARNG from 350,000
     to 358,200, and the USAR from 205,000 to 206,000.

     As part of the modular conversion, the Army is rebalancing capability within and among its three components to provide a
     force capable of meeting current operational demands, and with the strategic depth to meet the security challenges of the
     future. The AC and RC rebalancing initiative is an incremental process and it continues to evolve. The major tenets of this
     initiative include:

          (1) Increasing capabilities to relieve stress on units with persistent shortfalls;
          (2) Elimination of demand for RC forces during the initial phase of an operational deployment; and
          (3) Rebalancing structure to maximize readiness and rotational availability while preserving homeland defense and
              homeland security capabilities.

     The Army also is re-designating military positions in the institutional force as civilian slots, where appropriate, freeing
     uniformed personnel for the operating force. Already, more than 7,200 Soldiers have been returned to the operational
     structure. In addition, the Army has been able to improve management of the individual Soldier assignment process and
     thereby ensure full manning of operational units and command posts.

     Of the 43 active component maneuver brigades programmed for the end FY 2007, the Army had finished converting 35
     to the modular design and was in the process of converting another four. The conversion process can take up to 12 months
     for an active component Heavy Brigade Combat Team and Infantry Brigade Combat Team, and as long as 24 months for a
     Stryker Brigade Combat Team.

     The ARNG began transforming in FY 2005 with an                    Table 1. BCT Transformation Summary
     accelerated plan allowing early reorganization, manning                                               FY 2005       FY 2006         FY 2007
     and training under the new BCT design. Transformation              AC Transformed                        18            31              35
     for an ARNG BCT can take as long as 48 months. At                  ARNG Transformed                       0             0               0
     the end of FY 2007, the ARNG was in the process of
                                                                        Total Transformed*                    18            31              35
     transforming 24 BCTs. The ARNG will fully convert
                                                                        AC Transforming                        8             4               4
     seven BCTs by the end of FY 2009 and will complete
                                                                        ARNG Transforming                      7            16              24
     another seven by the end of FY 2010.
                                                                        Total Transforming**                  15            20              28
11   The overall transformation plan is on track to achieve a           Total Transformation                  33            51              63
     combined total of 76 BCTs: 48 in the active component             *Transformed means the unit has completed its initial reorganization
                                                                       and re-equipping to a modular design within resource constraints, is
     and 28 in the ARNG. Initial transformation is for                 participating in the ARFORGEN process, and may be used against a
     training, manning and organizing only; equipment                  requirement.

     transformation will be completed in FY 2015. Table 1              ** Transforming means the unit is still undergoing initial reorganization and
                                                                       re-equipping to a modular design within resource constraints.
     provides a summary of BCT transformation.




                                                                                                               Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Develop LandWarNet Operational Capabilities
LandWarNet (Figure 5) is a capability-focused, orders-based system of systems that is derived from the Army’s Battle
Command and Global Information Grid. It is an integral part of the decision-support process, and enables information-
based joint, interagency, multinational, civil defense, warfighting and support operations, regardless of Joint Operational
Phase, operational urgency or the battle space circumstances of its authorized users. LandWarNet also provides warfighters
the capability to “train as they fight” and is necessary to creating a global collaborative environment. In FY 2007, the
Army fielded Warrior Information Network –Tactical Increment One to units deploying into operational theaters. The
Army Battle Command System underwent interoperability testing prior to unit deployment. The Army also upgraded and
deployed Fixed Regional Hub Nodes in the continental U.S. (CONUS), Southwest Asia and Europe, significantly enhancing
satellite communications in support of deploying and deployed forces. The Army is accelerating the transition to Everything
Over Internet Protocol. In FY 2007, the Army continued to work the integration of architectures for the Future Combat
Systems network with projected communication spin-outs scheduled for delivery in FY 2010.



              “…the purpose of Army modernization and technological
              innovation is to maintain dominance in land operations
              in support of the National Military Strategy in an era of
              persistent conflict. The goal has not changed in 232 years.
              LandWarNet is central to changing how the Army fights - it
              seeks to integrate every element of Army modernization
              and seamlessly connect the Leader to the Soldier on the
              battlefield. And connect the soldier to the information he
              or she needs wherever and whenever he or she needs it.”

                                                                                 – The Honorable Pete Geren, Secretary of the Army

                                                                                                                                     12
                                                       Figure 5. LandWarNet




     Execute Major Acquisition Programs
     The Future Combat Systems (FCS) Brigade Combat Team program, the core of Army transformation and the first new
     family of combat vehicles in more than 40 years, is moving from concept to reality. The FCS BCT is specifically designed
     to improve Soldiers’ situational awareness, protection and lethality. FCS is a system of systems, consisting of an advanced
     network and 14 individual platforms that will enable previously unknown levels of joint connectivity, situational awareness
     and understanding, and synchronized operations. The program is progressing on schedule, using a holistic acquisition
     approach, and is structured to field new capabilities as soon as they are ready; three distinct technology “spin outs” are
     planned for the current force.


                   “We’re ultimately working toward an agile, globally
13
                   responsive Army that’s enhanced by modern networks,
                   surveillance sensors, precision weapons and platforms
                   that are lighter, less logistics dependent and less
                   manpower intensive. It’s a truly 21st century force.”

                                                                                       — General George Casey, Chief of Staff of the Army




                                                                                                   Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Figure 6. FCS BCT
  Communicate/See/Understand/Act                                       FCS Brigade Combat Team Platforms




  Move                                                                          Spin-Outs




  Shoot




                                              Greatly Enables and Protects the Soldier
                                                                                                                    5 Nov 07



                                                                               Restructure Army Aviation
                                     U.S. Army Spc. Alexander S.               The Army continues to transform its
                                     Grusak, practices launching a             aviation structure to develop modular,
                                     Raven unmanned aerial vehicle             capabilities-based forces that are
                                     from a moving vehicle.                    optimized to operate in a joint and
                                                                               expeditionary environment. Over the
                                                                               next six years, the Army plans to procure
                                                                               more than 1,000 new rotary and fixed-
                                                                               wing aircraft, using funds made available       14
                                                                               through termination of the Comanche
                                                                               program. The Army also will modernize
                                                                               aircraft sensors, execute safety and
                                                                               reliability modifications, and add aircraft
                                                                               survivability equipment. This effort
                                                                               will reduce maintenance costs, increase
                                                                               survivability and improve readiness
                                                                               rates. Key components of the aviation
                                                                               modernization plan include accelerating
                                                                               modernization of RC aviation and
                                                                               unmanned aerial vehicle programs, as
well as pushing forward the development of a common cockpit for cargo and utility aircraft.
     Table 2. Restructuring Army Aviation
                                                                     FY 2006 Delivered   FY 2007 Goals   FY 2007 Delivered

     # of Aircraft Reset (Mix of Operation Enduring Freedom and
     Operation Iraqi Freedom Returning Fixed/Rotary Wing Aircraft)         547               526               526
     UH-60 Recapitalization                                                 25                20                27
     UH-60M Produced                                                        4                 15                14
     MH-47G Produced                                                        16                5                 4
     CH-47 Recapitalization                                                 2                 3                 3
     CH-47F Produced                                                        2                 25                25
     AH-64 Recapitalization                                                144                80                80
     AH-64D Produced (Wartime Replacements)                                  -                13                13
     UH-72A Produced                                                         -                8                 8
     Transformed Combat Aviation Brigades All Components                    11                7                 7




15




                                                                                              Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Sgt. Steve Smith (center), an observer-controller at the National Training Center at Fort Irwin, Calif., takes members of 1st
Platoon, 58th Combat Engineer Company, through a “hot wash” or after-action review after they go through a route-clearing
training course in preparation for deployment to Iraq.




                                                                                                                                16
       Train and Equip
                            Army Strategy – Train and Equip Soldiers to Serve as Warriors
     Soldiers to Serve as
     Warriors and Grow
                            and Grow Adaptive Leaders
      Adaptive Leaders
                            The initiatives in this overarching strategy include:
                                     Reinforce our centerpiece: Soldiers as warriors;
                                     Train Soldiers;
        Reinforce Our
        Centerpiece:
                                     Enhance the combat training centers;
     Soldiers as Warriors
                                     Grow adaptive leaders ; and
                                     Equip our Soldiers.
        Train Soldiers
                            5.2.1 Reinforce Our Centerpiece: Soldiers as Warriors
                            Soldiers are the centerpiece of the Army. No matter how much the tools of warfare
                            improve; fundamentally it is the Soldier who must accomplish the mission. The Soldier
      Enhance Combat        always will remain the ultimate combination of sensor and shooter.
      Training Centers


                            Mental and physical toughness underpin the beliefs embraced in the Soldier’s Creed and
                            must be developed within all Soldiers — without regard to their specialty, their unit
       Grow Adaptive        or their location on the battlefield. In FY 2007, the Army continued to implement the
          Leaders
                            additional rigor and relevance directed by the Chief of Staff’s Warrior Ethos concept. The
                            warrior ethos forms the foundation for the American Soldier’s spirit and total commitment
                            to victory, in peace and war, always exemplifying ethical behavior and Army values.
     Equip our Soldiers


                                          I will always place the mission first.
                                          I will never accept defeat.
                                          I will never quit.
                                          I will never leave a fallen comrade.

                            The warrior ethos centers on character: shaping who you are and what you do. In
                            that sense, it clearly is linked to Army values. It requires unrelenting and consistent
                            determination to do what is right and to do it with pride, both in uniform and out.
                            Understanding what is right requires a Soldier to respect his or her comrades and other
                            people.

                            The Army’s continuing drive to be the best, to triumph over all adversity, and to remain
17                          focused on mission accomplishment does more than preserve the Army’s institutional
                            culture; it sustains our nation and each individual Soldier.


                            Train Soldiers
                            The program of instruction in basic combat training increases the Soldier’s warfighting
                            capability through individual tasks and battle drills. Every six months, the Army
                            modifies these tasks and drills to ensure that training is relevant to today’s environment.
                            Implementation of the Basic Officer Leader Course II began in FY 2007. This program
                            has been very successful in focusing newly commissioned officers on critical warrior tasks.



                                                                                        Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




It also brings together junior officers and warrant officers from various commissioning or appointment sources to share
their experiences, knowledge and skills. The program’s ultimate goal is to help improve the leadership skills of the least-
experienced newly commissioned officers. Finally, the Army has vastly augmented its ability to conduct irregular warfare
through several functional courses that build on language and cultural competencies and improve Soldiers’ and civilians’
knowledge of and capabilities in electronic warfare, red teaming (opposing forces), counterterrorism, weapons of mass
destruction, civil affairs, information operations, counter-explosive hazards and operational law.

   Table 3. Individual Training
                         Basic Combat       One Station Unit     Advanced Individual      Basic Officer     Officer Candidate   Warrant Officer
        Interim          Training (BCT)        Training               Training           Leader Course            School         Entry Course

     2007 Trained           65,098              22,644                  70,219              13,043               1,337              2,666
  NOTE: This represents active Army, ARNG and USAR students graduating from active component schools.




Train Soldiers – Train Units
In FY 2007, the Army provided trained and ready forces to commanders around the globe while also meeting critical
homeland defense missions. To make sure Soldiers were combat-ready in FY 2007, they engaged in an appropriate mix of
live, virtual and constructive training. The AC and RC fully executed their ground and air training plans (Table 4), which
included actual miles driven and hours flown as well as virtual miles associated with the use of simulators.

 Table 4. Ground and Air Operational Tempo (OPTEMPO) (Active)
                                                               FY 2004           FY 2005         FY 2006         FY 2007 Goal       FY 2007
                                                                                                                                     Actual
  Ground OPTEMPO (Mileage)                                      1,512             708                666              428            729 Mi.
  Air OPTEMPO (Flight Hours)                                    17.4              12.2               12.6             11.1          12.8 Hrs.

  NOTE: FY 2004 execution includes home-station and contingency-operation execution as reported by Army units using Standard Army Management
  Information Systems (prior to FY 2005 the system was unable to separate home-station from contingency-operation execution). FY 2005 through FY
  2007 reflects home-station execution only. FY 2007 amounts are estimates based on execution as of August 2007.




Train Soldiers – Training Support Systems
The Army’s Training Support Systems (TSS) enable the execution of training at home stations, the combat training centers,
and at Training and Doctrine Command schools by creating realistic conditions that reflect the contemporary operating
environment. These critical training enablers include ranges and targets, live-virtual-constructive training aids, devices,
simulations and simulators, instrumentation systems, training facilities and training support operations.
                                                                                                                                                   18
TSS is adapting to support the ARFORGEN training requirements and lessons learned from current operations. Home-
station training must provide the capability to train Soldiers, leaders and units across the full spectrum of conflict under
realistic conditions. Ranges are being modernized to integrate digital systems that allow crews and platoons to train as
they fight. New ranges are being built to support Stryker gunnery requirements, and Combined Arms Collective Training
Facilities are being constructed and fielded to provide units a complex urban-area training capability. This live training
environment will be further enhanced with a Home Station Instrumentation Training System that links ranges, urban
complexes and training areas.

New and improved live-virtual-constructive training aids, devices, simulations and simulators are being fielded to augment
training against improvised explosive devices (IEDs). Virtual simulators, IED simulators, gaming simulations and convoy
live-fire exercises provide a complete package to train battle drills, tactical techniques and procedures, and to increase IED
situational awareness.
              The Army also is modernizing the Battle Command Training Centers (BCTCs) and training simulations to increase
              leader and battle-staff training and to improve the mission rehearsal capabilities for deploying units. The BCTCs provide
              units the ability to train and to sustain critical individual/operator and battle-staff skills on digital command, control,
              communications, computer, intelligence, surveillance and reconnaissance systems. The BCTCs also will network with other
              installations and simulations to support joint training exercises.

              Army training modernization must continue to keep pace with equipment modernization and Army transformation in
              order to meet expeditionary readiness requirements.


                                                                                                 Enhance Combat Training Centers
                                                                                                 In FY 2007, the Army conducted 24 active
                                                                                                 component BCT rotations. The Combat
                                                                                                 Training Centers (CTCs) provide realistic
                                                                                                 joint and combined-arms training that
                                                                                                 approximates actual combat according to
                                                                                                 Army and joint doctrine. The CTCs are at
                                                                                                 the core of the Army’s collective training
                                                                                                 strategy and have dedicated resources beyond
                                                                                                 those available at home-station training sites.
                                                                                                 Training is specifically tailored to prepare
                                                                                                 units for the conditions in the combat zones
                                                                                                 to which they will deploy. While the CTCs
                                                                                                 have retained the capability for high-intensity
                                                                                                 unit training needed for other potential
                                                                                                 theaters of war and the new modular brigades,
     Recruits go on patrol during basic training at Fort Jackson, S.C.                           the current focus is counter-insurgency
                                                                                                 operations and lessons from combat in Iraq
                                                                                                 and Afghanistan. The training environment
                                                                                                 emphasizes rapid change and adaptation to
              current activities, and uses improved facilities, civilians on the battlefield and realistic scenarios. The complex, event-driven
              scenarios challenge the BCT to execute multiple, simultaneous missions that include integrated enablers from the Army and
              the joint community.


              Grow Adaptive Leaders
              The contemporary operational environment (COE) has proven that leaders must possess skills beyond those of pure tactical
              war fighting. The COE demands leaders who have developed non-lethal skills in such disciplines as irregular warfare,
              information operations, negotiation, cultural awareness, stability and reconstruction operations and basic foreign language
              abilities. The Army will:
19
                   (1) Incorporate cultural awareness training and education into all levels of Professional Military Education (PME);

                   (2) Develop expertise in irregular warfare operations for Soldiers and leaders from the tactical to strategic level; and

                   (3) Encourage language and cultural training and education throughout the Army – in schools, through self-development,
                        online and in training at CTCs.

              Due to the current high operational demand, many of our leaders have missed the opportunity to attend their PME at the
              optimal time in their career; thus, the Army has a large backlog at certain levels. As mission requirements change, the Army
              expects the demand for training to increase, with more leaders attending PME courses.



                                                                                                              Commitment to Current and Future Readiness
    General Fund and Working Captial Fund
    Fiscal Year 2007 United States Army Annual Financial Statement




      Table 5. Professional Development (AC Schools Only)
                              Warrior Leader        Basic NCO          Advanced NCO        Sergeants Major      Intermediate         Senior Service
                                 Course              Course               Course               Course          Level Education          College

      2007 Trained               25,119                9,609               8,695                1,331                531                 1,282
      NOTE: This represents active Army, USAR and ARNG students graduating from active component schools. The Sergeants Major Course number
      includes 596 graduates from the FY 2006 resident class as the FY 2007 resident Sergeants Major Course does not graduate until May 2008. The
      Senior Service College number includes 834 for resident and non-resident for FY 2007 and 448 non-residents for FY 2008.



                   “Military success in this war is tied to the capabilities of
                   our leaders and soldiers, and we will not fail to prepare
                   them for success.”

                                                                                                     — General George Casey, Chief of Staff of the Army


                                                                                                     The Civilian Education System (CES) will
                                                                                                     meet the Secretary of the Army’s mandate
                                                                                                     that leaders of tomorrow be “adaptable
                                                                                                     and multi-skilled”. This requires a new
                                                                                                     paradigm and a centralized development
                                                                                                     program for training and educating our
                                                                                                     future leaders, “who will serve in both
                                                                                                     operational and institutional capacities
                                                                                                     in order to operate, and win, in this new
                                                                                                     environment.”

                                                                                The Army is keenly aware of the valuable
                                                                                contributions of its Civilian Corps in
                                                                                supporting the National Military Strategy.
                                                                                Civilian leader development must
                                                                                “ensure that the Army provides training,
                                                                                education, and operational experiences to
Cadets participate in a rope climb challenge.
                                                                                develop leader competencies and enhance
                                                                                capabilities of Army civilians in support                                 20
                                                                                of Soldiers, the Army, and the nation.” To
   accomplish this, the Civilian Leader Development Program has been revamped into a training and education system – the
   CES – that is similar to the military leader development system.

    The CES uses leadership competencies derived from those set by the Office of Personnel Management (OPM) and those
    identified by the Center for Army Leadership (CAL). These courses provide leader development training and education
    that support civilian leaders’ career path requirements and professional development, and promote lifelong learning and
    self-development.

    FY 2007 was a transition year for Army Civilian Leader Development, with implementation of the new training and
    education system in January 2007. Components from existing leader development courses were integrated with skill
     sets that addressed the OPM and CAL leadership competencies. These changes will produce adaptive, multi-skilled and
     innovative leaders who are proficient in all disciplines -- not just those disciplines in which they specialize.


     Equip Our Soldiers
     Our Soldiers rely on and deserve the very best force protection and mission-essential equipment we can provide; and
     they play a large role in setting Army requirements. In 2002, Soldiers alerted the institutional Army to the pressing need
     for different systems and materiel more suited to the GWOT areas of operation and their conditions, such as desert
     and mountain terrain and climates, urban street fighting and sniper fire. Soldiers can also take credit for identifying
     requirements for new forms of protection, lighter-weight gear, and improved methods to carry water and ammunition.

     The Rapid Fielding Initiative (RFI) was initiated to enhance warfighting capabilities by using commercial-off-the-shelf
     technology, rather than waiting for acquisition programs, to address Soldier requirements and shortfalls. To date, nearly
     one million Soldiers -- including approximately 225,000 in 2007 -- have benefited from the warfighting enhancements
     provided by RFI equipment. The Army is seeking to leverage this legacy of success by institutionalizing the RFI program.
     In November 2006, the Army Requirements and Resourcing Board directed that expeditionary units in the Army Force
     Generation (ARFORGEN) ready pool be the focus of future RFI efforts. In addition, the Army intends to shift resources to
     allow the transition from supplemental to programmed funds, which will ensure adequate and timely funding for continued
     procurement of RFI equipment in future fiscal years.




21




                                                                                                 Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Sgt. Leigh Ann Hester, vehicle commander, 617th Military Police Company, Richmond, Ky., stands at attention before
receiving the Silver Star.




                                                                                                                     22
           Sustain an
                            Army Strategy – Sustain an All-Volunteer Force Composed of
      All-Volunteer Force
     Composed of Highly
                            Highly Competent Soldiers Who Are Provided an Equally High
     Competent Soldiers
     that are Provided an
                            Quality of Life
     Equally High Quality
             of Life
                            The initiatives in this overarching strategy include:
                                     Recruit and retain the all-volunteer force;
     Recruit and Retain
             the
                                     Care for Soldiers and Army Families; and
     All-Volunteer Force
                                     Improve Soldier and Family housing.

      Care for Soldiers     Recruit and Retain the All-Volunteer Force
     and Army Families
                            While the recruiting environment is challenging, the Army remains committed to bringing
                            only the very best into our ranks. Our goal was for holders of high school diplomas
                            (HSDGs) to comprise no less than 90 percent of recruits. Typically, high school graduates
       Improve Soldier      are at lower risk for attrition and, therefore, are the most desirable group from which to
     and Family Housing
                            draw. Although we achieved only 79 percent HSDGs in FY 2007, first-term attrition is
                            declining and training base attrition is at an historic low -- both positive signs that we are
                            recruiting, training and retaining a highly qualified force (Table 6).

                             Table 6. Quality – Percent High School Diploma Graduates (HSDG)
                                                            FY 2004          FY 2005           FY 2006      FY 2007
                               HSDG Goal                         90             90               90            90
                               HSDG Actual                       92             87               81            79



                            The Army has continued to reshape aggressively recruiting resources for all components.
                            Though FY 2007 was a challenging recruiting environment, the Army was able to meet
                            its accession mission of 80,000 Soldiers. Several initiatives were implemented, such
                            as the two-year enlistment option and an increased fourth-quarter quick-ship bonus,
                            which helped the Army make its year-to-date mission. FY 2008 is also expected to be
                            a challenging recruiting year and more incentives, such as Active First and the Army
                            Advantage Fund, will be implemented to continue to attract high-quality recruits.

                             Table 7. Recruiting
                                                        FY 2004       FY 2005        FY 2006      FY 2007     FY 2007
                                                         Actual        Actual         Actual       Goal        Actual
                              Active Army               77,587        73,373         80,635        80,000      80,407
                              Army Reserve              21,292        19,400         25,378        26,500      27,004
                              Army National Guard       49,210        50,219         69,042        65,115      66,652
23


                            Due to the GWOT, several special skills are in high demand. To fill them, it has been
                            necessary to augment recruiting and retention incentives. For example, in FY 2007,
                            the Army instituted a Critical Skills Retention and Accession Bonus (CSRB) to attract
                            and to retain warrant officers in specific skills areas, including Special Forces, Criminal
                            Investigations, Military Intelligence and Field Artillery. Further, medical-related CSRBs
                            have been offered to physician’s assistants and maxillofacial/oral surgeons.




                                                                                          Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




  Table 8. Active Component End-Strength Within 2%
                                                         FY 2004                   FY 2005                FY 2006      FY 2007
   Goal                                                   482,400                  502,400                502,400      518,400
   Congressional Baseline                                   N/A                    512,400                512,400      518,400
   Actual                                                 499,543                  492,728                505,402      522,017
   % Delta                                                 +3.6%                    -2.0%                  +0.6%        +0.7%
   Performance Measure: The number of Soldiers on active duty at the end of the year.

  Table 9. Reserve (USAR and ARNG) End-Strength Within 2%
                                                         FY 2004                   FY 2005                FY 2006      FY 2007
   Goal                                                  555,000                   555,000                555,000      555,000
   Actual                                                547,049                   522,182                536,263      542,589
   % Delta                                                 -1.4%                    -5.9%                  -3.4%        -2.3%
   Performance Measure: The number of Soldiers in the USAR and ARNG at the end of the year.



The Army has boosted reenlistment bonuses to a maximum of $40,000 for those in high-demand specialties. These
programs have helped the Army to exceed its retention goal for FY 2007. Bonus structures that offer a commitment to
Soldiers’ Families and provide an excellent quality of life are being considered.

   Table 10. Active and Reserve Component Retention
                                                      FY 2004            FY 2005            FY 2006          FY 2007   FY 2007
                                                       Actual             Actual             Actual           Goal      Actual
    Active Army                                        60,010             69,512             67,307           62,200   69,777
    Army Reserve                                       16,330             16,485             18,223           16,571   19,761
    Army National Guard                                47,012             33,804             41,083           37,578   37,718
    Performance Measure: Measures the number of Soldiers reenlisted during a given FY against the published goals.



Recruiting Soldiers who are confident, adaptive, competent and able to handle the full complexity of 21st century warfare
in this combined, joint, expeditionary environment is a highly competitive endeavor. The Army will continue to develop
and to implement programs to address this challenge.


Care for Soldiers and Army Families                                                                                              24
To retain Soldiers and meet the needs of their Families, the Army must care for them through exceptional well-being
programs. The Army is committed to attaining a quality of life for our people that matches the quality of their service. To
better fulfill this promise during war, we have initiated programs to improve spouse employment, to ease the transition of
high school students during moves and to extend in-state college tuition rates to military Families. We continue to improve
health care, child care, youth programs, schools and facilities. The Army also is concerned about our Soldiers’ financial
health and has continued a multiyear initiative to eliminate Soldiers’ out-of-pocket housing expenses.
             To improve unit cohesion and readiness while reducing unit turbulence and uncertainty for Families, the Army is changing
             how we man our units. Under Force Stabilization, the Army plans to keep Soldiers in each assignment longer and will
             synchronize their assignments to BCT rotational schedules. Stabilization will create more deployable, combat-capable
             units while improving predictability and quality of life for Soldiers and their Families. They, in turn, will be able to build
             deeper roots in their communities and will have better opportunities for spouse employment, continuity of health care and
             schooling, and access to stronger support networks that enhance well-being.


                                                                                            Improve Soldier and Family
                                                                                            Housing
                                                                                            Housing programs are essential to
                                                                                            demonstrating our concern for Soldiers
                                                                                            and their Families. In concert with the
                                                                                            private sector, the Army continues to focus
                                                                                            considerable effort on the Residential
                                                                                            Communities Initiative and the Barracks
                                                                                            Modernization Program. Congressional
                                                                                            support for these initiatives has had a dramatic
                                                                                            effect on improving the quality of life for our
                                                                                            Soldiers and their Families.

                                                                                            Our housing programs are on track to eliminate
                                                                                            inadequate dependent housing worldwide by
                                                                                            FY 2009, through privatization, construction
     A Soldier hugs his Family at Giessen Army Depot, Germany,                              and divestiture of units. In FY 2007, we
     following his 14-month tour in Iraq.
                                                                                            privatized 4,250 homes, bringing the total to
                                                                                            75,700, and renovated or replaced an additional
                                                                                            1,584 homes using conventionally appropriated
                                                                                            funds.

             The Army’s permanent-party, single-Soldier barracks spaces requirement is 134,500. In FY 2007, the Army built or
             modernized 11,800 barracks spaces for about $1.2 billion, bringing the total spaces built or modernized to 72 percent of
             the Army’s requirement.

             The Army has a training requirement of 87,800 Soldiers but only 74,467 available barracks spaces. Installation Status
             Report ratings for almost all training barracks showed facility condition deficiencies that impair the capability or present
             significant obstacles to the tenant organizations’ accomplishment of required missions. In FY 2008, the Army will build
             or modernize 8,408 spaces for $757 million which supports the barracks upgrade program, grow the Army, and Base
             Realignment and Closure.

25           The First Sergeant Barracks Initiative (FSBI) is being implemented across the Army and will provide centralized barracks
             management, similar to Family Housing management, for single Soldiers. FSBI will encompass all aspects of asset
             management, to include Housing Operations Management System software modules designed specifically for barracks
             management.

             The Army also is executing limited Unaccompanied Personnel Housing privatization projects for staff sergeants and above
             at Forts Irwin, Drum, Bragg, Bliss and Stewart. Together, these facilities will provide 1,340 spaces in areas that have limited
             available rental properties for these grades.




                                                                                                            Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Soldiers from 1-12 CAB help load a shipping container with supplies as they prepare for their redeployment.




                                                                                                              26
           Provide the
                               Army Strategy: Provide the Infrastructure and Support to
       Infrastructure and
     Support to Enable the
                               Enable the Force to Fulfill Its Strategic Roles and Missions
        Force to Fulfill its
      Strategic Roles and
            Missions
                               The initiatives in this overarching strategy include:
                                        Adjust the global footprint to create “Flagships of Readiness”;

                                        Implement business transformation initiatives;
       Adjust the Global
      Footprint to Create
        “Flagships of                   Develop LandWarNet institutional infrastructure; and
         Readiness”

                                        Enhance logistics readiness.
     Implement Business
       Transformation          Adjust Global Footprint to Create “Flagships of Readiness”
                               For FY 2007, five deployment infrastructure projects were executed to support the
                               “Flagships of Readiness” concept. These projects improved the outloading, processing and
          Develop the          shipping of vehicles, ammunition and other cargo.
          LandWarNet
          Institutional
         Infrastructure
                               Ammunition outloading improvements included a block and brace facility at Blue Grass
                               Army Depot, an ammunition supply point upgrade at Fort Richardson and a fabrication
      Enhance Logistics
                               facility at McAlester Army Ammunition Plant. The block and brace facility will fabricate
         Readiness             boxes, crates and bracing material to secure ammunition in military vans for safe shipment.
                               The contract has been let for this facility and construction will begin in FY 2008, with
                               a projected completion date of July 2008. Some site work has already been finished
                               in preparation for construction. The ammunition supply point at Fort Richardson will
                               provide a covered structure for uploading and staging tactical vehicles for ammunition
                               transfer, weighing, processing and documentation checks. This contract was awarded in
                               June 2007 and is scheduled for completion in December 2008. The fabrication facility at
                               McAlester Army Ammunition Plant will be used for preparing dunnage for the blocking
                               and bracing of ammunition in container shipments. At this juncture, about 5 percent of the
                               construction has been finished; the estimated completion date is June 2008.

                               Also in FY 2007, the Army proceeded with phase II construction of the Arrival/Departure
                               Air Control Group (ADACG) complex at Fort Carson. Whereas phase I mainly consisted
                               of site preparation, during phase II, the arrival/departure operations facility, including
                               administrative, crew rest, conference, mess and troop holding areas, will be built. The
                               ADACG also will process pallets and vehicles for air deployment. The Fort Carson
                               ADACG design has been finished and the project has been awarded. Construction will
                               begin in FY 2008, with completion targeted for August 2008.

                               The Army also pursued center wharf expansion at Sunny Point Military Ocean Terminal
27                             (MOTSU). This project upgrades and expands the current center wharf at MOTSU for
                               the purpose of accommodating the simultaneous loading of two 900-foot container ships.
                               Currently, MOTSU can handle only one container ship at the south wharf, and large ships
                               must be turned around as only 700 feet of the south wharf can be used for container
                               loading. Project design has been finished and the contract awarded. Construction is
                               expected to start in January 2008, with an estimated completion date of January 2010.

                               Three other deployment infrastructure projects were added and authorized by the
                               Congress in FY 2007, though no funds were appropriated: the Vehicle Inspection/Cargo
                               Processing Facility for Fort Riley, the Port Staging Facility for Letterkenny Army Depot



                                                                                           Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




                                                                and the Deployment Staging Area for Fort Lee. These projects would have
                                                                  improved outloading and processing efficiency.

                                        Army Values
                                                                               Implement Business Transformation (BT) Initiatives
                                                                                The scope of business transformation efforts is immense, literally
                        re




                                                                  Ris
                       asu




                                                                                 touching or impacting everyone in and every facet of the Army.
                                                                     kM
                     Me




                                                                       an          The BT Strategic Framework, illustrated on this page, depicts
                  ce




                                         Continuous
                                                                          ag
                an




                                  Process Improvement (CPI)                 em
                rm




                                                                               en    the three focus areas: continuous process improvement (CPI),
             rfo




                                                                                  t
           Pe




                                                                                       organizational analysis and design (OA&D) and situational
                                        BT Alignment                                     awareness.

                           Organizational
                     Analysis and Design (OA&D)
                                                                The Army chose Lean Six Sigma (LSS) as its CPI
                                                  Situational Awareness

                                                                  methodology. Lean focuses on removing waste while
                                                                    Six Sigma is about reducing variation and producing
                                                                      a consistently reliable product, thereby increasing
                          Professional Development                      quality. The Army selected LSS because its
                            Change Management                             methodology is applicable to the vast majority
                  Business Transformation Governance                       of Army process improvement opportunities.
                                                                            LSS also provides a common business lexicon
that both increases the business acumen of the workforce and creates a common framework in which to discuss, report and
approach process improvement. This commonality is critical to leveraging and replicating work done by one individual or
an entire organization.

The Army is working aggressively to institutionalize LSS to ensure a culture of continuous improvement. In FY 2007, the
first Army LSS Master Black Belt course graduated the initial cadre, which will enable the Army to create a self-generating
LSS capability and thereby begin to decrease, and eventually remove, reliance on external support for LSS. The Army also
trained more than 500 Black Belts and 1,600 Green Belts, who are executing thousands of projects in vital areas that need
to be reformed, such as force generation, health care and operational capabilities.

OA&D is designed to identify and to fix typical organizational pathologies: ill-defined roles and accountability, excessive
overhead and permanent “temporary” task forces. OA&D looks at organizations from the customer’s viewpoint, with an
understanding that real organizational change and reform needs to be catalyzed by external evaluation. OA&D efforts
started right outside the Secretary of the Army’s and the Chief of Staff’s doors with the Office of the Administrative
Assistant and the Office of the Director of the Army Staff, then moved on to the Installation Management Command
                                                                                                                                                     28
(IMCOM).


Develop the LandWarNet Institutional Infrastructure
The objective of transformation for the institutional Army is to achieve joint, standardized data collection processes,
effective communication linkages and efficient information sharing among stakeholders. The Installation Information
Infrastructure Modernization Program is providing necessary infrastructure upgrades, with the goal of making Army
installations “docking stations” that allow Soldiers to train as they will fight with the same equipment and capabilities
in garrison as they use during operational deployments. In FY 2007, the Army improved information technology
infrastructure at 34 installations and refreshed six additional installations that previously had been upgraded. The Army
continued to implement its defense-in-depth strategy through networthiness certification and authorization. The Army also
implemented transformation plans for mission areas and domains as part of the Army IT portfolio management process.
     Army Knowledge On-Line, the Army enterprise portal and the “best of breed” portal in the DoD, began transitioning to
     become the foundation for Defense Knowledge On-Line.


     Enhance Logistics Readiness
     The dominant objective of the sustainment function is to ensure the readiness of the force, whether in peacetime or
     during persistent conflict. The Army remains focused on implementing the modular force logistics concept as part of
     transformation. The logistics community currently is focused on achieving three strategic goals:
              Maintain a 360-degree enterprise view of unit and equipment readiness;

              Complete logistics transformation; and

              Implement the logistics domain architecture.

     Figure 7. Army G-4 Vision




29
     The Army has changed the way it views readiness. High demand for Army forces, at home and abroad, compounded by
     longstanding deficits in equipment, modernization and infrastructure investment, place future readiness at risk. In order
     to maintain a 360-degree view of readiness, the Army has significantly improved accountability and availability of materiel.
     Through Operation Total Recall, we have gained visibility of 3.4 billion items worth $230 billion, ensuring that the right
     materiel is delivered to the right place at the right time.

     Accomplishing logistics IT transformation objectives is paramount to modernizing the force and supporting the warfighter.
     The Army also must ensure that logistics information systems seamlessly interoperate with associated systems in other
     functional areas, such as finance, personnel, medical, transportation and command/control. The Army has a three-



                                                                                                  Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




tiered strategy: 1) continue support to legacy systems still in the field; 2) replace as required these legacy systems with
modernized bridging systems; and 3) implement Enterprise Resource Planning solutions, such as the Single Army Logistics
Enterprise Logistics Modernization Program, Global Combat Support System – Army and Product Lifecycle Management
Plus.

Together, these initiatives will provide more effective support for our Soldiers on the front lines of the GWOT, put our
logistics management practices in line with world-class businesses and give us the tools we need to manage one of the most
valuable, complex logistics systems in the world.




Logistics transformation includes refining doctrine and organizational designs; implementing effective life cycle
management of weapons systems and equipment to increase integration of the development, acquisition,
production, fielding, sustainment and retirement of systems; and improving business processes and systems. In
FY 2007, Army logistics transformation accomplishments included:

    Implementing a Joint Concept of Support. The Army is building Joint-Capable Commands that can operate
    as the single logistics command and control headquarters in a joint theater of operations.

    Army Equipment Loss Lean Six Sigma Project. The Army initiated an LSS effort to improve the accuracy
    and timeliness of reporting validated battle losses to the Army. This project will standardize definitions
    and loss reporting processes, reduce reporting timeframes, improve accountability, and create a common
    operating picture of Army equipment losses.

    Munitions RESET LSS. The Army initiated an LSS effort for unserviceable munitions in Iraq, focusing on three
    areas: 1) fixing unserviceable munitions as far forward as possible; 2) returning munitions to CONUS in depot
    packs; and 3) demilitarizing unserviceable munitions as far forward as possible. The goal of the munitions
    RESET LSS initiative is to return unserviceable munitions back to the inventory quickly.

    Joint Precision Airdrop System. The Army deployed a new Joint Precision Airdrop System (JPADS) to
    reduce the number of cargo trucks on the road and thereby limit Soldiers’ exposure to enemy IEDs and fire.
    JPADS is a high-altitude-capable, guided, “smart” airdrop system that provides better controlled release from
    the aircraft, improving delivery precision and minimizing ground dispersion. This compact system includes a
    mission planner laptop with precision airdrop software applications, a meteorology data gathering kit and GPS
    capability.
                                                                                                                              30
    Low-Cost Low-Altitude (LCLA) Aerial Resupply. LCLA provides the warfighter an immediately responsive
    aerial resupply capability to distribute small, tailored support packages to units operating substantial distances
    from theater or forward operating bases in remote, austere, and hard-to-reach locations with very limited or no
    materiel handling equipment and no viable airstrips.

    Logistics Transformation. The Army has redesigned and activated three of four new Theater Sustainment
    Commands and five Expeditionary Sustainment Commands. As part of this transformation, Army Materiel
    Command activated the Army Sustainment Command and Army Field Support Brigades to serve as the links
    to the field for integration and synchronization of acquisition, logistics and technology support.
     Conclusion
     The Army is involved in a difficult but essential transformation. We are simultaneously and significantly increasing our
     permanent end strength, accelerating formation of new BCTs, converting the remaining legacy force to modular designs,
     modernizing equipment, including fielding improved weapons systems, and carrying out the most significant restationing
     in decades. To support these efforts, the Army’s financial managers are balancing resources among a myriad of competing
     but critical demands. Clearly, the challenges we face are significant. The degree of difficulty has increased as a result of the
     requirement for our financial managers to develop and execute simultaneously the largest budgets in the Army’s history
     while at war.

     Implementing the Chief of Staff’s four imperatives and bringing the Army back into balance will take several years,
     considerable resources and the sustained support of the Congress and the American people.

     First imperative – Sustain. The Army must improve the manner in which we sustain our Soldiers, Families and civilians.
     We must ensure that our Soldiers are physically tough and live the warrior ethos. We need to continue to care for their
     Families, who share the burden of their commitment and their service.

     Second imperative – Prepare. We need to prepare our forces for success in the current and future conflicts. The Army
     is continually adapting training and equipment to keep pace with an evolving enemy. We remain committed to providing
     our deploying Soldiers with the best available, so that they can maintain a technological advantage over any enemy they may
     face.

     Third imperative – Reset. The Army must continue to reset units in order to rebuild readiness and to prepare them
     for future deployments and contingencies. Since FY 2003, equipment has been used at unprecedented rates in harsh
     and demanding desert and mountain environments. In addition to fixing, replacing and upgrading our equipment, and
     retraining for future missions, we also must revitalize our Soldiers and Families by providing them the time and the
     opportunity to recover from the cumulative effects of sustained operations.

     Fourth imperative – Transform. We must continue to transform our Army to meet the demands of the 21st century.
     Transformation is a holistic effort to adapt how we fight, train, modernize, develop leaders, base our forces and support our
     Soldiers, Families and civilians. Transformation is a journey, not a destination.




31




                                                                                                    Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




                                                                 32
     Analysis of Financial Statements and Stewardship Information
     As discussed in the accompanying independent auditor’s report, longstanding financial management challenges prevent
     the Army’s producing auditable financial statements for the Army General Fund and the Army Working Capital Fund. The
     Army, however, continues to work with DoD to develop sustainable business practices and enhanced internal controls that
     will improve financial management processes and produce quality financial management information. These processes must
     be supported by compliant business systems and an effective set of management controls.


     General Fund Financial Results and Balance Sheet
     The Army General Fund balance sheet includes total assets that exceed $263 billion. Two asset categories, Fund Balance
     with Treasury and General Property, Plant and Equipment (GPP&E), comprise 83 percent of total assets, with values of
     $127.3 billion and $90.7 billion, respectively.

     Liabilities primarily consist of $45.7 billion in Environmental Liabilities and $10.8 billion in Accounts Payable.

     Figure 8. Composition of General Fund Assets and Liabilities



            General Fund Assets

                                                                                         General Property, Plant and Equipment
                          13%           4%                                               Fund Balance with Treasure (Entity)
                                                                                         Inventory
                                                                    48%                  Remaining Assets
                 35%




            General Fund Liabilities
                             2%
                                                                                         Other Liabilities
                           17%                                                           Environmental Liabilities
                                                                                         Accounts Payable
                                                                                         Remaining Liabilities
              15%                                                      66%




33



     Fund Balance with Treasury grew by $32.9 billion in FY 2007 due to an increase in Army appropriations received for
     GWOT requirements. GPP&E increased $6.7 billion due to military equipment increases for Abrams Modifications,
     Bradley Sustainment, High Mobility Multipurpose Wheeled Vehicles and general equipment increases associated with
     Operation Total Recall, which reestablished property accountability.




                                                                                                      Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




  Figure 9. Select General Fund Assets and Liabilities
  General Fund
  $ in billions
                                                                                                   Percentage of FY 2007
  Asset Type                                   FY 2007           FY 2006           Change                 Assets
  Fund Balance with Treasury (Entity)           $127.3             $94.4            $32.9                  48%
  General Property, Plant and Equipment            91.0             84.2               6.7                  35%
  Inventory                                        33.9             38.6              (4.7)                 13%
  Remaining Assets                                 11.0               9.3              1.7                   4%
  Total Assets                                   $63.2            $226.6             $36.6                 100%
                                                                                                   Percentage of FY 2007
  Liability Type                               FY 2007           FY 2006           Change                Liabilities
  Environmental Liabilities                      $45.7             $45.0             $0.7                   66%
  Accounts Payable                                 10.8             12.5              (1.6)                 15%
  Other Liabilities                                12.2             11.3               0.8                  17%
  Remaining Liabilities                             1.5               1.5              0.0                   2%
  Total Liabilities                              $70.2             $70.3             $(0.0)                100%

  Amounts may not sum due to rounding.


Army Working Capital Fund Financial Results
The primary mission of Army Working Capital Fund (AWCF) activities is to help the Army maintain constant readiness
by providing supplies, equipment and ordnance necessary to support the projection and sustainment of forces in the most
efficient and cost-effective manner possible. In carrying out this mission, AWCF activities are obligated to control and
to reduce costs. The AWCF measures financial performance through three primary means, cash, carry-over and net and
accumulated operating results, and operational performance through two primary means, stock availability and production
through-put.


 Table 11. AWCF Cash ($ in millions)                                  Cash Management
                      FY 2005       FY 2006        FY 2007
                                                                      The ability to generate cash is dependent on setting
                                                                      rates to recover full costs, including any previous-year
   Collections         $14,383.6     $14,512.8      $15,738.9
                                                                      losses, accurately projecting workload and meeting
   Disbursements        14,708.7      14,260.8       14,335.0
                                                                      established operational goals. Unlike the private sector,
   Net Outlays            $325.1       $(252.0)     $(1,403.8)
                                                                      the Army does not have lines of credit. Therefore, it       34
   Cash Balance           $623.3        $875.3       $2,279.1         must maintain sufficient cash on hand in the AWCF
                                                                      account at the U.S. Treasury to pay liabilities when
due. To minimize the cash balance required for operating and capital disbursements, the AWCF projects collections and
disbursements on a monthly basis to ensure sufficient funds are available.

The AWCF ended FY 2007 with a cash balance of $2.28 billion, $1.65 billion above the required seven-to-10-day level of
$634.0 million. The AWCF cash balance should return to a level closer to its corpus requirement when operations in Iraq
and Afghanistan begin to decline and payments associated with the delivery of replacement stocks and repair of equipment
are made at levels higher than inventory sales.
     Carryover                                                                   Table 12. AWCF Carryover ($ in millions)
     Work carried over from one fiscal year to the next,                                                          FY 2005           FY 2006          FY 2007
     provides continuity for the industrial workforce. In                            New Orders                  4,517.6            5,425.2           6,850.3
     FY 2007 we expect actual carryover to exceed
                                                                                     Carryover Ceiling           1,705.6            2,115.1                   *
     allowable carryover. This is due largely to the delay
                                                                                     Carryover                   1,394.1            2,141.3                   *
     in troops returning from operations in Iraq and
                                                                                     * Amounts not available at time of printing.
     Afghanistan, which postponed the arrival of many
     major end items of equipment; late receipt of
     supplemental funding driving late receipt of orders                         Table 13. Net Operating Results and Accumulated
                                                                                 Operating Results by Activity Group
     from Army and other services; and schedule slippages
                                                                                                                      FY 2005        FY 2006         FY 2007
     caused by non-availability of certain parts.
                                                                                     Industrial Operations             191.9         (209.3)            (117.7)
                                                                                     NOR

     Net and Accumulated Operating Results                        Industrial Operatons             647.1  437.8        324.7
                                                                  AOR*
     Net Operating Results (NOR) represent the difference
                                                                  Supply Management                (71.4)   5.5        508.4
     between costs and revenues in an accounting period.          NOR
     Accumulated Operating Results (AOR) represent the            Supply Management                (42.2) (36.7)       471.7
     aggregate of all recoverable net earnings, including         AOR
     prior-year adjustments, since inception of the activity.     * Includes prior year AOR adjustments.

     The goal of the AWCF is to break even over time.
     An activity group’s financial performance is measured by comparing actual results to the goal of breaking even over time.
     Future rates in the Industrial Operations and Supply Management activity groups will be set to return the positive AOR.


     Stock Availability
     Stock availability measures the percentage of requisitions for stocked items completely filled within established timeframes.
     The DoD and the Army have set a target of 85 percent stock availability. Stock availability has continued to improve from
     1st Quarter FY 2005 level of 76% to an estimated level 89% in 4th Quarter, FY 2007. The high level of OPTEMPO in
     support of Operations Iraqi Freedom and Enduring Freedom and the high level of reset requires the current level of stock
     availability

       Table 14. Stock Availability (percentage)
                                                        1st Quarter                  2nd Quarter                 3rd Quarter                   4th Quarter
        FY 2005                                              76%                          78%                        82%                          79%
        FY 2006                                              85%                          86%                        84%                          85%
        FY 2007                                              84%                          87%                        87%                          89%
        * Estimated because actuals were not available at the time of publication.


     Production
     Although the Industrial Operations activity group is comprised of an array of installation activities, the preponderance of
35   workload relates to depot maintenance. Major operations in Iraq and Afghanistan are placing tremendous demands on
     equipment. As a result of higher operating tempo, rough desert environments and limited depot maintenance available
     in theater, operational fleets are aging at a far greater pace than expected. To counter this, the Army established a reset
     program designed to reverse the effects of combat stress on equipment and to prepare equipment for future missions. Of
     the $17.1 billion appropriated by Congress for this purpose $2.9 billion in reset orders were received by the Industrial
     Operations activity group.

     A key component of the reset program is the recapitalization of equipment. Through recapitalization, depots replace
     and/or upgrade numerous component parts, which support the Army’s conversion to modular formations, a key element
     of transformation.


                                                                                                                           Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




The Army’s depots and their efforts to partner with industry are critical to the entire reset effort. The Army estimates it
will take close to two years after the return of forces from Iraq and Afghanistan to completely reconstitute equipment. Due
to actions taken in support of wartime requirements, the Industrial Operations activity group has dramatically increased
depot production over pre-war levels, as illustrated below:

 Table 15. Annual Production Through-put*
                                                            Pre-War                     FY 2006         FY 2007
   Depot Aircraft                                               4                         46               66
   Helicopter Engines                                         <200                       >700             >750
   Bradleys                                                    144                       600              >850
   HMMWVs                                                     <100                       7,398            9,344
   Machine Guns                                              14,000                     14,256           11,315
   Firefinders Radars                                           <1                        57               49
   Track Shoes                                               120,000                    400,000         141,000
   * Throughput is simply a count of the weapon systems completed for any given year.



In recent years, the Army has begun implementing Lean Six Sigma to reengineer many of its manufacturing and
administrative processes. The objective is to streamline operations across the enterprise, to reduce bureaucracy, and to
improve flexibility and agility. In FY 2007, the Army was proud to be recognized for our Lean Six Sigma improvements
through the award of 12 Shingo Prizes for Excellence in Manufacturing.


AWCF Balance Sheet
The AWCF balance sheet shows total assets exceeding $23.7 billion. The vast majority of AWCF assets are Inventory,
followed by $2.3 billion in Fund Balance with Treasury. Liabilities consist of $1.1 billion in Accounts Payable and
$459.5 million in Other Liabilities, which includes payroll, benefits, accrued annual leave and workman’s compensation
(the Federal Employees’ Compensation Act, or FECA, administered by the Department of Labor on behalf of the Army
and reimbursed by AWCF). The remaining liabilities, $263.5 million, represent the actuarial amount of workman’s
compensation (FECA) estimated to be paid in the future for death, disability, medical and miscellaneous costs for
approved compensation cases.




                                                                                                                              36
     Figure 10. AWCF Assets and Liabilities



               Army Working Capital Fund Assets
                                            3%
                                                                                   General Property, Plant and Equipment
                                       4%                                          Fund Balance with Treasure (Entity)
                             10%                                                   Inventory
                                                                   83%             Remaining Assets




               Army Working Capital Fund Liabilities

                                                                                   Other Liabilities
                                     13%                                           Military Retirement and Other Federal
                                                                                   Employment Benefits
                       25%                                                         Accounts Payable
                                                                    62%




     The majority of AWCF assets are the inventory items it holds to meet its mission of providing supplies, equipment and
     ordnance necessary to support the projection and sustainment of the force. In FY 2007, Inventory and Related Property
     increased by $1.8 billion as the AWCF accelerated the replenishment of inventory.

       Figure 11. Select AWCF Assets and Liabilities
       Army Working Capital Fund
       $ in billions
                                                                                                               Percentage of FY
       Asset Type                                                    FY 2007        FY 2006       Change         2007 Assets
       Inventory                                                         $19.7       $17.9         $1.8             83%
       Fund Balance with Treasury (Entity)                                  2.3        0.9            1.4            10%
       General Property, Plant and Equipment                                1.0        1.3           (0.3)            4%
       Remaining Assets                                                     0.7        0.7            0.0             3%
37     Total Assets                                                       $23.7      $20.8          $3.0             100%
                                                                                                               Percentage of FY
       Liability Type                                                FY 2007        FY 2006       Change        2007 Liabilities
       Accounts Payable                                                   $1.1        $0.7         $0.5             62%
       Other Liabilities                                                    0.5        0.5           (0.1)           25%
       Military Retirement and Other Federal Employment Benefits            0.2        0.3           (0.0)           13%
       Total Liabilities                                                   $1.8       $1.4            0.4            100%

       Amounts may not sum due to rounding.




                                                                                               Commitment to Current and Future Readiness
General Fund and Working Captial Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Possible Future Effects of Existing Events and Conditions
Early last year, we modeled the cost of the “doctrinal” Army, i.e., how much is needed to field and to sustain the force and
the institution capable of fulfilling the requirements of the National Military Strategy. According to figures the assessment
generated, actual funding is insufficient to deliver the Army called for by OSD’s strategic guidance.

In FY 2006, the cost of the doctrinal Army was approximately $138 billion per year, $24 billion more than the Army’s fiscal
guidance from OSD. Since that review, it has grown to $152 billion in FY 2008 dollars. This increase in part is the result of
the president’s decision to raise Army end strength by 74,000 active component, Army Reserve and Army National Guard
personnel. As of today, planned DoD budgets continue to fall short of this true Army requirement.

Reliance on supplemental funding continues to be a concern. History indicates that political pressure will lead to
a significant reduction in defense spending in the near future, which will include the elimination of supplemental
appropriations. However, many requirements that have been covered by supplemental funding will continue, even when
combat and sustainment operations have ceased. The Army cannot absorb these costs within current top-line projections.
More broadly, any cut to the base budget would hamper the Army’s efforts to restore balance, to modernize and to
transform.

As we look to the future, national security experts are virtually unanimous in predicting that the next several decades will
be ones of persistent conflict during which local and regional frictions, fueled by globalization and other emerging trends,
are exploited by extremists to support their efforts to destroy our way of life. Faced with this future of persistent conflict,
the nation needs an expeditionary Army with campaign qualities that is adequately sized and supported to be successful
across the full operational spectrum.

We are committed to building this Army and to restoring balance as rapidly as possible. We will sustain our Soldiers,
Families and civilians; prepare Soldiers for success in current operations; reset to restore readiness and depth for future
operations; and transform to become the Army the nation requires today and in the future.




                                                                                                                                  38
Limitations
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of
operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                                                                                 39




                                Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Department of Defense - Department of the Army


     CONSOLIDATED BALANCE SHEET
     As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                      2007 Consolidated           2006 Consolidated
     ASSETS (Note 2)
       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                                  $            127,318,317    $              94,430,198
          Non-Entity Seized Iraqi Cash                                                              22,663                       30,216
          Non-Entity-Other                                                                         640,752                      172,515
          Investments (Note 4)                                                                       3,448                        3,407
          Accounts Receivable (Note 5)                                                             420,417                      357,183
          Other Assets (Note 6)                                                                    514,835                      601,861
          Total Intragovernmental Assets                                          $            128,920,432    $              95,595,380

       Cash and Other Monetary Assets (Note 7)                                    $              2,183,051    $               1,784,810
       Accounts Receivable, Net (Note 5)                                                           576,533                      627,721
       Loans Receivable (Note 8)                                                                        67                            0
       Inventory and Related Property, Net (Note 9)                                             33,938,649                   38,639,039
       General Property, Plant and Equipment, Net (Note 10)                                     90,968,019                   84,243,850
       Investments (Note 4)                                                                              0                            0
       Other Assets (Note 6)                                                                     6,607,587                    5,694,685
     TOTAL ASSETS                                                                 $            263,194,338    $             226,585,485

     LIABILITIES (Note 11)
       Intragovernmental:
          Accounts Payable (Note 12)                                              $               1,729,903   $               1,593,783
          Debt (Note 13)                                                                             26,706                      11,404
          Other Liabilities (Note 15 & 16)                                                        3,085,453                   3,181,296
          Total Intragovernmental Liabilities                                     $               4,842,062   $               4,786,483

       Accounts Payable (Note 12)                                                 $               9,108,551   $              10,884,262
       Military Retirement and Other Federal                                                      1,483,177                   1,461,098
       Employment Benefits (Note 17)
       Environmental and Disposal Liabilities (Note 14)                                         45,698,351                   44,975,237
       Loan Guarantee Liability (Note 8)                                                               290                       12,853
       Other Liabilities (Note 15 and Note 16)                                                   9,092,542                    8,148,757
     TOTAL LIABILITIES                                                            $             70,224,973    $              70,268,690

     NET POSITION
       Unexpended Appropriations - Earmarked Funds (Note 23)                      $                      0    $                       0
       Unexpended Appropriations - Other Funds                                                 124,485,256                   85,045,798
       Cumulative Results of Operations - Earmarked Funds                                           24,621                       42,792
       Cumulative Results of Operations - Other Funds                                           68,459,488                   71,228,205
     TOTAL NET POSITION                                                           $            192,969,364    $             156,316,795
40   TOTAL LIABILITIES AND NET POSITION                                           $            263,194,338    $             226,585,485




     The accompanying notes are an integral part of these financial statements.
Department of Defense - Department of the Army


CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                   2007 Consolidated             2006 Consolidated
Program Costs
  Gross Costs                                                                  $              178,746,856    $              175,017,273
  (Less: Earned Revenue)                                                                       (9,823,195)                  (10,403,521)
  Net Program Costs                                                            $              168,923,661    $              164,613,752
Cost Not Assigned to Programs                                                                           0                             0
(Less: Earned Revenue Not Attributable to Programs)                                                     0                             0
Net Cost of Operations                                                         $              168,923,661    $              164,613,752




The accompanying notes are an integral part of these financial statements.




                                                                                                                                              41




                                                                             Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Department of Defense - Department of the Army

     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     As of September 30, 2007 and 2006 ($ in Thousands)
                                                                              2007
                                                                           Earmarked         2007 All Other           2007              2007
                                                                             Funds              Funds             Eliminations       Consolidated
     CUMULATIVE RESULTS OF OPERATIONS
     Beginning Balances                                                    $       42,792    $     71,228,205     $          0   $       71,270,997
     Prior Period Adjustments:
       Changes in accounting principles (+/-)                                           0          (3,780,694)               0           (3,780,694)
       Corrections of errors (+/-)                                                      0                   0                0                    0
     Beginning balances, as adjusted                                       $       42,792    $     67,447,512     $          0   $       67,490,304
     Budgetary Financing Sources:
       Other adjustments (rescissions, etc.)                                            0                   0                0                    0
       Appropriations used                                                              0         179,732,087                0          179,732,087
       Nonexchange revenue                                                            145                   0                0                  145
       Donations and forfeitures of cash and cash equivalents                       5,761                   0                0                5,761
       Transfers-in/out without reimbursement                                      (6,903)             38,700                0               31,797
       Other budgetary financing sources                                                0                   0                0                    0
     Other Financing Sources:
       Donations and forfeitures of property                                            0                   0                0                    0
       Transfers-in/out without reimbursement (+/-)                                     0           1,689,316                0            1,689,316
       Imputed financing from costs absorbed by others                                  0             954,983                0              954,983
       Other (+/-)                                                                    155         (12,496,778)               0          (12,496,623)
     Total Financing Sources                                               $         (842)   $    169,918,308     $          0   $      169,917,466
     Net Cost of Operations (+/-)                                                  17,330         168,906,331                0          168,923,661
     Net Change                                                            $      (18,172)   $      1,011,977     $          0   $          993,805
     Cumulative Results of Operations                                      $       24,620    $     68,459,488     $          0   $       68,484,109

     UNEXPENDED APPROPRIATIONS
     Beginning Balances                                                    $            0    $     85,045,798     $          0   $       85,045,798
     Prior Period Adjustments:
       Changes in accounting principles                                                 0           3,780,694                0            3,780,694
       Corrections of errors                                                            0                   0                0                    0
     Beginning balances, as adjusted                                       $            0    $     88,826,492     $          0   $       88,826,492
     Budgetary Financing Sources:
       Appropriations received                                                          0         214,837,314                0          214,837,314
       Appropriations transferred-in/out                                                0            1,600,147               0             1,600,147
       Other adjustments (rescissions, etc)                                             0           (1,046,611)              0            (1,046,611)
       Appropriations used                                                              0        (179,732,087)               0         (179,732,087)
     Total Budgetary Financing Sources                                     $            0    $     35,658,763     $          0   $       35,658,763
     Unexpended Apppropriations                                                         0         124,485,255                0          124,485,255
     Net Position                                                          $       24,620    $    192,944,973     $          0   $      192,969,364




42
     The accompanying notes are an integral part of these financial statements.
Department of Defense - Department of the Army

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                         2006
                                                                      Earmarked        2006 All Other           2006            2006
                                                                        Funds             Funds             Eliminations     Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                    $      35,140    $    115,207,484     $          0   $    115,242,624
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                          0                   0                0                  0
  Corrections of errors (+/-)                                                     0         (42,829,096)               0        (42,829,096)
Beginning balances, as adjusted                                       $      35,140    $     72,378,388     $          0   $     72,413,528
Budgetary Financing Sources:
  Other adjustments (rescissions, etc.)                                           0                   0                0                  0
  Appropriations used                                                            (1)        163,679,472                0        163,679,471
  Nonexchange revenue                                                         9,198                   0                0              9,198
  Donations and forfeitures of cash and cash equivalents                      4,754                   0                0              4,754
  Transfers-in/out without reimbursement                                          0             453,164                0            453,164
  Other budgetary financing sources                                               0                   0                0                  0
Other Financing Sources:
  Donations and forfeitures of property                                           0              27,458                0             27,458
  Transfers-in/out without reimbursement (+/-)                                    0             565,989                0            565,989
  Imputed financing from costs absorbed by others                                 0             964,108                0            964,108
  Other (+/-)                                                                   (10)         (2,232,911)               0         (2,232,921)
Total Financing Sources                                               $      13,941    $    163,457,280     $          0   $    163,471,221
Net Cost of Operations (+/-)                                                  6,291         164,607,461                0        164,613,752
Net Change                                                            $       7,650    $     (1,150,181)    $          0   $     (1,142,531)
Cumulative Results of Operations                                      $      42,790    $     71,228,207     $          0   $     71,270,997

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                    $           0    $     74,704,745     $          0   $      74,704,745
Prior Period Adjustments:
  Changes in accounting principles                                                0                   0                0                   0
  Corrections of errors                                                           0                   0                0                   0
Beginning balances, as adjusted                                       $           0    $     74,704,745     $          0   $      74,704,745
Budgetary Financing Sources:
  Appropriations received                                                         0         173,014,453                0        173,014,453
  Appropriations transferred-in/out                                               0            3,169,768               0           3,169,768
  Other adjustments (rescissions, etc)                                           (1)          (2,163,696)              0          (2,163,697)
  Appropriations used                                                             1        (163,679,472)               0       (163,679,471)
Total Budgetary Financing Sources                                     $           0    $     10,341,053     $          0   $     10,341,053
Unexpended Apppropriations                                                        0          85,045,798                0         85,045,798
Net Position                                                          $      42,790    $    156,274,005     $          0   $    156,316,795




                                                                                                                                                  43
The accompanying notes are an integral part of these financial statements.




                                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Department of Defense - Department of the Army

     COMBINED STATEMENT OF BUDGETARY RESOURCES
     As of September 30, 2007 and 2006 ($ in Thousands)                                                                         Non-Budgetary
                                                                                      Budgetary Financing Accounts            Financing Accounts
                                                                                                                              2007          2006
                                                                                  2007 Combined        2006 Combined        Combined     Combined
     BUDGETARY RESOURCES
     Unobligated balance, brought forward, October 1                              $     17,409,234     $     15,477,292     $     1,292    $     1,525
     Recoveries of prior year unpaid obligations                                        17,827,086           16,851,046               0              0
     Budget authority
       Appropriation                                                                   214,853,089          173,027,517               0              0
       Borrowing authority                                                                       0                    0          15,500         11,404
       Contract authority                                                                        0                    0               0              0
       Spending authority from offsetting collections
           Earned
              Collected                                                                 21,615,878           21,805,492             285            326
              Change in receivables from Federal sources                                    77,579              (20,488)              0              0
           Change in unfilled customer orders
              Advance received                                                             199,782              420,284               0              0
              Without advance from Federal sources                                       2,430,565              805,587               0              0
           Anticipated for rest of year, without advances                                        0                    0               0              0
           Previously unavailable                                                                0                    0               0              0
           Expenditure transfers from trust funds                                                0                    0               0              0
       Subtotal                                                                   $    239,176,893     $    196,038,392     $    15,785    $    11,730
     Nonexpenditure transfers, net, anticipated and actual                               1,638,847            3,169,768               0              0
     Temporarily not available pursuant to Public Law                                            0                    0               0              0
     Permanently not available                                                          (1,046,610)          (2,163,696)              0              0
     Total Budgetary Resources                                                    $    275,005,450     $    229,372,802     $    17,077    $    13,255

     Status of Budgetary Resources:
     Obligations incurred:
       Direct                                                                     $    217,025,713     $    186,913,360     $    16,487    $    11,962
       Reimbursable                                                                     25,721,549           25,435,449               0              0
       Subtotal                                                                   $    242,747,262     $    212,348,809     $    16,487    $    11,962
     Unobligated balance:
       Apportioned                                                                      28,970,760           14,880,099             187            535
       Exempt from apportionment                                                                 0                4,035               0              0
       Subtotal                                                                   $     28,970,760     $     14,884,134     $       187    $       535
     Unobligated balance not available                                                   3,287,428            2,139,859             403            758
     Total status of budgetary resources                                          $    275,005,450     $    229,372,802     $    17,077    $    13,255
     Change in Obligated Balance:
     Obligated balance, net
       Unpaid obligations, brought forward, October 1                             $     93,609,036     $     80,720,880     $         0    $         0
       Less: Uncollected customer payments from Federal sources, brought
       forward, October 1                                                               (17,136,557)         (16,351,456)             0              0
       Total unpaid obligated balance                                             $      76,472,479    $      64,369,424    $         0    $         0
       Obligations incurred net (+/-)                                             $    242,747,262     $    212,348,809     $    16,487    $    11,962
       Less: Gross outlays                                                            (203,436,459)        (186,063,536)        (16,487)       (11,962)
     Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                                 0                    0              0              0
44     Actual transfers, uncollected customer                                                     0                    0              0              0
       payments from Federal sources (+/-)                                                                                            0              0
       Total Unpaid obligated balance transferred, net                            $               0    $              0     $         0    $         0
     Less: Recoveries of prior year unpaid obligations, actual                    $    (17,827,086)    $    (16,851,046)    $         0    $         0
     Change in uncollected customer payments from Federal sources (+/-)                  (2,508,143)           (785,100)              0              0
     Obligated balance, net, end of period
       Unpaid obligations                                                              115,092,752           90,155,105               0              0
       Less: Uncollected customer payments (+/-) from Federal sources (-)              (19,644,699)         (17,136,557)              0              0
       Total, unpaid obligated balance, net, end of period                        $     95,448,053     $     73,018,548     $         0    $         0
     Net Outlays
     Net Outlays:
       Gross outlays                                                              $    203,436,459     $    186,063,536     $    16,487    $    11,962
       Less: Offsetting collections                                                    (21,815,661)         (22,225,774)           (284)          (325)
       Less: Distributed Offsetting receipts                                               807,967             (783,002)              0              0
       Net Outlays                                                                $    182,428,765     $    163,054,760     $    16,203    $    11,637

     The accompanying notes are an integral part of these financial statements.
Note 1.            Significant Accounting Policies
1.A.     Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General
Fund, as required by the Chief Financial Officers Act of 1990 and expanded by the Government Management Reform Act
of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the
Army General Fund in accordance with the Department of Defense (DoD), Financial Management Regulation (FMR), the
Office of Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements,” and to the extent possible
generally accepted accounting principles (GAAP). Effective 4th Quarter, Fiscal Year (FY) 2006, DoD no longer publishes
consolidating/combining financial statements. The accompanying financial statements account for all resources for which
the Army General Fund is responsible, unless otherwise noted. Information relative to classified assets, programs, and
operations is aggregated and reported in such a manner that it is not discernable.

The Army General Fund is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations
of its financial and nonfinancial management processes and systems that feed into the financial statements. The Army
General Fund derives its reported values and information for major asset and liability categories largely from nonfinancial
systems such as inventory systems and logistic systems. These systems were designed to support reporting requirements
for maintaining accountability over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with GAAP. The Army General Fund continues to implement process and system improvements
addressing these limitations. The Army General Fund currently has 13 auditor-identified financial statement material
weaknesses: (1) Financial Management Systems; (2) Accounting Adjustments; (3) Intragovernmental Eliminations;
(4) Abnormal Account Balances; (5) Accounts Receivable; (6) Inventory and Related Property; (7) Property, Plant, and
Equipment; (8) Accounts Payable; (9) Environmental Liabilities; (10) Statement of Net Cost; (11) Statement of Budgetary
Resources; (12) Reconciliation of Net Cost of Operations to Budget; and (13) Fund Balance with Treasury.


1.B.     Mission of the Reporting Entity
The Army mission is to support the National Security and Defense Strategies by providing well-trained, well-led, and
well-equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined
in Title 10 of the U.S. Code, to preserve the peace and security, and provide for the defense of the U.S., the Territories,
Commonwealths and Possessions of the U.S., and any areas occupied by the U.S.; support national policies; implement
national objectives; and overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 232-year life of the Army, but the environment and nature of conflict have
undergone many changes over that same time, especially with the Global War on Terrorism (GWOT). This has required
that the Army simultaneously transform the way that it fights, trains and equips its soldiers. This transformation is
progressing rapidly, but it must be taken to its full conclusion if the Army is to continue to meet the Nation’s domestic and
international security obligations today and into the future.
                                                                                                                                   45
1.C.     Appropriations and Funds
The Army General Fund receives its appropriations and funds as general, trust, special and deposit funds. The Army
General Fund uses appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement and military construction accounts.




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
     purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Certain trust and special
     funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified revenues, required
     by statute to be used for designated activities, benefits or purposes, and remain available over time. Earmarked funds also
     have a requirement to account for and report on the receipt, use and retention of revenues and other financing sources that
     distinguish them from general revenues.

     Special fund accounts are used to record government receipts reserved for a specific purpose.

     Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The
     Army General Fund acts as an agent or a custodian for funds awaiting distribution.

     The Army General Fund is a party to allocation transfers with other federal agencies as a transferring (parent) entity
     and/or a receiving (child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget
     authority and outlay funds for another agency. Generally, all financial activity related to these allocation transfers (e.g.,
     budget authority, obligations, outlays) is reported in the financial statements of the parent entity. Exceptions to this general
     rule apply to specific funds for which the OMB has directed that all activity be reported in the financial statements of the
     child entity. Exceptions include all Treasury-Managed Trust Funds, Executive Office of the President (EOP) and all other
     funds specifically designated by OMB.

     The Army General Fund is a party to allocation transfers as the child for the Federal Highway Administration and the U.S.
     Forestry Service. Additionally, the Army General Fund is a party to allocation transfers as the child to the Executive Office
     of the President (EOP) Iraq Relief and Reconstruction Fund, which meets the OMB exception. All activity related to these
     parent transfers is included in the Army’s financial statements.

     The Army General Fund allocates funds, as the parent, to the Department of Agriculture for procurement funds, and the
     Department of Transportation for military construction and operations and maintenance funds for Active Army and Army
     National Guard. All activity related to these parent transfers is included in the Army General Fund’s financial statements.


     1.D.     Basis of Accounting
     For FY 2007, the Army General Fund’s financial management systems are unable to meet all of the requirements for
     full accrual accounting. Many of the Army General Fund’s financial and nonfinancial feeder systems and processes were
     designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not designed to collect
     and record financial information on the full accrual accounting basis, as required by GAAP. Most of the Army General
     Fund’s financial and nonfinancial legacy systems were designed to record information on a budgetary basis.

     The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder systems
     and processes into compliance with GAAP. One such action is the current revision of its accounting systems to record
46   transactions based on the United States Standard General Ledger (USSGL). Until all of the Army General Fund’s financial
     and nonfinancial feeder systems and processes are updated to collect and report financial information as required by
     GAAP, the Army General Fund’s financial data will be derived from budgetary transactions (obligations, disbursements and
     collections); transactions from nonfinancial feeder systems; and accruals made for major items such as payroll expenses,
     accounts payable and environmental liabilities. As a result, the proprietary records may not align with the budgetary
     records without adjustment.

     In addition, DoD identifies program costs based upon the major appropriation groups provided by the Congress. Current
     processes and systems do not capture and report accumulated costs for major programs based upon the performance
     measures, as required by the Government Performance and Results Act. The DoD is working toward a cost reporting
     methodology that meets the need for cost information required by the Statement of Federal Financial Accounting Standards
     (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” factoring in the need to
     keep the financial statements from being overly voluminous.
1.E.     Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as financing sources for general funds on either an annual
or multi-year basis. When authorized by legislation, these appropriations are supplemented by revenues generated by
sales of goods or services. The Army General Fund recognizes revenue as a result of costs incurred or services provided to
other federal agencies and the public. Full cost pricing is the Army General Fund’s standard policy for services provided,
as required by OMB Circular A-25, “User Charges.” The Army General Fund recognizes revenue when earned within the
constraints of current system capabilities. In some instances, revenue is recognized when bills are issued.

The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Note 21, “Reconciliation of Net Cost of Operations to
Budget.” The U.S. has cost sharing agreements with other countries. Examples include countries where there is a mutual
or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.


1.F.     Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
However, because the Army General Fund’s financial and nonfinancial feeder systems were not designed to collect and
record financial information on the full accrual accounting basis, accruals are made for major items such as payroll
expenses, accounts payable, environmental liabilities and unbilled revenue. In the case of Operating Materials and Supplies
(OM&S), operating expenses are generally recognized when the items are purchased. Efforts are underway to transition
toward the consumption method for recognizing OM&S expenses.


1.G.     Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD or
between two or more federal agencies. However, the Army General Fund cannot accurately eliminate intragovernmental
transactions by customer because the Army General Fund’s systems do not track buyer and seller data at the transaction
level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable and
unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted
to agree with DoD seller-side balances. IntraDoD balances are then eliminated. The volume of intragovernmental
transactions is so large that after-the-fact reconciliation cannot be accomplished effectively with existing or foreseeable
resources. The DoD is developing long-term system improvements that will ensure intragovernmental information is
accurate and will include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other federal
agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S. Treasury’s “Federal Intragovernmental Transactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While DoD is unable to fully
reconcile intragovernmental transactions with all federal partners, the Army General Fund is able to reconcile balances           47
pertaining to investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal
Employees’ Compensation Act transactions with the Department of Labor and benefit program transactions with the Office
of Personnel Management.

The DoD’s proportionate share of public debt and related expenses to the Federal government are not included. The
Federal government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements,
therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the source of
public financing whether from issuance of debt or tax revenues.




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
     may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
     does not allocate such interest costs to the benefiting agencies.


     1.H.     Transactions with Foreign Governments and International Organizations
     Each year, the Army General Fund sells defense articles and services to foreign governments and international organizations
     under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell
     defense articles and services to foreign countries and international organizations, generally at no profit or loss to the U.S.
     Government. Payment in U.S. dollars is required in advance.


     1.I.     Funds with the U.S. Treasury
     The Army General Fund’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of
     the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE)
     and the Department of State’s financial service centers process the majority of the Army General Fund’s cash collections,
     disbursements and adjustments worldwide. Each disbursing station prepares monthly reports that provide information to
     the U.S. Treasury on check issues, electronic fund transfers, interagency transfers and deposits.

     In addition, the DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury, by appropriation, on
     interagency transfers, collections received and disbursements issued. The U.S. Treasury records this information to the
     applicable fund balance with treasury (FBWT) account. Differences between the Army General Fund’s recorded balance in
     the FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are subsequently reconciled.


     1.J.     Foreign Currency
     Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments
     and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
     equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

     The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported consist
     primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting and foreign currency
     accommodation exchange missions. Cash seized during Operation Iraqi Freedom is restricted for use to assist the Iraqi
     people and support the restoration of Iraq.

     The Army General Fund conducts a significant portion of its operations overseas. The Congress established a special
     account to handle the gains and losses from foreign currency transactions for five general fund appropriations (operations
     and maintenance, military personnel, military construction, family housing operations and maintenance, and family
     housing construction). The gains and losses are computed as the variance between the exchange rate current at the date of
48   payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
     appropriations require adjustments to the original obligation amount at the time of payment. The Army General Fund does
     not separately identify foreign currency fluctuation transaction.


     1.K.     Accounts Receivable
     As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims and refunds receivable
     from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based on
     the estimate of uncollectible accounts receivable from the public on a percentage of aged receivables by category. The
     allowance is calculated by using 50% of aged receivables in the 180-day to 2-year category and 100% of aged receivables in
     the greater than 2-year category. Foreign debt is excluded from the allowance calculation. The DoD does not recognize an
     allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
resolved in accordance with dispute resolution procedures defined in the Intragovernmental Business Rules published in the
Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.


1.L.     Direct Loans and Loan Guarantees
The Army General Fund operates the Armament Retooling and Manufacturing Support (ARMS) loan guarantee program
to encourage commercial use of inactive government facilities. The revenue generated from property rental offsets the cost
of maintaining these facilities. Legal authority for the ARMS loan guarantee program is contained in Title 10, United States
Code 4551-4555.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments made
after FY 1991 resulting in direct loans or loan guarantees.


1.M. Inventories and Related Property
The Army General Fund manages only military or government specific materiel under normal conditions. Materiel is
a unique term that relates to military force management, and includes all items (ships, tanks, self propelled weapons,
aircraft, etc., and related spares, repair parts and support equipment, but excluding real property, installations and
utilities) necessary to equip, operate, maintain and support military activities without distinction as to its application for
administrative or combat purposes. Items commonly used in, and available from, the commercial sector are not managed in
the Army General Fund materiel management activities. Operational cycles are irregular, and the military risks associated
with stock-out positions have no commercial parallel. The Army General Fund holds materiel based on military need and
support for contingencies. The DoD does not attempt to account separately for “inventory held for sale” and “inventory
held in reserve for future sale” based on SFFAS No. 3 definitions, unless otherwise noted.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for sale, are valued
at standard purchase price. The DoD uses both the consumption method and the purchase method of accounting for
OM&S. Items that are centrally managed and stored, such as ammunition and engines, are generally recorded using
the consumption method and reported on the Balance Sheet as OM&S. When current systems cannot fully support the
consumption method, the Army General Fund uses the purchase method. Under this method, materials and supplies are
expensed when purchased. During FY 2007, the Army General Fund expensed significant amounts using the purchase
method because the systems could not support the consumption method or management deemed that the item was in the
hands of the end user. This is a material weakness for the DoD and long-term system corrections are in process. Once the
proper systems are in place, these items will be accounted for under the consumption method of accounting.

The Army General Fund determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are
categorized as OM&S rather than military equipment.

The Army General Fund recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal                  49
is greater than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially redistributed
materiel, presented in previous years as “excess, obsolete, and unserviceable,” is included in the “held for use” or “held for
repair” categories according to its condition.


1.N.     Investments
The Army General Fund reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized over the term of the investment using the effective interest rate method or another



                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     method obtaining similar results. The Army General Fund’s intent is to hold investments to maturity. Consequently, a
     provision is not made for unrealized gains or losses on these securities.

     The Army General Fund invests in nonmarketable securities. The two types of nonmarketable securities are par value and
     market-based intragovernmental securities. The Bureau of Public Debt issues nonmarketable par value intragovernmental
     securities. Nonmarketable, market-based intragovernmental securities emulate marketable securities, but are not publicly
     traded.


     1.O.     General Property, Plant and Equipment
     The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” established GAAP for
     valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons) in federal financial statements.
     The standard provided for the use of estimated historical cost for valuing military equipment if obtaining actual historical
     cost information is not practical. The DoD used the Bureau of Economic Analysis (BEA) to calculate the value of the
     military equipment for reporting periods from October 1, 2002, through March 31, 2006.

     Effective 3rd Quarter, FY 2006, the DoD replaced the BEA estimation methodology with one based on internal records
     for military equipment. To create a baseline, the Army General Fund identified the universe of military equipment by
     accumulating information related to program funding and associated military equipment, equipment useful life, program
     acquisitions and disposals. The military equipment baseline is updated using expenditure information and information
     related to acquisition and disposals.

     In FY 2006, the DoD revised the real property capitalization threshold from $100,000 to $20,000. The current $100,000
     capitalization threshold remains unchanged for the remaining General PP&E categories. The Army General Fund has not
     implemented this revised policy due to system and process limitations.

     General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful
     life of two or more years and the acquisition cost equals or exceeds the DoD capitalization threshold of $100,000. The
     DoD also requires capitalization of improvement costs over the DoD capitalization threshold of $100,000 for General
     PP&E. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

     General PP&E previously capitalized at amounts below $100,000 was written off the Army General Fund financial
     statements in FY 1998.

     When it is in the best interest of the government, the Army General Fund provides government property to contractors
     to complete contract work. The Army General Fund either owns or leases such property, or it is purchased directly by the
     contractor for the government based on contract terms. When the value of contractor procured General PP&E exceeds the
     DoD capitalization threshold, Federal accounting standards require that it be reported on the Army General Fund Balance
     Sheet.
50
     The DoD is developing new policies and a contractor reporting process, which will provide appropriate General PP&E
     information for future financial statement reporting purposes. Accordingly, Army General Fund reports only government
     property in the possession of contractors that is maintained in Army General Fund’s property systems. The DoD has issued
     new property accountability and reporting requirements, which require Army General Fund to maintain, in their property
     systems, information on all property furnished to contractors. This action and other DoD proposed actions are structured
     to capture and report the information necessary to bring Army General Fund into compliance with Federal accounting
     standards.


     1.P.     Advances and Prepayments
     The DoD policy is to record advances and prepayments in accordance with GAAP. As such, payments made in advance
of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or
properly classify assets when the related goods and services are received. Not all DoD entities have implemented this
policy primarily due to system limitations.


1.Q.     Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When
a lease is essentially the equivalent to an installment purchase of property (a capital lease), Army General Fund records
the applicable asset and liability if the value equals or exceeds the current capitalization threshold. The Army General
Fund records the amounts as the lesser of the present value of the rental and other lease payments during the lease term
(excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The discount rate
for the present value calculation is either the lessor’s implicit interest rate or the government’s incremental borrowing
rate at the inception of the lease. The Army General Fund as the lessee receives the use and possession of leased property,
for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the
lease term as it becomes payable.

Office space and leases entered into by Army General Fund in support of contingency operations are the largest component
of operating leases. These costs were gathered from existing leases, General Services Administration bills and Interservice
Support Agreements. Future year projections use the Consumer Price Index (CPI), rather than the DoD inflation factor.
The CPI has an impact on increases to the leases, especially those at commercial lease sites. Equipment leases have a variety
of lease terms, which are not expected to be renewed upon expiration. Other operating leases are generally one-year
leases.


1.R.     Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances and certain
contract financing payments that are not reported elsewhere on Army General Fund’s Balance Sheet.

The Army General Fund conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
Army General Fund provides financing payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements of monies to a contractor prior to acceptance of supplies or services
by the Government. Contract financing payments clauses are incorporated in the contract terms and conditions and may
include advance payments, performance-based payments, commercial advance and interim payments, progress payments
based on cost and interim payments under certain cost-reimbursement contracts. Contract financing payments do not
include invoice payments, payments for partial deliveries, lease and rental payments, or progress payments based on a
percentage or stage of completion, which the Defense Federal Acquisition Regulation Supplement authorizes only for
construction of real property, shipbuilding, and ship conversion, alteration or repair. Progress payments for real property
and ships are reported as construction in progress. The capitalization begins when the asset is completed and put into             51
service. It is Army policy to record certain contract financing payments as Other Assets, which are not capitalized.


1.S.     Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Army General Fund recognizes contingent liabilities when past events or exchange



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     transactions occur, or when a future loss is probable and the loss amount can be reasonably estimated.

     Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist, but there is at
     least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility
     of receivables, pending or threatened litigation and possible claims and assessments. The Army General Fund’s risk of loss
     and resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such
     as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

     Other liabilities arise as a result of anticipated disposal costs for the Army General Fund’s assets. This type of liability
     has two components: environmental and nonenvironmental. The SFFAS No. 6, “Accounting for Property, Plant, and
     Equipment,” requires recognition of an anticipated environmental disposal liability when the asset is placed into service.
     The Army General Fund is not in compliance with this requirement as there are system and control weaknesses that
     precluded conformity. Nonenvironmental disposal liabilities are recognized for assets when management decides to
     dispose of an asset based upon DoD policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of Federal
     Government.” The DoD recognizes nonenvironmental disposal liabilities for nuclear-powered asset military equipment
     when it is placed into service. Such amounts are developed in conjunction with, and not easily identifiable separately from,
     environmental disposal costs. The Army General Fund is not in compliance with this DoD requirement as there are system
     and control weaknesses that precluded conformity.


     1.T.     Accrued Leave
     The Army General Fund reports as liabilities military leave and civilian earned leave, except sick leave that has been
     accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the
     accounting period reflects the current pay rates.


     1.U.     Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations.

     Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
     withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
     been incurred.

     Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
     and financing sources (including appropriations, revenue and gains). Beginning with FY 1998, the cumulative results also
     include donations and transfers in and out of assets that were not reimbursed.


     1.V.     Treaties for Use of Foreign Bases
52
     The DoD has the use of the land, buildings and other overseas facilities that are obtained through various international
     treaties and agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas
     with appropriated funds; however, the host country retains title to land and improvements. Generally, treaty terms
     allow the Army General Fund continued use of these properties until the treaties expire. In the event treaties or other
     agreements are terminated, whereby use of the foreign bases is prohibited, losses are recorded for the value of any
     nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of
     capital investments and may be offset by the cost of environmental cleanup.


     1.W.     Comparative Data
     Not Applicable.
1.X.     Unexpended Obligations
The Army General Fund obligates funds to provide goods and services for outstanding orders not yet delivered. The
financial statements do not reflect this liability for payment for goods and services not yet delivered, unless title passes.


1.Y.     Undistributed Disbursements and Collection
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to a specific obligation, payable or receivable in the activity field records, as opposed to those reported
by the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting
reports. In-transit payments are those payments that have been made, but have not been recorded in the fund holders’
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
are those collections from other agencies or entities that have not been recorded in the accounting records. These
collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. The
Army General Fund follows this procedure. Unsupported, undistributed collections and disbursements represent
collections and disbursements that are not in agreement with accounting records. Unsupported, undistributed
disbursements are recorded in accounts payable. Unsupported, undistributed collections are recorded in other liabilities.
These are normally reconciled in the following month.


1.Z.     Significant Events
Beginning in FY 2007, the Office of Management and Budget (OMB) changed the reporting requirements for allocation
transfers. Due to this change, the Army reports in its basic financial statements the programs it administers on behalf of the
Executive Office of the President. Previously, the Army only recorded the proprietary balances for these accounts. With
the change in guidance, the Army is reporting both the budgetary and proprietary balances in its financial statements.

Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in accordance with
OMB Circular A-136. The SOF is no longer considered a basic statement and is now referred to as “Reconciliation of Net
Cost of Operations to Budget.”

As of FY 2007, the Army GF no longer presents a Statement of Custodial Activity (SCA) to separately report the
Development Fund for Iraq; and, the previously supporting Note 22 is renamed and redirected for the purpose of reporting
“Incidental Custodial Collections.” Previously, the Army GF reported the fund reconciliation in the SCA and summary
information in Note 2, Nonentity Assets. Since the fund has been substantially disbursed and the residual balance is
immaterial, Army GF no longer presents the fund on a separate statement. The fund balances continue to be disclosed in
Note 2, Nonentity Assets.
                                                                                                                                     53




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 2.              Nonentity Assets
      As of September 30                                                         2007                         2006
      (Amounts in thousands)
      1. Intragovernmental Assets
         A. Fund Balance with Treasury                                      $            663,415    $                 202,731
         B. Accounts Receivable                                                                0                            0
         C. Total Intragovernmental Assets                                  $            663,415    $                 202,731

      2. Nonfederal Assets
         A. Cash and Other Monetary Assets                                  $           2,183,051   $                1,784,810
         B. Accounts Receivable                                                            16,752                       50,670
         C. Other Assets                                                                        0                            0
         D. Total Nonfederal Assets                                         $           2,199,803   $                1,835,480

      3. Total Nonentity Assets                                             $           2,863,218   $                2,038,211

      4. Total Entity Assets                                                $       260,331,120     $            224,547,274

      5. Total Assets                                                       $       263,194,338     $            226,585,485

     Balance sheet presentation of Fund Balance with Treasury

     The Fund Balance with Treasury shown on the schedule above is comprised of Nonentity Seized Iraqi Cash and Nonentity
     Other.

     Nonentity Other includes the Development Fund for Iraq and deposit funds.

     Definitions

     Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and responsibility to
     report, but are not available for the Army General Fund’s operation.

     The Nonentity Fund Balance with Treasury consists of deposit funds, Seized Iraqi Cash and the Development Fund
     for Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the appropriate
     government or public entity. Seized Iraqi Cash is former Iraqi regime monies confiscated by coalition forces. The
     DFI consists of proceeds from Iraqi oil sales, repatriated assets from the United States and other nations and deposits
     from unencumbered oil-for-food program funds. The DFI began with a balance of $136 million with disbursements of
     $123.3 million leaving $12.7 million retained for future support of foreign governments

     Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying, collecting
     and foreign currency accommodation exchange missions. Foreign currency is valued using the U.S. Treasury prevailing rate
54
     of exchange.

     Nonentity Nonfederal Accounts Receivable are primarily from cancelled year appropriations. These receivables will be
     returned to the U.S. Treasury as miscellaneous receipts once collected.
Note 3.              Fund Balance with Treasury
 As of September 30                                                            2007                          2006
 (Amounts in thousands)

 1. Fund Balances
   A. Appropriated Funds                                             $            127,263,434      $              94,368,206
   B. Revolving Funds                                                                     6,992                        19,851
   C. Trust Funds                                                                           976                         1,051
   D. Special Funds                                                                      46,915                        41,090
   E. Other Fund Types                                                                  663,415                      202,731
   F. Total Fund Balances                                            $            127,981,732      $              94,632,929

 2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                                      $            128,737,334      $              95,471,092
   B. Fund Balance per Army                                                       127,981,732                     94,632,929

 3. Reconciling Amount                                               $                  755,602    $                 838,163

Other Fund Types

Other Fund Types consist of deposit funds, Seized Iraqi Cash and the Development Fund for Iraq (DFI). Deposit funds
are generally used to record amounts held temporarily until paid to the appropriate government or public entity. Seized
Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi oil sales,
repatriated assets from the United States and other nations and deposits from unencumbered oil-for-food program funds.

Reconciling Amount

The U.S. Treasury reported an additional $755.6 million in the Fund Balance with Treasury than reported by the Army
General Fund. This includes $630.0 million in canceling year authority, $117.6 million in unavailable receipts and
$8.0 million in net differences due to the U.S. Treasury treatment of allocation transfers.


Status of Fund Balance with Treasury
 As of September 30                                                              2007                         2006
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                                         $            28,970,947 $                14,884,671
    B. Unavailable                                                                     3,287,831                   2,140,616
                                                                                                                                   55
 2. Obligated Balance not yet Disbursed                                  $          115,092,752 $                 90,155,105

 3. Nonbudgetary FBWT                                                    $               278,513 $                  4,592,476

 4. NonFBWT Budgetary Accounts                                           $          (19,648,311) $               (17,139,939)

 5. Total                                                                $          127,981,732 $                 94,632,929




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Definitions

     The Status of the Fund Balance with Treasury consists of unobligated and obligated balances. These balances reflect the
     budgetary authority remaining for disbursements against current or future obligations. In addition, the Status of the Fund
     Balance with Treasury includes various accounts that affect either budgetary reporting or the Fund Balance with Treasury,
     but not both.

     Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
     outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations
     expiring at fiscal year end that remain available only for obligation adjustments until the account is closed.

     Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received or
     services that have not been performed, and goods and services that have been delivered/received, but not yet paid.

     Nonbudgetary Fund Balance with Treasury includes entity and nonentity Fund Balance with Treasury accounts that do
     not have budgetary authority, such as unavailable receipt accounts, clearing accounts, deposit accounts and Iraqi custodial
     accounts.

     NonFund Balance with Treasury Budgetary Accounts include budgetary accounts that do not affect Fund Balance with
     Treasury, such as contract authority, borrowing authority and investment accounts, accounts receivable, as well as unfilled
     orders without advance from customers. This category reduces the Status of the Fund Balance with Treasury.

     Other Relevant Information for Comprehension

     Unobligated Balance Unavailable of $3.3 billion consists of unobligated or unapportioned authority that has expired, which
     restricts the ability to incur new obligations.


     Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                    (Decrease)/
      As of September 30                                                                                           Increase from
                                                                        2005           2006           2007         FY 2006 - 2007
      (Amounts in thousands)
      Account
        F3845 – Personal Property Proceeds                          $           931 $     360 $            419     $            59
        F3875 – Budget Clearing Account Suspense                            (27,176)  555,556         (371,357)          (926,913)
        F3880 – Lost or Cancelled Treasury Checks                             7,973    19,311            4,576             (14,735)
        F3882 – Uniformed Services Thrift Savings Plan
        Suspense                                                             25,084     31,181          32,769               1,588
        F3885 – Interfund/IPAC Suspense                                     (36,501)   (24,652)        (18,540)              6,112
        F3886 – Thrift Savings Plan Suspense                                    117         72              (66)              (138)
56
      Total                                                         $       (29,572) $ 581,828 $      (352,199)    $     (934,027)

     Definitions

     The F3845 suspense account represents the balance of proceeds from the sale of personal property.

     The F3875 suspense clearing account represents the Disbursing Officer’s suspense, which includes Federal Income tax
     withholding for military pay.

     The F3880 suspense account represents the balance of U.S. Treasury checks that have either been lost by the payee and need
     to be reissued, have never been cashed by the payee, or have been cancelled by the U.S. Treasury and need to be returned to
     the original appropriation.
The F3882 suspense account was established for the Uniformed Services Thrift Savings Plan in FY 2002. The amounts in
this account represent a timing difference between the posting of the Thrift Savings Plan deductions by the National Finance
Center and the posting of these amounts in the military accounting systems in the following month.

The F3885 suspense account includes the Interfund and Intragovernmental Payment and Collections (IPAC) suspense.

The F3886 suspense account includes payroll deductions for civilian employees Thrift Savings Plan.


Disclosures Related to Problem Disbursements
                                                                                                               (Decrease)/
                                                                                                              Increase from
 As of September 30                                                                                             FY 2006 to
                                                             2005             2006              2007               2007
 (Amounts in thousands)
 1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDs)                    $     120,703    $      44,409     $      53,281     $       8,872
    B. Negative Unliquidated Obligations (NULO)                 20,927           15,445            42,250            26,805
    C. In-Transit Disbursements                              1,518,762        2,244,106         2,820,874           576,768

 Total                                                   $   1,660,392    $   2,303,960     $   2,916,405     $     612,445

Definitions

Problem Disbursements are reported as an absolute value amount. An absolute value amount is the sum of the numerical
value of debit and credit transactions without regard to the sign.

An Unmatched Disbursement (UMD) occurs when a payment is not matched to a corresponding obligation in the
accounting system.

A Negative Unliquidated Obligation (NULO) occurs when a payment is made against a valid obligation, but the payment is
greater than the amount of the obligation recorded in the official accounting system. These payments have been made using
available funds and are based on valid receiving reports for goods and services delivered under valid contracts.

In-transits represent the absolute value of disbursements and collections made by a DoD disbursing activity on behalf of an
accountable activity and have not been posted to the accounting system.

UMDs, NULO, and Aged In-Transits

Beginning 2nd Quarter, FY 2007, in-transit disbursements are reported as absolute value, as opposed to net amounts
disclosed in prior years. This reporting change applies to amounts in the note schedule for both the current and
comparative years.                                                                                                                57




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 4.              Investments and Related Interest
      As of September 30                                                                           2007
      (Amounts in thousands)                                                                     Amortized
                                                                             Amortization       (Premium) /       Investments,   Market Value
                                                                  Cost         Method            Discount             Net         Disclosure
      1. Intragovernmental Securities
         A. Nonmarketable, Market-Based
           1. Military Retirement Fund                        $          0                  $                 0   $         0    $          0
           2. Medicare Eligible Retiree Health Care Fund                 0                                    0             0               0
           3. US Army Corps of Engineers                                 0                                    0             0               0
                                                                             effective
           4. Other Funds                                         3,384      interest                     30           3,414           3,257
           5. Total Nonmarketable, Market-Based                   3,384                                   30           3,414           3,257

        B. Accrued Interest                                          34                                                   34              34
        C. Total Intragovernmental Securities                 $   3,418                     $             30      $    3,448     $     3,291

      2. Other Investments
         A. Total Other Investments                           $          0                  $                 0   $         0            N/A

      As of September 30                                                                           2006
      (Amounts in thousands)                                                                     Amortized
                                                                             Amortization       (Premium) /       Investments,   Market Value
                                                                  Cost         Method            Discount             Net         Disclosure
      1. Intragovernmental Securities
         A. Nonmarketable, Market-Based
           1. Military Retirement Fund                        $          0                  $                 0   $         0    $          0
           2. Medicare Eligible Retiree Health Care Fund                 0                                    0             0               0
           3. US Army Corps of Engineers                                 0                                    0             0               0
                                                                             effective
           4. Other Funds                                         3,337      interest                     46           3,383           3,380
           5. Total Nonmarketable, Market-Based                   3,337                                   46           3,383           3,380

        B. Accrued Interest                                          24                                                   24              24
        C. Total Intragovernmental Securities                 $   3,361                     $             46      $    3,407     $     3,404

      2. Other Investments
         A. Total Other Investments                           $          0                  $                 0   $         0            N/A

     Relevant Information for Comprehension

     The Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the
     disbursement and use of monies donated to the Army General Fund along with the interest received from the investment
     of such donations. The related earnings are allocated to appropriate Army General Fund activities to be used in accordance
     with the directions of the donor. These funds are recorded as Nonmarketable Market-Based U.S. Treasury Securities, which
58   are not traded on any securities exchange, but mirror the prices of marketable securities with similar terms.

     The Federal Government does not set aside assets to pay future benefits or other expenditures associated with earmarked
     funds. The cash receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses
     the cash for general government purposes. U.S. Treasury securities are issued to the Army General Fund as evidence of its
     deposits. U.S. Treasury securities are an asset to the Army General Fund and a liability to the U.S. Treasury. Because the
     Army General Fund and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
     from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the U.S.
     Governmentwide financial statements. The U.S. Treasury securities provide the Army General Fund with authority to draw
     upon the U.S. Treasury to make expenditures. When the Army General Fund requires redemption of these securities to
     make expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or other
     receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same way that
     the Government finances all other expenditures.
Note 5.              Accounts Receivable
 As of September 30                                                             2007                                   2006
 (Amounts in thousands)                                                     Allowance
                                                       Gross Amount        For Estimated          Accounts          Accounts
                                                           Due             Uncollectibles       Receivable, Net   Receivable, Net
 1. Intragovernmental Receivables                     $        420,417                  N/A           420,417     $      357,183
                                                                                                $
 2. Nonfederal Receivables (From the Public)          $        656,538 $          (80,005)      $     576,533     $      627,721

 3. Total Accounts Receivable                         $     1,076,955 $           (80,005)      $     996,950     $      984,904


Aged Accounts Receivable
 As of September 30                                                      2007                                 2006
 (Amounts in thousands)                                    Intragovernmental     Nonfederal     Intragovernmental     Nonfederal
 CATEGORY
 Nondelinquent
   Current                                                 $      1,257,374 $ 363,985            $     1,311,916 $       454,202
   Noncurrent                                                             0         0                          0               0
 Delinquent
   1 to 30 days                                            $          1,142 $          44,098    $          1,400 $        1,270
   31 to 60 days                                                      6,496            12,594                 834         10,481
   61 to 90 days                                                      4,552            44,041               2,486         20,184
   91 to 180 days                                                     3,947            63,165               4,042         25,401
   181 days to 1 year                                                 9,802            51,209               6,506         20,895
   Greater than 1 year and less than or equal to
   2 years                                                           15,200            43,925               2,714         40,034
   Greater than 2 years and less than or equal to
   6 years                                                                74           26,620                     0       51,565
   Greater than 6 years and less than or equal to 10
   years                                                                  0     4,757                          0         117,830
   Greater than 10 years                                                  0     2,144                          0          10,528
 Subtotal                                                  $      1,298,587 $ 656,538            $     1,329,898 $       752,390
   Less Supported Undistributed                                     (55,680)        0                    (35,470)            (23)
   Collections
   Less Eliminations                                              (822,490)        0                    (937,246)              0
   Less Other                                                            0         0                           0               0
 Total                                                     $       420,417 $ 656,538             $       357,182 $       752,367

Relevant Information

The table above identifies aged accounts receivable groups for the Army General Fund as reported in the Monthly
Receivable Data Reports.
                                                                                                                                    59
The delinquencies for the Army General Fund consist primarily of debts that have been turned over to the Debt and Claims
Management (DCM) and the Debt Management Office (DMO) for resolution. The DMO and the DCM submit delinquent
public accounts receivable to the U.S. Treasury no later than 180 days after the original bill date, unless exempted by statute
or law. The U.S. Treasury has been delegated authority to close out or refer to the Department of Justice debts totaling
$100 thousand up to $500 thousand that Treasury has been unable to collect; debts greater than $500 thousand must be
referred to the Department of Justice. Demand letters are sent to nonfederal debtors once the payment becomes 30 days
delinquent.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Delinquent accounts receivable are aged from the date the account is considered delinquent, as outlined in the DoD
     Financial Management Regulations. To collect delinquent accounts receivable, the Army follows the DoD concept of
     operations for collections, which requires follow-up actions at 30-day intervals with ordering activities.


     Note 6.              Other Assets
      As of September 30                                                                   2007                    2006
      (Amounts in thousands)
      1. Intragovernmental Other Assets
         A. Advances and Prepayments                                            $                 514,835   $             601,861
         B. Other Assets                                                                                0                       0
         C. Total Intragovernmental Other Assets                                $                 514,835   $             601,861

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing Payments                             $             6,011,028     $          5,310,457
         B. Other Assets (With the Public)                                                      596,559                  384,228
         C. Total Nonfederal Other Assets                                       $             6,607,587     $          5,694,685

      3. Total Other Assets                                                     $             7,122,422     $          6,296,546

     Relevant Information for Comprehension

     Other Assets (with the public) largely consist of military pay and travel advances.

     Contract terms and conditions for certain types of contract financing payments convey certain rights to the Army General
     Fund that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer
     of property, or disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the
     contractor’s work has transferred to the Government. The Government does not have the right to take the work, except
     as provided in contract clauses related to termination or acceptance, and the Army General Fund is not obligated to make
     payment to the contractor until delivery and acceptance of a satisfactory product.

     The Contract Financing Payment balance of $6.0 billion is comprised of approximately $5.5 billion in contract financing
     payments and $500.0 million in estimated future funded payments that will be paid to the contractor upon future delivery
     and Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities.)


     Note 7.              Cash and Other Monetary Assets
      As of September 30                                                                   2007                    2006
      (Amounts in thousands)
      1. Cash                                                                       $         1,101,981     $            980,861
      2. Foreign Currency                                                                     1,081,070                  803,949
60    3. Other Monetary Assets                                                                        0                        0
      4. Total Cash, Foreign Currency, & Other Monetary Assets                      $         2,183,051     $          1,784,810

     Other Information Related to Cash and Other Monetary Assets

     Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign
     currency consists primarily of burden sharing funds from the Republic of Korea.

     Foreign currency is valued using the U.S. Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that
     would legally be available to the U.S. Government’s acquisition of foreign currency for its official disbursements and
     accommodation of exchange transactions. All the Army General Fund cash and foreign currency is nonentity and is,
     therefore, restricted.
Note 8.            Direct Loan and/or Loan Guarantee Programs
 As of September 30

Direct Loan and/or Loan Guarantee Programs

The Army operates the Armament Retooling & Manufacturing Support (ARMS) Initiative Loan Guarantee program. The
Army General Fund does not operate a direct loan program.

The Federal Credit Reform Act of 1990 governs all guarantee commitments made after FY 1991 resulting in loan
guarantees.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the
following estimated projected cash flows:

         Payments by the Army to cover defaults and delinquencies, interest subsidies or other payments; offset by
         Payments to the Army, including origination and other fees, penalties and recoveries.

Armament Retooling and Manufacturing Support Initiative

The ARMS Initiative, Title 10, United States Code 4551-4555, is a loan guarantee program designed to encourage
commercial use of Army General Fund inactive ammunition plants through many incentives for businesses willing to locate
to a government ammunition production facility. The production capacity of these facilities is greater than the current
military requirements; however, this capacity may be needed by the military in the future. The revenues from the property
rental are used to help offset the overhead costs for the operation, maintenance and environmental clean up at the facilities.

The Army General Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate
commercial firms’ use of specified ammunition manufacturing facilities. The Army and U.S. Department of Agriculture
(USDA) Rural Business-Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer
the ARMS Initiative loan guarantee program.

Loan Guarantees

In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition
Logistics and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army continues to operate under
the moratorium and does not anticipate becoming a party in new loan guarantees.




                                                                                                                                    61




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Summary of Direct Loans and Loan Guarantees
      As of September 30                                                                     2007                   2006
      (Amounts in thousands)
      Loans Receivable
      Direct Loans                                                                    $                  0 $                   0
        1. Foreign Military Loan Liquidating Account
        2. Military Housing Privatization Initiative                                                     0                     0
        3. Foreign Military Financing Account                                                            0                     0
        4. Military Debt Reduction Financing Account                                                     0                     0
        5. Total Direct Loans                                                         $                  0 $                   0

      Defaulted Loan Guarantees                                                       $                  0 $                   0
        6. A. Foreign Military Financing Account
           B. Military Housing Privatization Initiative                                                  0                     0
           C. Armament Retooling & Manufacturing Support Initiative                                     67                     0
        7. Total Default Loan Guarantees                                              $                 67 $                   0

        8. Total Loans Receivable                                                     $                 67 $                   0

      Loan Guarantee Liability
        1. Foreign Military Liquidating Account                                       $                 0 $                     0
        2. Military Housing Privatization Initiative                                                    0                       0
        3. Armament Retooling & Manufacturing Support Initiative                                      290                  12,853

        4. Total Loan Guarantee Liability                                             $               290 $                12,853

     Total Loans Receivable represents the total amount of defaulted loans guaranteed less an allowance for uncollectible loans.
     The $67 thousand in loans receivable consists of a defaulted loan guarantee of $14.4 million less a $14.3 million allowance
     for subsidy cost, or uncollectible loans.

     The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of non-acquired
     loan guarantees. The $290 thousand in loan guarantee liability represents the estimated long-term cost of the currently
     performing loans to the U.S. Government for the ARMS Initiative Loan Guarantee Program.


     Direct Loans Obligated
     Not Applicable.


     Total Amount of Direct Loans Disbursed
62   Not Applicable.


     Subsidy Expense for Post FY 1991 Direct Loan
     Not Applicable.


     Subsidy Rate for Direct Loans by Program
     Not Applicable.
Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY 1991 Direct
Loans
Not Applicable.


Defaulted Guaranteed Loans
 As of September 30                                                                                 2007             2006
 (Amounts in thousands)
 Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees (Allowance for Loss
 Method):
 1. Foreign Military Liquidating Account
 A. Defaulted Guaranteed Loans Receivable, Gross                                                $           0    $           0
 B. Interest Receivable                                                                                     0                0
 C. Foreclosed Property                                                                                     0                0
 D. Allowance for Loan Losses                                                                               0                0
 E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                       $           0    $           0

 Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value
 Method):
 2. Military Housing Privatization Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                             $           0    $           0
    B. Interest Receivable                                                                                  0                0
    C. Foreclosed Property                                                                                  0                0
    D. Allowance for Subsidy Cost (Present Value)                                                           0                0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                    $           0    $           0

 3. Armament Retooling & Manufacturing Support Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                             $    14,407      $           0
    B. Interest Receivable                                                                                0                  0
    C. Foreclosed Property                                                                                0                  0
    D. Allowance for Subsidy Cost (Present Value)                                                   (14,340)                 0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                    $        67      $           0

 4. Total Value of Assets Related to Defaulted Guaranteed Loans Receivable                      $          67    $           0

The ARMS Initiative Guaranteed Loans Program realized one guaranteed loan default in FY 2007. The defaulted amount
is $14.4 million, and the subsidy cost of the default is estimated at $14.3 million. The residual $67 thousand represents the
value of assets related to the defaulted loan, and is available for additional fees related to the defaulted loan.




                                                                                                                                   63




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Guaranteed Loans Outstanding
                                                                              Outstanding Principal of     Amount of Outstanding
      As of September 30                                                    Guaranteed Loans, Face Value    Principal Guaranteed
      (Amounts in thousands)
      Guaranteed Loans Outstanding
      1. Military Housing Privatization Initiative                          $                         0    $                   0
      2. The Armament Retooling & Manufacturing Support Initiative                                4,094                    3,480
      3. Foreign Military Liquidating Account                                                         0                        0
      4. Total                                                              $                     4,094    $               3,480

                                     2007
      New Guaranteed Loans Disbursed
      1. Military Housing Privatization Initiative                          $                          0   $                    0
      2. Armament Retooling & Manufacturing Support Initiative                                         0                        0
      3. Foreign Military Liquidating Account                                                          0                        0
      4. Total                                                              $                          0   $                    0

                                     2006
      New Guaranteed Loans Disbursed
      1. Military Housing Privatization Initiative                          $                         0    $                   0
      2. Armament Retooling & Manufacturing Support Initiative                                    2,694                    2,290
      3. Foreign Military Liquidating Account                                                         0                        0
      4. Total                                                              $                     2,694    $               2,290

     Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties and
     guaranteed by the Army. The face value does not include any interest that is due to be paid on the debt instruments.

     Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed by
     the Army less borrower collateral. The net amount represents the loan amount guaranteed by the Army.

     The ARMS program currently manages two performing loans with a combined outstanding principal loan amount, face
     value of $4.1 million, and outstanding principal guaranteed in the amount of $3.5 million. Each of the loans is guaranteed
     at 85%.

     The FY 2006 new guaranteed loans disbursement of $2.7 million represents an incremental disbursement on a loan
     guaranteed prior to the 2004 moratorium on new loans. There were no incremental disbursements in FY 2007. No new
     guaranteed loans were disbursed in FY 2007 or FY 2006.


     Liabilities for Post FY 1991 Loan Guarantees, Present Value
      As of September 30                                                                               2007              2006
      (Amounts in thousands)
64    Liabilities for Loan Guarantee Programs fromPre-FY 1992 (Allowance for Loss):
      1. Foreign Military Liquidating Account                                                      $            0    $          0
      2. Total Loan Guarantee Liability (Pre-FY 1992)                                              $            0    $          0

      Liabilities for Loan Guarantee Programs Post-FY 1991 (Present Value):
      3. Military Housing Privatization Initiative                                                 $             0   $         0
      4. Armament Retooling & Manufacturing Support Initiative                                                 290        12,853
      5. Total Loan Guarantee Liability (Post-FY 1991)                                             $           290   $    12,853
      6. Total Loan Guarantee Liability                                                            $           290   $    12,853

     Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash
     outflows of non-acquired loan guarantees. The $290 thousand in loan guarantee liability represents the estimated long-term
     cost of the currently performing loans to the U.S. Government for the ARMS Initiative Loan Guarantee Program.
Subsidy Expense for Loan Guarantees by Program
 As of September 30
 (Amounts in thousands)
                                                              Interest
                          2007                               Differential           Defaults            Fees            Other           Total
 1. New Loan Guarantees Disbursed:
 Military Housing Privatization Initiative                  $               0   $              0    $          0    $           0   $           0
 Armament Retooling & Manufacturing Support Initiative                      0                  0               0                0               0

 Total                                                      $               0   $              0    $          0    $           0   $           0
                                                              Interest
                          2006                               Differential           Defaults            Fees            Other           Total
 2. New Loan Guarantees Disbursed:
 Military Housing Privatization Initiative                  $               0   $              0    $          0    $           0   $           0
 Armament Retooling & Manufacturing Support Initiative                      0                  0               0                0               0

 Total                                                      $               0   $              0    $          0    $           0   $           0
                                                                                Interest Rate       Technical         Total
                          2007                             Modifications        Reestimates        Reestimates     Reestimates          Total
 3. Modifications and Reestimates:
 Military Housing Privatization Initiative                  $               0   $           0       $         0     $         0     $         0
 Armament Retooling & Manufacturing Support Initiative                      0           2,202            (1,088)          1,114           1,114

 Total                                                      $               0   $       2,202       $    (1,088)    $     1,114     $     1,114

                          2006                                                  Interest Rate       Technical         Total
                                                           Modifications        Reestimates        Reestimates     Reestimates          Total
 4. Modifications and Reestimates:
 Military Housing Privatization Initiative                  $               0   $           0       $         0     $         0     $         0
 Armament Retooling & Manufacturing Support Initiative                      0             564            11,532          12,096          12,096

 Total                                                      $               0   $         564       $    11,532     $    12,096     $    12,096

                                                                2007                2006
 5. Total Loan Guarantee:
 Military Housing Privatization Initiative                  $           0       $           0
 Armament Retooling & Manufacturing Support Initiative              1,114              12,096

 Total                                                      $       1,114       $      12,096



Subsidy Rates for Loan Guarantees by Program
                                                              Interest                             Fees and other
 As of September 30                                         Supplements             Defaults         Collections         Other          Total
 (Amounts in thousands)
 Budget Subsidy Rates for Loan Guarantees:
 1. Military Housing Privatization Initiative                       0.00%             0.00%                0.00%          0.00%         0.00%
                                                                                                                                                    65
 2. Armament Retooling & Manufacturing Support
    Initiative                                                      0.00%             0.00%                0.00%          0.00%         0.00%

The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. Since no new loan
guarantees for the ARMS Initiative Program originated in FY 2007 or FY 2006, the table properly presents 0.00% subsidy
rates. In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition
Logistics and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army continues to operate under
the moratorium, and does not anticipate initiating new loan guarantees.




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
     Guarantees
      As of September 30                                                                          2007                  2006
      (Amounts in thousands)
      Beginning Balance, Changes, and Ending Balance:
      1. Beginning Balance of the Loan Guarantee Liability                                $              12,853 $            12,394

      2. Add: Subsidy Expense for Guaranteed Loans Disbursed during the
         Reporting Years by Component
         A. Interest Supplement Costs                                                     $                   0 $                 0
         B. Default Costs (Net of Recoveries)                                                                 0                   0
         C. Fees and Other Collections                                                                        0                   0
         D. Other Subsidy Costs                                                                               0                   0
         E. Total of the above Subsidy Expense Components                                 $                   0 $                 0

      3. Adjustments
         A. Loan Guarantee Modifications                                                  $                 0 $                   0
         B. Fees Received                                                                                   0                     0
         C. Interest Supplements Paid                                                                       0                     0
         D. Foreclosed Property and Loans Acquired                                                      2,290                     0
         E. Claim Payments to Lenders                                                                 (15,310)              (11,436)
         F. Interest Accumulation on the Liability Balance                                               (657)                 (201)
         G. Other                                                                                           0                     0
         H. Total of the above Adjustments                                                $           (13,677) $            (11,637)

      4. Ending Balance of the Loan Guarantee Liability before Reestimates                $               (824) $               757

      5. Add or Subtract Subsidy Reestimates by Component
         A. Interest Rate Reestimate                                                                      2,202                 564
         B. Technical/default Reestimate                                                                 (1,088)             11,532
         C. Total of the above Reestimate Components                                      $               1,114 $            12,096

      6. Ending Balance of the Loan Guarantee Liability                                   $                  290 $           12,853

     The loan guarantee reconciliation displays the calculation for the ending balance of the loan guarantee liability. The interest
     accumulation on the liability balance represents actual accrued interest earned from the U.S. Treasury at September 30,
     2007.


     Administrative Expenses
     Administrative expenses are limited to separately identified expenses incurred for administering guaranteed loans.
     Administrative expenses for the ARMS Initiative include fees paid to the U.S. Department of Agriculture RBS for
66   administering the loan guarantees under the ARMS Initiative, which is a joint program. There were no administrative
     expenses processed in FY 2007 or FY 2006.


     Note 9.              Inventory and Related Property
      As of September 30                                                             2007                            2006
      (Amounts in thousands)
      1. Inventory, Net                                                     $                     0      $                  94,400
      2. Operating Materiels & Supplies, Net                                             33,938,649                     38,544,639
      3. Stockpile Materiels, Net                                                                 0                              0

      4. Total                                                              $            33,938,649      $              38,639,039
Inventory, Net
 As of September 30                                                         2007                                     2006
 (Amounts in thousands)                               Inventory, Gross     Revaluation       Inventory,      Inventory,    Valuation
                                                           Value           Allowance            Net             Net         Method
 1. Inventory Categories
    A. Available and Purchased for Resale              $             0 $                 0 $          0 $       17,995       LAC
    B. Held for Repair                                               0                   0            0              0
    C. Excess, Obsolete, and Unserviceable                           0                   0            0              0       NRV
    D. Raw Materials                                                 0                   0            0              0
    E. Work in Process                                               0                   0            0         76,405

   F. Total                                            $             0 $                 0 $          0 $       94,400

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price
AC = Actual Cost


The Army General Fund has been actively closing out the Conventional Ammunition Working Capital Fund (CAWCF)
and its inventory since 1998. During FY 2007, the residual balance was reconciled and expensed bringing the CAWCF
inventory balance to zero. The inventory of ammunitions is now fully reported in Operating Materiels and Supplies.


Operating Materiels and Supplies, Net
 As of September 30                                                      2007                                       2006
                                                    OM&S Gross       Revaluation                                            Valuation
 (Amounts in thousands)                               Value          Allowance        OM&S, Net            OM&S, Net         Method
 1. OM&S Categories
    A. Held for Use                               $ 33,938,649 $        0 $              33,938,649       $ 38,544,639       LAC
    B. Held for Repair                                       0          0                         0                  0
    C. Excess, Obsolete, and Unserviceable             344,548   (344,548)                        0                  0        SP

   D. Total                                       $ 34,283,197 $ (344,548) $             33,938,649       $ 38,544,639

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price
AC = Actual Cost


Relevant Information for Comprehension
                                                                                                                                        67
Operating Materiels and Supplies (OM&S) includes ammunition, tactical missiles and related spare and repair parts. The
category, Held for Use, includes all Materiel able to be issued. Economically repairable Materiel is categorized as held for
repair.

Managers determine which items are more costly to repair than to replace. Items retained for management purposes are
coded condemned. The net value of these items is zero, and is shown as Excess, Obsolete and Unserviceable.

The Army General Fund establishes an allowance for excess, obsolete, and unserviceable OM&S and inventory at 100% of
the carrying amount in accordance with DoD policy.



                                                                     Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     The value of the Army’s Government Furnished Materiel and Contractor Acquired Materiel in the hands of contractors is
     normally not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
     amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and report
     required information without duplicating information in other existing logistics systems.

     There are no restrictions on the use, repair or disposition of OM&S.


     Stockpile Materiels, Net
     Not Applicable.


     Note 10. General PP&E, Net
         As of September 30                                                                   2007                                           2006
         (Amounts in thousands)                       Depreciation/                                  (Accumulated
                                                      Amortization      Service        Acquisition   Depreciation/                         Prior FY Net
                                                        Method           Life            Value        Amortization)   Net Book Value       Book Value
         1. Major Asset Classes
           A. Land                                       N/A             N/A       $     523,766             N/A $         523,766     $        515,882
           B. Buildings, Structures, and Facilities      S/L          20 Or 40        48,528,857 $ (30,347,146)         18,181,711           16,330,392
           C. Leasehold Improvements                     S/L          lease term          26,281         (13,772)           12,509                3,726
           D. Software                                   S/L          2-5 Or 10          504,065       (147,276)           356,789              289,697
           E. General Equipment                          S/L           5 or 10         3,913,888     (1,799,313)         2,114,575            1,130,196
           F. Military Equipment                         S/L           Various       102,951,201   (40,243,966)         62,707,235           58,869,805
           G. Assets Under Capital Lease                 S/L          lease term         166,617       (154,223)            12,394               19,506
           H. Construction-in- Progress                  N/A             N/A           7,033,929             N/A         7,033,929            7,064,762
            I. Other                                                                      25,111               0            25,111               19,884
           J. Total General PP&E                                                   $ 163,673,715 $ (72,705,696) $       90,968,019     $     84,243,850

     1
         Note 15 for additional information on Capital Leases

     Legend for Valuation Methods:
     S/L = Straight Line
     N/A = Not Applicable


     Relevant Information for Comprehension

     Other includes the projected value of timber reserves.

     Military Equipment

     In accordance with the requirements of SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and
     Equipment,” beginning in FY 2003, the Army capitalized military equipment into General PP&E at estimated historical
68   cost using information obtained from the Bureau of Economic Analysis (BEA). In FY 2006, the Army General Fund began
     valuing these assets using actual expenditure data and moved away from the BEA cost estimation methodology. The move
     from the BEA model was made at 3rd Quarter, FY 2006, thus FY 2007 values for military equipment above are based on
     actual data.

     Other Disclosures

     Currently, there are no restrictions on the use/convertibility of General PP&E outside the continental United States.

     Other Information Related to Heritage Assets and Stewardship Land

     The mission of the Department of Defense, including the Army, is to provide the military forces needed to deter war and
protect the security of the United States by organizing, training, supplying, equipping and mobilizing forces for assignment
in support of that mission. Executing this mission requires efficient and effective use of resources in a manner that ensures
operational and environmental sustainability, while respecting the history and heritage that reflect and support the military
mission. The Army has stewardship responsibilities for heritage assets that date not only from the military history of the
land, but from prior historic occupations. The Army relies upon heritage assets, such as historic buildings and stewardship
land for daily use in administration, housing and training soldiers. Those heritage assets not currently employed as “multi-
use,” such as archeological collections or museum collections, are items that embody the multi-faceted history of the land,
the military, the local communities and the nation - the heritage that the Department of Defense defends.

The Army’s policy for managing cultural resources and heritage assets are published in Army Regulations 200-4 and 870-20.
These policies provide in-depth procedures for managing the Army’s cultural resources and museum collections. The Army
Regulations take into account the Army’s responsibilities under various legal compliance requirements, such as the National
Historic Preservation Act, the Native American Graves Protection and Repatriation Act, the National Environmental Policy
Act and the Archeological Resources Protection Act, among others. The regulations provide guidance to all active Army,
Army Reserves, and National Guard units and installations as to the appropriate policies, responsibilities, procedures and
requirements affecting heritage assets. These policies are designed to ensure that Army installations and commanders make
informed decisions regarding the cultural resources under their stewardship in compliance with public laws, in support of
the military mission and consistent with sound principles of cultural resource management.

Heritage assets are items that are distinguished by one or more of the following characteristics:
    1. Historical or natural significance;
     2. Cultural, educational, or artistic importance; or
     3. Significant architectural characteristics.

Heritage assets are expected to be preserved. The DoD policy requires that heritage assets be reported within the following
categories:

Museums: Buildings that house collection type items including artwork, archeological artifacts, archival materials and other
historical artifacts. The primary use of such buildings shall be the preservation, maintenance and display of the collection
type Heritage Assets.

Monuments and Memorials: Sites and structures built to honor and preserve the memory of significant individuals and/or
events in history.

Cemeteries: Land on which gravesites of prominent historical figures are located.

Archeological Sites: Land on which items of significance are located.

Buildings and Structures: Includes buildings and structures that are listed on, or eligible for listing, on the National Register
of Historic Places, including Multi-use Heritage Assets. These are buildings other than those used as museums.                      69

Major Collections: Significant collections that are maintained outside of a museum.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Assets Under Capital Lease
      As of September 30                                                            2007                          2006
      (Amounts in thousands)
      1. Entity as Lessee, Assets Under Capital Lease
         A. Land and Buildings                                              $                166,071    $                 166,071
         B. Equipment                                                                            546                          546
         C. Accumulated Amortization                                                        (154,223)                    (147,111)

        D. Total Capital Leases                                             $                 12,394    $                  19,506


     Note 11. Liabilities Not Covered by Budgetary Resources
      As of September 30                                                            2007                          2006
      (Amounts in thousands)
      1. Intragovernmental Liabilities
         A. Accounts Payable                                                $                      0    $                       0
         B. Debt                                                                                   0                            0
         C. Other                                                                            459,482                      472,874
         D. Total Intragovernmental Liabilities                             $                459,482    $                 472,874

      2. Nonfederal Liabilities
         A. Accounts Payable                                                $                 196,499   $                   96,276
         B. Military Retirement and                                                         1,483,177                    1,461,098
         Other Federal Employment Benefits
         C. Environmental Liabilities                                                      43,302,065                 41,662,756
         D. Other Liabilities                                                               4,911,899                  4,493,222
         E. Total Nonfederal Liabilities                                    $              49,893,640   $             47,713,352

      3. Total Liabilities Not Covered by Budgetary Resources               $              50,353,122   $             48,186,226

      4. Total Liabilities Covered by Budgetary Resources                   $              19,871,852   $             22,082,464

      5. Total Liabilities                                                  $              70,224,974   $             70,268,690

     Intragovernmental Liabilities

     Intragovernmental Liabilities, Other consists of unfunded workmen’s compensation liability recognized in accordance with
     the Federal Employees’ Compensation Act, unemployment compensation and miscellaneous receipt accounts custodial
     liability.

     Nonfederal Liabilities
70
     Nonfederal Other Liabilities, Other consists of employer contributions and payroll taxes, contingent liabilities, contract
     holdbacks and custodial liabilities for Iraqi seized cash and the Development Fund for Iraq.

     Other Disclosures

     Military Retirement and Other Federal Employment Benefits not covered by budgetary resources is comprised of various
     employee actuarial liabilities. These liabilities are primarily comprised of Federal Employee Compensation Act benefits
     liability of $1.5 billion. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
     details and disclosures.

     Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before budgetary
     resources can be provided.
Note 12. Accounts Payable
 As of September 30                                                         2007                                           2006
 (Amounts in thousands)                                               Interest, Penalties,
                                                    Accounts          and Administrative
                                                     Payable                 Fees                     Total                Total
 1. Intragovernmental Payables                  $       1,729,904    $         N/A             $      1,729,904 $       1,593,783
 2. Non-Federal Payables (to the Public)                9,108,477                       74            9,108,551        10,884,262

 3. Total                                       $   10,838,381       $                  74 $       10,838,455 $        12,478,045

Other Information Related to Accounts Payable

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts
receivable and unearned revenue. Accounts payable were adjusted by reclassifying between federal and nonfederal accounts
payable.


Note 13. Debt
 As of September 30                                                     2007                                       2006
 (Amounts in thousands)                              Beginning          Net           Ending              Net              Ending
                                                      Balance        Borrowing        Balance          Borrowing           Balance
 1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                         $      11,404 $       15,302 $           26,706    $      11,404   $      11,404
    B. Debt to the Federal Financing Bank                       0              0                  0                0               0
    C. Total Agency Debt                            $      11,404 $       15,302 $           26,706    $      11,404   $      11,404

 2. Total Debt                                      $      11,404 $       15,302 $           26,706    $      11,404   $      11,404

The Army General Fund, by means of Armament Retooling and Manufacturing Support (ARMS) Initiative legislation,
established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities.
When a borrower defaults on a guaranteed loan, the Army General Fund executes borrowing authority with the U.S.
Treasury to pay the lender the outstanding principal guaranteed resulting in a debt with the U.S. Treasury. The total debt of
$26.7 million consists of interest and principal payments due to the U.S. Treasury for two ARMS loan defaults.




                                                                                                                                       71




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 14. Environmental Liabilities and Disposal Liabilities
      As of September 30                                                                        2007                           2006
      (Amounts in thousands)                                                    Current       Noncurrent
                                                                                Liability      Liability        Total          Total
      1. Environmental Liabilities--Nonfederal
        A. Accrued Environmental Restoration Liabilities
           1. Active Installations—Installation Restoration Program (IRP)
              and Building Demolition and Debris Removal (BD/DR)            $     377,052 $    2,499,485 $     2,876,537 $    2,919,243
           2. Active Installations—Military Munitions Response Program
              (MMRP)                                                               30,183      3,197,716       3,227,899      3,317,790
           3. Formerly Used Defense Sites—IRP and BD/DR                           151,486      3,662,513       3,813,999      4,169,579
           4. Formerly Used Defense Sites—MMRP                                     89,198     14,607,590      14,696,788     14,797,277

        B. Other Accrued Environmental Liabilities—Active Installations
           1. Environmental Corrective Action                                      23,534        545,089         568,623        372,012
           2. Environmental Closure Requirements                                    2,759        189,718         192,477         96,847
           3. Environmental Response at Operational Ranges                         34,207        148,861         183,068        304,086
           4. Other                                                                     0         46,557          46,557         35,676

        C. Base Realignment and Closure (BRAC)
          1. Installation Restoration Program                                     182,044        612,211         794,255        523,686
          2. Military Munitions Response Program                                   31,062        845,348         876,410        800,312
          3. Environmental Corrective Action / Closure Requirements                16,347         96,747         113,094         32,276
          4. Other                                                                      0              0               0        149,165

        D. Environmental Disposal for Weapons Systems Programs
           1. Nuclear Powered Aircraft Carriers                                         0              0               0              0
           2. Nuclear Powered Submarines                                                0              0               0              0
           3. Other Nuclear Powered Ships                                               0              0               0              0
           4. Other National Defense Weapons Systems                                    0              0               0              0
           5. Chemical Weapons Disposal Program                                 1,458,413     16,850,231      18,308,644     17,457,288
           6. Other                                                                     0              0               0              0

      2. Total Environmental Liabilities                                    $   2,396,285 $ 43,302,066 $ 45,698,351 $ 44,975,237



     Environmental Disclosures
     Not Applicable.

     Other Disclosures

      Others Category Disclosure Comparative Table
      (Amounts in thousands)                                                                           2007                  2006
      Other Accrued Environmental Costs - Other
72      Low Level Radio Active Waste                                                                       $46,357             $35,676


      Base Realignment and Closure - Other
        BRAC Unliquidated Liabilities that cannot be categorized within BRAC                                                   149,165
        program lines on Note 14
      Total                                                                                                $46,357            $184,841

     Applicable Laws and Regulations

     The Army General Fund is required to clean up contamination resulting from past waste disposal practices, leaks, spills and
     other past activity prior to 1986 from hazardous substances and wastes that created a public health or environmental risk
     and prior to FY 2003 from unexploded ordnance (UXO), discarded military munitions and munitions constituents at other
than operational ranges, under the Defense Environmental Restoration Program (DERP), established by Section 211 of the
Superfund Amendments and Reauthorization Act of 1986 codified in Title 10 of the United States Code 2701. The Army
General Fund is also required to clean up contamination resulting from waste disposal practices, leaks, spills and other
activity after 1986 from hazardous substances and wastes and after FY 2003 from UXO, discarded military munitions and
munitions constituents migrating from an operational range, under the Army Compliance Cleanup Program.

The Army is required to destroy the chemical stockpile and nonstockpile, as part of the Chemical Demilitarization
Program. The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts), directed the
DoD to destroy the unitary chemical stockpile while providing for maximum protection of the environment, public and
personnel involved in the destruction effort. The 1993 Defense Authorization Act (PL 102-484) required the establishment
of the NonStockpile Chemical Material Project to safely dispose of all nonstockpile chemical material. The destruction
operations being carried out using the facilities and equipment developed and fielded as part of the program are also subject
to numerous federal and state environmental regulations.

Applicable laws are as follows for the DERP, NonDERP, Low Level Radioactive Waste and the BRAC programs:
         Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
         Superfund Amendments and Reauthorization Act
         Clean Water Act
         Safe Drinking Water Act
         Clean Air Act
         Resource Conversation and Recovery Act (RCRA)
         Toxic Substances Control Act (TSCA)
         Low Level Radioactive Waste Policy Amendments
         National Defense Authorization Acts

Types of Environmental Liabilities and Disposal Liabilities Identified

The Army General Fund has environmental cleanup requirements for the DERP sites at active installations, BRAC
installations, Formerly Used Defense Sites, nonDERP sites at active installations, weapon systems programs and chemical
weapons disposal programs. The DERP and nonDERP sites are required to clean up contamination in coordination with
regulatory agencies, other responsible parties and current property owners. Environmental disposal for weapons systems
programs consists of chemical weapons disposal, including the destruction of the entire U.S stockpile of chemical agents
and munitions and disposal of nonstockpile chemical material. This includes binary chemical weapons, old chemical
weapons recovered as part of remediation and recovery operations and miscellaneous materiel associated with chemical
weapon production, storage, testing, maintenance and disposal.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods
                                                                                                                                  73
The Army General Fund uses engineering estimates and independently validated models to estimate environmental
liabilities. The Remedial Action Cost Engineering Requirements (RACER) is the Army’s preferred model. The Army
General Fund relies upon the Air Force, which is the RACER executive agent, to validate the model in accordance
with DoD Instruction 5000.61 and primarily uses the model to estimate the liabilities based on data received during
a preliminary assessment and initial site investigation. The Army primarily uses engineering estimates after obtaining
extensive data during the remedial investigation/feasibility phase of the environmental project. Once the environmental
cost estimates are complete, the Army complies with accounting standards to assign costs to current operating periods.

In compliance with accounting standards, the Army General Fund expenses the costs for cleanup associated with general



                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     property, plant and equipment (PP&E) placed into service prior to October 1, 1997 unless the costs are intended to be
     recovered through user charges. If the costs are recovered through user charges, then the Army General Fund expenses the
     portion of the asset’s useful life that has passed since the general PP&E was placed into service and systematically recognizes
     the remaining cost over the life of the asset.

     For General PP&E placed into service after September 30, 1997, the Army General Fund is required to recognize
     an environmental liability when General PP&E is placed into service and expense the associated environmental costs
     systematically over the life of the asset. The Army currently does not recognize an environmental liability when General
     PP&E is placed into service.

     For the Chemical Weapons Disposal Programs, the basis for calculating environmental liabilities is an estimate developed
     using parametric, analogous or engineering methodologies, as appropriate. A component of the estimate is based on
     analysis of historical processing rates with down time adjustments. The cost methodology is based on the historical costs
     of the project and utilizes the Army cost analysis community directed Automated Cost Estimating Integrated Tool software
     as the platform for cost modeling. To the greatest extent possible, actual costs are broken down to produce a site-specific
     model based on actual or analogous costs. Inclusion of site-specific schedules in the model results in the current working
     estimate. The estimate and its methodology have been independently reviewed, supported and approved by the Deputy
     Assistant Secretary of the Army (Cost and Economics) staff, as well as the Army Cost Review Board, the Assistant Secretary
     of the Army (Financial Management and Comptroller) and the Army Acquisition Executive.

     Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
     Deflation, Technology, or Applicable Laws and Regulations

     The Army General Fund had changes in estimates resulting from overlooked or previously unknown contaminants, better
     site characterization with sampling, reestimation based on different assumptions and lessons learned. Environmental
     liabilities can also change in the future due to changes in laws and regulations, changes in agreements with regulatory
     agencies and advances in technology.

     Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environmental
     Liabilities

     The environmental liabilities for the Army General Fund are based on accounting estimates, which require certain
     judgments and assumptions that are believed to be reasonable based upon information available to us at the time of
     calculating the estimates. The actual results may materially vary from the accounting estimates if agreements with
     regulatory agencies require remediation to a different degree than anticipated when calculating the estimates. The liabilities
     can be further impacted if further investigation of the environmental sites discloses contamination different than known at
     the time of the estimates.

     For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in
     the approved baseline are based on the best information available and have been through the formal Acquisition Program
74   Baseline approval process at the time of report submission. It should be noted that they are subject to fact of life changes
     and impacts from program risks and uncertainties inherent to the task of chemical demilitarization and the political
     sensitivity of the program. These risks may include processing changes required to meet operational schedules due to the
     deteriorating condition of the stockpile and additional schedule time and/or cost to address changes in environmental laws
     or Congressional requirements.

     In addition to the liabilities reported above, the Army General Fund is uncertain regarding the extent of the liabilities at
     installations that are realigning or closing as a result of the FY 2005 BRAC round. The Army General Fund is in the process
     of determining the extent of environmental liabilities at bases due to realign or close; in particular those liabilities associated
     with unexploded ordnance on training ranges that are due to realign or close.

     The Army General Fund is also uncertain regarding the extent of NonDERP closure environmental liabilities at Active
installations. The Army General Fund is in the process of determining the extent of environmental liabilities associated with
NonDERP closure requirements.

In addition, the Army General Fund reports the costs for restoration initiatives in conjunction with returning overseas
Defense facilities to host nations. The Army General Fund is currently unable to provide a reasonable estimate because the
extent of restoration required is not known.

Other Accrued Environmental Costs, Other consists of Low Level Radioactive Waste.

The Army General Fund reports zeros in the Environmental Disclosure table. The Army General Fund is unable to
systematically report and gather information for items presented above. These reporting deficiencies result from system
and internal control weaknesses. The Army General Fund will continue coordination with the Office of the Under
Secretary of Defense (Comptroller) to address these deficiencies and outline specific additional tasks and milestones in the
Army Chief Financial Officers Strategic Plan by 4th Quarter, FY 2010.


Note 15. Other Liabilities
 As of September 30                                                               2007                             2006
 (Amounts in thousands)                                          Current      Noncurrent
                                                                 Liability     Liability          Total             Total
 1. Intragovernmental
    A. Advances from Others                           $   134,514 $                    0 $        134,514     $      155,613
    B. Deposit Funds and Suspense Account Liabilities     243,120                      0          243,120            704,266
    C. Disbursing Officer Cash                          2,183,051                      0        2,183,051          1,784,811
    D. Judgment Fund Liabilities                               90                      0               90                  0
    E. FECA Reimbursement to the Department of Labor      139,098                140,603          279,701            275,285
    F. Other Liabilities                                  244,977                      0          244,977            261,321

   G. Total Intragovernmental Other Liabilities              $ 2,944,850 $       140,603 $      3,085,453     $    3,181,296

 2. Nonfederal
    A. Accrued Funded Payroll and Benefits                   $ 1,258,178 $               0 $    1,258,178     $      918,321
    B. Advances from Others                                    1,405,272                 0      1,405,272          1,222,335
    C. Deferred Credits                                                0                 0              0                  0
    D. Deposit Funds and Suspense Accounts                            (2)                0             (2)                 0
    E. Temporary Early Retirement Authority                            0                 0              0                  0
    F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                             0              0                0                  0
        (2) Excess/Obsolete Structures                                  0              0                0                  0
        (3) Conventional Munitions Disposal                             0      1,284,052        1,284,052          1,217,768
    G. Accrued Unfunded Annual Leave                            3,277,007              0        3,277,007          3,078,597
    H. Capital Lease Liability                                      5,814         14,854           20,668             33,053
     I. Other Liabilities                                       1,087,495        759,872        1,847,367          1,678,683
                                                                                                                                   75
   J. Total Nonfederal Other Liabilities                     $ 7,033,764 $ 2,058,778 $          9,092,542     $    8,148,757

 3. Total Other Liabilities                                  $ 9,978,614 $ 2,199,381 $ 12,177,995             $ 11,330,053

Intragovernmental

Intragovernmental Other Liabilities, Other consists of Advances from Others; Deposit Funds and Suspense Accounts;
Disbursing Officer Cash; unemployment compensation; cancelled accounts receivable; employee benefits for retirement,
health and life insurance; and the education benefits trust fund.



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Nonfederal

     Nonfederal Other Liabilities, Other consists of employer contributions and payroll taxes, contingent liabilities, contract
     holdbacks and custodial liabilities for Iraqi seized cash and the development fund for Iraq.

     Contingent liabilities include $452.6 million in estimated future contract financing payments that will be paid to the
     contractor upon delivery and Government acceptance of a satisfactory product. In accordance with contract terms, specific
     rights to the contractor’s work vests with the Government when a specific type of contract financing payment is made,
     thereby, protecting taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as
     the rights of ownership. The Army General Fund is under no obligation to pay the contractor for amounts greater than
     the amounts authorized in the contract until delivery and Government acceptance of a satisfactory product. Because it is
     probable that the contractor will complete its efforts and deliver a satisfactory product to the Department and the amount
     of potential future payments are estimable, the Department has recognized liability for estimated future payments, which
     are conditional pending delivery and Government acceptance of a satisfactory product.


     Capital Lease Liability
      As of September 30                                                            2007                                    2006
      (Amounts in thousands)                                                    Asset Category
                                                           Land and
                                                           Buildings        Equipment        Other           Total          Total
      1. Future Payments Due
         A. 2007                                          $         0       $        0   $           0   $          0   $     18,158
         B. 2008                                                8,529              156               0          8,685          8,685
         C. 2009                                                5,376               93               0          5,469          5,469
         D. 2010                                                5,376                0               0          5,376          5,376
         E. 2011                                                4,510                0               0          4,510              0
         F. 2012                                                2,413                0               0          2,413              0
         G. After 5 Years                                       1,759                0               0          1,759          8,682

        H. Total Future Lease Payments Due                $    27,963       $      249   $           0   $    28,212    $     46,370
        I. Less: Imputed Interest Executory Costs               7,486               57               0         7,543          13,317

        J. Net Capital Lease Liability                    $    20,477       $      192   $           0   $    20,669    $     33,053

      2. Capital Lease Liabilities Covered by
         Budgetary Resources                                                                             $    14,976    $     22,666

      3. Capital Lease Liabilities Not Covered by
         Budgetary Resources                                                                             $      5,692   $     10,387



76   Note 16. Commitments and Contingencies
     Relevant Information for Comprehension

     The Army General Fund is a party in various administrative proceedings and legal actions, with claims including
     environmental damage claims, equal opportunity matters and contractual bid protests.

     We have accrued contingent liabilities for legal actions where the Army’s Office of the General Counsel considers
     an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the
     Government, some of the liabilities may be payable from the Judgment Fund.
Nature of Contingency

The FY 2007 Army Legal Representation Letter outlines claims against the Army General Fund totaling $1.3 trillion for
which the Army Office of General Counsel is unable to express an opinion. The historical payout percentage for these cases
is less than 1%, or $12.9 billion. To determine the historical payout, the Army Office of General Counsel divides the total
amount reported as a payout in the fiscal year by the total amount of claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities for which the possibility of loss is considered reasonable. These
liabilities are not accrued in the Army General Fund’s financial statements nor reported in the FY 2007 Army Legal
Representation Letter. As of September 30, 2007, the Army General Fund had $446.8 million in claims considered
reasonably possible. These contingent liabilities and estimates are presented in the following table. Estimates for litigations,
claims and assessments are required to be fully supported. Additionally, the Army General Fund has coordinated with Army
Office of General Counsel to ensure that estimates agree with the legal representation letters and management summary
schedule.

(Amounts in thousands)

Title of Contingent Liabilities                                      Estimate
Army Contract Appeals                                                $167,375
Army Environmental Law Division                                       103,100
Administrative Tort and European Environmental Claims                 100,000
Litigation Division                                                    75,737
Network Enterprise Technology Command                                     400
Army Personnel Claims                                                     216
Total                                                                $446,828


Other Information Pertaining to Commitments

The Army General Fund has entered into contractual commitments that require future use of financial resources. It has
significant amounts of long-term lease obligations, undelivered orders and cancelled accounts payable. The amount of
contractual commitments for 4th Quarter, FY 2007 is presented in the following schedule.

(Amounts in thousands)

Title of Contractual Commitments
Long-term lease obligations                                           $20,668
Undelivered orders                                              $108,380,690
Cancelled accounts payable                                          $196,499


The Army General Fund is a party in numerous individual contracts that contain clauses, such as price escalation, award
fee payments, or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, the Army            77
General Fund does not have an automated system by which it captures or assesses these potential contingent liabilities;
therefore, the amounts reported may not fairly present Army General Fund contingent liabilities.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to note 15 for
further details.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 17. Military Retirement and Other Federal Employment
              Benefits
      As of September 30                                                                  2007                                        2006
      (Amounts in thousands)                                                      Assumed      (Less: Assets
                                                                  Present Value    Interest     Available to    Unfunded           Present Value
                                                                   of Benefits    Rate (%)     Pay Benefits)     Liability          of Benefits
      1. Pension and Health Actuarial Benefits
         A. Military Retirement Pensions                      $               0               $           0 $                0 $               0
         B. Military Retirement Health Benefits                               0                           0                  0                 0
         C. Military Medicare-Eligible Retiree Benefits                       0                           0                  0                 0
         D. Total Pension and Health Actuarial Benefits       $               0               $           0 $                0 $               0

      2. Other Actuarial Benefits
         A. FECA                                              $ 1,483,177           5.31% $               0 $ 1,483,177 $ 1,461,098
         B. Voluntary Separation Incentive Programs                     0                                 0           0           0
         C. DoD Education Benefits Fund                                 0                                 0           0           0
         D. Total Other Actuarial Benefits                    $ 1,483,177                     $           0 $ 1,483,177 $ 1,461,098

      3. Other Federal Employment Benefits                    $               0               $           0 $                0 $               0

      4. Total Military Retirement and Other Federal
         Employment Benefits:                                 $ 1,483,177                     $           0 $ 1,483,177 $ 1,461,098

     Actuarial Cost Method Used:
     Assumptions:
     Market Value of Investments in Market-based and Marketable Securities:


     Federal Employees Compensation Act (FECA)

     Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation benefits is developed by the
     Department of Labor and provided to the Army General Fund each fiscal year end. The liability includes the expected
     liability for death, disability, medical and miscellaneous costs for approved compensation cases. The liability is determined
     using a method that utilizes historical benefit payment patterns to predict the ultimate payments.

     Assumptions: The projected annual benefit payments are discounted to the present value using the Office of Management
     and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living adjustments and medical
     inflation factors provided by the Department of Labor are also applied to the calculation of projected future benefits. The
     estimated actuarial liability is updated only at the end of each fiscal year.


     Note 18. General Disclosures Related to the Statement of Net
              Cost
78    Intragovernmental Costs and Exchange Revenue
      As of September 30                                                                      2007                           2006
      (Amounts in thousands)
      1. Intragovernmental Costs                                                  $             46,435,946       $              43,852,069
      2. Public Costs                                                                          132,310,910                     131,165,204
      3. Total Costs                                                              $            178,746,856       $             175,017,273

      4. Intragovernmental Earned Revenue                                         $               (8,139,817)    $               (9,063,319)
      5. Public Earned Revenue                                                                    (1,683,378)                    (1,340,202)
      6. Total Earned Revenue                                                     $               (9,823,195)    $             (10,403,521)

      7. Net Cost of Operations                                                   $            168,923,661       $             164,613,752
Definitions

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs

The Consolidated Statement of Net Cost in the Federal government is unique because its principles are driven by
understanding the net cost of programs and/or organizations that the Federal government supports through appropriations
or other means. This statement provides gross and net cost information that can be related to the amount of output or
outcome for a given program and/or organization administered by a responsible reporting entity.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual and disbursing
transactions, which are not always recorded using accrual accounting. The Army General Fund’s systems do not always
record the transactions on an accrual basis as is required by the generally accepted accounting principles. The information
presented also includes data from nonfinancial feeder systems to capture all cost and financing sources for the Army General
Fund.

Additional Disclosures

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Additional
expenses are accrued when the Army General Fund balance is lower than the other DoD entity.

The Army General Fund accounting system does not capture information relative to Heritage Assets separately and
distinctly from normal operations. The Army General Fund is not able to separately identify the costs of acquiring,
constructing, improving, reconstructing or renovating heritage assets. The Army Chief Financial Officers Strategic Plan
outlines tasks to separately identify and report costs associated with Heritage Assets by 1st Quarter, FY 2010.


Note 19. Disclosures Related to the Statement of Changes in Net
         Position
 As of September 30                                                      2007                                   2006
 (Amounts in thousands)                                   Cumulative Results     Unexpended      Cumulative Results     Unexpended
                                                            of Operations       Appropriations     of Operations       Appropriations
 1. Prior Period Adjustments Increases
   (Decreases) to Net Position Beginning Balance
    A. Changes in Accounting Standards                    $   (3,780,694) $       3,780,694 $                    0 $                0
    B. Errors and Omissions in Prior Year Accounting
       Reports                                                            0                  0      (42,829,096)                    0

 C. Total Prior Period Adjustments                        $   (3,780,694) $       3,780,694 $ (42,829,096) $                        0   79

 2. Imputed Financing
    A. Civilian CSRS/FERS Retirement                      $       287,082 $                  0 $         306,148 $                  0
    B. Civilian Health                                            600,060                    0           561,369                    0
    C. Civilian Life Insurance                                      1,843                    0             1,784                    0
    D. Judgment Fund                                               65,998                    0            94,807                    0
    E. IntraEntity                                                      0                    0                 0                    0

 F. Total Imputed Financing                               $       954,983 $                  0 $         964,108 $                  0




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Prior Period Adjustments: Changes in Accounting Standards

     The Army GF recognized a $3.8 billion prior period adjustment in FY 2007, which decreased cumulative results of
     operations and increased unexpended appropriations by the same amount. The adjustment relates to a change in reporting
     parent/child allocation transfers, and is presented as a change in accounting principle. The change affects the Balance Sheet
     and the Statement of Changes in Net Position. In accordance with the exceptions identified in Office of Management and
     Budget (OMB) Circular A-136, “Financial Reporting Requirements,” the Army is required to report all financial activity
     of the Iraq Relief and Reconstruction Fund carried out on behalf of the Executive Office of the President. Previous OMB
     guidance required the child to report material financial activity except for budgetary transactions. Effective FY 2007, OMB
     requires Army to also report this budgetary activity resulting in this prior period adjustment.

     Prior Period Adjustments: Errors and Omissions in Prior Year Accounting Reports

     In the Statement of Changes in Net Position, all offsetting balances (i.e., transfers-in and transfers out, revenues and
     expenses) for intraDoD activity between earmarked and nonearmarked funds are reported on the same lines. This results
     in an eliminations column, which appears to contain no balances. In reality, the column contains all appropriate elimination
     entries, but all net to zero within each respective line, except for intraentity imputed financing costs.

     Cumulative Results of Operations

     Other Budgetary Financing Sources (All Other Funds) and Other Financing Sources (Other) represent adjustments to bring
     the proprietary accounts into agreement with the budgetary accounts. Due to system deficiencies, there are unreconciled
     differences between the budgetary and proprietary trial balances. The net effect of these adjustments is reflected on Other
     Budgetary Financing Sources and Other Financing Sources on the Statement of Net Position.

     Unexpended Appropriations

     Appropriations Received (All Other Funds) on the Statement of Changes in Net Position does not agree with the
     Appropriations Received on the Statement of Budgetary Resources. The difference of $15.8 million is due to additional
     resources included in the Appropriation Received on the Statement of Budgetary Resources. Refer to Note 20 for
     additional details.

     Earmarked Cumulative Results of Operations ending balance on the Statement of Changes in Net Position does not agree
     with the Earmarked Cumulative Results reported on the Balance Sheet because the cumulative results on the Balance Sheet
     are presented net of eliminations.


     Note 20. Disclosures Related to the Statement of Budgetary
              Resources
80    As of September 30                                                                         2007                2006
      (Amounts in thousands)
      1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at             $   108,380,690 $         80,977,698
         the End of the Period

      2. Available Borrowing and Contract Authority at the End of the Period                               0             11,404

     Undelivered Orders

     Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both
     direct and reimbursable funds.
Reporting of Appropriations Received

Appropriations received on the Statement of Budgetary Resources does not agree with appropriations received on the
Statements of Changes in Net Position because of differences between proprietary and budgetary accounting concepts
and reporting requirements. The differences are made up of the recording of receipts for trust and special funds and the
appropriations anticipated indefinite accounts.

Presentation of Statement of Budgetary Resources

The Statement of Budgetary Resources does not include eliminating entries because the statements are presented as
combined.

Breakdown of Apportionment Categories

Office of Management and Budget Circular A-136 specifically requires disclosure of the amount of direct and reimbursable
obligations incurred against amounts apportioned under Category A (apportioned by fiscal quarter), Category B
(apportioned by project or activity), and Exempt from Apportionment. Obligations incurred consists of $207.3 billion
in Category A, Direct; $9.7 billion in Category B, Direct; $19.8 billion in Category A, Reimbursable; and $6.0 billion in
Category B, Reimbursable. The nonbudgetary obligations are all Category A, Direct, $16.5 million. This disclosure agrees
with the aggregate of the related information as reported on the Budgetary Execution Report and Obligations Incurred on
the Statement of Budgetary Resources.

Terms of Borrowing Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support
(ARMS) Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund ammunition
plants through many incentives for businesses willing to locate to a government ammunition production facility. The Army
General Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial
firms’ use of specified ammunition manufacturing facilities. The Army General Fund and Department of Agriculture Rural
Business-Cooperative Service (RBS) established a Memorandum of Understanding for the RBS to administer the ARMS
Initiative Loan Guarantee Program.

Available Borrowing Authority as of September 30, 2007, is $15.5 million.

This note has been modified to accurately report the remaining available balance of borrowing and contract authority.
Previously, the Army General Fund reported the amount of the contract/borrowing authority that had initially been used
and not subsequently replaced by reimbursement or appropriation.



                                                                                                                                  81




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 21. Reconciliation of Net Cost of Operations to Budget
      As of September 30                                                                                   2007           2006
      (Amounts in thousands)
      Resources Used to Finance Activities:
      Budgetary Resources Obligated:
         1. Obligations incurred                                                                       $ 242,763,749 $ 212,360,771
         2. Less: Spending authority from offsetting collections and recoveries (-)                      (42,151,175)  (39,862,247)
         3. Obligations net of offsetting collections and recoveries                                   $ 200,612,574 $ 172,498,524
         4. Less: Offsetting receipts (-)                                                                    807,967      (783,002)
         5. Net obligations                                                                            $ 201,420,541 $ 171,715,522
      Other Resources:
         6. Donations and forfeitures of property                                                                   0        27,458
         7. Transfers in/out without reimbursement (+/-)                                                    1,689,316       565,989
         8. Imputed financing from costs absorbed by others                                                   954,983       964,108
         9. Other (+/-)                                                                                  (12,496,623)    (2,232,921)
        10. Net other resources used to finance activities                                             $   (9,852,324) $   (675,366)
        11. Total resources used to finance activities                                                 $ 191,568,217 $ 171,040,156

      Resources Used to Finance Items not Part of the Net Cost of Operations:
        12. Change in budgetary resources obligated for goods, services and benefits ordered but
            not yet provided:
          12a. Undelivered Orders (-)                                                                  $ (24,007,538) $ (9,451,160)
          12b. Unfilled Customer Orders                                                                    2,630,346      1,225,872
        13. Resources that fund expenses recognized in prior Periods (-)                                      (61,901)     (294,876)
        14. Budgetary offsetting collections and receipts that do not affect Net Cost of Operations         (807,682)       783,327
        15. Resources that finance the acquisition of assets (-)                                         (15,269,738)   (30,921,685)
        16. Other resources or adjustments to net obligated resources that do not affect Net Cost of
            Operations:
          16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s Budget (-)                 0              0
          16b. Other (+/-)                                                                                10,807,307      1,639,474
        17. Total resources used to finance items not part of the Net Cost of Operations               $ (26,709,206) $ (37,019,048)
        18. Total resources used to finance the Net Cost of Operations                                 $ 164,859,011 $ 134,021,108

      Components of the Net Cost of Operations that will not Require or Generate Resources in
      the Current Period:
      Components Requiring or Generating Resources in Future Period:
        19. Increase in annual leave liability                                                         $           0 $       100,742
        20. Increase in environmental and disposal liability                                                 723,114       5,214,723
        21. Upward/Downward reestimates of credit subsidy expense (+/-)                                            0               0
        22. Increase in exchange revenue receivable from the public (-)                                            0               0
        23. Other (+/-)                                                                                      590,196         223,353
        24. Total components of Net Cost of Operations that will Require or Generate Resources in
            future periods                                                                             $    1,313,310 $    5,538,818
      Components not Requiring or Generating Resources:
        25. Depreciation and amortization                                                              $    3,970,548 $   23,824,451
        26. Revaluation of assets or liabilities (+/-)                                                         49,629            404
        27. Other (+/-)
82         27a. Trust Fund Exchange Revenue                                                                         0              0
           27b. Cost of Goods Sold                                                                                  0          3,061
           27c. Operating Material and Supplies Used                                                                0              0
           27d. Other                                                                                      (1,268,837)     1,225,910
        28. Total Components of Net Cost of Operations that will not Require or Generate Resources     $    2,751,340 $   25,053,826
        29. Total components of Net Cost of Operations that will not Require or Generate
            Resources in the current period                                                            $   4,064,650 $ 30,592,644
        30. Net Cost of Operations                                                                     $ 168,923,661 $ 164,613,752

     Required Disclosures

     The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between
     net obligations from budgetary accounting and net cost of operations from proprietary accounting. The following
     Reconciliation of New Cost of Operations to Budget lines are presented as combined instead of consolidated due to intra-
agency budgetary transactions not being eliminated:

Obligations Incurred,
Less: Spending Authority from Offsetting Collections and Recoveries,
Obligations Net of Offsetting Collections and Recoveries,
Less: Offsetting Receipts,
Net Obligations,
Undelivered Orders, and
Unfilled Customer Orders.

Other Resources – Other, and Other resources or adjustments to net obligated resources that do not affect net cost of
operations – Other include Other Gains and Losses that represents adjustments to bring the proprietary accounts into
agreement with the budgetary accounts. Due to system deficiencies, there are unreconciled differences between the
budgetary and proprietary trial balances. In addition, Other resources or adjustments to net obligated resources that do not
affect net cost of operations – Other includes transfers in and out without reimbursement.

Other Components Requiring or Generating Resources in Future Period represents increases in future funded expense for
various liabilities such as the Federal Employment Compensation Act, Judgment Fund, Unemployment Compensation and
Closed Accounts Payable.

Other Components not Requiring or Generating Resources is comprised of Other Expenses not Requiring Budgetary
Resources for the Iraqi Relief and Reconstruction Fund. The Iraqi Relief and Reconstruction Fund is a transfer fund where
the Army General Fund executes the funding on behalf of the Executive Office of the President. The U.S. Treasury requires
that the execution for this type of transfer is presented on the Army General Fund financial statements.

Components Requiring or Generating Resources in Future Period reports $1.3 billion of increases in unfunded expenses
that were incurred during FY 2007. The cumulative total of unfunded expenses from all fiscal years is reported as Liabilities
Not Covered by Budgetary Resources in Note 11.

Liabilities not covered by budgetary resources on the Army General Fund Balance Sheet totals $70.2 billion and the amount
reported here as requiring or generating resources in future periods totals $1.3 billion. The difference of $68.9 billion is
primarily due to the differing perspectives. Liabilities not covered by budgetary resources report the cumulative balance for
Balance Sheet liabilities not yet funded; whereas, as components requiring or generating resources in future periods reflect
only the current period changes for all unfunded liabilities.

Resources used to Finance Activities, Other consist of the Other Gains and Losses, Nonbudgetary. Other resources or
adjustments to net obligated resources that do not affect net cost of operations, consists of Other Gains and Losses and
Transfers in without reimbursement. Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period, Other consists of Future Funded Expenses and Future Funded Unemployment.
Components not Requiring or Generating Resources, Other consists of the cost capitalization offset, bad debt expense, and
other expenses not requiring budgetary resources.


Note 22. Disclosures Related to Incidental Custodial Collections                                                                    83
The Army General Fund collected $278,184.43 during FY 2007 for fines, penalties and forfeitures of bonds under
immigration and labor laws. All collections were disbursed to Treasury as miscellaneous receipts. Some of the items
included in this category are forfeiture of bonds posted by aliens; penalties for violation of the Eight Hour Law, Fair Labor
Standards Act, Public Contracts Act, Labor-Management Reporting and Disclosure Act, Migrant Labor Agreement and
other labor laws; and unclaimed back wages under any of these acts.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Note 23. Earmarked Funds
                                                                                 Medicare
                                                                  Military    Eligible Retiree     Other
     BALANCE SHEET                                               Retirement    Health Care       Earmarked
                                                                   Fund             Fund           Funds     Eliminations       Total
     As of September 30, 2007
     (Amounts in thousands)


     ASSETS
        Fund balance with Treasury                              $        0 $                0 $    48,282    $       0      $    48,282
        Investments                                                      0                  0       2,545            0            2,545
        Accounts and Interest Receivable                                 0                  0      26,695      (26,628)              67
        Other Assets                                                     0                  0         903            0              903
        Total Assets                                            $        0 $                0 $    78,425    $ (26,628)     $    51,797

     LIABILITIES and NET POSITION
        Military Retirement Benefits and Other Federal
        Employment Benefits                                     $        0 $                0 $         0    $       0      $         0
        Other Liabilities                                                0                  0      53,804      (26,628)          27,176
        Total Liabilities                                       $        0 $                0 $    53,804    $ (26,628)     $    27,176

        Unexpended Appropriations                                        0                  0           0               0             0
        Cumulative Results of Operations                                 0                  0      24,621               0        24,621

        Total Liabilities and Net Position                      $        0 $                0 $    78,425    $ (26,628)     $    51,797

     STATEMENT OF NET COST
        Program Costs                                           $        0 $                0 $    19,656    $          0   $    19,656
        Less Earned Revenue                                              0                  0      (2,326)              0        (2,326)
        Net Program Costs                                       $        0 $                0 $    17,330    $          0   $    17,330
        Less Earned Revenues Not Attributable to Programs                0                  0           0               0             0
        Net Cost of Operations                                  $        0 $                0 $    17,330    $          0   $    17,330

     STATEMENT OF CHANGES IN NET POSITION
        Net Position Beginning of the Period                    $        0 $                0 $    42,792    $          0   $    42,792

        Net Cost of Operations                                           0                  0      17,330               0        17,330
        Budgetary Financing Sources                                      0                  0        (995)              0          (995)
        Other Financing Sources                                          0                  0         154               0           154

        Change in Net Position                                  $        0 $                0 $ (18,171)     $          0   $   (18,171)

        Net Position End of Period                              $        0 $                0 $    24,621    $          0   $    24,621


84   Earmarked Funds

     Earmarked Funds represent funds received from outside sources for specific purposes. The Army General Fund receives
     earmarked funds for the following appropriations:

              Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and
              fishing permits. The funds for this account are used for wildlife, fish and game conservation and rehabilitation
              on military reservations. Title 10, United States Code (USC) 670b gives the authority to collect funds for this
              purpose and distribute the funds for the intended purposes.

              Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of
              contamination areas of Rocky Mountain Arsenal. Public Law (PL) 99 661, Section 1367 provides the authority for
              this explicit use.
          Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of
          commemorative memorabilia, trademarks and licensing activities. The funds are used to replenish inventory
          stock for such items and other related Commemorative Program expenses. The authority to create
          expenditures originates from PL 102 484, Section 378.

          Forest and Wildlife Conservation, Military Reservations. These funds are produced from the sale of forest
          products that are in excess of operation and maintenance expenses at fiscal year-end for the payment of
          entitlements to states. The authority and directive for this fund originates from Title 10, USC 2665.

          National Science Center. Funds received from the collection of fees for the use of the National Science Center and
          use for the operation and maintenance of the National Science Center as authorized under PL 99-145, Defense
          Authorization Act, 1986, Section 1459.

          Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest
          on investments for the use of purchasing supplies and equipment for the library at Walter Reed Army Medical
          Center. The Army cannot currently identify the statutory citation that provides authority for the use of this fund.
          The appropriation for this earmark is 21 X 8063.

          Department of the Army General Gift Fund. Funds are received from private parties and estates and used for
          various purposes. Title 10, USC 2601 establishes the authority governing the use of this fund.

The Total Earmarked Funds column is shown as consolidated and relates only to Earmarked Funds. The elimination column
on this note includes only eliminations associated with Earmarked Funds and excludes the offsetting eliminations from All
Other Funds. This exclusion causes assets to not equal liabilities and net position in the note. However, the amounts in the
total column equal the amounts reported for Earmarked Funds on the Balance Sheet.


Note 24. Other Disclosures
 As of September 30                                                                2007
 (Amounts in thousands)                                                        Asset Category
                                                      Land and Buildings     Equipment     Other                  Total
 1. ENTITY AS LESSEE-Operating Leases
    Future Payments Due
    Fiscal Year
    2008                                             $               4,950    $         0    $          0    $          4,950
    2009                                                             3,794              0               0               3,794
    2010                                                             2,118              0               0               2,118
    2011                                                                67              0               0                  67
    2012                                                                67              0               0                  67
    After 5 Years                                                   15,417              0               0              15,417
                                                                                                                                   85
   Total Future Lease Payments Due                   $              26,413    $         0    $          0    $         26,413


Note 25. Restatements
During the reporting period, accounting principle changes were deemed necessary. As a result, prior year changes have
been made retrospectively in accordance with generally accepted accounting principles (GAAP).




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Correction Due to Change in Allocation Transfer Reporting

     Effective FY 2007, the Office of Management and Budget (OMB) Circular A-136 “Financial Reporting Requirements”
     changed the reporting of allocation transfers. Due to this change, the Army General Fund reports in its basic financial
     statements the programs it administers on behalf of the Executive Office of the President (EOP).

     Per OMB Circular A-136 Section I.14.2, the cumulative effect of the change on prior periods should be reported as a
     change in accounting principle, consistent with Statement of Federal Financial Accounting Standards No. 21, “Reporting
     Corrections of Errors and Changes in Accounting Principles.” Although this is not considered an error, due to the material
     impact, beginning balances were changed to accommodate the proper reporting of the EOP balances in the Army General
     Fund’s Statement of Budgetary Resources as outlined below:

                            Statement of Budgetary Resources
                            (Amounts in thousands)

                            Beginning Balance Change for FY 2007
                            Unobligated Balance, Brought Forward                   $              385,240
                            Obligated Balance, Brought Forward                     $            3,453,931

     The Unobligated Balance, Brought Forward and the Obligated Balance, Brought Forward increased due to the inclusion of
     the Iraqi Relief and Reconstruction Fund.




86
Required Supplementary Stewardship Information (RSSI)
The following summarizes Nonfederal Physical Property. Investments in Non-federal Physical Property refers to those
expenses incurred by the Army for the purchase, construction, or major renovation of physical property owned by State
and Local Governments, including major additions, alterations and replacements; the purchase of major equipment; and the
purchase of improvement of other physical assets. A schedule of estimated investments value of state-owned properties that
are used by the Federal Government is shown below.

                                                  Non-federal Physical Property
                                       Yearly Investment in State and Local Governments

                                             For Fiscal Years FY 2003 through FY 2007
                                                        (In Millions of Dollars)


                       (a)                            (b)             (c)               (d)             (e)             (f)
                  Categories                       FY 2003          FY 2004         FY 2005           FY 2006         FY 2007
 Transferred Assets:
 1. National Defense Mission Related                        $85.0           $54.7             $70.7           $66.5           $23.0
 Funded Assets:
 2. National Defense Mission Related                           0               0                 0               0               0
 Total                                                      $85.0           $54.7             $70.7           $66.5           $23.0


Notes:

     1. Investment values included in this report are based on Non-federal Physical Property outlays (expenditures).
        Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with the
        Federal Accounting Standards requirements.


     2. Data provided here are significant because these are properties that are owned by the various U.S. Property and
        Fiscal Offices and are essential in accomplishing the mission of the Army National Guard.


     3. Costs of maintenance of these non-federal assets are included in the budgetary resources of Army National Guard.


     4. These properties represent non-cash items that were transferred to State and local governments.




                                                                                                                                      87




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     The following summarizes Basic Research, Applied Research, and Development Investments and provides examples of
     each.

                                               Investments in Research and Development
                                             Yearly Investment in Research and Development

                                                    For Fiscal Years FY 2003 through FY 2007
                                                               (In Millions of Dollars)


                                  (a)                                    (b)             (c)         (d)         (e)         (f)
                              Categories                              FY 2003         FY 2004      FY 2005     FY 2006     FY 2007
      Basic Research                                                      $226.9         $291.6       $360.0      $355.4      $348.9
      Applied Research                                                     847.2           886.8       995.1     1,006.8    $1,115.2
      Development
      Advanced Technology Development                                      988.6         1,010.4     1,185.8     1,369.3    $1,576.2
      Advanced Component Development and Prototypes                        880.1           767.7       830.3       659.7      $585.3
      Systems Development and Demonstration                              2,265.1         3,288.3     4,309.4     4,963.5    $5,026.1
      Research, Development, Test and Evaluation                           979.4         1.069.8     1,157.3     1,287.5    $1,336.7
      Management Support
      Operational Systems Development                                      964.9           929.8     1,156.7     1,218.7    $1,380.5
      Total                                                             $7,152.2       $8,244.4     $9,994.6   $10,860.9   $11,368.9


     Narrative Statement:

     Basic Research is the systematic study directed toward greater knowledge or understanding of the fundamental aspects
     of phenomena and of observable facts without specific applications towards processes or products in mind. It includes all
     scientific study and experimentation directed toward increasing fundamental knowledge and understanding in those fields
     of the physical, engineering, environmental and life sciences related to long-term national security needs. It is farsighted
     high payoff research that provides the basis for technological progress.

     The following are two representative program examples for each of the major categories:

     Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes
     to the sustainment of US Army scientific and technological superiority in land warfighting capability, provides new
     concepts and technologies for the Army’s Future Force, and provides the means to exploit scientific breakthroughs and
     avoid technological surprises. It fosters innovation in Army niche areas (such as lightweight armor, energetic materials,
     night vision) and where the commercial incentive to invest is lacking due to limited markets (e.g., vaccines for tropical
     diseases). It also focuses university single investigators on research areas of Army interest, such as high-density compact
     power and novel sensor phenomenologies. The in-house portion of the program capitalizes on the Army’s scientific
     talent and specialized facilities to expeditiously transition knowledge and technology into the appropriate developmental
88   activities. The extramural program leverages the research efforts of other government agencies, academia and industry.
     This translates to a coherent, well-integrated program that is executed by four primary contributors: 1) the Army Research,
     Development, and Engineering Command (RDECOM); 2) the US Army Engineer Research and Development Center
     (ERDC); 3) the Army Medical Research and Materiel Command (MRMC) laboratories; and 4) the Army Research Institute
     for Behavioral and Social Sciences (ARI). The basic research program is coordinated with the other Services via Defense
     Science and Technology Reliance (Defense Basic Research Advisory Group), and other inter-service working groups. This
     program responds to the scientific and technological requirements of the Department of Defense Basic Research Plan by
     enabling technologies that can significantly improve joint war fighting capabilities. The projects in this program involve
     basic research efforts directed toward providing fundamental knowledge that will contribute to the solution of military
     problems related to long-term national security needs.

     University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this
     program directly supports Future Force requirements by providing research that supports enabling technologies for Future
Force capabilities. Broadly, the work in this project falls into three categories: Collaborative Technology Alliances (CTAs),
University Centers of Excellence (COE), and paradigm-shifting centers - University-Affiliated Research Centers (UARCs).
The Army has formed CTAs to leverage large investments by the commercial sector in basic research areas that are of
great interest to the Army. CTAs involve partnerships between industry, academia and the Army Research Laboratory to
incorporate the practicality of industry, the expansion of the boundaries of knowledge from universities, and Army scientist
to shape, mature and transition technology. CTAs have been competitively established in the areas of Advanced Sensors,
Advanced Decision Architecture, Communications and Networks, Power and Energy, and Robotics. This program element
(PE) includes the Army’s COE, which focus on expanding the frontiers of knowledge in research areas where the Army has
enduring needs, such as rotorcraft, automotive, microelectronics, materials and information sciences. COEs couple state-
of-the-art research programs at academic institutions with broad-based graduate education programs to increase the supply
of scientists and engineers in information sciences, materials science, electronics, automotive, and rotary wing technology.

Also included is eCYBERMISSION, the Army’s national, web-based, competition to stimulate interest in science, math,
and technology among middle and high school students. This program also includes the four Army UARCs, which have
been created to exploit opportunities to advance new capabilities through a sustained long-term multidisciplinary effort.
The Institute of Advanced Technology funds basic research in electromagnetics and hypervelocity physics. The Institute
for Soldier Nanotechnologies focuses on Soldier protection by emphasizing revolutionary materials research for advanced
Soldier protection and survivability. The Institute for Collaborative Biotechnologies, focusing on enabling network centric-
technologies, will broaden the Army’s use of biotechnology for the development of bio-inspired materials, sensors and
information processing. The Institute for Creative Technologies is a partnership with academia and the entertainment and
gaming industries to leverage innovative research and concepts for training and simulation.

Applied Research is the systematic study to understand the means to meet a recognized and specific need. It is a systematic
expansion and application of knowledge to develop useful materials, devices, systems or methods. It may be oriented,
ultimately, toward the design, development, and improvement of prototypes and new processes to meet general mission
area requirements. Applied research may translate promising basic research into solutions for broadly defined military
needs, short of system development.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor
and armaments that will significantly enhance the survivability and lethality of Future Force systems and where feasible, can
be exploited to enhance the Current Force. This program builds on materials research transitioned from Defense Research
Sciences Materials and Mechanics project and applies it to specific Army platforms and the individual Soldier. This program
is directed toward developing materials technology that contributes to making heavy forces lighter and more deployable and
light forces more lethal and survivable. The program provides the technology base required for solving materials-related
problems in individual Soldier support equipment, armor, armaments, aircraft, ground and combat vehicles, and combat
support. This program also funds collaborative research efforts in nanomaterials technology between the Army Research
Laboratory (ARL) and the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts Institute of Technology and the
ISN industry partners. The effort is focused specifically on the improvement in individual Soldier protection.
                                                                                                                                            89
Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and
applies combat vehicle and automotive component technologies that enhance survivability, mobility, sustainability and
maintainability of Army ground combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and
because tactical vehicles are more often exposed to combat conditions, one of the greatest technological and operational
challenges is providing adequate crew protection while reducing reliance on heavy passive armor. This challenge will be
met using a layered approach, including long-range situational awareness, advanced lightweight opaque and transparent
armors, Active Protection Systems (APS), and multi-spectral signature reduction. This program focuses on designing,
fabricating and evaluating performance of integrated and add-on lightweight armor packages needed to provide lightweight



                                                                           Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     combat vehicles protection against Chemical Energy (CE) and Kinetic Energy (KE) threats with less than one -fourth the
     weight of conventional heavy armor. This program also designs, fabricates and evaluates structural and add-on armors for
     tactical vehicles. This program funds the National Automotive Center (NAC). The goal of the NAC is to leverage large
     commercial investments in automotive technology, research and development by pursuing automotive-oriented technology
     programs that have potential benefit to military ground vehicles. This program researches and investigates a variety of
     enabling technologies in the areas of hybrid electric propulsion, mobility, thermal management, intelligent systems, vehicle
     diagnostics, fuels/lubricants, and water purification. Future Force vehicles and new tactical vehicles are being designed
     with hybrid electric architectures, advanced high power density engines and auxiliary power units that provide power for
     propulsion, control systems, communications, life support systems, electromagnetic (EM) armor, Soldier battery charging,
     and export to other systems.

     Development takes what has been discovered or learned from basic and applied research and uses it to establish
     technological feasibility, assessment of operability and production capability. Development is comprised of five stages
     defined below:

          1. Advanced Technology Development: This area of technology includes all efforts to mature technology
             (hardware or software) sufficient for demonstration in an operational environment—this may be live or virtual. In
             this program, experimental systems or subsystems are demonstrated to prove the technical feasibility and military
             utility of the approach selected. Advanced technology development provides the path for the rapid development
             and demonstration of new components and systems. The most complex efforts in this program are designated as
             Advanced Technology Demonstrations (ATDs). The Army’s ATDs are developed to facilitate the smooth transition
             of advanced technology into systems as part of a formal acquisition program.


          2. Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as
             realistic an operating environment as possible to assess the performance or cost reduction potential of advanced
             technology. Programs in this phase are generally system specific. Major outputs of ACD&P development are
             hardware and software components, or complete weapon systems, ready for operational and developmental
             testing and field use.


          3. System Development and Demonstration concludes the program or project and prepares it for production.
             It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons
             systems finalized for complete operational and developmental testing.


          4. RDT&E Management Support includes research, development, test and evaluation efforts and funds to
             sustain and/or modernize the installations or operations required for general research, development, test and
             evaluation.


          5. Operational Systems Development includes developmental efforts to upgrade systems that have been fielded
90
             or have received approval for full rate production and anticipate production funding in the current or subsequent
             fiscal years.

     The following are five representative program examples of development:

     Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide enabling
     technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all
     environments for the Army’s Future Force and, where feasible, exploit opportunities to enhance Current Force capabilities.
     Technologies will be matured and demonstrated to address this challenge with distributed, mobile, secure, self-organizing
     communications networks. A key objective is to demonstrate seamlessly integrated communications technologies across
     all network tiers, ranging from unattended networks and sensors through maneuver elements and airborne/space assets.
     To accomplish the goal, this program will investigate and leverage external communication technologies and combine
technology options in a series of Command, Control, Communications, and Computers Intelligence, Surveillance, and
Reconnaissance (C4ISR) On-The-Move (OTM) experiments to measure the battlefield effectiveness for the Future Force.
This program also provides:
         protection technologies for tactical wireless networks against modern network attacks;
         smart communication technologies to network and control unmanned systems anywhere on the battlefield,
         enabling timely sensor-decider-engagement linkage to defeat critical targets; and
         advanced antenna technologies for greater communications mobility, range and throughput; and automated
         network management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation
support of tactical programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew
Integrated Systems. This program demonstrates the feasibility and maturity of new technology and gains understanding in
order to evaluate utility of this technology to expedite delivery of new capabilities for Army Aviation rotary wing assets.
Additionally, the Aviation Ground Support Equipment assets enhance the functionality of current and future aircraft by
improving the effectiveness of maintenance and servicing operations through validating new maintenance concepts to
improve man and machine interfaces, improve aircraft maintenance processes, reduce Operation and Support costs and
insert diagnostics technologies to replace obsolete and unsupportable equipment.

Patriot/MEADS Combined Aggregate Program (CAP) (PE 0604869A): The Medium Extended Air Defense
System (MEADS) program is a tri-national co-development program among the United States, Germany, and Italy to
replace the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and NIKE Hercules systems in Italy.
The NATO MEADS Management Agency (NAMEADSMA) is the NATO contracting authority providing management of
the MEADS program on behalf of the participating nations and is responsible for managing the system acquisition. Within
the Patriot/MEADS CAP there are two synergistic efforts: an international MEADS development effort managed by
NAMEADSMA; and a U.S. effort to inject U.S.-specific capability requirements into the MEADS Major End Items.

MEADS will provide joint- and coalition forces critical asset and defended area protection against multiple and
simultaneous attacks by short to medium range ballistic missiles, cruise missiles, unmanned aerial vehicles and tactical
air-to-surface missiles. The Missile Segment Enhancement missile has been accepted as the baseline missile for MEADS.
It is being developed by the U.S. for Patriot to meet U.S. operational requirements. Missile Segment Enhancement will
provide a more agile and lethal interceptor that increases the engagement envelope/defended area of Patriot and the
MEADS systems. The PAC-3 MSE improves upon the current PAC-3 missile capability with a higher performance solid
rocket motor, modified lethality enhancer, more responsive control surfaces, upgraded guidance software, and insensitive
munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly
testing field systems and equipment needed in support of the Global War on Terrorism, such as individual soldier protection
equipment and Counter Measures for Improvised Explosive Devices and up-armoring the Army’s wheeled vehicle fleet.
This project sustains the developmental Test and Evaluation capability required to support Army as well as joint Service or
other Service systems, hardware, and technologies. Unclassified systems scheduled for developmental testing encompass             91
the entire spectrum of weapons systems, including:
           up-armoring vehicle ballistic protection on the Buffalo, Cougar, Family of Medium Tactical Vehicles Long Term
           Armor Strategy, and Joint Light Tactical Vehicle;
         Stryker upgrades;
         armor gun shields for tactical vehicles;
         reactive and active armor on the Stryker;
         Personnel Screening Systems;



                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


              the Mine Resistant Ambush Protected Vehicles;
              Intelligence Surveillance and Reconnaissance; Electronic Countermeasure Devices;
              body armor;
              High Mobility Multipurpose Wheeled Vehicle;
              Aviation Transformation;
              aviation protection systems;
              missile defense; and
              Unmanned Systems.

     Capabilities are also required to support System-of-Systems and network centric systems to include Future Combat System
     (FCS) testing.

     This project provides the institutional funding required to operate the developmental test activities required by Department
     of Defense (DoD) Program Executive Officers, Program and Product Managers, and Research, Development, and
     Engineering Centers. This project provides resources to operate four DoD Major Range and Test Facility Bases: White
     Sands Missile Range, NM; Aberdeen Test Center, MD; Electronic Proving Ground, AZ; and Yuma Proving Ground, AZ (to
     include management of Army natural environmental testing at Cold Regions Test Center, Fort Greely and Fort Wainwright,
     AK, and Tropic Regions Test Center at various locations). This project also funds the Army’s developmental test capability
     at Aviation Technical Test Center, AL; and Redstone Technical Test Center, AL. Test planning and safety verification at
     Headquarters, U.S. Army Developmental Test Command (DTC), MD, is also supported by this program.

     Information Systems Security Program (0303140A): The Communications Security Equipment Program develops
     Information Systems Security (ISS) equipment and techniques required to combat threat Signal Intelligence capabilities
     and to insure the integrity of data networks. The Army’s RDTE ISS program objective is to implement National Security
     Agency (NSA) developed security technology in Army information systems. Communications Security Equipment(C
     OMSEC)technology ensures total signal and data security for all Army information systems to include any operational
     enhancement and specialized Army configurations.




92
Required Supplementary Information (RSI)
                                                Department of the Army
                                         General Property, Plant and Equipment
                                      Real Property Deferred Maintenance Amounts

                                                   As of September 30, 2007


                                           Real Property Deferred Maintenance

                                           For Fiscal Year Ended September 30, 2007
                                                    (In Thousands of Dollars)

 Property Type                                                     Current Fiscal Year (CFY)
                                  1. Plant Replacement Value      2. Required Work (deferred            3. Percentage
                                                                        maintenance)
 Category 1                                      $150,842,865                        $27,566,025                          18%
 Category 2                                       $25,059,257                         $8,768,509                          35%
 Category 3                                          $219,968                                  $0                          0%


Narrative Statement:

The deferred maintenance estimates are based on the facility Q-ratings found in the Army’s real property inventory. For
FY 2007, the possible Q-rating values are Q1, Q2, Q3 and Q4. Deferred maintenance is calculated as follows: for Q1
facilities, 5% of plant replacement value (PRV); for Q2 facilities, 15% of PRV; for Q3 facilities, 30% of PRV; for Q4
facilities, 60% of PRV. Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities, and
by business rule for the remaining facilities. During ISR data collection, facility occupants evaluate the condition of each
facility against published standards. The inspection generates a quality improvement cost estimate for each facility based
on the condition rating of each component of the facility, and the component improvement cost factor. Improvement cost
factors are developed using industry standards for each facility component within each facility type. The business rule
assignment of Q-ratings is as follows: Q4 if the facility has a planned disposition code value; Q1 if the facility is no more
than 5 years old; Q4 if the facility is temporary construction and more than 5 years old; Q3 if the facility is permanent
construction and more than 5 years old. Acceptable operating condition represents Q1 facilities with no deferred
maintenance.

Facility Categories are as follows:
          Category 1: Buildings, Structures, and Utilities that are enduring and required to support an ongoing mission
          including multi-use Heritage Assets
         Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for replacement or
         disposal including multi-use Heritage Assets
         Category 3: Buildings, Structures, and Utilities that are Heritage Assets
                                                                                                                                   93




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


                                                               Military Equipment
                                                         Deferred Maintenance Amounts

                                                               As of September 30, 2007
                                                                (Amount in Thousands)


                                                               (a)                                   (b)
                                                          Major Type
                                        1. Aircraft                                                    $358,687
                                        2. Ships                                                                0
                                        3. Missiles                                                    $129,067
                                        4. Combat Vehicles                                             $103,921
                                        5. Other Weapons Systems                                       $307,027
                                        Total                                                          $898,702


     The Op-30 from the FY2008 President Budget was used to compile the deferred depot level maintenance. Depot
     Maintenance Operations and Planning System (DMOPS). DMOPS is the automated system for capturing depot-level
     deferred maintenance data.


     National Defense Property, Plant, and Equipment
     The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting
     Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense Property,
     Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and encouraged early implementation.

                                                                     Heritage Assets

                                                      For Fiscal Year Ended September 30, 2007


                       (a)                              (b)                  (c)               (d)                     (e)                (f)
                                                Measurement /           As of 10/1/06       Additions               Deletions        As of 9/30/07
                                                  Quantity
      Museums (Note 2)                                 Each                           61                    0                   2                  59
      Monuments and Memorials (Note 3)                 Each                         1,225                  36                   10               1,251
      Cemeteries (Note 4)                              Sites                         471                   25                   6                 490
      Archeological Sites (Note 6)                     Sites                       68,467            3,353                   1,823              69,997
      Buildings & Structures (Note 1)                  Each                         9,234            1,304                   1,030               9,508
      Major Collections (Note 5)                       Each                          106                    0                   0                 106


     Narrative Statement:

94   In most cases, the additions/deletions are the result of sites/installations: (a) identifying cemeteries and historical facilities;
     (b) disposing of BRAC Closure property or excess installations; and (c) privatization/RCI program. BRAC Mission Closure
     installations/sites are included in this report.

     Notes:

          1. Historical Buildings and Structures: Buildings and structures designated as historical exclude museums,
             monuments and memorials. The Army reports all buildings and structures that are either considered eligible for
             listing or are listed on the National Register of Historic Places, as well as buildings or structures listed as National
             Historic Landmarks. Many of these properties are considered eligible or they are listed as part of a Historic
             District rather than as individual listings. The majority of the Army’s inventory of buildings and structures that are
             reported as heritage assets are also multi-use heritage assets because they are occupied and used in support of the
             mission.
2. The number of Buildings and Structures increased as a result of the following initiatives:
         Installations conducting real property surveys and making adjustments according to their findings
         Active installations now reporting previously omitted National Guard Bureau buildings and structures
         designated as heritage assets
         Both National Guard and Reserve are now reporting new buildings and structures designated as heritage
         assets


3. Museums: The Army Museum System consists of 59 museums and museum activities in the active Army and Army
   Reserve. There are a relatively small number of federally-owned artifacts in National Guard Museum activities,
   which are primarily state entities. In addition, there is historical property displayed in numerous regimental
   rooms, trophy rooms, officer’s clubs, visitor’s centers, chapels, and headquarters building elements that are not
   individually recognized by the Army as museums or museum activities. Solely for reporting purposes, we have
   consolidated all of these separate and smaller collections during this reporting period.


4. Memorial/Monuments: Includes category code 76020 (monuments).


5. Cemeteries: Includes category code 76030 (cemetery), 76031 (National Cemetery), 76032 (Veterans Cemetery),
   and excludes 76033 (Pet Cemeteries).


6. Major Collections: The US Army Tank Automotive & Armaments Life Cycle Management Command (TACOM
   LCMC) reports two (2) major collections under the Army Donations Program consisting of Ceremonial Rifles
   and Monuments/Static Displays. The Ceremonial Rifle collection consists of approximately 300,000 weapons
   in the hands of over 23,000 veterans’ organizations, law enforcement agencies and National Cemeteries. This
   collection is in good condition with 95% accountability of serial number tracking. The Monuments/Static Display
   collection consists of approximately 4760 major end items which are in good condition with 100% accountability.


    Major collections also includes archeological collections identified at individual Army installations. The Army is
    including Archeological Collections in the number of Major Collections for the first time. These collections are
    managed in accordance with Federal Regulations and are kept in perpetuity. Some collections are accessible to the
    public but not all items within an Archeological Collection are accessible to the public due to Federal regulations
    such as the Native American Graves Protection and Repatriation Act (1990). Each installation maintaining an
    archeological collection is considered to have only one collection per installation regardless of whether the
    collection is divided among different facilities or locations. The collections are the responsibility of the Army but
    may be in the care of a contractor, a public institution or other entity.


    The condition of the Army’s Archeological Collections is good. Only 33% of the Army’s existing archeological
                                                                                                                              95
    collections need upgrading of either curatorial facilities, accessioning, packaging and/or conservation to meet
    Federal requirements under 36 CFR 79.


7. Archeological Sites: The Army reports Archeological Sites in the table as one category; however we also report
   within this note a subset of the table amount. All recorded archeological sites on Army-owned Federal land
   without reference to eligibility, and all archeological sites that have been determined eligible for the National
   Register of Historic Places, are reported in the Heritage Assets table. It is the total number of archeological sites
   for which the Army is responsible for managing and evaluation of their significance. The following numbers are




                                                             Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


               a subset of the larger number and reflects the number of archeological sites which have been through a formal
               evaluation process and are either eligible or listed on the National Register of Historic Places.


                             (a)                             (b)                    (c)              (d)             (e)                  (f)
                                                            Sites               As of             Additions       Deletions       As of 9/30/07
                                                                              10/01/06
                National Register eligible or   Included within total                     8,773            484             1609                 7648
                listed archeological sites      number of recorded sites



               The Army does not generally acquire or remove new archeological sites annually, but instead identifies new
               sites on existing Army land or evaluates existing sites during the course of the financial year. Any additions of
               archeological sites reflect the Army’s policy to identify and evaluate historic properties in accordance with Sections
               106 and 110 of the National Historic Preservation Act. As more land is surveyed, more archeological sites are
               identified. Some deletions reflect changes to the status of a recorded archeological site that may have been
               determined ineligible for listing or may be evidence of an accounting correction due to installations’ continued
               improvement of data quality. In some cases, an archeological site may appear as a deletion if it was mitigated or
               destroyed, or if multiple sites previously counted as individual sites were found to have only one official trinomial
               number. However, the majority of deletions in both categories is not due to any physical changes to these sites,
               but instead reflects accounting procedures changes because the Army National Guard reported only those sites
               located on Federally owned land, and did not include those on State or privately owned land .


               The conditions of archeological sites across the Army remain varied from poor to excellent based on a number
               of factors, including the environmental setting, the type of the site, and impacts from Army activities. If an Army
               activity has the potential to adversely impact an archeological site eligible for the National Register of Historic
               Places, the installation’s Installation Cultural Resource Management Plan (ICRMP) contains provisions for how the
               installation would proceed to mitigate those impacts. ICRMPs are the plan that installations use to manage their
               cultural resources including archeological sites in compliance with federal requirements. These plans provide for
               site protection, site conditions monitoring, and mitigation procedures for adverse impacts to sites. Overall, the
               conditions of sites on Army installations are fair based on the Army’s cultural resource management procedures.

     The following summarizes Stewardship Land. Additions/deletions are the result of: (a) acquiring additional land through
     donation or withdrawal from public domain; (b) identification of missing land records; and (c) disposal of BRAC Closure
     sites or transfer of land to another DoD agency. BRAC Mission Closure installations and sites are included in this report.

                                                  Army General Fund - Consolidated Report
                                                            Stewardship Land

                                                    For Fiscal Year Ended September 30, 2007
                                                                (Acres in Thousands)

96
                      (a)                             (b)                     (c)                          (d)                      (e)
              Land Use (Acres)                  As of 10/1/2006            Additions                  Deletions               As of 9/30/2007
      1. Mission Related (Note 1)                           6,909.25                       6.05                   1.54                    6,913.76
      2. Parks/Historical Sites (Note 2)                           .95                      .03                     0                            .98


     Notes:

          1. Mission Land includes various category codes. These category codes represent land that was not purchased, but
             was either donated or withdrawn from public domain.


          2. Parks/Historic Sites: Same as Cemetery Acreage on Heritage Report (includes category codes 76030, 76031,
         and 76032; excludes Pet Cemeteries); unable to determine if cemeteries are purchased, donated or transferred
         property. This value could be double reported within Mission Related; therefore; this report should not be
         totaled.

NOTE: Additions/deletions may the result of:
   (1) Acquiring additional land through donation or withdrawal from public domain.
     (2) Identification of missing land records.
     (3) Disposal of BRAC Closure sites or transfer of land to another DoD agency.

Stewardship Property, Plant and Equipment Condition:

The Federal Accounting Standards Advisory Board (FASAB), Statement of Federal Financial Accounting Standards 29
- Heritage Assets and Stewardship Land, requires the Army to report the condition of heritage assets and stewardship
land as required supplementary information. The FASAB standard states that the condition of an asset is based on an
evaluation of the physical status/state of an asset, its ability to perform as planned, and its continued usefulness. Given
the aforementioned criteria, most Army heritage assets and stewardship land are in an acceptable physical state and have
established data compilation standards. Specific examples of Stewardship Property, Plant and Equipment condition are
outlined below:

         Major Collections: The U.S. Army Tank Automotive and Armaments Life Cycle Management Command (TACOM
         LCMC) reports two major collections under the Army Donations Program consisting of Ceremonial Rifles and
         Monuments/Static Displays. The Ceremonial Rifles collection is in good condition with 101,985 rifles considered
         lost or stolen and 95 percent serial number accountability of the remaining 269,178 weapons. The Monuments/
         Static display collection consists of 5,375 major end items located in 3,169 organizations, which are in good
         condition with 100% accountability.


         Archeological Collections: The condition of the Army’s Archeological Collections is good. Thirty three percent of
         the Army’s existing archeological collections need upgrading of either curatorial facilities, accessioning, packaging
         and/or conservation to meet Federal requirements under title 36, chapter I of the code of federal regulation part
         79 - Curation of Federally-Owned and Administered Archeological Collections.




                                                                                                                                    97




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
     General Fund
     Principal Financial Statements, Notes, and Supplementary Information


     Department of Defense Department of the Army

     STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
     As of September 30, 2007 and 2006 ($ in Thousands)                                        Research,
                                                                                              Development,           Operation and
                                                                            Other           Test & Evaluation        Maintenance             Procurement
     BUDGETARY FINANCING ACCOUNTS
     BUDGETARY RESOURCES
     Unobligated balance, brought forward, October 1                    $     3,927,023     $      2,693,619     $         1,978,039     $       5,668,804
     Recoveries of prior year unpaid obligations                                870,715            1,627,344               9,277,068             2,233,964
     Budget authority
       Appropriation                                                         19,026,617           11,154,964              81,224,241            41,402,061
       Borrowing authority                                                            0                    0                       0                     0
       Contract authority                                                             0                    0                       0                     0
       Spending authority from offsetting collections
           Earned
              Collected                                                              631           4,646,164              11,291,307             1,492,245
              Change in receivables from Federal sources                               7             (85,664)                132,166                (3,040)
           Change in unfilled customer orders
              Advance received                                                         0               (5,339)                (22,458)               7,805
              Without advance from Federal sources                                   849            (129,946)              1,370,321                75,850
           Anticipated for rest of year, without advances                              0                    0                       0                    0
           Previously unavailable                                                      0                    0                       0                    0
           Expenditure transfers from trust funds                                      0                    0                       0                    0
       Subtotal                                                         $    19,028,104     $     15,580,179     $        93,995,577     $      42,974,921
     Nonexpenditure transfers, net, anticipated and actual                     (511,751)             366,739                 542,068             1,738,779
     Temporarily not available pursuant to Public Law                                  0                    0                       0                    0
     Permanently not available                                                   (19,399)           (113,422)               (471,338)             (280,119)
     Total Budgetary Resources                                          $    23,294,692     $     20,154,459     $       105,321,414     $      52,336,349

     Status of Budgetary Resources:
     Obligations incurred:
       Direct                                                           $    12,798,097     $     12,531,741     $        89,141,162     $      38,810,102
       Reimbursable                                                              26,868            4,902,596              13,767,738             1,426,349
       Subtotal                                                         $    12,824,965     $     17,434,337     $       102,908,900     $      40,236,451
     Unobligated balance:
       Apportioned                                                           10,005,092            2,592,176                 265,545            11,926,047
       Exempt from apportionment                                                      0                    0                       0                     0
       Subtotal                                                         $    10,005,092     $      2,592,176     $           265,545     $      11,926,047
     Unobligated balance not available                                          464,634              127,946               2,146,969               173,851
     Total Status of Budgetary Resources                                $    23,294,691     $     20,154,459     $       105,321,414     $      52,336,349
     Change in Obligated Balance:
     Obligated balance, net
       Unpaid obligations, brought forward, October 1                   $     6,980,611     $      9,762,287     $        36,286,522     $      29,867,458
       Less: Uncollected customer payments from Federal sources,
       brought forward, October 1                                                 (3,632)          (3,964,106)             (6,123,691)           (2,239,328)
       Total unpaid obligated balance                                   $     6,976,979     $       5,798,181    $        30,162,831     $      27,628,130
     Obligations incurred net (+/-)                                     $    12,824,965     $     17,434,337     $       102,908,900     $      40,236,451
     Less: Gross outlays                                                    (11,561,993)         (16,004,779)            (84,414,770)          (28,061,292)
     Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                      0                    0                        0                     0
98     Actual transfers, uncollected customer payments from
       Federal sources (+/-)                                                          0                    0                       0                     0
       Total Unpaid obligated balance transferred, net                  $             0     $              0     $                 0     $               0
     Less: Recoveries of prior year unpaid obligations, actual                 (870,715)          (1,627,344)             (9,277,068)           (2,233,964)
     Change in uncollected customer payments from Federal
     sources (+/-)                                                                  (855)            215,610              (1,502,487)              (72,810)
     Obligated balance, net, end of period
       Unpaid obligations                                                     7,372,869            9,564,502              45,503,585            39,808,652
       Less: Uncollected customer payments from Federal sources (-)              (4,487)          (3,748,496)             (7,626,178)           (2,312,139)
       Total, unpaid obligated balance, net, end of period              $     7,368,382     $      5,816,006     $        37,877,407     $      37,496,513
     Net Outlays
     Net Outlays:
       Gross outlays                                                         11,561,993           16,004,779              84,414,770            28,061,292
       Less: Offsetting collections                                                (631)          (4,640,825)            (11,268,849)           (1,500,050)
       Less: Distributed Offsetting receipts                                    935,476                    0                       0                     0
       Net Outlays                                                      $    12,496,838     $     11,363,954     $        73,145,921     $      26,561,242

     The accompanying notes are an integral part of these statements.
Department of Defense Department of the Army

STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2007 and 2006 ($ in Thousands)                                           Military
                                                                         Military         Construction /
                                                                        Personnel         Family Housing       2007 Combined            2006 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                     $          279,569    $     2,862,180      $     17,409,234     $        15,477,292
Recoveries of prior year unpaid obligations                                  3,065,973            752,022            17,827,086              16,851,046
Budget authority
  Appropriation                                                           57,553,995            4,491,211           214,853,089             173,027,517
  Borrowing authority                                                              0                    0                     0                       0
  Contract authority                                                               0                    0                     0                       0
  Spending authority from offsetting collections
      Earned
         Collected                                                            278,513           3,907,019            21,615,878              21,805,492
         Change in receivables from Federal sources                            46,521             (12,411)               77,579                 (20,488)
      Change in unfilled customer orders
         Advance received                                                           0             219,774               199,782                 420,284
         Without advance from Federal sources                                  (3,446)          1,116,937             2,430,565                 805,587
      Anticipated for rest of year, without advances                                0                    0                    0                       0
      Previously unavailable                                                        0                    0                    0                       0
      Expenditure transfers from trust funds                                        0                    0                    0                       0
  Subtotal                                                          $     57,875,583      $     9,722,530      $    239,176,893     $       196,038,392
Nonexpenditure transfers, net, anticipated and actual                       (383,750)            (113,238)            1,638,847               3,169,768
Temporarily not available pursuant to Public Law                                    0                    0                    0                       0
Permanently not available                                                   (109,750)              (52,582)          (1,046,610)             (2,163,696)
Total Budgetary Resources                                           $     60,727,625      $    13,170,912      $    275,005,450     $       229,372,802

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                            $     59,996,847      $     3,747,763      $    217,025,713     $       186,913,360
  Reimbursable                                                               376,242            5,221,756            25,721,549              25,435,449
  Subtotal                                                          $     60,373,089      $     8,969,519      $    242,747,262     $       212,348,809
Unobligated balance:
  Apportioned                                                                  3,678            4,178,223            28,970,760              14,880,099
  Exempt from apportionment                                                        0                    0                     0                   4,035
  Subtotal                                                          $          3,678      $     4,178,223      $     28,970,760     $        14,884,134
Unobligated balance not available                                            350,857               23,171             3,287,428               2,139,859
Total Status of Budgetary Resources                                 $     60,727,624      $    13,170,913      $    275,005,450     $       229,372,802
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                    $        1,888,691    $     8,823,467      $     93,609,036     $        80,720,880
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                                  27,118           (4,832,918)           (17,136,557)            (16,351,456)
  Total unpaid obligated balance                                    $      1,915,809      $     3,990,549      $      76,472,479    $         64,369,424
Obligations incurred net (+/-)                                      $     60,373,090      $     8,969,518      $    242,747,262     $       212,348,809
Less: Gross outlays                                                      (56,185,248)          (7,208,378)         (203,436,459)           (186,063,536)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                         0                     0                   0                        0
  Actual transfers, uncollected customer payments from                                                                                                      99
  Federal sources (+/-)                                                            0                    0                     0                       0
  Total Unpaid obligated balance transferred, net                   $              0      $             0      $              0     $                 0
Less: Recoveries of prior year unpaid obligations, actual                 (3,065,973)            (752,022)          (17,827,086)            (16,851,046)
Change in uncollected customer payments from Federal
sources (+/-)                                                                 (43,074)         (1,104,526)           (2,508,143)               (785,100)
Obligated balance, net, end of period
  Unpaid obligations                                                         3,010,559          9,832,585           115,092,752              90,155,105
  Less: Uncollected customer payments from Federal sources (-)                 (15,956)        (5,937,444)          (19,644,699)            (17,136,557)
  Total, unpaid obligated balance, net, end of period               $        2,994,603    $     3,895,141      $     95,448,053     $        73,018,548
Net Outlays
Net Outlays:
  Gross outlays                                                           56,185,248            7,208,378           203,436,459             186,063,536
  Less: Offsetting collections                                              (278,513)          (4,126,793)          (21,815,661)            (22,225,774)
  Less: Distributed Offsetting receipts                                            0                    0               935,476                (783,002)
  Net Outlays                                                       $     55,906,735      $     3,081,585      $    182,556,274     $       163,054,760


The accompanying notes are an integral part of these financial statements.
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense Department of the Army

      STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                                              Research,
                                                                                           Development, Test   Operation and
                                                                               Other         & Evaluation      Maintenance             Procurement
      NONBUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1                      $      1,292    $               0   $               0   $                 0
      Recoveries of prior year unpaid obligations                                     0                    0                   0                     0
      Budget authority
        Appropriation                                                                 0                    0                   0                     0
        Borrowing authority                                                      15,500                    0                   0                     0
        Contract authority                                                            0                    0                   0                     0
        Spending authority from offsetting collections
            Earned
               Collected                                                            284                    0                   0                     0
               Change in receivables from Federal sources                             0                    0                   0                     0
            Change in unfilled customer orders
               Advance received                                                       0                    0                   0                     0
               Without advance from Federal sources                                   0                    0                   0                     0
            Anticipated for rest of year, without advances                            0                    0                   0                     0
            Previously unavailable                                                    0                    0                   0                     0
            Expenditure transfers from trust funds                                    0                    0                   0                     0
        Subtotal                                                           $     15,784    $               0   $               0   $                 0
      Nonexpenditure transfers, net, anticipated and actual                           0                    0                   0                     0
      Temporarily not available pursuant to Public Law                                0                    0                   0                     0
      Permanently not available                                                       0                    0                   0                     0
      Total Budgetary Resources                                            $     17,076    $               0   $               0   $                 0

      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                             $     16,487    $               0   $               0   $                 0
        Reimbursable                                                                  0                    0                   0                     0
        Subtotal                                                           $     16,487    $               0   $               0   $                 0
      Unobligated balance:
        Apportioned                                                                 187                    0                   0                     0
        Exempt from apportionment                                                     0                    0                   0                     0
        Subtotal                                                           $        187    $               0   $               0   $                 0
      Unobligated balance not available                                             403                    0                   0                     0
      Total Status of Budgetary Resources                                  $     17,077    $               0   $               0   $                 0
      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1                     $           0   $               0   $               0   $                 0
        Less: Uncollected customer payments from Federal sources,
        brought forward, October 1                                                    0                    0                   0                     0
        Total unpaid obligated balance                                     $          0    $               0   $               0   $                 0
      Obligations incurred net (+/-)                                       $     16,487    $               0   $               0   $                 0
      Less: Gross outlays                                                       (16,487)                   0                   0                     0
      Obligated balance transferred, net
        Actual transfers, unpaid obligations (+/-)                                     0                   0                   0                     0
100     Actual transfers, uncollected customer payments from
        Federal sources (+/-)                                                          0                   0                   0                     0
        Total Unpaid obligated balance transferred, net                    $           0   $               0   $               0   $                 0
      Less: Recoveries of prior year unpaid obligations, actual                        0                   0                   0                     0
      Change in uncollected customer payments from Federal sources (+/-)               0                   0                   0                     0
      Obligated balance, net, end of period
        Unpaid obligations                                                             0                   0                   0                     0
        Less: Uncollected customer payments from Federal sources (-)                   0                   0                   0                     0
        Total, unpaid obligated balance, net, end of period                $           0   $               0   $               0   $                 0
      Net Outlays
      Net Outlays:
        Gross outlays                                                            16,487                    0                   0                     0
        Less: Offsetting collections                                               (284)                   0                   0                     0
        Less: Distributed Offsetting receipts                                         0                    0                   0                     0
        Net Outlays                                                        $     16,203    $               0   $               0   $                 0

      The accompanying notes are an integral part of these statements.
Department of Defense Department of the Army

STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                                        Military
                                                                      Military       Construction /
                                                                     Personnel       Family Housing   2007 Combined     2006 Combined
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                      $           0   $            0   $        1,292    $       1,525
Recoveries of prior year unpaid obligations                                      0                0                0                0
Budget authority
  Appropriation                                                                  0                0                0                0
  Borrowing authority                                                            0                0           15,500           11,404
  Contract authority                                                             0                0                0                0
  Spending authority from offsetting collections
      Earned
         Collected                                                               0                0              285              326
         Change in receivables from Federal sources                              0                0                0                0
      Change in unfilled customer orders
         Advance received                                                        0                0                0                0
         Without advance from Federal sources                                    0                0                0                0
      Anticipated for rest of year, without advances                             0                0                0                0
      Previously unavailable                                                     0                0                0                0
      Expenditure transfers from trust funds                                     0                0                0                0
  Subtotal                                                           $           0   $            0   $       15,785    $      11,730
Nonexpenditure transfers, net, anticipated and actual                            0                0                0                0
Temporarily not available pursuant to Public Law                                 0                0                0                0
Permanently not available                                                        0                0                0                0
Total Budgetary Resources                                            $           0   $            0   $       17,077    $      13,255

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                             $           0   $            0   $       16,487    $      11,962
  Reimbursable                                                                   0                0                0                0
  Subtotal                                                           $           0   $            0   $       16,487    $      11,962
Unobligated balance:
  Apportioned                                                                    0                0              187              535
  Exempt from apportionment                                                      0                0                0                0
  Subtotal                                                           $           0   $            0   $          187    $         535
Unobligated balance not available                                                0                0              403              758
Total Status of Budgetary Resources                                  $           0   $            0   $       17,077    $      13,255
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                     $           0   $            0   $            0    $           0
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                                     0                0                0                0
  Total unpaid obligated balance                                     $           0   $            0   $            0    $           0
Obligations incurred net (+/-)                                       $           0   $            0   $       16,487    $      11,962
Less: Gross outlays                                                              0                0          (16,487)         (11,962)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                     0                0                0                0
  Actual transfers, uncollected customer payments from                                                                                   101
  Federal sources (+/-)                                                          0                0                0                0
  Total Unpaid obligated balance transferred, net                    $           0   $            0   $            0    $           0
Less: Recoveries of prior year unpaid obligations, actual                        0                0                0                0
Change in uncollected customer payments from Federal sources (+/-)               0                0                0                0
Obligated balance, net, end of period
  Unpaid obligations                                                             0                0                0                0
  Less: Uncollected customer payments from Federal sources (-)                   0                0                0                0
  Total, unpaid obligated balance, net, end of period                $           0   $            0   $            0    $           0
Net Outlays
Net Outlays:
  Gross outlays                                                                  0                0           16,487           11,962
  Less: Offsetting collections                                                   0                0             (284)            (325)
  Less: Distributed Offsetting receipts                                          0                0                0                0
  Net Outlays                                                        $           0   $            0   $       16,203    $      11,637

The accompanying notes are an integral part of these statements.
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Schedule, Part A DoD Intra-governmental Asset Balances
      AT21 - Army General Fund ($ Amounts in Thousands)
                                                             Treasury    Fund Balance       Accounts       Loans
                                                               Index     with Treasury      Receivable   Receivable Investments    Other
      Executive Office of the President                      11                                 $3,176
      Department of Agriculture                             12                                   $206                              $18,832
      Department of Commerce                                13                                 $1,310                               $4,195
      Department of the Interior                            14                                    $69                             $153,507
      Department of Justice                                 15                                 $3,432                                 $516
      Department of Labor                                   16                                     $1
      Navy General Fund                                     17                                $61,726
      United States Postal Service                          18                                   $953
      Department of State                                   19                                $22,903
      Department of the Treasury                            20           $127,981,733          $2,152                   $3,447
      Office of Personnel Management                        24                                    $27                              $46,139
      Library of Congress                                    3                                    $10
      Nuclear Regulatory Commission                         31                                     $2
      Department of Veterans Affairs                        36                                   $631
      General Service Administration                        47                                     $0                              $14,038
      Independent Agencies                                  48                                   $140
      National Science Foundation                           49                                     $3                               $5,598
      Central Intelligence Agency                           56                                   $141
      Air Force General Fund                                57                                $36,350                             $111,494
      Tennessee Valley Authority                            64                                                                       $154
      Environmental Protection Agency                       68                                   $226                               $1,492
      Department of Transportation                          69                                 $1,171                              $20,409
      Homeland Security                                     70                                $12,131                              $49,615
      Small Business Administration                         73                                                                       $333
      American Battle Monuments                             74                                     $3
      Department of Health and Human Services               75                                   $994                                  $16
      National Aeronautics and Space Administration         80                                 $2,362                              $22,357
      Armed Forces Retirement Home                          84                                     $0
      Department of Housing and Urban Development           86                                     $0
      National Archives and Records Administration          88                                     $0
      Department of Energy                                  89                                     $0                               $9,157
      Selective Service System                              90                                  $509
      Department of Education                               91                                     $0                                 $75
      Independent Agencies                                  95                                     $0
      US Army Corps of Engineers                            96                                 $4,971
      Other Defense Organizations General Funds             97                               $195,711                              $35,545
      Other Defense Organizations Working Capital Funds   97-4930                             $22,045                              $21,160
      Army Working Capital Fund                         97-4930.001                           $40,520
      Navy Working Capital Fund                         97-4930.002                            $5,862                                  $1
      Air Force Working Capital Fund                    97-4930.003                              $670                                $202
      Architect of the Capitol                                                                    $12
      Totals                                                                 $127,981,733     $420,419                   $3,447   $514,835
102
Schedule, Part B DoD Intra-governmental entity liabilities
AT21 - Army General Fund ($ Amounts in Thousands)
                                                                      Accounts        Debts/Borrowings
                                                    Treasury Index     Payable       From Other Agencies       Other
Executive Office of the President                       11                                                     $20,217
Department of Agriculture                               12                 $7,914                 $26,706         $106
Department of Commerce                                  13                   $648
Department of the Interior                              14                 $4,062                                  $14
Department of Justice                                   15                 $4,543                                 $190
Department of Labor                                     16                                                    $385,159
Navy General Fund                                       17                $30,716                               $1,265
United States Postal Service                            18                $21,716
Department of State                                     19                $21,716                               $3,928
Department of the Treasury                              20               $139,606                               $2,285
Office of Personnel Management                          24                 $5,749                              $64,182
Federal Communications Commission                       27                   $661
Library of Congress                                      3                                                             $9
Nuclear Regulatory Commission                           31                   $306
Department of Veterans Affairs                          36                 $5,322                                $1,339
General Service Administration                          47               $313,792                                   $17
National Science Foundation                             49                 $1,523
Central Intelligence Agency                             56                                                        $132
Air Force General Fund                                  57                $14,697                                 $183
Tennessee Valley Authority                              64                 $4,930
Environmental Protection Agency                         68                 $7,608
Department of Transportation                            69                $24,884                                 $121
Homeland Security                                       70                $11,453                              $49,505
Small Business Administration                           73                   $216
Department of Health and Human Services                  75                  $694                              $51,514
National Aeronautics and Space Administration            80                $3,761                               $5,839
Department of Energy                                    89                $27,176
Independent Agencies                                    95                                                        $213
US Army Corps of Engineers                              96                 $3,615
Other Defense Organizations General Funds                97               $96,780                                $1,106
Other Defense Organizations Working Capital Funds     97-4930            $671,006
Army Working Capital Fund                           97-4930.001          $289,181
Navy Working Capital Fund                           97-4930.002           $15,411                                      $0
Air Force Working Capital Fund                      97-4930.003              $217
The General Fund of the Treasury                        99                                                  $2,498,130
Totals                                                                 $1,729,903                 $26,706   $3,085,454




                                                                                                                            103




                                                           Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information


       Schedule, Part C DoD Intra-governmental revenue and related costs
       AT21 - Army General Fund ($ Amounts in Thousands)
                                                                             Treasury Index   Earned Revenue
       The Judiciary                                                               10                        $5
       Executive Office of the President                                           11                   $27,422
       Department of Agriculture                                                   12                      $949
       Department of Commerce                                                      13                    $7,115
       Department of the Interior                                                  14                    $2,080
       Department of Justice                                                       15                   $38,559
       Department of Labor                                                         16                        $1
       Navy General Fund                                                           17                $1,231,422
       United States Postal Service                                                18                    $1,360
       Department of State                                                         19                  $143,349
       Department of the Treasury                                                  20                    $5,593
       Office of Personnel Management                                              24                       $56
       Library of Congress                                                          3                    $9,634
       Nuclear Regulatory Commission                                               31                      $167
       Department of Veterans Affairs                                              36                    $2,996
       General Service Administration                                              47                    $3,303
       Independent Agencies                                                        48                    $1,196
       National Science Foundation                                                 49                      $192
       Central Intelligence Agency                                                 56                    $6,271
       Air Force General Fund                                                      57                $1,250,668
       National Labor Relations Board                                              63                        $2
       Environmental Protection Agency                                             68                    $1,651
       Department of Transportation                                                69                    $4,183
       Homeland Security                                                           70                  $165,241
       Overseas Private Investment Corporation                                     71                       $11
       Agency for International Development                                        72                      $101
       American Battle Monuments                                                   74                       $43
       Department of Health and Human Services                                     75                   $69,970
       Congressional Budget Office                                                  8                       $55
       National Aeronautics and Space Administration                               80                   $50,293
       Department of Housing and Urban Development                                 86                        $1
       National Archives and Records Administration                                88                    $1,568
       Department of Energy                                                        89                   $11,421
       Selective Service System                                                    90                    $2,043
       Department of Education                                                     91                    $2,512
       Independent Agencies                                                        95                   $13,855
       US Army Corps of Engineers                                                  96                   $81,256
       Other Defense Organizations General Funds                                   97                $3,959,457
       Other Defense Organizations Working Capital Funds                        97-4930                $164,628
       Army Working Capital Fund                                              97-4930.001              $642,705
       Navy Working Capital Fund                                              97-4930.002               $74,314
       Air Force Working Capital Fund                                         97-4930.003               $21,656
       The General Fund of the Treasury                                            99                        $7
104    DoD Medicare-Eligible Retiree Health Care Fund                                                  $125,727
       Totals                                                                                        $8,125,038
Schedule, Part E DoD Intra-governmental non-exchange revenues
AT21 - Army General Fund ($ Amounts in Thousands)
                                                                         Treasury Index       Transfers In     Transfers Out
Unidentifiable Federal Agency Entity (Other than DoD entities)                  0                   ($6,903)
Air Force General Fund                                                         57                   $29,764
Other Defense Organizations General Funds                                      97                $1,299,812          $11,373
Other Defense Organizations Working Capital Funds                           97-4930                 $25,280
Army Working Capital Fund                                                 97-4930.001              $384,532
Totals                                                                                           $1,732,485          $11,373




                                                                                                                                  105




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




106
                                                                 107




Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




108
                                                                 109




Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




110
                                                                 111




Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




112
                                                                 113




Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




114
                                                                 115




Fiscal Year 2007 United States Army Annual Financial Statement
      General Fund
      Principal Financial Statements, Notes, and Supplementary Information




116
Limitations
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of
operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                                                                                 117




                                Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - Army Working Capital Fund

      CONSOLIDATED BALANCE SHEET
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                       2007 Consolidated          2006 Consolidated
      ASSETS (Note 2)
        Intragovernmental:
           Fund Balance with Treasury (Note 3)
           Entity                                                                  $              2,279,084   $                 875,344
           Non-Entity Seized Iraqi Cash                                                                   0                           0
           Non-Entity-Other                                                                               0                           0
           Investments (Note 4)                                                                           0                           0
           Accounts Receivable (Note 5)                                                             325,168                     243,005
           Other Assets (Note 6)                                                                      3,002                       8,670
           Total Intragovernmental Assets                                          $              2,607,254   $               1,127,019

        Cash and Other Monetary Assets (Note 7)                                    $                      0   $                       0
        Accounts Receivable, Net (Note 5)                                                            16,466                       9,355
        Loans Receivable (Note 8)                                                                         0                           0
        Inventory and Related Property, Net (Note 9)                                             19,728,687                  17,939,567
        General Property, Plant and Equipment, Net (Note 10)                                        996,885                   1,267,070
        Investments (Note 4)                                                                              0                           0
        Other Assets (Note 6)                                                                       367,391                     417,914
      TOTAL ASSETS                                                                 $             23,716,683   $              20,760,925

      LIABILITIES (Note 11)
        Intragovernmental:
           Accounts Payable (Note 12)                                              $                96,452    $                 78,917
           Debt (Note 13)                                                                                0                           0
           Other Liabilities (Note 15 & 16)                                                         55,229                      58,150
           Total Intragovernmental Liabilities                                     $               151,681    $                137,067

        Accounts Payable (Note 12)                                                 $              1,023,839   $                576,037
        Military Retirement and Other Federal                                                       243,112                    262,499
        Employment Benefits (Note 17)
        Environmental and Disposal Liabilities (Note 14)                                                  0                           0
        Loan Guarantee Liability (Note 8)                                                                 0                           0
        Other Liabilities (Note 15 and Note 16)                                                     404,317                     468,617
      TOTAL LIABILITIES                                                            $              1,822,949   $               1,444,220

      NET POSITION
        Unexpended Appropriations - Earmarked Funds (Note 23)                      $                      0   $                       0
        Unexpended Appropriations - Other Funds                                                           0                           0
        Cumulative Results of Operations - Earmarked Funds                                                0                           0
        Cumulative Results of Operations - Other Funds                                           21,893,734                  19,316,705
      TOTAL NET POSITION                                                           $             21,893,734   $              19,316,705

118   TOTAL LIABILITIES AND NET POSITION                                           $             23,716,683   $              20,760,925




      The accompanying notes are an integral part of these financial statements.
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                  2007 Consolidated               2006 Consolidated
Program Costs
  Gross Costs                                                                 $                16,159,985     $              15,905,976
  (Less: Earned Revenue)                                                                      (18,682,923)                  (17,697,044)
  Net Program Costs                                                           $                 (2,522,938)   $               (1,791,068)
Cost Not Assigned to Programs                                                                            0                             0
(Less: Earned Revenue Not Attributable to Programs)                                                      0                             0
Net Cost of Operations                                                        $                 (2,522,938)   $               (1,791,068)




The accompanying notes are an integral part of these financial statements.




                                                                                                                                              119




                                                                             Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - Army Working Capital Fund

      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                            2007
                                                                         Earmarked       2007 All Other         2007
                                                                           Funds            Funds           Eliminations       2007 Consolidated
      CUMULATIVE RESULTS OF OPERATIONS
      Beginning Balances                                             $               0   $   19,316,705     $              0   $      19,316,705
      Prior Period Adjustments:
        Changes in accounting principles (+/-)                                       0                0                    0                   0
        Corrections of errors (+/-)                                                  0                0                    0                   0
      Beginning balances, as adjusted                                $               0   $   19,316,705                    0   $      19,316,705
      Budgetary Financing Sources:
        Other adjustments (rescissions, etc.)                                        0                0                    0                   0
        Appropriations used                                                          0          627,790                    0             627,790
        Nonexchange revenue                                                          0                0                    0                   0
        Donations and forfeitures of cash and cash
        equivalents                                                                  0                0                    0                   0
        Transfers-in/out without reimbursement                                       0         (145,700)                   0            (145,700)
        Other budgetary financing sources                                            0                0                    0                   0
      Other Financing Sources:
        Donations and forfeitures of property                                        0                0                    0                   0
        Transfers-in/out without reimbursement (+/-)                                 0         (345,832)                   0            (345,832)
        Imputed financing from costs absorbed by
        others                                                                       0          163,133                    0             163,133
        Other (+/-)                                                                  0         (245,300)                   0            (245,300)
      Total Financing Sources                                        $               0   $       54,091     $              0   $          54,091
      Net Cost of Operations (+/-)                                                   0       (2,522,938)                   0          (2,522,938)
      Net Change                                                     $               0   $    2,577,029     $              0   $       2,577,029
      Cumulative Results of Operations                               $               0   $   21,893,734     $              0   $      21,893,734

      UNEXPENDED APPROPRIATIONS
      Beginning Balances                                             $               0   $             0    $              0   $                0
      Prior Period Adjustments:
        Changes in accounting principles                                             0                 0                   0                    0
        Corrections of errors                                                        0                 0                   0                    0
      Beginning balances, as adjusted                                $               0   $             0    $              0   $                0
      Budgetary Financing Sources:
        Appropriations received                                                      0          627,854                    0             627,854
        Appropriations transferred-in/out                                            0                 0                   0                    0
        Other adjustments (rescissions, etc)                                         0               (64)                  0                  (64)
        Appropriations used                                                          0         (627,790)                   0            (627,790)
      Total Budgetary Financing Sources                              $               0   $             0    $              0   $                0
      Unexpended Appropriations                                                      0                 0                   0                    0
      Net Position                                                   $               0   $   21,893,734     $              0   $      21,893,734


120

      The accompanying notes are an integral part of these financial statements.
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                  2006
                                                               Earmarked         2006 All Other
                                                                 Funds              Funds             2006 Eliminations   2006 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                            $              0   $    17,091,034      $              0    $      17,091,034
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                     0                 0                     0                    0
  Corrections of errors (+/-)                                                0                 0                     0                    0
Beginning balances, as adjusted                               $              0   $    17,091,034      $              0    $      17,091,034
Budgetary Financing Sources:
  Other adjustments (rescissions, etc.)                                      0                 0                     0                    0
  Appropriations used                                                        0           459,521                     0              459,521
  Nonexchange revenue                                                        0                 0                     0                    0
  Donations and forfeitures of cash and cash
  equivalents                                                                0                    0                  0                     0
  Transfers-in/out without reimbursement                                     0                    0                  0                     0
  Other budgetary financing sources                                          0                    0                  0                     0
Other Financing Sources:
  Donations and forfeitures of property                                      0                    0                  0                     0
  Transfers-in/out without reimbursement (+/-)                               0                    7                  0                     7
  Imputed financing from costs absorbed by
  others                                                                     0           157,074                     0              157,074
  Other (+/-)                                                                0          (181,999)                    0             (181,999)
Total Financing Sources                                       $              0   $       434,603      $              0    $         434,603
Net Cost of Operations (+/-)                                                 0        (1,791,068)                    0           (1,791,068)
Net Change                                                    $              0   $     2,225,671      $              0    $       2,225,671
Cumulative Results of Operations                              $              0   $    19,316,705      $              0    $      19,316,705

UNEXPENDED APPROPRIATIONS
Beginning Balances                                            $              0   $                0   $              0    $                0
Prior Period Adjustments:
  Changes in accounting principles                                           0                    0                  0                     0
  Corrections of errors                                                      0                    0                  0                     0
Beginning balances, as adjusted                               $              0   $                0   $              0    $                0
Budgetary Financing Sources:
  Appropriations received                                                    0           459,521                     0              459,521
  Appropriations transferred-in/out                                          0                 0                     0                    0
  Other adjustments (rescissions, etc)                                       0                 0                     0                    0
  Appropriations used                                                        0          (459,521)                    0             (459,521)
Total Budgetary Financing Sources                             $              0   $                    $                   $
Unexpended Appropriations                                                    0
Net Position                                                  $              0   $    19,316,705      $              0    $      19,316,705


                                                                                                                                                  121
The accompanying notes are an integral part of these financial statements.




                                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - Army Working Capital Fund

      COMBINED STATEMENT OF BUDGETARY RESOURCES
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                                                                   Non-Budgetary
                                                                                     Budgetary Financing Accounts                Financing Accounts
                                                                                   2007 Combined     2006 Combined         2007 Combined 2006 Combined
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1                              $     1,791,465     $     1,176,499     $          0   $          0
      Recoveries of prior year unpaid obligations                                        1,130,769           1,372,092                0              0
      Budget authority
        Appropriation                                                                      627,854             459,521                0              0
        Borrowing authority                                                                      0                   0                0              0
        Contract authority                                                              10,715,333           9,970,837                0              0
        Spending authority from offsetting collections
            Earned
               Collected                                                                15,227,289          14,013,375                0              0
               Change in receivables from Federal sources                                  103,333            (142,805)               0              0
            Change in unfilled customer orders
               Advance received                                                             29,395              39,953                0              0
               Without advance from Federal sources                                      1,336,140              59,027                0              0
            Anticipated for rest of year, without advances                                       0                   0                0              0
            Previously unavailable                                                               0                   0                0              0
            Expenditure transfers from trust funds                                               0                   0                0              0
        Subtotal                                                                   $    28,039,344     $    24,399,908     $          0   $          0
      Nonexpenditure transfers, net, anticipated and actual                               (145,700)                  0                0              0
      Temporarily not available pursuant to Public Law                                           0                   0                0              0
      Permanently not available                                                        (11,534,744)        (10,299,718)               0              0
      Total Budgetary Resources                                                    $    19,281,134     $    16,648,781     $          0   $          0

      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                                     $             0     $             0     $          0   $          0
        Reimbursable                                                                    16,764,820          14,857,316                0              0
        Subtotal                                                                   $    16,764,820     $    14,857,316     $          0   $          0
      Unobligated balance:
        Apportioned                                                                      2,516,314           1,791,465                0              0
        Exempt from apportionment                                                                0                   0                0              0
        Subtotal                                                                   $     2,516,314     $     1,791,465     $          0   $          0
      Unobligated balance not available                                                          0                   0                0              0
      Total status of budgetary resources                                          $    19,281,134     $    16,648,781     $          0   $          0
      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1                             $     9,555,896     $    10,331,509     $          0   $          0
        Less: Uncollected customer payments from Federal sources,
        brought forward, October 1                                                       (4,097,980)         (4,181,756)              0              0
        Total unpaid obligated balance                                             $      5,457,916    $      6,149,753    $          0   $          0
        Obligations incurred net (+/-)                                             $    16,764,820     $    14,857,316     $          0   $          0
        Less: Gross outlays                                                            (14,335,033)        (14,260,837)               0              0
      Obligated balance transferred, net
        Actual transfers, unpaid obligations (+/-)                                                0                   0               0              0
122     Actual transfers, uncollected customer payments from Federal
        sources (+/-)                                                                            0                   0                0              0
        Total Unpaid obligated balance transferred, net                            $             0     $             0     $          0   $          0
      Less: Recoveries of prior year unpaid obligations, actual                    $    (1,130,769)    $    (1,372,092)    $          0   $          0
      Change in uncollected customer payments from Federal sources (+/-)                (1,439,473)             83,777                0              0
      Obligated balance, net, end of period
        Unpaid obligations                                                              10,854,914           9,555,896                0              0
        Less: Uncollected customer payments (+/-) from Federal sources (-)              (5,537,453)         (4,097,980)               0              0
        Total, unpaid obligated balance, net, end of period                              5,317,461           5,457,916                0              0
      Net Outlays
      Net Outlays:
        Gross outlays                                                              $    14,335,033     $    14,260,837     $          0   $          0
        Less: Offsetting collections                                                   (15,256,685)        (14,053,327)               0              0
        Less: Distributed Offsetting receipts                                                    0                   0                0              0
        Net Outlays                                                                $      (921,652)    $       207,510     $          0   $          0

      The accompanying notes are an integral part of these financial statements.
Note 1.           Significant Accounting Policies
1.A.     Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army
Working Capital Fund (AWCF), as required by the “Chief Financial Officers Act of 1990,” expanded by the “Government
Management Reform Act of 1994,” and other appropriate legislation. The financial statements have been prepared from
the books and records of the AWCF in accordance with the “DoD Financial Management Regulation (FMR),” the Office of
Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements,” and to the extent possible, Federal
generally accepted accounting principles (Federal GAAP). Effective with the 4th Quarter, Fiscal Year (FY) 2006, AWCF
no longer publishes consolidating/combining financial statements. The accompanying financial statements account for all
resources for which the AWCF is responsible, unless otherwise noted.

Information relative to classified assets, programs and operations is excluded from the statements, or otherwise aggregated
and reported, in such a manner that it is not discernable.

The AWCF is unable to fully implement all elements of Federal GAAP and OMB Circular A-136 due to limitations of its
financial and nonfinancial management processes and systems that feed into the financial statements. The AWCF derives its
reported values and information for major asset and liability categories largely from nonfinancial feeder systems, such as
inventory and logistics systems. These systems were designed to support reporting requirements focusing on maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
accordance with Federal GAAP. The AWCF continues to implement processes and system improvements addressing these
limitations.

The AWCF currently has eight auditor-identified financial statement material weaknesses: (1) financial management
systems; (2) inventory; (3) general property, plant, and equipment; (4) intragovernmental eliminations; (5) other
accounting entries; (6) accounts payable; (7) Statement of Net Cost; and (8) Reconciliation of Net Cost of Operations to
Budget.


1.B.     Mission of the Reporting Entity
The AWCF is part of the Defense Working Capital Fund, and is divided into two separate business areas: Supply
Management and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products,
repair parts, consumable supplies, depot maintenance services, munitions, and weapons to support the deployment and
projection of lethal force as and when required by the nation.


1.C.     Appropriations and Funds
Working capital funds (revolving funds) received funding to establish an initial corpus through an appropriation or a
transfer of resources from existing appropriations or funds. The corpus finances operations and transactions that flow            123
through the fund. Financial resources to replenish the corpus, and to permit continuing operations, are generated by the
acceptance of customer orders and additional appropriations. The AWCF operates with financial principles that provide
improved cost visibility and accountability to enhance business management and improve the decision-making process. The
activities provide goods and services on a reimbursable basis. Receipts derived from operations generally are available in
their entirety for use without further congressional action. From time-to-time, however, Congress may provide additional
appropriations to support the WCF with an infusion of cash when revenues are inadequate to cover costs within the corpus.




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      1.D.     Basis of Accounting
      The AWCF generally records transactions on an accrual accounting basis as required by Federal GAAP. For FY 2007,
      AWCF financial management systems are unable to meet all of the requirements for full accrual accounting. Many AWCF
      financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of Federal
      GAAP for federal agencies and, therefore, were not designed to collect and record financial information on the full accrual
      accounting basis as required by Federal GAAP.

      The DoD has undertaken efforts to determine the actions required to bring all of its financial and nonfinancial feeder
      systems and processes into compliance with all elements of Federal GAAP. One such action is the current revision of its
      accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). At this time, not all AWCF
      accounting systems are USSGL compliant. With the implementation of the Logistics Modernization Program (LMP), the
      AWCF is working toward a cost reporting methodology that will provide the cost information required by the Statement
      of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the
      Federal Government.”

      As of December 31, 2003, LMP was implemented at Tobyhanna Army Depot, Communications–Electronics Life Cycle
      Management Center, and other Army Materiel Command activities. Until LMP is fully implemented, and all of the
      processes are updated to collect and report financial information as required by Federal GAAP, some of AWCF financial
      data will be derived from budgetary transactions (obligations, disbursements, collections) and nonfinancial feeder systems.
      For example, most financial information presented on the Statement of Net Cost is based on accrued costs; however, some
      of the financial information is based on obligations and disbursements.


      1.E.     Revenues and Other Financing Sources
      The AWCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply
      Management activities recognize revenue when an inventory item is sold. Prices set for products and services offered
      through AWCF are intended to recover the full costs (cost plus administrative fees) incurred by these activities. Unearned
      revenue is recorded as deferred revenue until earned.

      Other financing sources reported by AWCF do not include non-monetary support provided by our allies for common
      defense and mutual security. The U.S. has agreements with foreign countries that include both direct and indirect sharing of
      costs that each country incurs in support of the same general purpose. Examples include countries where there is a mutual
      or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is serviced in a port.


      1.F.     Recognition of Expenses
      For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred.
      However, because AWCF financial and nonfinancial feeder systems were not designed to collect and record financial
124   information on the full accrual accounting basis, accruals are made for certain financial events and transactions.


      1.G.     Accounting for Intragovernmental Activities
      The DoD proportionate share of public debt and related expenses of the Federal Government is not included. Debt issued
      by the Federal Government and the related costs are not apportioned to Federal agencies. The DoD financial statements,
      therefore, do not report any portion of the public debt or interest, nor do the financial statements report the source of
      public financing whether from issuance of debt or tax revenues.

      Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD
      or between two or more federal agencies. However, the AWCF cannot accurately eliminate intragovernmental transactions
      by customer because the AWCF systems do not track at the transaction level. Generally, seller entities within DoD provide
summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting offices. In most cases, where the amounts do not match, buyer-side records are adjusted to agree with DoD
seller-side balances. The volume of intragovernmental transactions is so large that after-the-fact reconciliations cannot be
accomplished effectively with existing or foreseeable resources. The DoD is developing long-term system improvements
that will ensure Intragovernmental information is accurate and will include sufficient edits and controls to eliminate the
need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service (FMS) is responsible for eliminating transactions between DoD and
other federal agencies. The U.S. Treasury Financial Manual, Part 2 – chapter 4700, “Agency Reporting Requirements for
the Financial Report of the United States Government” and the U.S. Treasury’s “Federal Intragovernmental Transactions
Accounting Policy Guide,” provide guidance for reporting and reconciling intragovernmental balances. While AWCF
is unable to fully reconcile intragovernmental transactions with all federal partners, AWCF is able to reconcile balances
pertaining to Federal Employees’ Compensation Act transactions with the Department of Labor (DOL) and benefit
program transactions with the Office of Personnel Management (OPM).

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such interest costs to the benefiting agencies.


1.H.     Transactions with Foreign Governments and International Organizations
Each year, AWCF sells defense items and services to foreign governments and international organizations, primarily under
the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has the authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to the U.S.
government. Payments in U.S. dollars are required in advance and are booked as liabilities until such time as the goods are
delivered.


1.I.     Funds with the U.S. Treasury
The U.S. Treasury maintains AWCF monetary financial resources. The DFAS, Military Services, U.S. Army Corps of
Engineers (USACE) disbursing stations as well as the Department of State financial service centers process the majority
of cash collections, disbursements, and adjustments for the AWCF. Each disbursing station prepares monthly reports that
provide information to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury then records this information to the applicable
Fund Balance with Treasury (FBWT) account maintained in the U.S. Treasury’s system. Differences between AWCF and
U.S. Treasury’s records sometime result and are subsequently reconciled.

                                                                                                                                   125
1.J.     Foreign Currency
Not applicable.


1.K.     Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts receivable, claims, and refunds
from other federal agencies and the public. Federal accounts receivable arise generally from the provision of goods
and services to other federal agencies and, with the exception of occasional billing disputes, are considered to be fully



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      collectible. Receivables from the public generally arise from the provision of goods and services to state, local and foreign
      governments. Refunds receivable, however, are overpayments by the Federal Government in the process of being collected.

      An allowance for estimated uncollectibles is established for reporting purposes based on past experience in the collection
      of accounts receivable and analysis of outstanding balances by fund type. The AWCF bases the estimate of uncollectible
      accounts receivable from the public on percentage of aged receivables by category. The allowance is calculated by using
      50% of aged receivables in the 180-day to 2-year category and 100% of aged receivables in the greater-than-2-year category.
      This excludes foreign debt and debt as reported in the Defense Debt Management System. The allowance is updated
      annually based on the aged accounts receivable at the end of the 2nd Quarter. The DoD does not recognize an allowance for
      estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are resolved between
      the agencies in accordance with dispute resolution procedures in the Intragovernmental Business Rules published in the
      Treasury Financial Manual, available online at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.


      1.L.     Direct Loans and Loan Guarantees
      Not applicable.


      1.M. Inventories and Related Property
      The inventory reported in AWCF financial statements is not all valued using the same valuation method. The AWCF
      inventories are reported using the Latest Acquisition Cost (LAC), which approximates historical cost, adjusted for holding
      gains and losses, and Moving Average Cost (MAC), which computes a new average cost each time a purchase is made.
      The AWCF uses LAC method because its inventory systems were designed for materiel management rather than GAAP
      accounting, except for activities that have transitioned to LMP. The systems provide accountability and visibility over
      inventory items.

      The AWCF values approximately 17% of resale inventory using the moving average cost method. The AWCF reports the
      remaining 83% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for holding
      gains and losses. Although these systems provide visibility and accountability over inventory items, they do not maintain
      historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.”

      The SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There is
      no management or valuation difference between the two USSGL accounts. Further, DoD manages only military or
      government-specific materiel under normal conditions. Items commonly used in, and available from, the commercial
      sector are not managed in DoD materiel management activities. “Materiel” is a unique term that relates to military force
      management, and includes all items (including ships, tanks, self-propelled weapons, aircraft, etc., and related spares,
      repair parts and support equipment, but excluding real property, installations and utilities) necessary to equip, operate,
      maintain and support military activities without distinction as to its application for administrative or combat purposes.
      Items commonly used in, and available from, the commercial sector are not managed in the AWCF materiel management
126   activities. Operational cycles are irregular, and the military risks associated with stock-out positions have no commercial
      parallel. The AWCF holds materiel based on military need and support for contingencies. Therefore, AWCF does not
      attempt to account separately for items held for current or future sale.

      The AWCF accounts for condemned materiel as excess, obsolete and unserviceable. The net value of this type of
      condemned materiel is zero, because the costs of disposal are greater than the potential scrap value.

      Past audit results identified uncertainties about the completeness and existence of quantities used to produce the reported
      values. Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned
      and managed by AWCF. This inventory is retained to support military or national contingencies. Inventory held for repair
      is damaged inventory that requires repair to make suitable for sale. It may be more economical to repair than to procure
      these inventory items. Because AWCF often relies on weapon systems and machinery no longer in production, AWCF
supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a
ready, mobile and armed military force.


1.N.     Investments
Not applicable.


1.O.     General Property, Plant and Equipment
General Property, Plant & Equipment (GPP&E) assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds
DoD capitalization threshold. In FY 2006, the capitalization threshold was revised from $100,000 to $20,000 for real
property. The current $100 thousand capitalization threshold remained unchanged for the remaining GPP&E categories.
The Army is executing the Real Property Audit Readiness Plan. The target completion date for audit readiness, which
includes substantiation of real property values, is FY 2009. Beginning in FY 2009, the Army will incorporate the revised
capitalization threshold for financial statement reporting. All GPP&E, other than land, is depreciated on a straight-line basis.
Land is not depreciated.

Prior to FY 1996, GPP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FY 1993, FY 1994, and FY 1995
respectively, and an estimated useful life of two or more years was capitalized. No adjustment was made for WCF assets.
These assets remain capitalized and reported on AWCF financial statements.

When it is in the best interest of the government, AWCF provides government property to contractors to complete
contract work. The AWCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured GPP&E exceeds the DoD capitalization
threshold, Federal accounting standards require that it be reported on AWCF Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate GPP&E information
for future financial statement reporting purposes. Accordingly, AWCF reports only government property in the possession
of contractors that is maintained in AWCF property systems. The DoD has issued new property accountability and
reporting requirements that require AWCF to maintain, in their property systems, information on all property furnished to
contractors. This action and other DoD-proposed actions are structured to capture and report the information necessary
for compliance with Federal accounting standards.


1.P.     Advances and Prepayments
The DoD policy is to record advances and prepayments in accordance with Federal GAAP. As such, payments made in
advance of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD policy is to expense
and/or classify assets when the related goods and services are received.
                                                                                                                                    127

1.Q.     Leases
Not applicable.


1.R.     Other Assets
Other assets includes military and civil service employee pay advances, travel advances, and certain contract financing
payments, that are not reported elsewhere on the AWCF Balance Sheet.


                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      The AWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
      reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AWCF
      may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations,
      Part 32, as authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the
      Government. Contract financing payments clauses are incorporated in the contract terms and conditions and may
      include advance payments, performance-based payments, commercial advance and interim payments, progress payments
      based on cost, and interim payments under certain cost-reimbursement contracts.

      Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
      or progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation
      Supplement (DFARS) authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or
      repair. Progress payments for real property are reported as Construction in Progress in Note 10. It is DoD policy to
      record certain contract financing payments as Other Assets.


      1.S. Contingencies and Other Liabilities
      The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
      of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
      circumstances that involves an uncertainty as to possible gain or loss to AWCF. The uncertainty will be resolved when one
      or more future events occur or fail to occur. The AWCF recognizes contingent liabilities when past events or exchange
      transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

      Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
      at least a reasonable possibility of incurring a loss or additional losses. Loss contingencies include the collectibility of
      receivables, pending or threatened litigation, and possible claims and assessments. The AWCF risk of loss and resultant
      contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and
      vehicle accidents, property or environmental damages, and contract disputes.


      1.T.     Accrued Leave
      The AWCF reports as liabilities earned civilian annual leave that has been accrued and not used as of the Balance Sheet date.
      Earned sick leave is expensed as taken. The liability reported at the end of the accounting period reflects the current pay
      rates.


      1.U.     Net Position
      Net position consists of cumulative results of operations. Cumulative results of operations represent the net difference,
      since inception of an activity, between expenses and losses and financing sources (including appropriations, revenue and
      gains). Beginning with FY 1998, the cumulative results also include donations and transfers-in/out of assets without
128
      reimbursement.


      1.V.     Treaties for Use of Foreign Bases
      Not applicable.


      1.W.     Comparative Data
      Not applicable.
1.X.     Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial statements
do not reflect this liability for payment for goods or services not yet delivered, unless title passes.


1.Y.     Undistributed Disbursements and Collection
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported
by the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting
reports. In-transit payments are those payments that have been made, but have not been recorded in the fund holder’s
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
are those collections from other agencies or entities that have not been recorded in the accounting records. These
collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. The
AWCF does not follow this procedure. All AWCF undistributed collections are derived from interfund transactions
that process collections from federal sources only. Undistributed disbursements are allocated between federal and non-
federal based on disbursement history accumulated fiscal year to date. The AWCF records unsupported undistributed
disbursements in accounts payable and unsupported undistributed collections in other liabilities.


1.Z.     Significant Events
Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in accordance with the
Office of Management and Budget (OMB) Circular A-136. The SOF will no longer be considered a basic statement and is
now referred to as “Reconciliation of Net Cost of Operations to Budget.”




                                                                                                                                     129




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 2.              Nonentity Assets
       As of September 30                                                            2007                          2006
       (Amounts in thousands)
       1. Intragovernmental Assets
          A. Fund Balance with Treasury                                      $                      0   $                         0
          B. Accounts Receivable                                                                    0                             0
          C. Total Intragovernmental Assets                                  $                      0   $                         0

       2. Nonfederal Assets
          A. Cash and Other Monetary Assets                                  $                      0   $                         0
          B. Accounts Receivable                                                                    0                             0
          C. Other Assets                                                                           0                             0
          D. Total Nonfederal Assets                                         $                      0   $                         0

       3. Total Nonentity Assets                                             $                      0   $                         0

       4. Total Entity Assets                                                $           23,716,683     $              20,760,925

       5. Total Assets                                                       $           23,716,683     $              20,760,925

      Nonentity assets are assets held by an entity but are not available for use in the operations of the entity. The AWCF does not
      have nonentity assets.

      Entity assets are resources that AWCF has the authority to use or where management is legally obligated to use funds to
      meet entity obligations.


      Note 3.              Fund Balance with Treasury
       As of September 30                                                            2007                          2006
       (Amounts in thousands)
       1. Fund Balances
          A. Appropriated Funds                                              $                      0   $                       0
          B. Revolving Funds                                                                2,279,084                     875,344
          C. Trust Funds                                                                            0                           0
          D. Special Funds                                                                          0                           0
          E. Other Fund Types                                                                       0                           0
          F. Total Fund Balances                                             $              2,279,084   $                 875,344

       2. Fund Balances Per Treasury Versus Agency
          A. Fund Balance per Treasury                                       $              2,279,084   $                 875,344
          B. Fund Balance per Army Working Capital Fund                                     2,279,084                     875,344

130    3. Reconciling Amount                                                 $                      0   $                         0
Status of Fund Balance with Treasury
 As of September 30                                                              2007                           2006
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                                        $               2,516,314 $                    1,791,465
    B. Unavailable                                                                              0                              0

 2. Obligated Balance not yet Disbursed                                 $              10,854,914 $                    9,555,896

 3. Nonbudgetary FBWT                                                   $                       0 $                            0

 4. NonFBWT Budgetary Accounts                                          $           (11,092,144) $                (10,472,018)

 5. Total                                                               $               2,279,084 $                     875,343

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with contract authority
and customer orders. There are no restrictions on the Unobligated Balance.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received,
services that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts that represent adjustments that do not have budgetary
authority, such as unavailable receipt accounts or clearing accounts.

NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT. This category
reduces the Status of FBWT.


Disclosures Related to Suspense/Budget Clearing Accounts
The Suspense/Budget Clearing Accounts shown above are maintained and reported by the Army General Fund. Some
transactions relating to the AWCF may be in suspense accounts, but are not identifiable. When they are identified to AWCF,
they will be transferred from the suspense / clearing account to the correct U.S. Treasury appropriation.


Disclosures Related to Problem Disbursements
                                                                                                               (Decrease)/
 As of September 30                                                                                           Increase from
                                                                 2005           2006           2007          FY 2006 to 2007        131
 (Amounts in thousands)
 1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDs)                        $    10,064    $   4,843 $          50,868     $            46,025
    B. Negative Unliquidated Obligations (NULO)                    3,773        2,703               628                  (2,075)
    C. In-Transit Disbursements                                   94,626      180,610           265,735                  85,125
 Total                                                       $   108,463    $ 188,156 $         317,231     $           129,075

Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the positive values of debit
and credit transactions without regard to the sign (plus or minus).



                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      An Unmatched Disbursement (UMD) occurs when a payment does not match to a corresponding obligation in the
      accounting system.

      A Negative Unliquidated Obligation (NULO) occurs when a payment is made against a valid obligation, but the payment is
      greater than the amount of the obligation recorded in the official accounting system. These payments have been made using
      available funds and are based on valid receiving reports for goods and services delivered under valid contracts.

      In-transit Disbursements represent the absolute value of disbursements and collections made by a DoD disbursing activity
      on behalf of an accountable activity but have not been posted in an accounting system.

      Beginning with 2nd Quarter, FY 2007, in-transit disbursements are reported as absolute values as opposed to net
      amounts disclosed in prior years. This reporting change applies to amounts in the note schedule for both the current and
      comparative years.


      Note 4.              Investments and Related Interest
      Not applicable.


      Note 5.              Accounts Receivable
       As of September 30                                                               2007                                2006
       (Amounts in thousands)                                                      Allowance
                                                               Gross Amount       For Estimated       Accounts           Accounts
                                                                   Due            Uncollectibles    Receivable, Net    Receivable, Net
       1. Intragovernmental Receivables                         $    325,168                N/A            325,168     $      243,005
                                                                                                    $
       2. Nonfederal Receivables (From the Public)              $     20,840 $           (4,374)    $       16,466     $         9,355

       3. Total Accounts Receivable                             $    346,008 $           (4,374)    $      341,634     $      252,360


      Aged Accounts Receivable
       As of September 30                                                    2007                          4th Quarter 2006
       (Amounts in thousands)                                Intragovernmental      Nonfederal     Intragovernmental       Nonfederal
       CATEGORY
       Nondelinquent
         Current                                               $       339,057      $   15,214      $      254,993     $        11,930
         Noncurrent                                                          0               0                   0                   0
       Delinquent
         1 to 30 days                                          $         2,537      $       407     $         1,822    $           196
         31 to 60 days                                                     266               99                 374                  1
         61 to 90 days                                                     261               23                 119                 19
         91 to 180 days                                                    147              128                  65                 27
132
         181 days to 1 year                                                498               17                 117                303
         Greater than 1 year and less than or equal to
         2 years                                                             18             368                  79               3,822
         Greater than 2 years and less than or equal to
         6 years                                                             29           3,914                  83                     3
         Greater than 6 years and less than or equal to
         10 years                                                            0              67                   0                   7
         Greater than 10 years                                               0             603                   0                 588
       Subtotal                                                $       342,813      $   20,840      $      257,652     $        16,896
         Less Supported Undistributed                                   35,391               0              21,939                   0
         Collections
         Less Eliminations                                             (53,036)              0             (36,586)                  0
         Less Other                                                          0               0                   0                   0
       Total                                                   $       325,168      $   20,840      $      243,005     $        16,896
The table above identifies aged accounts receivable groups for AWCF as reported in AWCF Monthly Receivable Data
(MRD) Reports.

The balances reported as supported undistributed collections are abnormal. Abnormalities are due to differences
between the U.S. Treasury and AWCF field reported collections, which are reported through two separate data feeds
(expenditure reports and status reports). The AWCF is working to resolve the current abnormal balance of $35.4 million.
Approximately $15.7 million of these collections were previously reported by the former Army Information Services
business area that closed at the end of FY 2003. The AWCF did not properly close out and transfer existing collection
balances to the Supply Management business area. In addition, $18.7 million is due to systemic problems attributed to
LMP interfund billing issues. This issue will be resolved by 4th Quarter, FY 2008.

To collect delinquent accounts receivable, the AWCF follows DoD concept of operations for collections, which includes
referring delinquent receivables to the Debt Management Office and requires follow-up actions at 30-day intervals with
ordering activities.

The majority of accounts receivable due from the public are in a current status. The $5.6 million in delinquent accounts
receivable from the public includes $5.0 million that is not available for collection due to $4.3 million in forbearance or
formal appeal process, $392.8 thousand at the Department of Justice, $338.1 thousand at U.S. Treasury, and $8.9 thousand
in bankruptcy. Remaining delinquent debt is being actively pursued by the AWCF.


Note 6.              Other Assets
 As of September 30                                                              2007                         2006
 (Amounts in thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                         $                  3,002    $                  8,670
    B. Other Assets                                                                            0                           0
    C. Total Intragovernmental Other Assets                             $                  3,002    $                  8,670

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                          $               367,020     $                417,830
    B. Other Assets (With the Public)                                                       371                           84
   C. Total Nonfederal Other Assets                                     $               367,391     $                417,914

 3. Total Other Assets                                                  $               370,393     $                426,584

Other Assets (With the Public) consists of travel advances and prepaid expenses.

Contract terms and conditions for certain types of contract financing payments convey certain rights to AWCF that protect
the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or
disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s
                                                                                                                                  133
work has transferred to the Government. The Government does not have the right to take the work, except as provided in
contract clauses related to termination or acceptance, and the AWCF is not obligated to make payment to the contractor
until delivery and acceptance of a satisfactory product.

The Contract Financing Payment balance of $367.0 million is comprised of $335.4 million in contract financing payments
and an additional $31.6 million in estimated future payments that will be paid to the contractor upon future delivery and
Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 7.            Cash and Other Monetary Assets
      Not applicable.


      Note 8.            Direct Loan and/or Loan Guarantee Programs
      Not applicable.


      Summary of Direct Loans and Loan Guarantees
      Not applicable.


      Direct Loans Obligated
      Not applicable.


      Total Amount of Direct Loans Disbursed
      Not applicable.


      Subsidy Expense for Post FY 1991 Direct Loan
      Not applicable.


      Subsidy Rate for Direct Loans by Program
      Not applicable.


      Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY 1991 Direct
      Loans
      Not applicable.


      Defaulted Guaranteed Loans
      Not applicable.

134
      Guaranteed Loans Outstanding
      Not applicable.


      Liabilities for Post FY 1991 Loan Guarantees, Present Value
      Not applicable.


      Subsidy Expense for Loan Guarantees by Program
      Not applicable.
Subsidy Rates for Loan Guarantees by Program
Not applicable.


Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
Guarantees
Not applicable.


Administrative Expenses
Not applicable.


Note 9.              Inventory and Related Property
 As of September 30                                                          2007                                   2006
 (Amounts in thousands)
 1. Inventory, Net                                                $                 19,728,687         $                    17,939,567
 2. Operating Materials & Supplies, Net                                                      0                                       0
 3. Stockpile Materials, Net                                                                 0                                       0

 4. Total                                                         $                 19,728,687         $                    17,939,567


Inventory, Net
 As of September 30                                                     2007                                           2006
 (Amounts in thousands)                            Inventory, Gross   Revaluation                                             Valuation
                                                        Value         Allowance       Inventory, Net       Inventory, Net      Method
 1. Inventory Categories
   A. Available and Purchased for Resale          $   23,462,505 $ (7,568,360) $        15,894,145 $         14,757,650       LAC,MAC
   B. Held for Repair                                  5,586,219   (1,850,905)           3,735,314            3,138,773       LAC,MAC
   C. Excess, Obsolete, and Unserviceable                574,584     (574,584)                   0                    0        NRV
   D. Raw Materials                                       99,228            0               99,228               43,144     MAC,SP,LAC
   E. Work in Process                                          0            0                    0                    0         AC


   F. Total                                       $   29,722,536 $ (9,993,849) $        19,728,687 $         17,939,567

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost
MAC = Moving Average Cost                                                                                                                 135

Restrictions of Inventory Use, Sale, or Disposition:

There are restrictions on the use, sale, or disposition of inventory classified as war reserve materiel valued at $1.6 billion
(LAC/MAC), which includes petroleum products and subsistence items.

Other Information:

The categories listed below comprise Inventory, Net. The AWCF assigns Inventory items to a category based upon the type
and condition of the asset.


                                                                      Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Inventory Available and Purchased for Resale – spare and repair parts, clothing and textiles, petroleum products and
      ammunition.

      Inventory Held for Repair – damaged materiel held as inventory that is more economical to repair than to dispose.

      Excess, Obsolete, and Unserviceable Inventory – scrap materiel or items that cannot be economically repaired and are
      awaiting disposal.

      Raw Materials – items consumed in the production of goods for sale or in the provision of services for a fee.


      Operating Materials and Supplies, Net
      Not applicable.


      Stockpile Materials, Net
      Not applicable.


      Note 10. General PP&E, Net
          As of September 30                                                                  2007                                         2006
          (Amounts in thousands)                       Depreciation/                                    (Accumulated
                                                       Amortization                       Acquisition   Depreciation/     Net Book      Prior FY Net
                                                         Method        Service Life         Value        Amortization)     Value        Book Value
          1. Major Asset Classes
            A. Land                                        N/A            N/A         $         0                 N/A $           0 $             0
            B. Buildings, Structures, and Facilities       S/L          20 Or 40        1,866,674 $       (1,427,967)       438,707         793,089
            C. Leasehold Improvements                      S/L         lease term          96,629             (81,629)       15,000          16,207
            D. Software                                    S/L          2-5 Or 10         491,144           (274,458)       216,686         171,299
            E. General Equipment                           S/L           5 or 10        1,538,701         (1,255,894)       282,807         249,930
            F. Military Equipment                          S/L           Various                0                   0             0               0
            G. Assets Under Capital Lease                  S/L         lease term               0                   0             0               0
            H. Construction-in- Progress                   N/A            N/A              43,685                 N/A        43,685          36,545
            I. Other                                                                            0                   0             0               0
            J. Total General PP&E                                                     $ 4,036,833 $       (3,039,948) $     996,885 $     1,267,070

      1
          Note 15 for additional information on Capital Leases

      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable


136   The amount reported as Leasehold Improvements consists primarily of buildings and related improvements made to
      facilities at Corpus Christi Army Depot (CCAD). The CCAD, a tenant on a Navy installation, does not maintain a lease
      with the Navy.


      Assets Under Capital Lease
      The AWCF does not have any assets under capital lease.
Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                      2007                        2006
 (Amounts in thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                                                        $                          0      $                0
    B. Debt                                                                                               0                       0
    C. Other                                                                                         45,410                  48,768
    D. Total Intragovernmental Liabilities                                     $                     45,410      $           48,768

 2. Nonfederal Liabilities
    A. Accounts Payable                                                        $                         0       $                0
    B. Military Retirement Benefits and Other Employment-Related
       Actuarial Liabilities                                                                        243,112                 262,499
    C. Environmental Liabilities                                                                          0                       0
    D. Other Liabilities                                                                                  0                       0
    E. Total Nonfederal Liabilities                                            $                    243,112      $          262,499

 3. Total Liabilities Not Covered by Budgetary Resources                       $                    288,522      $          311,267

 4. Total Liabilities Covered by Budgetary Resources                           $                1,534,427        $       1,132,953

 5. Total Liabilities                                                          $                1,822,949        $       1,444,220

Liabilities not Covered by Budgetary Resources are liabilities for which congressional action is needed before budgetary
resources can be provided.

Intragovernmental Other Liabilities represents future funded Federal Employees Compensation Act (FECA) liabilities billed
to AWCF by the Department of Labor (DOL). This amount represents amounts paid by the DOL to beneficiaries for which
DOL has billed AWCF. The current portion of this bill, $19.5 million, is due in FY 2008 and the remainder is due in the
following fiscal years.

Military Retirement Benefits and Other Employment-Related Actuarial Liabilities not covered by budgetary resources is
comprised of various employee actuarial liabilities. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, for additional details and disclosures.


Note 12. Accounts Payable
 As of September 30                                                          2007                                        2006
 (Amounts in thousands)                                              Interest, Penalties, and
                                                Accounts Payable       Administrative Fees               Total           Total
 1. Intragovernmental Payables                  $       96,452       $                    N/A        $      96,452   $       78,917
 2. Nonfederal Payables (to the Public)              1,023,837                              2            1,023,839          576,037
                                                                                                                                      137
 3. Total                                       $    1,120,289       $                          2    $   1,120,291   $      654,954

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal
DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and
unearned revenue. Accounts payable were adjusted by reclassifying amounts between federal and nonfederal accounts
payable.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 13. Debt
      Not applicable.


      Note 14. Environmental Liabilities and Disposal Liabilities
      Not applicable.


      Environmental Disclosures
      Not applicable.


      Note 15. Other Liabilities
       As of September 30                                                                   2007                            2006
       (Amounts in thousands)                                              Current      Noncurrent
                                                                           Liability     Liability           Total          Total
       1. Intragovernmental
          A. Advances from Others                                      $            0   $          0     $         0    $         0
          B. Deposit Funds and Suspense Account Liabilities                         0              0               0              0
          C. Disbursing Officer Cash                                                0              0               0              0
          D. Judgment Fund Liabilities                                              0              0               0              0
          E. FECA Reimbursement to the Department of Labor                     19,462         25,949          45,411         48,768
          F. Other Liabilities                                                  9,818              0           9,818          9,382

         G. Total Intragovernmental Other Liabilities                  $       29,280   $     25,949     $    55,229    $    58,150

       2. Nonfederal
          A. Accrued Funded Payroll and Benefits                       $      80,675    $            0   $    80,675    $    70,442
          B. Advances from Others                                            103,101                 0       103,101         83,267
          C. Deferred Credits                                                      0                 0             0              0
          D. Deposit Funds and Suspense Accounts                                (895)                0          (895)          (898)
          E. Temporary Early Retirement Authority                                  0                 0             0              0
          F. Nonenvironmental Disposal Liabilities
             (1) Military Equipment (Nonnuclear)                                   0               0               0              0
             (2) Excess/Obsolete Structures                                        0               0               0              0
             (3) Conventional Munitions Disposal                                   0               0               0              0
          G. Accrued Unfunded Annual Leave                                   100,635               0         100,635        100,812
          H. Capital Lease Liability                                               0               0               0              0
          I. Other Liabilities                                                89,204          31,597         120,801        214,994

         J. Total Nonfederal Other Liabilities                         $     372,720    $     31,597     $ 404,317      $   468,617
138
       3. Total Other Liabilities                                      $     402,000    $     57,546     $ 459,546      $   526,767

      The $895.4 thousand abnormal balance in Nonfederal Deposit Funds and Suspense Accounts is due to differences between
      the U. S. Treasury and AWCF field reported collections. The majority of this amount is from the Information Services
      business area that was closed at the end of FY 2003. This abnormal balance will be resolved by the end of FY 2008.

      Intragovernmental Other Liabilities consists of employee benefits, including health insurance, life insurance, and retirement
      payable to the Department of Labor (DOL).

      The Nonfederal Other Liabilities consists of contingent liabilities, contract holdbacks, and employer’s contribution for
      employee benefits. This line includes a contingent liability of $25.4 thousand deemed probable.
Contingent Liabilities balance includes $31.6 million in estimated future contract financing payments that will be paid
to the contractor upon delivery and Government acceptance. In accordance with contract terms, specific rights to the
contractor’s work vests with the Government when a specific type of contract financing payments is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of
ownership. The AWCF is under no obligation to pay the contractor for amounts greater than the amounts authorized in
the contract until delivery and Government acceptance. Because it is probable that the contractor will complete its efforts
and deliver a satisfactory product to the AWCF and the amount of potential future payments is estimable; the AWCF has
recognized a contingent liability for estimated future payments, which are conditional pending delivery and Government
acceptance.


Capital Lease Liability
Not applicable.


Note 16. Commitments and Contingencies
The AWCF is a party in various administrative proceedings and legal actions, with claims including environmental damage
claims, equal opportunity matters, and contractual bid protests. The AWCF has accrued contingent liabilities for legal
actions where the Army’s Office of the General Counsel considers an adverse decision probable and the amount of loss
is measurable. In the event of an adverse judgment against the Government, some of the liabilities may be payable from
the Judgment Fund. The AWCF records Judgment Fund liabilities in Note 15, Other Liabilities, and Note 12, Accounts
Payable.

Nature of Contingency

The FY 2006 Army Legal Representation Letter outlines one claim against AWCF totaling $486.7 million for which the
Army Office of General Counsel is unable to express an opinion.

The AWCF has other contingent liabilities in which the possibility of loss is considered reasonable. These liabilities are
not accrued in the Army’s financial statements nor are reported in the FY 2006 Army Legal Representation Letter. As of
September 30, 2007, AWCF has approximately $1.1 million in claims at Army Materiel Command considered reasonably
possible. Estimates for litigations, claims and assessments are required to be fully supported. Additionally, the AWCF has
coordinated with Army Office of General Counsel to ensure that estimates agree with the legal representation letters and
management summary schedule.

Other Information Pertaining to Commitments

The AWCF does not have open contracts citing canceled appropriations.

The AWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,            139
or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, the AWCF does not have
a systematic process by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported
may not fairly present AWCF contingent liabilities.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15,
Other Liabilities, for further details.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 17. Military Retirement and Other Federal Employment
               Benefits
       As of September 30                                                                    2007                                         2006
       (Amounts in thousands)                                                    Assumed       (Less: Assets
                                                                Present Value     Interest    Available to Pay       Unfunded         Present Value of
                                                                 of Benefits     Rate (%)        Benefits)            Liability           Benefits
       1. Pension and Health Actuarial Benefits
          A. Military Retirement Pensions                       $            0                $             0    $                0   $             0
          B. Military Retirement Health Benefits                             0                              0                     0                 0
          C. Military Medicare-Eligible Retiree Benefits                     0                              0                     0                 0
          D. Total Pension and Health Actuarial Benefits        $            0                $             0    $                0   $             0

       2. Other Actuarial Benefits
          A. FECA                                               $    243,112         4.93     $             0    $      243,112       $     262,499
          B. Voluntary Separation Incentive Programs                       0                                0                 0                   0
          C. DoD Education Benefits Fund                                   0                                0                 0                   0
          D. Total Other Actuarial Benefits                     $    243,112                  $             0    $      243,112       $     262,499

       3. Other Federal Employment Benefits                     $            0                $             0    $                0   $             0

       4. Total Military Retirement and Other
          Federal Employment Benefits:                          $    243,112                  $             0    $      243,112       $     262,499

      Actuarial Cost Method Used:
      Assumptions:
      Market Value of Investments in Market-based and Marketable Securities:


      Federal Employees Compensation Act (FECA)

      The AWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
      to AWCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and
      miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability
      is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
      predict the ultimate payments. The projected annual benefit payments are discounted to present value using the Office
      of Management and Budget’s (OMB’s) economic assumptions for 10-year Treasury notes and bonds. Cost of living
      adjustments (COLAs) and consumer price index medical (CPIM) factors are applied to the calculation of projected future
      benefits.

      The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical,
      and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
      liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period
      to predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefits
140   payments have been discounted to present value using the OMB’s economic assumptions for 10-year Treasury notes and
      bonds. Interest rate assumptions utilized for discounting were as follows:

      FY 2007
      4.930% in Year 1
      5.078% in Year 2 and thereafter

      To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
      inflation factors (COLAs) and medical inflation factors (CPIMs) were applied to the calculation of projected future benefits.
      The actual rates for these factors for the charge back year (CBY) 2006 are used to adjust the methodology’s historical
      payments to current year constant dollars.
The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

CBY          COLA         CPIM
2007         2.63%        3.74%
2008         2.90%        4.04%
2009         2.47%        4.00%
2010         2.37%        3.94%
2011+        2.30%        3.94%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
four tests: (1) a sensitivity analysis of the model to economic assumptions; (2) a comparison of the percentage change
in the liability amount by agency to the percentage change in the actual incremental payments; (3) a comparison of the
incremental paid loses per case (a measure of case-severity) in CBY 2007 to the average pattern observed during the most
current three charge back years; and (4) a comparison of the estimated liability per case in the 2007 projection to the
average pattern for the projections of the most recent three years.

Other Disclosures

The AWCF actuarial liabilities decreased $19.4 million since the previous calculation at the end of FY 2006.

Actuarial liabilities are computed for employee compensation benefits as mandated by the Federal Employment
Compensation Act (FECA). The Office of Personnel Management provides updated Army actuarial liabilities during the 4th
Quarter of each fiscal year. The AWCF computes its portion of the total Army actuarial liability based on the percentage of
AWCF FECA expense to the total Army FECA expense.


Note 18. General Disclosures Related to the Statement of Net
         Cost
 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                          2007                           2006
 (Amounts in thousands)
 1. Intragovernmental Costs                                       $                3,231,526     $                  450,714
 2. Public Costs                                                                  12,928,459                     15,455,262
 3. Total Costs                                                   $               16,159,985     $               15,905,976

 4. Intragovernmental Earned Revenue                              $              (12,590,913)    $              (11,459,046)
 5. Public Earned Revenue                                                          (6,092,010)                    (6,237,998)
 6. Total Earned Revenue                                          $              (18,682,923)    $              (17,697,044)

 7. Net Cost of Operations                                        $               (2,522,938)    $               (1,791,068)

Intragovernmental costs and revenue are transactions made between two reporting entities within the Federal Government.           141
Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal
DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Expenses were adjusted by
reclassifying amounts between federal and nonfederal expenses.

The Statement of Net Cost is unique because its principles are driven by understanding the net cost of programs and/or
organizations that the Federal Government supports through appropriations or other means. This statement provides gross
and net cost information that can be related to the amount of output or outcome for a given program and/or organization
administered by a responsible reporting entity.

                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      While AWCF activities generally record transactions on an accrual basis, as is required by federal generally accepted
      accounting principles, the systems do not always capture actual costs. Some of the information presented on the
      Consolidated Statement of Net Cost is based on non-financial feeder systems, including property accountability and
      logistics systems. The AWCF is in the process of upgrading its financial and logistical feeder systems to the Logistics
      Modernization Program to address this issue.


      Note 19. Disclosures Related to the Statement of Changes in Net
               Position
       As of September 30                                                                     2007                                2006
       (Amounts in thousands)                                                    Cumulative                          Cumulative
                                                                                 Results of        Unexpended        Results of        Unexpended
                                                                                 Operations       Appropriations     Operations       Appropriations
       1. Prior Period Adjustments Increases (Decreases) to Net
          Position Beginning Balance
          A. Changes in Accounting Standards                                 $                0   $            0 $                0   $            0
          B. Errors and Omissions in Prior Year Accounting Reports                            0                0                  0                0

         C. Total Prior Period Adjustments                                   $                0   $            0 $                0   $            0

       2. Imputed Financing
          A. Civilian CSRS/FERS Retirement                                   $     50,900         $            0 $ 53,486             $            0
          B. Civilian Health                                                      111,994                      0   103,362                         0
          C. Civilian Life Insurance                                                  239                      0       226                         0
          D. Judgment Fund                                                              0                      0         0                         0
          E. IntraEntity                                                                0                      0         0                         0

         F. Total Imputed Financing                                          $ 163,133            $            0 $ 157,074            $            0

      Legend:
      CSRS – Civil Service Retirement System
      FERS – Federal Employee Retirement System


      The line titled Other Financing Sources: Other on the Statement of Net Position represents transfers-in and transfers-out
      for which trading partners could not be identified. These transactions are recorded as other gains and losses.


      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                                                                    2007                     2006
       (Amounts in thousands)

       1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at
          the End of the Period                                                                       $        9,950,750 $                9,001,781

142    2. Available Borrowing and Contract Authority at the End of the Period                                            0                6,374,039

      This note has been modified to accurately report the remaining available balance of Borrowing and Contract Authority.
      Previously, the AWCF reported the amount of contract/borrowing authority that had been initially used and subsequently
      replaced by reimbursement or appropriation.

      All AWCF obligations represent reimbursable obligations in apportionment category B. Category B apportionments
      provide funding for the entire fiscal year without quarterly limitations. Total obligations in FY 2007 were $16.8 billion.

      The AWCF does not make eliminating entries in the Statement of Budgetary Resources because the statements are
      presented as combined and combining.

      There are no legal arrangements affecting the use of unobligated balances of budgetary authority.
Note 21. Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                                                    2007             2006
 (Amounts in thousands)
 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
    1. Obligations incurred                                                                       $  16,764,820 $ 14,857,316
    2. Less: Spending authority from offsetting collections and recoveries (-)                      (17,826,926)    (15,341,642)
    3. Obligations net of offsetting collections and recoveries                                   $   (1,062,106) $    (484,326)
    4. Less: Offsetting receipts (-)                                                                           0              0
    5. Net obligations                                                                            $   (1,062,106) $    (484,326)
 Other Resources:
    6. Donations and forfeitures of property                                                                    0                0
    7. Transfers in/out without reimbursement (+/-)                                                      (345,832)               7
    8. Imputed financing from costs absorbed by others                                                    163,133         157,074
    9. Other (+/-)                                                                                       (245,300)       (181,999)
   10. Net other resources used to finance activities                                             $      (427,999) $       (24,918)
   11. Total resources used to finance activities                                                 $    (1,490,105) $     (509,244)

 Resources Used to Finance Items not Part of the Net Cost of Operations:
   12. Change in budgetary resources obligated for goods, services and benefits ordered but
       not yet provided:
     12a. Undelivered Orders (-)                                                                  $      (948,969) $    1,113,636
     12b. Unfilled Customer Orders                                                                      1,365,535           98,980
   13. Resources that fund expenses recognized in prior Periods (-)                                        (25,497)        (24,024)
   14. Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                   0               0
   15. Resources that finance the acquisition of assets (-)                                            (8,180,607)     (8,630,581)
   16. Other resources or adjustments to net obligated resources that do not affect Net Cost of
       Operations:
     16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s Budget (-)                   0               0
     16b. Other (+/-)                                                                                     591,131         181,989
   17. Total resources used to finance items not part of the Net Cost of Operations               $    (7,198,407) $   (7,260,000)
   18. Total resources used to finance the Net Cost of Operations                                 $    (8,688,512) $   (7,769,244)

 Components of the Net Cost of Operations that will not Require or Generate Resources in
 the Current Period:
 Components Requiring or Generating Resources in Future Period:
   19. Increase in annual leave liability                                                         $         2,576 $          5,056
   20. Increase in environmental and disposal liability                                                         0                0
   21. Upward/Downward reestimates of credit subsidy expense (+/-)                                              0                0
   22. Increase in exchange revenue receivable from the public (-)                                              0                0
   23. Other (+/-)                                                                                             25            1,515
   24. Total components of Net Cost of Operations that will Require or Generate Resources in
       future periods                                                                             $         2,601 $          6,571
 Components not Requiring or Generating Resources:
   25. Depreciation and amortization                                                              $        57,291 $        31,293
   26. Revaluation of assets or liabilities (+/-)                                                       1,515,071         781,326
   27. Other (+/-)
      27a. Trust Fund Exchange Revenue                                                                          0        5,718,282     143
      27b. Cost of Goods Sold                                                                           5,249,313            3,061
      27c. Operating Material and Supplies Used                                                                 0                0
      27d. Other                                                                                         (658,702)        (559,296)
   28. Total Components of Net Cost of Operations that will not Require or Generate Resources     $     6,162,973 $      5,971,605
   29. Total components of Net Cost of Operations that will not Require or Generate
       Resources in the current period                                                            $     6,165,574 $     5,978,176
   30. Net Cost of Operations                                                                     $    (2,522,938) $   (1,791,068)


The AWCF budgetary data does not agree with its proprietary expenses and assets capitalized. This results in a difference in
net cost between the Statement of Net Cost and the Reconciliation of Net Cost of Operations to Budget. Resources That



                                                                      Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Finance the Acquisition of Assets were adjusted by $179.7 million to bring the statements into agreement. The differences
      between budgetary and proprietary data for AWCF were reported as material weaknesses in the FY 2006 AWCF annual
      financial statement report.

      The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated
      due to interagency budgetary transactions not being eliminated:
                Obligations Incurred
                Less: Spending Authority from Offsetting Collections and Recoveries
                Obligations Net of Offsetting Collections and Recoveries
                Less: Offsetting Receipts
                Net Obligations
                Undelivered Orders
                Unfilled Customer Orders

      Other Resources Other consists of other gains and other losses primarily attributable to differences between
      intragovernmental transfers-in/out for which trading partners could not be identified.

      Other Resources or Adjustments to Net Obligated Resources that do not affect Net Cost of Operations Other consists
      mostly of other gains and other losses primarily attributable to differences between intragovernmental transfers-in/out for
      which trading partners could not be identified.

      Components Requiring or Generating Resources in future Period Other consists entirely of a contingent liability of
      $25.4 thousand deemed probable.

      Components not Requiring or Generating Resources Other Other consists of cost capitalization offsets. Due to the
      reconciliation of interagency expenses and revenues, agencies must first record all direct costs to Operating Expenses and
      then offset those amounts using the Cost Capitalization Offset account when the costs are capitalized to the appropriate “in-
      process type” account.

      The difference between the Liabilities not Covered by Budgetary Resources on the balance sheet and Components
      Requiring or Generating Resources in Future Period on the Reconciliation of Net Cost of Operations to Budget is
      $151.8 thousand. The Total Components of Net Cost of Operations that will require or generate resources in future
      periods is $22.8 million, which comprises future funded expenses for annual leave and contingent liabilities. These
      liabilities do not appear in note 11 because the AWCF reports them as covered liabilities. The change in the Total
      Liabilities Not Covered by Budgetary Resources in note 11 was $22.7 million between FY 2007 and FY 2006. This
      represents a decrease in the FECA liability, which is reported as Resources that fund expenses recognized in prior
      periods on the Reconciliation of Net Cost of Operations to Budget.


      Note 22. Disclosures Related to Incidental Custodial Collections
      Not applicable.
144

      Note 23. Earmarked Funds
      Not applicable.


      Note 24. Other Disclosures
      Not applicable.


      Note 25. Restatements
      Not applicable.
                                                                 145




Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense Army Working Capital Fund

      STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                     Working Capital
                                                                                         Funds            2007 Combined       2006 Combined
      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1                                $      1,791,465     $     1,791,465     $     1,176,499
      Recoveries of prior year unpaid obligations                                           1,130,769           1,130,769           1,372,092
      Budget authority
        Appropriation                                                                         627,854             627,854             459,521
        Borrowing authority                                                                         0                   0                   0
        Contract authority                                                                 10,715,333          10,715,333           9,970,837
        Spending authority from offsetting collections
            Earned
               Collected                                                                   15,227,289          15,227,289          14,013,375
               Change in receivables from Federal sources                                     103,334             103,333            (142,805)
            Change in unfilled customer orders
               Advance received                                                                29,395              29,395              39,953
               Without advance from Federal sources                                         1,336,140           1,336,140              59,027
            Anticipated for rest of year, without advances                                          0                   0                   0
            Previously unavailable                                                                  0                   0                   0
            Expenditure transfers from trust funds                                                  0                   0                   0
        Subtotal                                                                     $     28,039,345     $    28,039,344     $    24,399,908
      Nonexpenditure transfers, net, anticipated and actual                                  (145,700)           (145,700)                  0
      Temporarily not available pursuant to Public Law                                              0                   0                   0
      Permanently not available                                                           (11,534,745)        (11,534,744)        (10,299,718)
      Total Budgetary Resources                                                      $     19,281,134     $    19,281,134     $    16,648,781

      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                                       $              0     $             0     $             0
        Reimbursable                                                                       16,764,820          16,764,820          14,857,316
        Subtotal                                                                     $     16,764,820     $    16,764,820     $    14,857,316
      Unobligated balance:
        Apportioned                                                                         2,516,314           2,516,314           1,791,465
         Exempt from apportionment                                                                  0                   0                   0
        Subtotal                                                                     $      2,516,314     $     2,516,314     $     1,791,465
      Unobligated balance not available                                                             0                   0                   0
      Total status of budgetary resources                                            $     19,281,134     $    19,281,134     $    16,648,781
      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1                               $      9,555,896     $     9,555,896     $    10,331,509
        Less: Uncollected customer payments from Federal sources, brought forward,
        October 1                                                                           (4,097,979)         (4,097,980)         (4,181,756)
        Total unpaid obligated balance                                               $       5,457,917    $      5,457,916    $      6,149,753
      Obligations incurred net (+/-)                                                 $     16,764,820     $    16,764,820     $    14,857,316
      Less: Gross outlays                                                                 (14,335,033)        (14,335,033)        (14,260,837)
      Obligated balance transferred, net
        Actual transfers, unpaid obligations (+/-)                                                  0                   0                   0
146     Actual transfers, uncollected customer payments from Federal sources (+/-)                  0                   0                   0
        Total Unpaid obligated balance transferred, net                              $              0     $             0     $             0
      Less: Recoveries of prior year unpaid obligations, actual                            (1,130,769)         (1,130,769)         (1,372,092)
      Change in uncollected customer payments from Federal sources (+/-)                   (1,439,474)         (1,439,473)             83,777
      Obligated balance, net, end of period
        Unpaid obligations                                                                 10,854,914          10,854,914           9,555,896
        Less: Uncollected customer payments (+/-) from Federal sources (-)                 (5,537,453)         (5,537,453)         (4,097,980)
        Total, unpaid obligated balance, net, end of period                          $      5,317,461     $     5,317,461     $     5,457,916
      Net Outlays
      Net Outlays:
        Gross outlays                                                                      14,335,033          14,335,033          14,260,837
        Less: Offsetting collections                                                      (15,256,684)        (15,256,685)        (14,053,327)
        Less: Distributed Offsetting receipts                                                       0                   0                   0
        Net Outlays                                                                  $       (921,651)    $      (921,652)    $       207,510


      The accompanying notes are an integral part of these financial statements.
Department of Defense Army Working Capital Fund

STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                               Working Capital
                                                                                   Funds         2007 Combined   2006 Combined
NON-BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                $             0   $           0   $           0
Recoveries of prior year unpaid obligations                                                  0               0               0
Budget authority
  Appropriation                                                                              0               0               0
  Borrowing authority                                                                        0               0               0
  Contract authority                                                                         0               0               0
  Spending authority from offsetting collections
      Earned
         Collected                                                                           0               0               0
         Change in receivables from Federal sources                                          0               0               0
      Change in unfilled customer orders
         Advance received                                                                    0               0               0
         Without advance from Federal sources                                                0               0               0
      Anticipated for rest of year, without advances                                         0               0               0
      Previously unavailable                                                                 0               0               0
      Expenditure transfers from trust funds                                                 0               0               0
  Subtotal                                                                     $             0   $           0   $           0
Nonexpenditure transfers, net, anticipated and actual                                        0               0               0
Temporarily not available pursuant to Public Law                                             0               0               0
Permanently not available                                                                    0               0               0
Total Budgetary Resources                                                      $             0   $           0   $           0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                       $             0   $           0   $           0
  Reimbursable                                                                               0               0               0
  Subtotal                                                                     $             0   $           0   $           0
Unobligated balance:
  Apportioned                                                                                0               0               0
   Exempt from apportionment                                                                 0               0               0
  Subtotal                                                                     $             0   $           0   $           0
Unobligated balance not available                                                            0               0               0
Total status of budgetary resources                                            $             0   $           0   $           0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                               $             0   $           0   $           0
  Less: Uncollected customer payments from Federal sources, brought forward,
  October 1                                                                                  0               0               0
  Total unpaid obligated balance                                               $             0   $           0   $           0
Obligations incurred net (+/-)                                                 $             0   $           0   $           0
Less: Gross outlays                                                                          0               0               0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                 0               0               0
  Actual transfers, uncollected customer payments from Federal sources (+/-)                 0               0               0
                                                                                                                                 147
  Total Unpaid obligated balance transferred, net                              $             0   $           0   $           0
Less: Recoveries of prior year unpaid obligations, actual                                    0               0               0
Change in uncollected customer payments from Federal sources (+/-)                           0               0               0
Obligated balance, net, end of period
  Unpaid obligations                                                                         0               0               0
  Less: Uncollected customer payments (+/-) from Federal sources (-)                         0               0               0
  Total, unpaid obligated balance, net, end of period                          $             0   $           0   $           0
Net Outlays
Net Outlays:
  Gross outlays                                                                              0               0               0
  Less: Offsetting collections                                                               0               0               0
  Less: Distributed Offsetting receipts                                                      0               0               0
  Net Outlays                                                                  $             0   $           0   $           0

The accompanying notes are an integral part of these financial statements.
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


       Schedule, Part A DoD Intra-governmental Asset Balances
       AT97 - Army Working Capital Fund ($ in Thousands)
                                                            Treasury     Fund Balance    Accounts       Loans
                                                              Index      with Treasury   Receivable   Receivable   Investments   Other
                                                                12                               $7
       Department of the Interior                               14                               $0
       Department of Justice                                    15                              $30
       Navy General Fund                                        17                          $12,925
       Department of State                                      19                              $15
       Department of the Treasury                               20          $2,279,084
       Army General Fund                                        21                         $289,181
       General Service Administration                           47                              $49
       Air Force General Fund                                   57                           $5,610
       Department of Transportation                             69                             $456
       Homeland Security                                        70                              $12
       Department of Health and Human Services                  75                              $21
       National Aeronautics and Space
       Administration                                          80                                $5
       Department of Energy                                    89                                $2
       Independent Agencies                                    95                             $158
       US Army Corps of Engineers                              96                                $6
       Other Defense Organizations General Funds               97                            $3,609
       Other Defense Organizations Working
       Capital Funds                                         97-4930                           $161                              $3,002
       Air Force Working Capital Fund                      97-4930.003                      $12,921
       Totals                                                               $2,279,084     $325,168                              $3,002




148
Schedule, Part B DoD Intra-governmental entity liabilities
AT97 - Army Working Capital Fund ($ in Thousands)
                                                                      Accounts       Debts/Borrowings From
                                                    Treasury Index     Payable          Other Agencies             Other
Department of Labor                                       16                                                       $45,411
Navy General Fund                                         17                 $756
Army General Fund                                         21              $40,520
Office of Personnel Management                            24                                                        $9,818
Air Force General Fund                                    57                  $31
US Army Corps of Engineers                                96                   $2
Other Defense Organizations General Funds                 97               $1,580
Other Defense Organizations Working Capital Funds      97-4930            $48,007
Navy Working Capital Fund                            97-4930.002           $3,901
Air Force Working Capital Fund                       97-4930.003           $1,657                                       $0
Totals                                                                    $96,454                                  $55,229




                                                                                                                                149




                                                               Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information


       Schedule, Part C DoD Intra-governmental revenue and related costs
       AT97 - Army Working Capital Fund ($ in Thousands)
                                                                             Treasury Index   Earned Revenue
       Department of Agriculture                                                   12                     $357
       Department of the Interior                                                  14                      $42
       Department of Justice                                                       15                     $622
       Navy General Fund                                                           17                 $103,873
       Department of State                                                         19                      $66
       Army General Fund                                                           21              $12,019,587
       Office of Personnel Management                                              24                       $4
       International Trade Commission                                              34                     $271
       Department of Veterans Affairs                                              36                      $13
       General Service Administration                                              47                     $801
       Air Force General Fund                                                      57                  $73,154
       Department of Transportation                                                69                   $6,168
       Homeland Security                                                           70                   $3,819
       Department of Health and Human Services                                     75                     $246
       National Aeronautics and Space Administration                               80                     $312
       Department of Energy                                                        89                       $0
       Independent Agencies                                                        95                     $540
       US Army Corps of Engineers                                                  96                     $293
       Other Defense Organizations General Funds                                   97                 $128,094
       Other Defense Organizations Working Capital Funds                        97-4930                $54,828
       Navy Working Capital Fund                                              97-4930.002             $106,550
       Air Force Working Capital Fund                                         97-4930.003              $91,273
       Military Retirement Fund                                                 97-8097                     $0
       Totals                                                                                      $12,590,913




150
Schedule, Part E DoD Intra-governmental non-exchange revenue
AT97 - Army Working Capital Fund ($ in Thousands)


                                                    Treasury Index             Transfers In              Transfers Out
Navy General Fund                                         17                                                        $66,000
Army General Fund                                         21                                                       $384,532
Other Defense Organizations General Funds                 97                                                        $41,000
Totals                                                                                                             $491,532




                                                                                                                                 151




                                                                Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information




152
                                                                 153




Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information




154
                                                                 155




Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information




156
                                                                 157




Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information




158
                                                                 159




Fiscal Year 2007 United States Army Annual Financial Statement
      Army Working Capital Fund
      Principal Financial Statements, Notes, and Supplementary Information




160
161




      Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Commitment to Current and Future Readiness




                                                                 162
                                                                                      Overview
                                                                                      Mission
                                                                                      The civil works mission of the United States
                                                                                      Army Corps of Engineers (USACE) is to
                                                                                      contribute to the national welfare and serve
                                                                                      the public by providing the nation and the
                                                                                      Army with quality, responsive development and
                                                                                      management of the nation’s water resources;
                                                                                      protection, restoration and management
                                                                                      of the environment; disaster response and
                                                                                      recovery; and engineering and technical
                                                                                      services. The mission will be accomplished in
                                                                                      an environmentally sustainable, economic and
                                                                                      technically sound manner through partnerships
      Aerial view of Lock and Dam #5a on the Mississippi River near
                                                                                      with other governmental agencies and
      Fountain City, WI.
                                                                                      nongovernmental organizations.

                                                                                      Developing and Managing Water
                                                                                      Resources
                                                                                      The original role of the USACE in civil works,
                                                                                      as it related to developing and managing
                                                                                      water resources, was to support navigation by
                                                                                      maintaining and improving water channels.
                                                                                      Over the years and through subsequent
                                                                                      legislation, the Corps’ role was expanded to
                                                                                      include reducing flood damage, generating
                                                                                      hydroelectric power, creating recreation
                                                                                      opportunities and providing water storage.

                                                                                      Protecting, Restoring, and
                                                                                      Managing the Environment
      Corps employee ensures quantity of debris prior to its placement in
                                                                                       The Rivers and Harbors Act of 1899 required
      disposal site.
                                                                                       the Corps to prevent the obstruction of
                                                                                       navigable waterways. As concern over the
                                                                                       environment grew in the late 20th century, the
163       Clean Water Act of 1972 greatly broadened the scope of the Corps’ responsibility by providing authority over the dredging
          and filling in of U.S. waters, including the country’s wetlands. The civil works program’s environmental responsibilities
          have continued to grow through additional legislation.

          Responding and Assisting in Disaster Relief
          Throughout the Corps’ history, the United States has relied on the civil works program for help in times of national disaster.
          This help is now provided under two basic authorities: the Flood Control and Coastal Emergency Act (P.L. 84-99, as
          amended), and the Robert T. Stafford Disaster and Emergency Assistance Act (P.L. 93-288, as amended). The primary role
          of the civil works program in emergency relief and recovery operations is to provide public works and engineering support.



                                                                                                       Commitment to Current and Future Readiness
    Civil Works Fund
    Fiscal Year 2007 United States Army Annual Financial Statement




                                                                                    Providing Engineering
                                                                                    Support and Technical
                                                                                    Services
                                                                                    In Titles 10 and 33 of the U.S. Code,
                                                                                    Congress expresses its intent that the
                                                                                    Corps provide services on a reimbursable
                                                                                    basis to other federal entities; state, local
                                                                                    and tribal governments; private firms; and
                                                                                    international organizations. Additional
                                                                                    authority to provide services to all federal
                                                                                    agencies are found in Titles 15, 22, and
                                                                                    31 of the U.S. Code. This authority
                                                                                    includes providing services to foreign
                                                                                    governments.

A Lake Michigan harbor entrance.                                                    Civil Works Programs
                                                                                      The Corps has multiple programs to
                                                                                      accomplish its mission. Each program
    specifically addresses a single mission component, but each may also contribute to one or more of the other programs’
    missions. Figure 14 lists the programs that receive direct appropriations; furthermore, it shows the funds used for
    executive direction and management for those programs.
    Figure 12. FY 2007 Civil Works Initial Appropriation by Business Line ($ in Millions)

                                                       $4

                                     $0                     $167
                                 $139           $296
                             $93



                                                                                                     Navigation
                                                                                                     Flood Risk Management
                                                                                                     Hydropower
                                                                                                     Regulatory
                                 $587                                                                Environment-Ecosystem Restoration
                                                                                                     Environment-Stewardship              164
                                                                                 $2,033              Environment-FUSRAP
                                                                                                     Emergency Management
                                $159                                                                 Recreation
                                                                                                     Water Supply
                                       3
                                   $20                                                               Executive Direction and Management




                                                            $1,653
      Navigation
      The navigation program is responsible for providing safe, reliable, efficient and environmentally sustainable waterborne
      transportation systems for the movement of commercial goods and for national security needs. The program seeks to
      meet this responsibility through a combination of capital improvements and the operation and maintenance of existing
      infrastructure projects. The navigation program is vital to the nation’s economic prosperity: 95 percent of America’s overseas
      international trade moves through its ports. Our nation’s marine transportation system (MTS) encompasses a network of
      navigable channels, waterways and infrastructure maintained by the Corps, as well as publicly and privately owned vessels,
      marine terminals, inter-modal connections, shipyards and repair facilities. The MTS consists of approximately 12,000 miles of
      inland and intracoastal waterways; over 900 coastal, Great Lakes and inland harbors; and channel projects that are maintained
      by the Corps.

      In FY 2007, this $2.03 billion program accounted for over 38 percent of civil works appropriations.

      Flood Risk Management
      The Flood Risk Management Program, formerly known as the Flood and Coastal Storm Damage Program, is aimed at saving
      lives and reducing property damage in the event of floods and coastal storms. The civil works program has constructed 8,500
      miles of levees and dikes, 383 reservoirs and more than 90 storm damage reduction projects along 240 miles of the nation’s
      2,700 miles of shoreline. With the exception of the reservoirs, most of the infrastructure constructed under this program is
      owned and operated by the sponsoring cities, towns and agricultural levee districts.

      Over the years, the Corps’ mission of addressing the causes and impacts of flooding has evolved from flood control to flood
      prevention and, more recently, to flood damage reduction. These changes reflect a greater appreciation of the complexity
      and dynamics of flood problems – the interaction of natural forces, human development and change through time – and the
      partnerships necessary to be adaptable and sustain effectiveness through time.

      Risk management is defined as the process of identifying, evaluating, selecting, implementing and monitoring actions taken
      to mitigate levels of risk. The goal of risk management is scientifically sound, cost-effective, integrated actions that reduce
      risks while taking into account social, cultural, ethical, political and legal considerations. The Corps’ approach to flood risk
      management includes partners and stakeholders, including the Federal Emergency Management Agency, the Department
      of Housing and Urban Development, the National Oceanic and Atmospheric Administration, several states, sponsors and
      affected citizens to collaborate effectively and efficiently to make the nation more aware of flood risk.

      The Flood Risk Management Program compiled an impressive record of performance, yielding a six-to-one return on
      investment. That is, the program saves six dollars for each dollar spent. The program also has helped reduce the number of
      lives lost annually by providing timely flood warnings that provide time for evacuation.

      In FY 2007, this $1.65 billion program accounted for almost 31 percent of civil works appropriations.

165   Ecosystem Restoration, Environmental Stewardship and Remedial Actions
      The Corps has three distinct programs that are focused on the environment: aquatic ecosystem restoration, stewardship of
      Corps lands and the Formerly Utilized Sites Remedial Action Program (FUSRAP). The Army’s mission in the area of aquatic
      ecosystem restoration is to help restore aquatic habitat to a less degraded and more natural condition in ecosystems whose
      structures, functions and dynamic processes have become degraded. The emphasis is on restoration of nationally or regionally
      significant habitat where the solution primarily involves manipulating the hydrology and geomorphology. Responding to
      the growing national awareness of the importance of the natural environment, these programs address many issues, such
      as monitoring water quality at dam sites; managing the natural resources on 11.5 million acres of land and water at 456
      multipurpose Corps project sites; restoring degraded aquatic habitats to more natural conditions; and clean up of hazardous
      material.


                                                                                                        Commitment to Current and Future Readiness
    Civil Works Fund
    Fiscal Year 2007 United States Army Annual Financial Statement




                                                                                         In FY 2007, the Corps’ total
                                                                                         environmental appropriation was
                                                                                         comprised of $587 million for
                                                                                         ecosystem restoration, $93 million for
                                                                                         environmental stewardship and
                                                                                         $139 million for remedial actions,
                                                                                         which are approximately 11.0, 1.7 and
                                                                                         2.6 percent respectively of the Corps’
                                                                                         total appropriations.

                                                                                         Regulation of Wetlands and
                                                                                         Waterways
                                                                                          In accordance with the Rivers and
                                                                                          Harbors Act of 1899 (Sec. 10) and the
                                                                                          Clean Water Act of 1972 (Sec. 404),
Vic Fazio Yolo Wildlife Area. Yolo County, CA.                                            as amended, the Army Civil Works
                                                                                          Regulatory Program regulates the
                                                                                          discharge of dredged and fill material into
     U.S. waters, including wetlands. The Corps implements many of its oversight responsibilities by means of a permit process.
     Throughout the permit evaluation process, the Corps must comply with the National Environmental Policy Act and other
     applicable environmental and historic preservation laws. In addition to federal statutes, the Corps must also consider
     the views of other federal, tribal, state and local governments and agencies; interest groups; and the general public when
     rendering its final permit decisions.

    In FY 2007, this $159 million program accounted for almost 3 percent of civil works appropriations.

    Emergency Management
    Throughout Corps history, the United States has relied on the civil works program for help in times of national disaster.
    Emergency management continues to be an important part of the civil works program. The civil works program supports
    the Department of Homeland Security in carrying out the National Response Plan. The Corps’ primary role in support of
    this plan is to provide emergency support in areas of public works and engineering. The Corps responds to more than 30
    presidential disaster declarations in a typical year, and its highly trained workforce is prepared to deal with both man-made
    and natural disasters.                                                                                                              166

    Hurricanes Katrina, Rita, Wilma and Ophelia caused significant damage to the flood and hurricane protection projects
    along the Gulf Coast and South Atlantic states. Hurricane Katrina alone caused extensive damage to the hurricane shore
    protection and flood control projects in the states of Louisiana, Mississippi and Alabama, totaling over $2.1 billion. Major
    damage to the storm protection system in the New Orleans area included breaches of significant sections of levees and
    floodwalls along Lake Pontchartrain and vicinity, as well as, the New Orleans-to-Venice projects that required extensive
    repairs prior to the beginning of the 2006 hurricane season.

    In addition to its repair efforts, the Corps began studying ways to improve hurricane protection in the vicinity of Lake
    Pontchartrain. The Corps’ senior leadership commissioned the Hurricane Protection Decision Chronology (HPDC)
    shortly after Hurricane Katrina struck the Gulf Coast of the United States on August 29, 2005. The Corps’ Institute for
      Water Resources (IWR) was asked to convene an external HPDC team to collect, record and analyze project memoranda,
      reports and related documentation in order to describe and explain decision-making for the Lake Pontchartrain & Vicinity
      Hurricane Protection Project (LP&VHPP). The requested report was to provide an explanation, as opposed to an
      evaluation, of how the Corps’ policies and organization, legislation, financial and other factors influenced the decisions that
      led to the LP&VHPP protective structures in place when Hurricane Katrina struck the Gulf Coast.

      The HPDC focus on project decision-making is intended to complement the engineering forensics investigations on
      the performance of the LP&VHPP during Hurricane Katrina, such as those conducted by the Interagency Performance
      Evaluation Task Force and other institutions. The intent of the HPDC is to make predictions about the future by looking
      at historical data. It is the record of the LP&VHPP’s complex history of relationships, actions and decisions over 50 years
      that led to the system as it existed when Hurricane Katrina struck. The HPDC points to the fact that no single individual,
      agency, organization or decision was solely responsible for the LP&VHPP’s development over that 50-year history. The
      Corps is committed to open, transparent communication with the American public about what has been learned in the
      aftermath of Hurricane Katrina.

      The Corps not only makes contributions to domestic emergency management efforts, but it also plays a major role on the
      international stage through its participation in the civil military emergency preparedness program. In support of the DoD,
      the Corps shares emergency management knowledge and expertise with U.S. Allies and partners in the former Soviet
      Republics and Eastern Europe. This valuable program brings together key leaders and builds relationships among nations in
      direct support of the National Defense Strategy.

      In FY 2007, this program received no funding in the initial appropriations.

      Hydropower
      The Corps’ multipurpose authorities provide hydroelectric power as an additional benefit of projects built for navigation
      and flood control. The Corps is the largest owner/operator of hydroelectric power plants in the United States and one
      of the largest in the world. The Corps operates 345 generating units at 75 multipurpose reservoirs, mostly in the Pacific
      Northwest, accounting for about 24 percent of America’s hydroelectric power and about three percent of the country’s
      total electric-generating capacity. Its hydroelectric plants produce nearly 100 billion kilowatt-hours each year, sufficient
      to serve about 10 million households—equal to ten cities the size of Seattle, Washington. Hydropower is a renewable
      source of energy and one of the least
      environmentally disruptive sources of
      electric power, producing none of the
      airborne emissions that contribute to acid
      rain or the greenhouse effect.

      In FY 2007, this $203 million program
      accounted for almost four percent of civil
      works appropriations.
167
      Water Supply
      Conscientious management of the nation’s
      water supply is critical to limiting water
      shortages and lessening the impact of
      droughts. The Corps has an important
      role in ensuring that homes, businesses
      and farms nationwide have enough water                      J. Strom Thurmond Dam and Powerplant, Clarks Hill, SC.




                                                                                                     Commitment to Current and Future Readiness
    Civil Works Fund
    Fiscal Year 2007 United States Army Annual Financial Statement




                                                                                       to meet their needs. The Corps has
                                                                                       the authority for water supply as part
                                                                                       of projects that serve navigation, flood
                                                                                       protection and hydroelectric purposes.

                                                                                       In FY 2007, this $4 million program
                                                                                       accounted for less than 1 percent of civil
                                                                                       works appropriations.

                                                                                       Recreation
                                                                                       The Corps is an important provider
                                                                                       of outdoor recreation as an ancillary
                                                                                       benefit of flood prevention and navigation
                                                                                       projects. The mission of the recreation
                                                                                       program is to provide quality outdoor
Fishing in the tail race of Hartwell Dam on the Savannah River.                        public recreation experiences to serve the
                                                                                       needs of present and future generations
                                                                                       and to contribute to the quality of
                                                                                       American life, while managing and
    conserving natural resources consistent with ecosystem management principles.

    The Corps administers 4,485 recreation sites at 423 projects on 12 million acres of land. During fiscal year 2006,
    10 percent of the U.S. population visited a Corps project at least once. These visitors spent $15 billion pursuing their
    favorite outdoor recreation activity, supporting some 500,000 full- and part-time jobs.

    This $296 million program accounted for over five percent of the civil works budget in FY 2007.

    Organizational Structure
    The Workforce
    The Corps employs approximately 35,000 people, including 650 military officers and 24,800 civilians, who perform civil
    works duties. It is funded through the energy and water development appropriation and executes programs through eight
    regional divisions and 38 of the 41 districts of the Corps of Engineers — the remaining three districts have only military-      168
    related missions. There is a ninth provisional division in the Gulf Region, supporting operations in Iraq and Afghanistan, and
    it has four provisional districts embedded within the division.

    Figure 15 shows the division boundaries. These are defined by watersheds and drainage basins, reflecting the water
    resources nature of the civil works mission.

    The distribution of civil works employees similarly highlights the customer focus of the program: 95 percent of employees
    work at the district level, labs, or field operating agencies, reflecting the fact that project management is performed
    at the district level. The civil works program contracts out to civilian companies all of its construction and most of its
    design work. As many as 150,000 people are indirectly employed in support of civil works projects. These contractual
    arrangements have served the nation well in times of emergency.
      Figure 13. Civil Works Boundaries

                                                                                                                                  North
                                                                                       Great Lakes                               Atlantic
                               Seattle
                                                                                       & Ohio River
         Alaska                                                                                                                  New
                                                                     St.                                                        England
                                 Walla     Northwestern              Paul                              Buffalo
                    Portland
                                 Walla
                                                                                            Detroit
                                                                             Rock                      Pittsburgh           New York
                                                                             Island
                                                          Omaha                                Chicago                Philadelphia
                        Sacramento                                                               Cincinnati Baltimore
                                                         Kansas City                 St. Louis            Huntington
      San                                                                                                            Norfolk
      Francisco                South Pacific                                                 Louisville
                                                                                               Nashville
                                                                            Little
                                                              Tulsa         Rock                                     Wilmington
              Los                                                                          Memphis                                     Legend:
              Angeles                                    Southwestern                                              Charleston              Div./Regional HQ location
                                          Albuquerque                                             Atlanta                                  District HQ location
                                                         Ft. Worth                                               Savannah
                                                                                             Mobile                                        Division boundary
                                                                                Vicksburg                        Jacksonville              District boundary
         Honolulu                                                 Dallas
                                                                                                                                           State boundary
                                                             Galveston                       New
                                Pacific Ocean                                                Orleans                   South                       Key
                                                                                                                      Atlantic         Follows Watershed Boundaries
                                                                        Mississippi Valley


      Figure 14. Civil Works Levels of Authority                                          The Leadership
                                                                                          Oversight of civil works is provided through four levels of
                                                                                          authority. As shown in Figure 16, the Assistant Secretary
                                   ASA (CW)                                               of the Army for Civil Works (ASA(CW)) is appointed by
                           Provides policy guidance                                       the President and is responsible for civil works policy. The
                                                                                          Chief of Engineers is a military officer who reports to the
                                                                                          ASA(CW) and is responsible for mission accomplishment;
                                                                                          however, he delegates most of his responsibilities for
                         Chief of Engineers                                               managing the various programs to the Director of Civil
                               Applies policy guidance                                    Works. The Chief of Engineers, through the Director
                                                                                          of Civil Works, is responsible for the leadership and
                                                                                          management of the civil works program and for ensuring
                                                                                          that policies established by the ASA(CW) are applied
                               Director of CW                                             to all phases of the civil works mission. The divisions,
                    Acts on behalf of the Chief of Engineers
                                                                                          commanded by division engineers, are regional offices
                                                                                          responsible for the supervision and management of their
                                                                                          subordinate districts, including the monitoring and quality
                                  8 Divisions                                             assurance of district work. The districts are the foundation
                        Supervise and manage districts
169                  Perform quality assurance on districts                               of the civil works mission, managing water resource
                                                                                          development over a project’s life cycle.

             Plan                                        Operate
             Design
             Construction
                          38             Districts       Maintain

               Management




                                                                                                                                Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Civil Works Fund Performance Results
Civil works directly impacts America’s prosperity, competitiveness, quality of life and environmental stability. In March
2004 the civil works leaders published a strategic plan that provides a framework for enhancing the sustainability of
America’s resources. The strategic goals listed in the plan support the strategic direction of the Corps over the five-year
period from FY 2004 – FY 2009. Key performance measures developed in conjunction with the Office of Management
and Budget through the Performance Assessment Rating Tool process for FY 2002 – FY 2006 are presented below.

Goal 1: Provide Sustainable Development and Integrated Management of the Nation’s
Water Resources.

Navigation
Objective: To invest in navigation infrastructure that is fully capable of supporting maritime requirements in
           environmentally sustainable ways where economically justified.

Performance Indicator: Track navigation lock and channel availability by identifying trends in scheduled and
unscheduled lock closures for the navigation system, measured in hours.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 18 for the results.

Flood Risk Management
Objective: To invest in flood and coastal storm damage reduction solutions when the benefits exceed the costs.

Performance Indicator: This is measured by the performance of civil works facilities in reducing damage and risk to
threatened populations where flooding otherwise would have been experienced.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 20 for the results.

Hydropower
Objective: To invest in hydropower solutions when benefits exceed the costs.

Performance Indicators: The availability of hydroelectric generating units, their generatingcapacity and forced outage
rates are indicators of the success in meeting thisobjective.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 22                                      170


Goal 2: Repair Past Environmental Degradation and Prevent Future Environmental
Losses

Aquatic Ecosystem Restoration
Objective: Restore degraded, significant ecosystems structure, function and process to a more natural condition by
           investing in restoration projects or features that make a positive contribution to the nation’s environmental
           resources in a cost-effective manner.

Funding History: The first row of Table 15 shows the funding for aquatic ecosystem restoration.
      Performance Indicators: Four indicators were recently established to assess progress in meeting this objective. The
      Corps began collecting performance data for these indicators during fiscal years 2005 and 2006, which serve as baseline.

                 Number of acres of habitat restored, created, improved or protected. The number of acres of habitat
                 restored is an appropriate measure for documenting progress towards restoration of degraded ecosystems.
                 Number of nationally significant acres of habitat restored, created, improved or protected. This
                 measure will document the subset of acres of habitat restored each year that have high-quality outputs as compared
                 to national needs.
                 Dollars per acre to restore, create, improve or protect nationally significant habitat. The cost of the
                 projects that produce nationally significant acres in any given year will be used to calculate this figure. In the long
                 run through efficiencies in project execution or other considerations, the goal would be to restore more acres per
                 dollar expended.
                 Percentage of all acres of habitat restored, created, improved or protected that are nationally
                 significant. Restoration of acreage that meets the criteria for national significance is expected to have the
                 greatest impact on the restoration of the nation’s ecosystems. The goal is to increase the percentage of nationally
                 significant acres over time.

      Performance Results

      The number of aquatic ecosystem restoration projects completed in any one year is relatively small. There was considerable
      variation between the 20 projects that were completed and the 18 that served as the basis for the estimated FY 2007
      performance. The result was an increase of 467,949 total acres restored and 475 additional nationally significant acres.
      The key project that resulted in the substantial increase in acreage completion was Lake Okeechobee, an element of the
      Everglades South Florida Restoration program. The average cost per acre of the nationally significant acres was close to the
      estimate despite the change in the mix of projects that were completed

       Table 15. Aquatic Ecosystem Restoration Indicators                                                                         FY 2007
                                                                               FY 2004            FY 2005       FY 2006      Target     Actual
       Funding history in millions of dollars                                          $413             $408         $516       $587         $340
       Acres of habitat restored, created, improved, or
       protected                                                                     Note 1            32,573       6,600       3,734    471,683
       Nationally significant acres of habitat restored, created,
       improved, or protected                                                                                       5,500       3,259        2,987
       Cost per acre to restore, create, improve, or protect                             Note 2
       nationally significant habitat                                                                              $9,800      $6,957       $6,800
       Percent of all restored, created, improved, or protected
       acres of habitat that are nationally significant                                                              83%        87%         0.60%

      Note 1: This measure was added at the end of FY 2004, and FY 2005 is the first year of complete data.
      Note 2: Performance measures were developed in FY 2006, and it is the first year of reporting.

171
      Regulatory
      Objective: To administer the regulatory program in a manner that protects the aquatic environment (assures zero net-
                 loss of wetlands).

      Funding History: The first row of Table 16 shows the funding for the Regulatory Program.

      Performance Indicators: Table 16 also lists eight measures that serve as indicators to assist Corps personnel to
      determine their progress in meeting this objective.

                 Individual permit compliance. The Corps shall complete compliance inspections on the annual target



                                                                                                                   Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




              percentage of all individual permits issued and constructed within the preceding fiscal year.
              General permit compliance. The Corps shall complete compliance inspections on the annual target
              percentage of all general permits with reporting requirements issued and constructed within the preceding fiscal
              year.
              Mitigation site compliance. The Corps shall complete field compliance inspections on the annual target
              percentage of active mitigation sites each fiscal year. Active mitigation sites are those sites authorized through
              the permit process. They are monitored as part of the permit process, but have not met final approval under the
              permit special conditions.
              Mitigation inspections or audits. The Corps shall complete compliance inspections or audits on the annual
              target percentage of active mitigation banks and in lieu of fee programs annually.
              Resolution of noncompliance issues. The Corps will reach resolution on non-compliance with permit
              conditions or mitigation requirements on the annual target percentage of activities determined to be non-
              compliant at the end of the previous fiscal year and determined to be non-compliant during the current fiscal year.
              Resolution of enforcement actions. The Corps shall reach resolution on the annual target percentage of all
              pending enforcement actions (i.e., unauthorized activities) that are unresolved at the end of the previous fiscal
              year and have been received during the current fiscal year.
              General permit decisions. The Corps shall reach permit decisions on the annual target percentage of all
              general permit applications within 60 days.
              Individual permits. The Corps shall reach permit decisions on the annual target percentage of all standard
              permits and letters of permission within 120 days. This standard shall not include individual permits with Formal
              Endangered Species Act consultations.

Performance Results

The Regulatory program continues to be scrutinized as development pressures mount and national public awareness of the
aquatic environment, including wetlands, continues to rise. Court decisions at the local, state, regional and national level
require adjustments to the program implementation. Specifically, the Supreme Court decision in the Carabell/Rapanos1
case and associated Corps-EPA joint guidance require additional scrutiny and documentation of most of our jurisdictional
decisions. Sensitivity to wetlands has resulted in greater direct input from the public and environmental interest groups,
leading to greater complexity and controversy in the review of permit proposals. As the complexities grow, the delays
in making permit decisions increase. The program continues to be challenged to make timely permit decisions (most on
private property) with the proper environmental review and documentation.

The Corps has begun several initiatives to speed the permit decision process and improve environmental review and                   172
documentation. The first initiative is a Lean Six Sigma analysis of the individual permit process, focusing on streamlining
and reducing waste. Implementation of the 6 Sigma recommendations from this process will reduce processing times
and lead to a more consistent process. Revised procedures will be promulgated nationwide through re-issuance of our
regulatory standard operating procedures by December 2007. The second major initiative is to complete, no later than
December 2007, the final installation of a nationwide spatial database to track all Corps permits. This database will enable
interagency data sharing with permit applicants, interested local governments, the several states, Native American tribes
and other federal agencies. The database will also facilitate comprehensive environmental analysis for permits, including



1
    Rapanos v. United States and Carabell v. Army Corps of Engineers 126 S. Ct. 2208 (2006).
      cumulative impact analyses. These two initiatives directly support the Corps’ efforts to expedite permit review while
      improving environmental analysis and documentation.

       Table 16. Regulatory Indicators                                                                                FY 2007
                                                                                  FY 2004   FY 2005    FY 2006    Target    Actual
       Funding history in millions of dollars                                      $139      $143       $158       $159      $159
       Percent of compliance inspections on individual permits                     16%       14%         41%       10%       11%
       Percent of compliance inspections on general permits                         5%        5%         7%        5%        7%
       Percent of active mitigation sites inspected                                11%        9%         10%       5%        7%
       Percent of compliance inspections on active mitigation banks                20%       19%         26%       20%       63%
       Percent resolution on noncompliance with permit conditions or mitigation
       requirements                                                                26%       24%         37%       20%       56%
       Percent resolution on pending enforcement actions                           37%       23%         60%       20%       82%
       Percent of general permit application decisions made within 60 days         85%       85%         82%       75%       78%
       Percent of standard permits and letter of permission permit decisions
       made within 120 days                                                        61%       61%         61%       50%       53%



      Environmental Remediation (Formerly Utilized Sites Remedial Action Program-FUSRAP)
      Objective: To achieve the cleanup objectives of the FUSRAP. The Corps uses three outcome measures to indicate
                 progress meeting this objective: Minimize risk to human health and the environment, maximize the cubic
                 yardage of contaminated material disposed in a safe and legal disposal facility, and return the maximum
                 number of affected individual properties to beneficial use.

      Funding History: The first row of Table 17 shows the funding for environmental remediation.

      Performance Indicators: The measures listed in Table 17 serve as indicators to help Corps personnel determine their
      progress in meeting this objective. In addition to the indicators explained below, the Corps has begun to measure the
      cumulative percentage of FUSRAP funding that is expended on actual cleanup activities and the total cost of disposing
      contaminated material.

                Number of records of decision (ROD) signed. As studies are completed and best alternatives for cleanup
                activities are decided, the number of RODs will increase. A final ROD establishes the final cleanup standard,
                which controls the actual estimate of the remaining environmental liability for each site.
                Number of remedial investigations (RI) completed. The RI establishes the baseline risk assessment
                whereby the level of risk to human health and the environment is identified.
                Number of action memorandums signed. Where warranted by risk or other limited factors, action
                memorandums allow the Corps to move toward reducing risk more rapidly than through production of a ROD.
                No action memorandums are presently identified.
                Cubic yardage of contaminated material disposed. Target soil amounts are dependent on previous-year
173
                funding and scheduled activities.
                Individual properties returned to beneficial use. Number of properties that have been released for
                general use following remediation.
                Number of remedies in place or response complete. As select portions of sites or complete sites meet
                their remedial action goals, the risk to human health and the environment is reduced to within acceptable levels,
                and properties are able to be used within a community without fear of increasing cancer risk or further degrading
                the environment.
                Remediation of contaminated material. The cost to dispose of contaminated material as measured in cubic



                                                                                                      Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




              yards. This measure is scheduled to be evaluated at the end of FY 2009.
              Percentage of funding expended on cleanup. Measures the cumulative percentage of FUSRAP funding that is
              expended on cleanup activities rather than studies.

Performance Results

The FUSRAP program met or exceeded five of the six FY 2007 performance indicators. The exception was the
metric measuring the number of RODs signed. The Corps was unable to complete the review process for the Luckey
Groundwater ROD; however, the document is scheduled to be completed in early FY 2008.

The Corps remediated 207,374 cubic yards of contaminated material, which far exceeded its FY 2007 target. The Corps
was able to exceed this measure because the program received $8 million above the President’s budget amount for the
year. The Corps used the additional funds in part to remediate the two soil operable units at the Colonie site, resulting
in completion of this remediation work two years ahead of schedule. Remediation was also completed at the St. Louis
airport site. The scheduled remediation at the Painesville site was completed; however, the Corps discovered significant
contaminated soil volumes in excess of the known material. This newly discovered material will be remediated during the
first quarter of FY 2008.

 Table 17. Remedial Action Indicators                                                                                         FY 2007
                                                                               FY 2004       FY 2005       FY 2006       Target        Actual
 Funding history in millions of dollars                                            $139          $164          $139         $139          $136
 Number of RODs signed                                                                   9             3             2             3             2
 Remedial investigations completed                                                   21                5             4             1             1
 Action memos signed                                                                     3             0             1             0             0
 Contaminated material removed (in thousand cubic yards)                        2,927.0         243.0         225.0         147.0         185.6
 Individual properties returned to beneficial use                                    65                5         15               13            21
 Remedies in place or response complete                                                  4             2             0             2             3
 Remediation of contaminated material
                                                                                                           Note 1
 Percentage of funding expended on cleanup

Note 1: Data on this measure will not be available until the end of FY 2009.




Goal 3: Ensure that Projects Perform to Meet Authorized Purposes and Evolving                                                                        174
Conditions

Navigation
Objective: Improve the efficiency and effectiveness of existing Corps water resource projects by maintaining justified
           levels of service availability to commercial traffic of high-use infrastructure (e.g., waterways, harbors,
           channels).

Objective: Address the operations and maintenance (O&M) backlog on all operating projects by funding high-priority
           operations and maintenance projects.

Funding History: The first row of Table 18 shows the funding for the operation and maintenance of the Navigation
      Program. Table 19 shows the funding for the major rehabilitation and construction program.

      Performance Indicators: To assist the Corps in measuring its progress in meeting the Goal 3 objectives, the Corps uses
      performance indicators that relate to the operation and maintenance activities for inland waterways and coastal ports and
      harbors, as well as the efficiency of the overall, combined navigation system. The indicators are described below and their
      measures are shown in Table 18 and 19.

      Operation and maintenance of the inland waterways
         • Ton-miles. The sum total of movement of cargo on the waterways; this measure is a roll-up of tons of cargo
            transported by a vessel multiplied by the miles that vessel traveled on the inland waterway.
           •   Navigation lock availability. This is the unscheduled closure of the lock system due to mechanical failures.
               Closures due to weather or other uncontrollable causes are not included in this metric.
           •   Assets with structural risk assessments. The percent of the navigation inland waterway asset inventory with
               recent structural risk assessments.
           •   Assets with operational risk assessments. The percent of the navigation inland waterway asset inventory
               with recent operational risk assessments.

      Operation and maintenance of the Coastal Ports and Harbors
         • Tons of cargo. Total sum of cargo in tons moved in and out of the coastal ports and harbors system. This
            measure is an indicator of utilization of the system; data are collected for the purpose of trend analysis. There is no
            specific target generated by the Corps.
           •   Channel availability, high-use projects. The percent of time per year the half channel width is available over
               the project’s authorized length. There are a total of 59 high-use projects defined as those that pass 10 million or
               more tons of cargo per year.
           •   Channel availability, moderate-use projects. The percent of time per year the half channel width is
               available over a project’s authorized length. A moderate-use project is defined as one that passes 1 to 10 million
               tons of cargo per year.
           •   Assets with operational risk assessments. The percent of the navigation port and harbor assets in the
               inventory that have had a recent operational risk assessment.

      Efficiency of the navigation system
          • Cost per ton. The measure assesses the efficiency of the commercial navigation system, which combines inland
              waterways and coastal ports and harbors. This is a roll-up of the efficiency of all navigation projects where the cost
              of operation and maintenance per ton of cargo shipped through a port or inland waterway system is known and
              tracked at a particular location.

      Major rehabilitation and construction of the navigation system
         • High-return investments. The percent of funding to rehabilitate, construct or expand projects that is allocated
175
             to high-return investments. High-return investment projects are defined as those projects with a benefit-to-cost
             ratio of 3.0 or greater.

      Performance Results

      The program presents significant challenges in its efforts to maintain the reliability of the inland waterway navigation
      system. The system’s aging infrastructure requires more repairs than the Corps can accomplish, given the historical level
      of program appropriations. These same funding shortfalls, coupled with an increased cost of dredging operations, are
      affecting the Corps’ ability to properly maintain channels. The increase in dredging costs in recent years corresponds to the




                                                                                                   Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




near doubling in the cost of fuel purchases. Although other factors may limit or control channel availability, maintaining an
acceptable width and depth through dredging operations has by far the greatest impact.

 Table 18. Navigation Program, Operation and Maintenance Activities Performance Indicators                                                 FY 2007
                                                                                            FY 2004       FY 2005      FY 2006         Target      Actual
                                                                                                                                                  $1,274
                                    Funding history in millions of dollars                    $1,198        $1,209       $1,211        $1,320     Note 1
                                    Ton-miles (in billions of ton – miles by
                                    calendar year)                                                256           246          250       Note 2     Note 3
 Inland waterways                   Lock unscheduled closures, mechanical (in                                                                      23
                                    thousands of hours)                                            13            27           22       Note 4     Note 1
                                    Assets with structural risk assessments
                                                                                                                        Note 5
                                    Assets with operational risk assessments
                                    Tons of cargo (in billions of tons)                         1.908         1.935        1.921       Note 2     Note 3
                                                                                                                                                   32%
 Coastal ports and harbors          Channel availability, high use projects                    Note 6          38%          35%        Note 7     Note 1
                                    Channel availability, moderate use projects
                                                                                                                        Note 5
                                    Assets with operational risk assessments
 Efficiency                         Cost per ton                                                $0.48         $0.47        $0.47       Note 2     Note 3



Note 1: Estimate based on data available mid-September.
Note 2: Ton – miles, tons of cargo, and cost per ton are collected for trend analysis; the Corps does not target or make projections of data measuring
utilization of the navigation system.
Note 3: FY 2007 actual data were not available at the time of the report.
Note 4: Measure was revised FY 2007 to account for only mechanical breakdowns of locking systems. Since the measure was revised, a target was not
developed for FY 2007. Data provided for FY2004 through 2006 were actual results pulled from existing records.
Note 5: New measure for FY 2008, which will be the first year data are collected.
Note 6: First year program measure was tracked was FY 2005.
Note 7: This is a new measure for FY 2007; therefore, no FY 2007 target was set. Data provided for FY 2005 and FY 2006 were actual results extracted from
existing records.




 Table 19 Navigation Program Major Rehabilitation and Construction Indicators                                                          FY 2007
                                                                      FY 2004          FY 2005            FY 2006             Target             Actual
                                                                                                                                                  $635
 Funding history in millions of dollars                                Note 1            $621               $916              $703               Note 2     176
 High-return investments                                                                                   Note 3

Note 1: First year program measure was tracked was FY 2005.
Note 2: FY 2007 funding is an estimate based on data available mid September
Note 3: New measure for FY 2008, which will be the first year data are collected.


Flood Risk Management
Objective: To reduce the nation’s risk of damages due to flooding and coastal storms.

Funding History: The first row of Table 20 shows the funding for flood and coastal storm damage reduction.

Performance Indicators: Additional indicators were recently established that will assist Corps’ personnel to determine
      progress in meeting this objective. The Corps began collecting performance data relating to these indicators during the
      current year, and sufficient data are not yet available to establish baselines.

               Flood damage prevented. Measures the estimated annual dollars of property damage avoided through the
               existence of Corps’ flood control projects completed during the fiscal year.

               Increase in benefits realized. This is the total percent increase in the present value of total benefits realized
               from construction work completed in the applicable fiscal year.

               Ten-year moving average. The 10-year moving average of actual flood damage reduction benefits attributable
               to completed projects.

               Additional people protected. The percent increase in total affected population with reduced risk at project
               design attributed to completion of projects in the applicable fiscal year.

               Operating projects in zones 21-25. The percentage of operating projects (e.g., dams, levees, channels, flood
               gates) that are in zones 21-25 of the relative risk ranking matrix.

               Operating projects in zones 1-6. The percentage of operating projects (e.g., dams, levees, channels, flood
               gates) that are in zones 1-6 of the relative risk ranking matrix.

               Dam safety projects. The percentage of the dams in the screening portfolio risk assessment (SPRA) that fall in
               Dam Safety Action Class (DSAC) I, II, or III.

               Relative loss of life. The total relative annualized loss of life per dam.

               DSAC I, II, and III projects. The number of DSAC I, II and III projects underway or completed during the
               applicable year.

               SPRA assessments completed. The number of SPRA screening level assessments completed in the applicable
               year.

               Marginal cost of operations. The marginal cost of operations and maintenance for all operating projects (e.g.,
               dams, levees, channels, flood gates) relative to damages prevented.

      Performance Results

      There were eight flood risk management projects scheduled for completion in FY 2007. Five of the eight projects
      achieved 100 percent completion; one project realized a 100-year level of protection and will complete a 250-year level of
      protection in FY 2008; and two projects completed phases which allowed for only partial benefits to be realized, which is
      why the full FY 2007 target was not achieved.
177




                                                                                                  Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




 Table 20. Flood Damage Prevented                                                                                                      FY 2007
                                                                         FY 2004          FY 2005           FY 2006           Target             Actual
 Funding history in millions of dollars                                      $1,214           $1,193            $1,512           $1,610            $1,774
 Additional people protected (in thousands of people)                               22              24              121              160              142
 Flood damage prevented (in millions of dollars)                                    Note 1                         56.1             56.8              55.6
 Ten-year moving average (in millions of dollars)                           $21,700          $21,400            $9,200                 Note 2
 Increase in benefits realized
 Operating projects in zones 21-25
 Operating projects in zones 1-6
 Dam safety projects
                                                                                                             Note 3
 Relative loss of life
 DSAC I, II, and III projects
 SPRA assessments completed
 Marginal cost of operations

Note 1: This measure was effective at the beginning of FY 2006.
Note 2: Data are collected from actual floods occurring throughout the year, and data become available in March following the year of interest. The Corps
makes no predictions or targets year to year; data are used for trend analysis only.
Note 3: New measure for FY 2008, which will be the first year data are collected.


Environmental Stewardship
Objective: To improve the efficiency and effectiveness of existing Corps water resources projects.

Objective: To ensure healthy and sustainable lands and waters and associated natural resources on Corps lands in public
           trust to support multiple purposes.

Objective: To protect, preserve and restore significant ecological resources in accordance with master plans.

Objective: To ensure that the operation of all civil works facilities and management of associated lands, including out-
           granted lands, complies with the environmental requirements of the relevant federal, state and local laws and
           regulations.

Objective: To meet the mitigation requirements of authorizing legislation or applicable Corps authorization decision
           document.
                                                                                                                                                             178
Funding History: The first row of Table 21 shows the funding for environmental stewardship.

Performance Indicators: To measure success in attaining the objectives shown above, the Corps has developed seven
performance indicators. Data on these indicators may be found in Table 21.

           Mitigation compliance. This measure demonstrates the Corps’ performance in meeting mitigation
           requirements that are specified in project authorizations. The measure is a percentage of the number of designated
           Corps-administered mitigation lands (acres) meeting mitigation requirements divided by the total number of
           designated Corps-administered mitigation lands, or the number of pounds of (or number of individual) fish
           produced in a mitigation hatchery, divided by the number of fish to be produced at a mitigation hatchery to meet
           the mitigation requirement.
               Endangered species protection. The percent of Corps operating projects with Endangered Species Act
               (ESA) requirements for which the Corps is meeting ESA requirements or responsibilities.
               Cultural resources management. The percent of Corps operating projects meeting federally mandated
               cultural resource management responsibilities.
               Healthy and sustainable lands and waters. This measure is defined as the number of Corps fee-owned acres
               classified as in a sustainable condition divided by the total number of Corps fee-owned acres. The result provides
               an indicator of the condition status of all Corps fee-owned acres. Sustainable is defined as meeting the desired
               state. The acreage is not significantly impacted by any factors that can be managed and does not require intensive
               management to maintain its health. The acreage also meets operational goals and objectives set forth in applicable
               management documents.
               Level one natural resources inventory completion index. This measure demonstrates the status of
               Corps efforts in completing basic, level-one natural resource inventories required by USACE Environmental
               Regulation (ER) 1130-2-540, Environmental Stewardship Operations and Maintenance Policies. Such inventories
               are necessary for sound resource management decisions and strategies development. The measure is defined as
               the sum total number of acres of completed inventory for each of the four components of the minimum level-one
               natural resources inventory, divided by four times the total number of Corps fee-owned acres. The proportion
               (percentage) yielded is used to evaluate the relative completeness of the inventory.
               Master plan completion. A master plan is completed, per regulation, to foster an efficient and cost-
               effective project for natural resources, cultural resources and recreational management programs. This measure
               demonstrates Corps commitment to fully integrate environmental stewardship in the management of operating
               projects. The measure is expressed as a percentage and is derived by dividing the number of required master plans
               completed in compliance with regulation by the total number of required master plans.
               Efficiency. This is represented by program costs recovered in cents on a dollar. The outcome for this objective
               is to manage projects in an efficient manner. This measure is an assessment of federal costs avoided in relation
               to the program cost. Revenue recovered each year, equivalent to the federal costs avoided, will vary due to the
               nature and extent of the sustainability practices implemented. The program emphasis, however, is on resource
               sustainability as opposed to revenue generation.

      Performance Results

      Program funding has decreased in recent years; combined with the effects of inflation, this has reduced the capability to
      meet overall target performance objectives. Additionally, shifts in program priorities contributed to the results obtained for
      specific measures. The Corps continued to place emphasis on program elements required by statute and regulation, such as
      mitigation, endangered species and cultural resource management initiatives.

      Increased emphasis on mitigation compliance resulted in performance gains that exceeded the FY 2007 target for this
      measure. Two other mandated initiatives, endangered species protection and cultural resource management, do not have
      historical data that allow for proper year-to-year comparisons. Baseline data for cultural resources management was
      gathered in FY 2007. The endangered species protection measure was added as a performance indicator in FY 2007, and
179   baseline data will be collected in FY 2008.

      The emphasis on mandated initiatives and the decreased funding trend resulted in reduced levels of management and
      maintenance of land conditions in FY 2007, which is reflected in a decrease in the amount of healthy and sustainable
      acreage. The funding shortfall contributed to the lack of a significant increase in the number of natural resource inventories
      completed and no increase in the completion of master plans. Level-one natural resource inventories and master plans
      support responsible land management; without significant improvement in the number of inventories and plans completed,
      the program outcome of healthy and sustainable lands is at risk.




                                                                                                   Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




 Table 21. Environmental Stewardship Indicators                                                                                     FY 2007
                                                                  FY 2004           FY 2005             FY 2006            Target             Actual
 Funding history in millions of dollars                             $151              $146               $124               $93               $113
 Mitigation compliance                                                                76%                61%               61%                86%
 Endangered species protection                                                                                    Note 2
 Cultural resource management                                                                 Note 3                       72%                63%
 Healthy and sustainable acreage                                   Note 1             37%                21%               19%                18%
 Level one natural resources inventory completed                                      33%                38%               38%                40%
 Master plans completed                                                               32%                27%               27%                27%
 Efficiency (in cents on the dollar)                                                  $0.09              $0.10             $0.01              $0.12



Note 1: FY 2005 was the first year of performance measurement of the program.
Note 2: This measure becomes effective in FY 2008.
Note 3: This measure was added at the end of FY 2006, and FY 2007 is the first year of complete data.


Hydropower
Objective: To improve the efficiency and effectiveness of existing Corps water resource projects.

Funding History: The first row of Table 22 shows the past three years of capital improvements and operation and
maintenance expenditures for the Hydropower Program.

Performance Indicator: The objective of the hydropower program is to maintain a high level of reliability and peak
availability of hydroelectric power-generating capability at multipurpose reservoir projects. The performance indicators
listed below are used by the Corps to measure progress toward attaining this objective. Performance indicator results and
targets for the year are shown in Table 22.

           Percent of time available during periods of peak demand. The amount of time hydroelectric generating
           units are available to the Power Marketing Administration’s interconnected system during daily peak demand
           periods.
           Percent of forced outages. The percent of time generating units are in an unscheduled or unplanned outage
           status. The lower the forced outage rate, the more reliable and less expensive the electrical power provided to the
           customer.
                                                                                                                                                       180
Performance Results

Table 22 shows the significant decrease in appropriations for the program in FY 2007; program performance was affected
accordingly. The percent of time hydropower generating units were actually available to produce power declined in FY
2007. During the same period, there was a decline in the percent of time units were available during peak power demand
periods. The margin between these two performance indicators has decreased steadily over the same period. As the margin
narrows, system maintenance and operating cost increase. The industry standards for availability and peak availability are
98 and 95 percent, respectively. The hydropower program standard metric used for forced outages is 2.0 percent. The
table below shows program performance for availability and peak availability to be 14 and 11 percentage points below the
industry standard, respectively. The program’s forced outage performance is 2.6 percentage points above the standard and
1.2 percentage points above the FY 2007 target.
          Table 22. Hydropower Indicators                                                                                                         FY 2007
                                                                                              FY 2004        FY 2005        FY 2006         Target         Actual
          Funding history in millions of dollars                                                $245           $285           $288           $202           $228
          Percent of time units are available                                                  85.57%        84.54%         86.95%           91%          84.35%
          Percent of time available during periods of peak demand                              87.48%        87.24%         88.69%           89%          84.26%
          Percent of time units are out of service due to unplanned outage                       4%           4.66%          3.73%           3.5%          4.67%
          Generating capacity rated in poor condition
          Hydropower plant reviews
                                                                                                                             Note 1
          Operating and maintenance costs for power
          Electric reliability standards met

      Note 1: This measure was added at the end of FY 2007; FY 2008 will be the first year to report data.


      Recreation
      Objective: To provide justified outdoor recreation opportunities in an effective and efficient manner at all Corps-
                 operated water resources projects.

      Objective: To provide continued outdoor recreation opportunities to meet the needs of present and future generations.

      Objective: To provide a safe and healthful outdoor recreation environment for the Corps’ customers.

      Funding History: The first row of Table 23 shows the funding for the Recreation Program.

      Performance Indicators: The measures listed in Table 23 serve as indicators to assist Corps personnel to determine
      their progress in meeting the Corps’ recreation efficiency, service and availability objectives. The indicators are explained
      below.

                   Total NED Benefits. NED benefits are estimated using the unit day value method, which was originally
                   developed by the Water Resources Council.2
                   Benefit-to-cost ratio. This is the ratio of NED benefits to actual program expenditures or budget.
                   Cost recovery. Measures the percent of total recreation receipts to the recreation budget.
                   Park Capacity. Measure of the capacity of facilities to provide recreation opportunities, expressed in millions of
                   days/nights that the Corps’ recreation units were available for use.
                   Number of visitors. Total number of visitors to Corps-managed parks, expressed in millions of people.
                   Visitor health and safety services. This measure is expressed as a percentage of visitors to Corps- managed
                   recreation areas who reported acceptable service.
                   Customer satisfaction. This is measured as a percentage of visitors reporting satisfaction with their visit to a
                   Corps recreation area.
181                Facility Service. This measure is the percentage of visitors served at a Corps-managed recreation area with a
                   facility condition score of 4 or better, which indicates their experience was fair to good.




      2
       NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity.
      The unit day value method relies on expert or informed opinion and judgment to approximate the average willingness to pay of users of federal or federally
      assisted recreation resources. The unit day value is estimated at the park (recreation area) level by evaluating each park against a set of published criteria.
      By applying a carefully thought-out and adjusted unit day value to estimated use, an approximation is obtained that may be used as an estimate of project
      recreation benefit (i.e., NED benefits = Unit Day Value X Recreation Use in Visitor Days).




                                                                                                                            Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




            Facility condition. This is the average condition of facilities at Corps-managed recreation areas. The score is
            based on a seven-point scale where 1 = poor and 7 = excellent.

Performance Results

Funding for the program decreased in both real and inflation-adjusted terms from FY 2006 to FY 2007. As a result, most
performance measures declined or, at best, remained the same. There was an increase in the number of visits to Corps
recreation areas in FY 2007 despite the fact that reduced funding resulted in a decrease in the measure of facility service.
This measure for FY 2007 was 50 percent; while acceptable, it is well below the Corps’ standard of 75 percent.

In an attempt to mitigate the results of reduced funding, the Corps continues a strategy comprised of a combination of
continued reduced-service levels and a reduction of recreation opportunities caused by the partial or complete closing
of parks. With demand increasing, the Corps is faced with having to resort to reductions in contract services and daily
operating hours, and to shorten recreation seasons. A recent survey of operations project managers disclosed the
expectation of 76 partial closures and 11 full closures program-wide in the next fiscal year.

 Table 23. Recreation Indicators                                                                                                    FY 2007
                                                                                FY 2004          FY 2005          FY 2006   Target        Actual
 Funding history in millions of dollars                                           $262             $270             $268    $296              $256
 Total NED benefits (in millions of dollars)                                     $1,223           $1,243           $1,216   $1,247        $1,288
 Benefit-to-cost ratio                                                            4.28              4.3             4.27     4.27             4.3
 Cost recovery                                                                    16%              16%              16%     16%           Note 4
 Park capacity (in millions of days)                                               74               74                74     74               74
 Number of visitors (in millions of visits)                                        135              142              144     144              145
 Visitor health and safety services – visitor centers                                              79%              78%     79%               77%
                                                                                 Note 1
 Visitor health and safety services – recreation areas                                             51%              50%     51%               50%
 Customer satisfaction                                                           Note 2            88%              87%     88%           Note 5
 Facility service                                                                Note 3            48%              48%     48%               47%
 Facility condition                                                                3.7              3.7              3.7     3.7          Note 4

Note 1: Service standards were revised in FY 2005, so FY2004 data are not comparable.
Note 2: Surveys were not collected in FY 2004.
Note 3: Measure was established at the end of FY 2004; FY 2005 is first year of complete data.
Note 4: Data to compute the cost recovery ratio and facility condition index were not available at the time of printing.
Note 5: The data for FY 2007 were not available at the time of printing.
                                                                                                                                                     182


Water Supply
Objective: To provide water supply storage in a cost-efficient and environmentally responsible manner, in partnership
           with nonfederal water management plans, that is consistent with law and policy.

Funding History: The first row of Table 24 shows the funding for the Water Supply Program.

Performance Indicator: To assist in measuring progress toward this objective, the Corps uses measures relating to the
acre-feet of water stored and cost recovery measures. These are shown in Table 24.

            Acre-feet available. Of the total acre-feet of water stored in a reservoir, this number represents the total acre-
                 feet made available for the purpose of water supply.
                 Acre-feet under contract. Of the acre-feet made available for water supply, this number represents the total
                 number of acre-feet under contract with local interests.
                 Percentage under contract. The percentage of the acre-feet of water supply storage space under contract
                 compared to the acre-feet of space available for water storage.
                 Costs available for recovery. The Corps seeks proportional reimbursement of capital cost for that portion of
                 the reservoir that has been allocated for water supply. Cost available for recovery is the total estimated capital cost
                 of water supply allocations.
                 Costs recovered. Costs assigned to the water supply storage space that have been or are in the process of being
                 recovered through repayment agreements.
                 Percent of costs recovered. The percentage of costs available for recovery compared to costs recovered.

      Performance Results

      The funds received for FY 2007 were for billings and collections associated with water supply agreements and the
      operations and maintenance associated with specific water supply facilities. The funding also helped to resolve water
      problems in areas affected by drought and increased population pressure. As funding has remained constant, so have the
      percentage of acre feet under contract and percent of costs recovered remained relatively constant. Records indicate that
      for every dollar spent on billings and collections, some $15 to $20 is collected in principal, interest and operation and
      maintenance expense monies owed by the local sponsors. These funds are deposited in the U.S. Treasury.

       Table 24. Acre-Feed of Water Supply                                                                                                    FY 2007
                                                                               FY 2004          FY 2005           FY 2006            Target             Actual
       Funding history in millions of dollars                                     $2                $2               $2                $4               $2.5
       Acre-feet available (in millions of acre-feet)                           9.856             9.761            9.936               10
       Acre-feet under contract (in millions of acre-feet)                      9.108             9.356            9.936               9.6
       Percent under contract                                                   92.4%            95.9%             94.5%              96%
                                                                                                                                                      Note 1
       Costs available for recovery (in millions of dollars)                  $1,477.2          $1,459.8          $1,492.9         $1,500.0
       Costs recovered (in millions of dollars)                               $1,064.0          $1,096.1          $1,117.9         $1,131.0
       Percent recovered                                                         72%              75%              74.9%             75.4%

      Note 1: Due to a change in the data collection process, FY 2007 actual data were not available at time of printing. Data will be available on 30 November
      2007.


      Goal 4: Reduce Vulnerabilities and Losses to the Nation and the Army from Natural
      and Man-Made Disasters, Including Terrorism
      The purpose of this goal is to manage the risks associated with all types of hazards and to increase the responsiveness to
      disasters of the civil works emergency management program within the Corps’ Office of Homeland Security in support of
183   federal, state and local emergency management efforts. Disaster preparedness and response capabilities are not limited to
      water-related disasters, but draw on the engineering skills and management capabilities of the Corps, encompassing a broad
      range of natural disasters and national emergencies. Emergency readiness contributes to national security.

      Objective: To attain and maintain a high, consistent state of preparedness.
      Objective: To provide a rapid, effective and efficient all-hazards response.
      Objective: To ensure effective and efficient long-term recovery operations.

      Funding History: The first row of Table 25 shows the funding for emergency preparedness and response and recovery
      operations.



                                                                                                                           Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




Performance Indicators: The four primary measures listed in Table 25 are designed to serve as indicators to assist Corps
personnel in determining their progress in meeting the Corps’ emergency management objectives. The indicators are
explained below.

           Planning response team readiness. The Corps has established designated planning and response teams (PRT)
           that are organized to provide rapid emergency response for a specific mission area. This measure is calculated as a
           percentage of time during the fiscal year that PRTs are fully staffed, trained and ready to deploy.
           Project inspection performance. The Corps performs inspections of flood control works operated and
           maintained by public sponsors to insure and assess their operations and maintenance condition. This measure is
           determined by the percentage of scheduled inspections completed during the fiscal year.
           Damaged project restoration. The Corps repairs flood control projects damaged by flood or storm under
           authority of Public Law 84-99. This measure is determined by the percentage of projects damaged during a fiscal
           year that are repaired prior to the next flood season.
           Project condition ratings. Under the Corps Rehabilitation and Inspection Program, inspected projects are
           given condition ratings that characterize the project maintenance condition. This measure is determined by
           the percentage of the total projects inspected during the fiscal year that received a rating of at least minimally
           acceptable.

Performance Results

The Corps maintained 41 national planning and response teams at a 76 percent fully manned, trained and equipped
readiness rate during FY 2007. These teams are trained and prepared to deploy to a disaster area and provide assistance
for temporary power, temporary housing, debris management, water and ice commodities, temporary roofing and
infrastructure assessment. The readiness rating was below the target rating due to an increase in the number of teams and
improvements in team structures that required additional training and manning. During FY 2007, the Corps conducted
74 percent (420 total) of the scheduled project inspections of nonfederal flood damage reduction projects. Performance
below the target objective resulted from the application of more technically rigorous inspections in FY 2007, which limited
the number of scheduled inspections that could be conducted. Of the total projects inspected during FY 2007, 92 percent
received project condition ratings of minimally acceptable or better. Major floods in the northwest and central United
States resulted in damages to 128 flood damage reduction projects. As of this report, repairs to 34 projects have been
completed, resulting in a 27 percent performance rating for completing project repairs prior to the next flood season.
Repairs for all the remaining damaged projects have been funded, and construction will be completed by spring 2008.


                                                                                                                                                    184
 Table 25. Emergency Preparedness Indicators                                                                                     FY 2007
                                                                                        FY 2005         FY 2006         Target             Actual
                                                                         FY 2004         Note 1          Note 1         Note 2             Note 1
 Funding history in millions of dollars                                      $51          $348           $5,408          $58           $1,561
 Planning response team readiness                                            93%          82%             92%           90%                76%
 Project inspection performance                                              90%          96%             93%           92%                74%
 Damaged project restoration                                                 92%          75%             65%           88%                27%
 Project condition ratings                                                   93%          94%             95%           90%                92%

Note 1: Funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding.
Note 2: The funding target for FY2007 was to fund preparedness activities.
      Possible Future Effects of Existing Conditions
      Flood Risk Management
      The goal of the program is to reduce the nation’s risk of damages due to flooding and coastal storms. The nation faces
      increasing flood hazards, putting existing developments at risk. This is compounded by the fact that new development is
      occurring in flood-prone areas, often behind aging flood-control structures that include some levees that were designed
      to provide agricultural rather than urban protection. National flood damages, which averaged $3.9 million annually in the
      1980s, nearly doubled in the decade 1995 through 2004. Total disaster assistance for both emergency response operations
      and subsequent long-term recovery efforts increased from an average of $444 million during the 1980s to $3.75 billion
      during the 1995 – 2004 decade.

      Significant investments in identifying, evaluating and maintaining existing flood infrastructure (e.g., levees, dams, beaches)
      are required. This includes accounting for the change in the frequency, magnitude and location of storms, as well as changes
      in land use. The Corps is responsible for maintaining some of this infrastructure, while other entities are responsible for
      the remaining infrastructure. Regardless of ownership, all elements of the infrastructure must function as a system to be
      effective. In addition to maintaining infrastructure, new flood-risk management measures must be studied, evaluated and
      implemented in a timely fashion.

      The Marine Transportation System (MTS)
      The MTS system is comprised of 1,000 harbor channels; 25,000 miles of inland, intracoastal, and coastal waterways; and
      240 lock chambers. The national goal for the MTS is to provide a safe, secure and globally integrated network that, in
      harmony with the environment, ensures a reliable movement of people and commerce along its waterways, sea lanes and
      inter-modal connections. Today, approximately 20 percent of the gross domestic product of the United States is generated
      by foreign trade, and approximately 95 percent of that trade is moved by water. The value of the foreign tonnage is over
      $900 billion and generates 16 million jobs. Current forecasts predict that maritime trade will double, or possibly triple in
      the next 20 years.

      Inland Waterways: Eleven of the inland waterway locks are over 100 years old, and 122 are over 50 years old. In recent
      years, maintenance deferrals and delays in rehabilitation and replacement of aging locks have driven up unscheduled closure
      time from 12,000 hours per year in FY 2001 to 22,000 hours per year in FY 2006. These closures have a negative effect
      on the economy by imposing costs on shippers, carriers and electric utilities. For example, an unscheduled 52-day closure
      at Greenup Locks and Dams in Ohio cost shippers and carriers over $53 million. New improvements to inland waterways
      are jeopardized by the low balance in the Inland Waterways Trust Fund because half of the cost of such improvements must
      come from this fund.

      Coastal Channels and Harbors: Existing channels and high-volume harbors were only available 35 percent of the time
      in FY 2006. Inadequate channels affect the economy by imposing costs on vessel operators that are reflected in the cost
      of imports and the price of U.S. exports. Failure to maintain a foot of channel depth increases container shipping costs by
185   about 6% on average. Postponing investment in deeper and wider channels to address the needs of future demands will
      result in additional economic costs.

      Environment: Aquatic Ecosystem Restoration
      The Aquatic Ecosystem Restoration sub-program’s goal is to restore to a less degraded, more natural condition, aquatic
      habitat whose structure, function and dynamic processes have become degraded. The Corps designs and constructs projects
      that modify, in a cost-effective manner, hydrologic and geomorphic characteristics to achieve its objectives.




                                                                                                   Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




The demand for aquatic ecosystem restoration is great, and the challenge is to arrive at a sustainable balance between the
often conflicting demands for the use of and control of water resources. In FY 2007, the Corps initiated a research and
development effort to develop environmental benefit assessments that will more objectively evaluate aquatic ecosystem
restoration projects to enable it to effectively build and evaluate a national program. Until a standard metric is developed,
the Corps will continue to work with other agencies and continue to invest in research and development in order to more
objectively evaluate the disparate ecosystem restoration projects and to prioritize restoration needs. The Corps continues to
try to fund a balanced program that addresses the variety of resources needed across the country.

Analysis of Financial Statements and Stewardship Information
Civil Works Balance Sheet
The Army Civil Works Fund balance sheet includes total assets that exceed $44 billion, which is an approximate 2.9 percent
increase over FY 2006. Two asset categories – Fund Balance with Treasury and General Property, Plant and Equipment
– make up almost 85 percent of total assets, with values of $11.2 billion and $26.7 billion, respectively.

Fund Balance with Treasury increased $3.0 billion (37%). The increase was primarily in the Flood Control and Coastal
Emergencies appropriation which is used for hurricane and disaster relief work. The increase in this appropriation is
due to a combination of a U.S. Treasury warrant for $1.6 billion and total receipts collected of $2.6 billion. The $2.6
billion included collection of delinquent accounts receivable from the Federal Emergency Management Agency (FEMA).
Disbursements of $1.8 billion were made throughout FY 2007 for work performed on disaster relief efforts. The
collections and disbursements are for disaster relief efforts related to Hurricanes Katrina, Wilma and Rita by the USACE’s
New Orleans, Vicksburg and Galveston districts. The Treasury warrant and collections combined with disbursements
resulted in an increase in the fund balance of $2.4 billion.

Liabilities are approximately $4.2 billion, comprised primarily of other intragovernmental liabilities, environmental and
disposal liabilities, and loan guarantee liabilities, which represent approximately 76.2 percent of the total.



 Figure 15. Select Civil Works Fund Assets and Liabilities
 Civil Works Fund
 $ in billions
                                                                                                             Percentage of FY
 Asset Type                                      FY 2007              FY 2006              Change              2007 Assets
 General Property, Plant and Equipment                     $26.7                $26.8               $(0.2)                60%
 Fund Balance with Treasury (Entitity)                      11.2                  8.1                 3.0                 25%    186
 Accounts Receivable                                         2.5                  4.2                (1.7)                 6%
 Remaining Assets                                            4.2                  4.1                 0.0                  9%
 Total Assets                                              $44.5                $43.3                $1.2                100%

                                                                                                             Percentage of FY
 Liability Type                                  FY 2007              FY 2006              Change             2007 Liabilities
 Other Liabilities                                          $2.5                 $2.7               $(0.2)                61%
 Environmental Liabilities                                   0.6                  0.7                 0.0                 15%
 Accounts Payable                                            0.7                  0.5                 0.2                 17%
 Remaining Liabilities                                       0.3                  0.3                 0.0                  6%
 Total Liabilities                                          $4.2                 $4.2               $(0.0)               100%

 Amounts may not sum due to rounding.
      Consolidated Statement of Net Costs
      Total Costs decreased $2.0 billion (18%). The decrease was due to completion of projects associated with
      disaster relief efforts related to Hurricanes Katrina and Rita conducted by the USACE’s New Orleans, Vicksburg and
      Galveston districts. The decrease in costs began during the 1st Quarter, FY 2007 and continued through the 4th Quarter,
      FY 2007.

      Total Earned Revenue decreased $2.4 billion (46%). The decrease is due to a reduction in reimbursable work performed in
      support of hurricane relief efforts in the USACE’s New Orleans, Vicksburg and Galveston districts. The decrease in earned
      revenue initially occurred in 1st Quarter, FY 2007 and continued through 4th Quarter, FY 2007.

      Stewardship Information
      The current national register inventory for the USACE includes 489 archeological properties determined to be eligible for
      listing, and 97 archeological properties listed. There are 117 buildings and structures listed on the national register and 236
      determined eligible for listing.

      Figure 16. Select Civil Works Fund Assets and Liabilities


              Civil Works Assets

                                                                                         General Property, Plant and Equipment
                         6%           9%                                                 Fund Balance with Treasure (Entity)
                                                                                         Accounts Receivable
                                                                                         Remaining Assets
               25%                                                   60%




            Civil Works Liabilities

                                                                                         Other Liabilities
                                        6%                                               Environmental Liabilities
                      17%
                                                                                         Accounts Payable
                                                                                         Remaining Liabilities
                                                                       62%
                 15%



187




                                                                                                      Commitment to Current and Future Readiness
Civil Works Fund
Fiscal Year 2007 United States Army Annual Financial Statement




                                                                 188
Limitations
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of
operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                                                                                 189




                                Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - US Army Corps of Engineers

      CONSOLIDATED BALANCE SHEET
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                       2007 Consolidated         2006 Consolidated
      ASSETS (Note 2)
        Intragovernmental:
           Fund Balance with Treasury (Note 3)
           Entity                                                                  $            11,157,876   $             8,141,325
           Non-Entity Seized Iraqi Cash                                                                  0                         0
           Non-Entity-Other                                                                          7,596                     6,028
           Investments (Note 4)                                                                  4,038,353                 3,571,456
           Accounts Receivable (Note 5)                                                            873,118                 2,407,555
           Other Assets (Note 6)                                                                         0                         0
           Total Intragovernmental Assets                                          $            16,076,943   $            14,126,364

        Cash and Other Monetary Assets (Note 7)                                    $                 1,371   $                 1,310
        Accounts Receivable, Net (Note 5)                                                        1,657,863                 1,773,773
        Loans Receivable (Note 8)                                                                        0                         0
        Inventory and Related Property, Net (Note 9)                                               121,704                   121,340
        General Property, Plant and Equipment, Net (Note 10)                                    26,671,291                26,821,962
        Investments (Note 4)                                                                             0                         0
        Other Assets (Note 6)                                                                          494                   440,839
      TOTAL ASSETS                                                                 $            44,529,666   $            43,285,588

      LIABILITIES (Note 11)
        Intragovernmental:
           Accounts Payable (Note 12)                                              $               131,567   $                93,841
           Debt (Note 13)                                                                           12,917                    13,924
           Other Liabilities (Note 15 & 16)                                                      1,887,812                 1,987,573
           Total Intragovernmental Liabilities                                     $             2,032,296   $             2,095,338

        Accounts Payable (Note 12)                                                 $               594,790   $               442,199
        Military Retirement and Other Federal Employment Benefits (Note 17)                        251,887                   250,575
        Environmental and Disposal Liabilities (Note 14)                                           626,773                   653,315
        Loan Guarantee Liability (Note 8)                                                                0                         0
        Other Liabilities (Note 15 and Note 16)                                                    660,946                   753,399
      TOTAL LIABILITIES                                                            $             4,166,692   $             4,194,826

      NET POSITION
        Unexpended Appropriations - Earmarked Funds (Note 23)                      $                     0   $                     0
        Unexpended Appropriations - Other Funds                                                  8,578,322                 7,443,696
        Cumulative Results of Operations - Earmarked Funds                                       6,129,552                 5,588,141
        Cumulative Results of Operations - Other Funds                                          25,655,100                26,058,925
      TOTAL NET POSITION                                                           $            40,362,974   $            39,090,762

      TOTAL LIABILITIES AND NET POSITION                                           $            44,529,666   $            43,285,588
190


      The accompanying notes are an integral part of these financial statements.
Department of Defense - US Army Corps of Engineers

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                      2007 Consolidated             2006 Consolidated
Program Costs
  Gross Costs                                                                   $                 9,230,379    $              11,196,356
  (Less: Earned Revenue)                                                                         (2,739,303)                  (5,104,928)
  Net Program Costs                                                             $                 6,491,076    $               6,091,428
Cost Not Assigned to Programs                                                                             0                            0
(Less: Earned Revenue Not Attributable to Programs)                                                       0                            0
Net Cost of Operations                                                          $                 6,491,076    $               6,091,428




The accompanying notes are an integral part of these financial statements.




                                                                                                                                              191




                                                                             Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - US Army Corps of Engineers

      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                      2007
                                                                                   Earmarked       2007 All Other         2007          2007
                                                                                     Funds            Funds           Eliminations   Consolidated
      CUMULATIVE RESULTS OF OPERATIONS
      Beginning Balances                                                      $       5,380,665    $   26,266,400     $          0   $   31,647,065
      Prior Period Adjustments:
        Changes in accounting principles (+/-)                                                0          (450,381)               0         (450,381)
        Corrections of errors (+/-)                                                           0                 0                0                0
      Beginning balances, as adjusted                                         $       5,380,665    $   25,816,019     $          0   $   31,196,684
      Budgetary Financing Sources:
        Other adjustments (rescissions, etc.)                                                 0                 0                0                0
        Appropriations used                                                                   0         4,695,091                0        4,695,091
        Nonexchange revenue                                                           1,983,572              (239)               0        1,983,333
        Donations and forfeitures of cash and cash equivalents                                0                 0                0                0
        Transfers-in/out without reimbursement                                           16,503           111,960                0          128,463
        Other budgetary financing sources                                                     0                 0                0                0
      Other Financing Sources:
        Donations and forfeitures of property                                                 0            11,105                0           11,105
        Transfers-in/out without reimbursement (+/-)                                    256,145          (232,606)               0           23,539
        Imputed financing from costs absorbed by others                                       0           239,013            1,500          237,513
        Other (+/-)                                                                           0                 0                0                0
      Total Financing Sources                                                 $       2,256,220    $    4,824,324     $      1,500   $    7,079,044
      Net Cost of Operations (+/-)                                                    1,326,284         5,166,292            1,500        6,491,076
      Net Change                                                              $         929,936    $     (341,968)    $          0   $      587,968
      Cumulative Results of Operations                                        $       6,310,601    $   25,474,051     $          0   $   31,784,652

      UNEXPENDED APPROPRIATIONS
      Beginning Balances                                                      $                0   $    7,443,696     $          0   $    7,443,696
      Prior Period Adjustments:
        Changes in accounting principles                                                       0          (35,335)               0          (35,335)
        Corrections of errors                                                                  0                0                0                0
      Beginning balances, as adjusted                                         $                0   $    7,408,361     $          0   $    7,408,361
      Budgetary Financing Sources:
        Appropriations received                                                               0         5,865,443                0        5,865,443
        Appropriations transferred-in/out                                                     0              (334)               0             (334)
        Other adjustments (rescissions, etc)                                                  0                (57)              0               (57)
        Appropriations used                                                                   0        (4,695,091)               0       (4,695,091)
      Total Budgetary Financing Sources                                       $               0    $    1,169,961     $          0   $    1,169,961
      Unexpended Appropriations                                                               0         8,578,322                0        8,578,322
      Net Position                                                            $       6,310,601    $   34,052,373     $          0   $   40,362,974




192
      The accompanying notes are an integral part of these financial statements.
Department of Defense - US Army Corps of Engineers

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                2006
                                                                             Earmarked       2006 All Other         2006          2006
                                                                               Funds            Funds           Eliminations   Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                      $      4,781,544     $   26,024,852     $          0   $   30,806,396
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                               0                  0                0                0
  Corrections of errors (+/-)                                                          0                  0                0                0
Beginning balances, as adjusted                                         $      4,781,544     $   26,024,852     $          0   $   30,806,396
Budgetary Financing Sources:
  Other adjustments (rescissions, etc.)                                                0                  0                0                0
  Appropriations used                                                                  0          4,516,312                0        4,516,312
  Nonexchange revenue                                                          1,841,682                  0                0        1,841,682
  Donations and forfeitures of cash and cash equivalents                               0                  0                0                0
  Transfers-in/out without reimbursement                                           8,362            284,043                0          292,405
  Other budgetary financing sources                                                    0                  0                0                0
Other Financing Sources:
  Donations and forfeitures of property                                                0             19,888                0           19,888
  Transfers-in/out without reimbursement (+/-)                                  (135,271)           135,457                0              186
  Imputed financing from costs absorbed by others                                      0            261,624                0          261,624
  Other (+/-)                                                                          0                  0                0                0
Total Financing Sources                                                 $      1,714,773     $    5,217,324     $          0   $    6,932,097
Net Cost of Operations (+/-)                                                   1,115,652          4,975,776                0        6,091,428
Net Change                                                              $        599,121     $      241,548     $          0   $      840,669
Cumulative Results of Operations                                        $      5,380,665     $   26,266,400     $          0   $   31,647,065

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                      $                0   $    1,005,843     $          0   $    1,005,843
Prior Period Adjustments:
  Changes in accounting principles                                                       0                0                0                0
  Corrections of errors                                                                  0                0                0                0
Beginning balances, as adjusted                                         $                0   $    1,005,843     $          0   $    1,005,843
Budgetary Financing Sources:
  Appropriations received                                                              0         10,980,882                0       10,980,882
  Appropriations transferred-in/out                                                    0              27,114               0            27,114
  Other adjustments (rescissions, etc)                                                 0             (53,831)              0           (53,831)
  Appropriations used                                                                  0         (4,516,312)               0       (4,516,312)
Total Budgetary Financing Sources                                       $              0     $    6,437,853     $          0   $    6,437,853
Unexpended Appropriations                                                              0          7,443,696                0        7,443,696
Net Position                                                            $      5,380,665     $   33,710,096     $          0   $   39,090,761




The accompanying notes are an integral part of these financial statements.                                                                         193




                                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - US Army Corps of Engineers

      COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                                                     Non-Budgetary
      As of September 30, 2007 and 2006 ($ in Thousands)                             Budgetary Financing Accounts                  Financing Accounts
                                                                                   2007 Combined     2006 Combined           2007 Combined 2006 Combined
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1                              $     9,368,272      $     5,003,186      $          0   $          0
      Recoveries of prior year unpaid obligations                                                0                    0                 0              0
        Budget authority
        Appropriation                                                                    7,503,579           12,439,718                 0              0
        Borrowing authority                                                                      0                    0                 0              0
        Contract authority                                                                       0                    0                 0              0
        Spending authority from offsetting collections
            Earned
               Collected                                                                10,401,273            9,407,099                 0              0
               Change in receivables from Federal sources                               (1,504,481)           1,690,685                 0              0
            Change in unfilled customer orders
               Advance received                                                               (4,115)             22,685                0              0
               Without advance from Federal sources                                       (780,400)            (719,532)                0              0
            Anticipated for rest of year, without advances                                         0                    0               0              0
            Previously unavailable                                                                 0                    0               0              0
            Expenditure transfers from trust funds                                                 0                    0               0              0
        Subtotal                                                                   $    15,615,856           22,840,655                 0              0
      Nonexpenditure transfers, net, anticipated and actual                                  78,583                (8,068)              0              0
      Temporarily not available pursuant to Public Law                                      (10,000)             (10,000)               0              0
      Permanently not available                                                                 (732)            (54,490)               0              0
      Total Budgetary Resources                                                    $    25,051,979      $    27,771,283      $          0   $          0

      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                                     $     6,924,552      $     6,902,331      $          0   $          0
        Reimbursable                                                                     8,479,195           11,500,680                 0              0
        Subtotal                                                                   $    15,403,747      $    18,403,011      $          0   $          0
      Unobligated balance:
        Apportioned                                                                      8,742,926            8,621,365                 0              0
        Exempt from apportionment                                                          895,064              746,850                 0              0
        Subtotal                                                                   $     9,637,990      $     9,368,215      $          0   $          0
      Unobligated balance not available                                                     10,242                   57                 0              0
      Total status of budgetary resources                                          $    25,051,979      $    27,771,283      $          0   $          0
      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1                             $     5,478,111      $     3,945,373      $          0   $          0
        Less: Uncollected customer payments from Federal sources, brought
        forward, October 1                                                               (6,421,138)          (5,449,985)               0              0
        Total unpaid obligated balance                                             $       (943,027)    $     (1,504,612)    $          0   $          0
      Obligations incurred net (+/-)                                               $    15,403,747      $    18,403,011      $          0   $          0
      Less: Gross outlays                                                              (14,836,212)         (16,870,276)                0              0
      Obligated balance transferred, net
        Actual transfers, unpaid obligations (+/-)                                                 0                    0               0              0
        Actual transfers, uncollected customer payments from Federal sources
194     (+/-)                                                                                    0                    0                 0              0
        Total Unpaid obligated balance transferred, net                            $             0      $             0      $          0   $          0
      Less: Recoveries of prior year unpaid obligations, actual                    $             0      $             0      $          0   $          0
      Change in uncollected customer payments from Federal sources (+/- )                2,284,881             (971,153)                0              0
      Obligated balance, net, end of period
        Unpaid obligations                                                               6,045,644            5,478,111                 0              0
        Less: Uncollected customer payments (+/-) from Federal sources (-)              (4,136,258)          (6,421,138)                0              0
        Total, unpaid obligated balance, net, end of period                        $     1,909,386             (943,027)                0              0
      Net Outlays
      Net Outlays:
        Gross outlays                                                              $    14,836,212      $    16,870,276      $          0   $          0
        Less: Offsetting collections                                                   (10,397,157)          (9,429,787)                0              0
        Less: Distributed Offsetting receipts                                             (521,925)          (1,906,618)                0              0
      Net Outlays                                                                  $     3,917,130      $     5,533,871      $          0   $          0

      The accompanying notes are an integral part of these financial statements.
Note 1.            Significant Accounting Policies
1.A.     Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the U.S. Army
Corps of Engineers (USACE) Civil Works Program, as required by the Chief Financial Officers Act of 1990, expanded
by the Government Management Reform Act of 1994, and other appropriate legislation. The financial statements have
been prepared from the books and records of USACE in accordance with the Department of Defense (DoD) Financial
Management Regulation (FMR), Office of Management and Budget (OMB) Circular A-136, Financial Reporting
Requirements, and to the extent possible generally accepted accounting principles (GAAP). Effective 4th Quarter, Fiscal
Year (FY) 2006, DoD no longer publishes consolidating/combining financial statements. The accompanying financial
statements account for all Civil Works resources for which USACE is responsible unless otherwise noted.

The USACE’s financial statements are prepared from the consolidation of general ledger financial data reported from
the Corps of Engineers Financial Management System (CEFMS) to the Corps of Engineers Enterprise Management
Information System (CEEMIS). The financial statements are presented on the accrual basis of accounting as required by the
Statement of Federal Financial Accounting Standards (SFFAS).


1.B.     Mission of the Reporting Entity
The primary missions of USACE include maintaining navigation channels, reducing flooding, assisting during natural
disasters and other emergencies, and making waterways passable. The civil works program supports the Department of
Homeland Security in carrying out the National Response Plan. The USACE’s primary role in support of this plan is to
provide emergency support in areas of public works and engineering. The USACE responds to more than 30 presidential
disaster declarations in a typical year, and its highly trained workforce is prepared to deal with both man-made and natural
disasters.


1.C.     Appropriations and Funds
The USACE Civil Works Program receives federal funding through annual Energy and Water Development Appropriations
Act. Program funding also comes from nonfederal project sponsors who share in project costs according to formulas
established by project authorization acts. A third source of funding comes through the Support for Others Program, which
is conducted under reimbursable agreements with federal agencies.

The USACE Civil Works Program receives its appropriations and funds as general, revolving, trust, special, and deposit
funds. The USACE uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.
                                                                                                                                   195
Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving
fund resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Certain trust and special
funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified revenues, required



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      by statute to be used for designated activities, benefits or purposes, and remain available over time. Earmarked funds also
      have a requirement to account for and report on the receipt, use and retention of revenues and other financing sources that
      distinguish them from general revenues.

      Special fund accounts are used to record government receipts reserved for a specific purpose.

      Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The
      USACE acts as an agent or a custodian for funds awaiting distribution.

      The USACE is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation transfers are
      legal delegations by one agency of its authority to obligate budget authority and outlay funds to another agency. Generally,
      all financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the
      financial statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed
      that all activity be reported in the financial statements of the child entity. Exceptions include all U.S. Treasury-Managed
      Trust Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB.

      The USACE is a party to allocation transfers as the child for the following agencies: Department of Agriculture,
      Department of Commerce, Department of the Interior, Department of the Army, Department of Transportation, and
      Department of Energy.

      Additionally, USACE is a party to other allocation transfers as the child for the following funds meeting the OMB exception
      and all related activity is thus included in the USACE financial statements: South Dakota Terrestrial Wildlife Habitat
      Restoration, Inland Waterways, and Harbor Maintenance trust funds.

      In 1997, USACE received borrowing authority from the U.S. Treasury for the three years 1997 through 1999 to finance
      capital improvements to the Washington Aqueduct.


      Entity Accounts:
      General Funds
      96X3112 Flood Control, Mississippi River and Tributaries
      96X3121 Investigations
      96 3121   Investigations (fiscal year)
      96X3122 Construction
      96X3123 Operation and Maintenance, General
      96 3123   Operation and Maintenance, General
      96X3124 General Expenses
      96 3124   General Expenses
      96X3125 Flood Control and Coastal Emergencies
      96 3125   Flood Control and Coastal Emergencies
196   96X3126 Regulatory Program
      96X3128 Washington Aqueduct Capital Improvements
      96 3129   Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      96X3130 Formerly Utilized Sites Remedial Action Program
      96 3132   Office of Assistant Secretary of the Army, Civil Works
      96X6094 Advances from the District of Columbia

      Revolving Funds
      96X4902 Revolving Fund

      Special Funds
      96X5007 Special Recreation Use Fees
96X5066     Hydraulic Mining in California, Debris
96X5090     Payments to States, Flood Control Act of 1954
96X5125     Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493     Fund for Non-Federal Use of Disposal Facilities
96 5493     Fund for Non-Federal Use of Disposal Facilities

Trust Funds
96X8217 South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333 Coastal Wetlands Restoration Trust Fund
96 20X8861 Inland Waterways Trust Fund
96X8862 Rivers and Harbors Contributed and Advance Funds
96 20X8863 Harbor Maintenance Trust Fund
96 89X4045 Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy

Transfer Funds (reported by the Parent)
96 12X1105 State and Private Forestry, Forest Service
96 14X1039 Construction, National Park Service
96 14X5035 Land Acquisition and State Assistance, National Park Service
96 14X5573 Permit Processing Fund, Bureau of Land Management
96 46X0200 Appalachian Regional Development Programs, Appalachian Regional Commission
96 69X8083 Federal - Aid Highways (Liquidation of Contract Authorization), Federal Highways Administration
96 89X4045 Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy


Nonentity:
Deposit Funds
96X6500 Advances Without Orders from Non-Federal Sources
96X6501 Small Escrow Amounts

Clearing Accounts
96F3875    Budget Clearing Account (suspense)
96F3880    Unavailable Check Cancellations and Overpayments (suspense)
96F3885    Undistributed Intragovernmental Payments

Receipt Accounts
96 0891    Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96 1060    Forfeitures of Unclaimed Money and Property
96 1099    Fines, Penalties, and Forfeitures, Not Otherwise Classified
96 1299    Gifts to the United States, Not Otherwise Classified
96 1435    General Fund Proprietary Interest, Not Otherwise Classified
96 3220    General Fund Proprietary Receipts, Not Otherwise Classified, All Other                                             197
96 5005    Land and Water Conservation Fund
96 5007    Special Recreation Use Fees
96 5066    Hydraulic Mining in California
96 5090    Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96 5125    Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of Dams,
           etc., (50%)
96 5493    User Fees, Fund for Non-Federal Use of Disposal Facilities




                                                             Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Obsolete Accounts
      96 13X1450        96 89X0224             96X6145        96F3886        96 1499
      96 14X2301        96 20X8145             96X6275        96 0199        96 2413
      96 19 00 1082     96X3930                96X6302        96 0869        96 2814
      96 47X4542        96X6050                96X6999        96 1030        96 3102
      96 67X0204        96X6075                96X8868        96 1040        96 3124
      96 72 00/01 1021 96X6134                 96F3879        96 1210


      1.D.     Basis of Accounting
      For FY 2007, USACE’s financial management system meets all of the requirements for full accrual accounting. The USACE
      transactions are recorded on an accrual accounting basis as required by GAAP. Under the accrual method, revenues are
      recognized when earned and expenses are recognized when a liability is incurred without regard to receipt or payment of
      cash. Budgetary accounting is accomplished through unique general ledger accounts to facilitate compliance with legal and
      internal control requirements associated with the use of federal funds in accordance with the Treasury Financial Manual.

      The CEFMS records transactions based on the U.S. Standard General Ledger (USSGL). The general ledger chart of
      accounts in CEFMS is compliant with the USSGL. The CEFMS is a fully integrated, automated, and comprehensive
      financial management system that simplifies the management of all aspects of USACE’s business and is being relied upon by
      the DoDIG for the FY 2006/2007 financial audits. The CEFMS is used at all divisions, districts, centers, laboratories, and
      field offices.

      In addition, DoD identifies program costs based upon the major appropriation groups provided by the Congress. Current
      processes and systems capture and report accumulated costs for major programs based upon the performance measures
      as required by the Government Performance and Results Act. The CEFMS includes a cost reporting methodology that
      meets the need for cost information required by SFFAS No. 4, “Managerial Cost Accounting Concepts and Standards for the
      Federal Government.”


      1.E.     Revenues and Other Financing Sources
      The USACE receives congressional appropriations as financing sources for general funds on either an annual or multi-year
      basis. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods
      or services. The USACE recognizes revenue as a result of costs incurred for goods or services provided to other federal
      agencies and the public. Full cost pricing is USACE’s standard policy for goods or services provided as required by OMB
      Circular A-25, User Charges. The USACE recognizes revenue when earned.


      1.F.     Recognition of Expenses
      For financial reporting purposes, USACE’s policy requires the recognition of operating expenses in the period incurred.
198
      The USACE’s financial system collects and records financial information on the full accrual accounting basis. Expenses,
      such as civilian earned leave, are financed in the period when earned. An exception is sick leave, which is expensed as
      taken. Accrual adjustments are made for environmental liabilities. The USACE’s expenditures for capital and other long-
      term assets are recognized as operating expenses. In the case of Operating Materials and Supplies (OM&S), operating
      expenses are recognized when consumed.


      1.G.     Accounting for Intragovernmental Activities
      Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD or
      between two or more federal agencies. The USACE is responsible for eliminating transactions between USACE entities.
The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other federal
agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S. Treasury’s “Federal Intragovernmental Transactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While USACE is unable to
fully reconcile intragovernmental transactions with all federal partners, USACE is able to reconcile balances pertaining to
investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with OPM.

The USACE implemented policies and procedures related to reconciling intragovernmental assets, liabilities, revenues
and expenses for nonfiduciary transactions. Entities whose financial systems are unable to capture and provide complete,
pertinent data limit the degree of intragovernmental reconciliation. The USACE is able to fully reconcile with those
entities whose financial systems do have the capability to capture and provide all pertinent information needed for accurate
intragovernmental reconciliation.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public financing
whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized, because the U.S.
Treasury does not allocate such interest costs to the benefiting agencies.


1.H.     Transactions with Foreign Governments and International Organizations
The USACE Civil Works Program does not have transactions with foreign governments and/or international organizations.


1.I.     Funds with the U.S. Treasury
The USACE’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of the USACE
Finance Center (UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial
service centers process the majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic fund
transfers, interagency transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections
received, and disbursements issued. The
U.S. Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account. Differences between
USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are subsequently
reconciled.                                                                                                                        199


1.J.     Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported consist



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
      accommodation exchange missions.

      The USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.
      Foreign currency fluctuations require adjustments to the original obligation amount at the time of payment. The USACE
      does not separately identify currency fluctuations.


      1.K.     Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and refunds receivable
      from other federal entities or from the public. The USACE bases the allowance for uncollectible accounts receivable due
      from the public on established percentages per aged category of the cumulative balance of delinquent public receivables.
      The calculation and financial transaction updates are performed automatically in CEFMS. The DoD does not recognize an
      allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
      resolved between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental Business
      Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.


      1.L.     Direct Loans and Loan Guarantees
      The USACE does not operate a direct loan and/or loan guarantee program.


      1.M. Inventories and Related Property
      The USACE inventories are valued at approximate historical cost based on a moving weighted average that is based on
      actual cost divided by quantity. A perpetual record of inventory is maintained in CEFMS to allow for recomputation of the
      average unit cost as new receipts are recorded. The CEFMS maintains historical cost data necessary to comply with SFFAS
      No. 3, “Accounting for Inventory and Related Property.”

      Related property includes OM&S. The OM&S are valued at net realizable value. The USACE uses the consumption
      method of accounting for OM&S, as defined in the SFFAS No. 3, as material that has not been issued to the end user. Once
      OM&S is issued, the materials and/or supplies are expensed.

      Work in process (WIP) balances include costs related to the production or servicing of items, including direct material,
      direct labor, applied overhead and other direct costs. The WIP also includes the value of finished products or completed
      services that are yet to be placed in service and transferred to an asset account.


      1.N.     Investments
      The USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
200   or discounts are amortized over the term of the investment using the effective interest rate method or another method
      obtaining similar results. The USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or
      otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

      The Bureau of Public Debt (BPD), on behalf of USACE, invests in nonmarketable securities. The two types of
      nonmarketable securities are par value and market-based intragovernmental securities. The BPD issues nonmarketable
      par value intragovernmental securities. Nonmarketable, market-based intragovernmental securities mimic marketable
      securities, but are not publicly traded.

      The USACE’s net investments are held by various trust funds. These funds include South Dakota Terrestrial Habitat
      Restoration, Inland Waterways, and Harbor Maintenance trust fund accounts.
1.O.     General Property, Plant and Equipment
The USACE Civil Works General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost
plus capitalized improvements when an asset has a useful life of two or more years and the acquisition cost exceeds $25
thousand. One exception is that all buildings and structures related to hydropower projects are capitalized regardless of
cost. Prior to FY 2004, USACE capitalized all buildings and structures regardless of cost. In FY 2003, USACE increased
the threshold (effective FY 2004) for buildings and structures to $25 thousand for all Civil Works appropriations with the
exception of Revolving Fund and hydropower related assets, and expensed all previously acquired assets that did not meet
the new $25 thousand threshold.

When it is in the best interest of the government, USACE provides government property to contractors to complete
contract work. The USACE either owns or leases such property, and it is reported on the Balance Sheet when it exceeds
the capitalization threshold.


1.P.     Advances and Prepayments
The USACE’s policy is to record advances and prepayments in accordance with generally accepted accounting principles
(GAAP). As such, payments made in advance of the receipt of goods and services are reported as an asset on the Balance
Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods and services are received.


1.Q.     Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When
a lease is essentially equivalent to an installment purchase of property (a capital lease), USACE records the applicable asset
and liability if the value equals or exceeds the current capitalization threshold. The USACE records the amounts as the
lesser of the present value of the rental and other lease payments during the lease term (excluding portions representing
executory costs paid to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is
either the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The
USACE, as the lessee, receives the use and possession of leased property (for example real estate or equipment) from a
lessor, in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of
ownership. Payments for operating leases are charged to expenses over the lease term as it becomes payable.


1.R.     Other Assets
Other assets include those assets, such as travel advances, that are not reported elsewhere on USACE’s Balance Sheet.


1.S.     Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition                    201
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The USACE recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility
of receivables, pending or threatened litigation, and possible claims and assessments. The USACE’s risk of loss and resultant
contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft,



                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      ship and vehicle accidents, property or environmental damages, and contract disputes.

      Other liabilities arise as a result of anticipated disposal costs for USACE’s assets. This type of liability has two
      components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and
      Equipment,” recognition of an anticipated environmental disposal liability begins when the asset is placed into service.
      Nonenvironmental disposal liabilities are recognized for assets when management decides to dispose of an asset based upon
      DoD’s policy, which is consistent with
      SFFAS No. 5.


      1.T.     Accrued Leave
      The USACE reports a liability, civilian earned leave—except sick leave--that has been accrued and not used as of the
      Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects
      current pay rates.


      1.U.     Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations.

      Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
      withdrawn. Unexpended Appropriations also represent amounts obligated for which legal liabilities for payments have not
      been incurred.

      Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses,
      and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also
      include donations and transfers in and out of assets that were not reimbursed.


      1.V.     Treaties for Use of Foreign Bases
      The USACE Civil Works Program does not have treaties for use of foreign bases.


      1.W.     Comparative Data
      Not applicable.


      1.X.     Unexpended Obligations
      The USACE obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
202   statements do not reflect this liability for payment for goods and services not yet delivered, unless title passes.


      1.Y.     Undistributed Disbursements and Collection
      Undistributed disbursements and collections represent the difference between disbursements and collections matched at
      the transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported
      by the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting
      reports. In-transit payments are those payments that have been made, but have not been recorded in the fund holder’s
      accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
      are those collections from other agencies or entities that have not been recorded in the accounting records. These
      collections are applied to the entities’ accounts receivable balance.
The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of federal and nonfederal accounts payable and accounts receivable. Unsupported
undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are recorded in
other liabilities. The USACE dos not follow this procedure. All undistributed disbursements and collections for USACE are
unrecorded Intragovernmental Payment and Collection transactions. These transactions are all federal. The USACE Civil
Works Program does not have in-transit payments or collections.


1.Z.     Significant Events
In accordance with OMB Circular A-136, USACE implemented a new reporting procedure in 1st Quarter, FY 2007, to
exclude transfer appropriation accounts for parent/child relationships. The circular requires the parent agency, vice the
child, report all financial activity in its financial statements. The USACE has removed the transfer appropriation accounts
from its financial statements. This change is reflected as a prior period adjustment equal to the results of operations for the
period ending September 30, 2006, for the transfer appropriation accounts.

There has been a significant decrease in accounts receivable with the Federal Emergency Management Agency (FEMA)
during FY 2007. The FEMA receivables are associated with disaster relief efforts conducted by USACE New Orleans,
Vicksburg, and Galveston districts related to hurricanes Katrina and Rita.

The USACE enhanced its accrual policy guidance to strengthen controls and monitoring of accruals to ensure receipt of all
goods and/or services are recorded in the period when incurred.

Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in accordance with
OMB Circular A-136. The SOF will no longer be considered a basic statement and is now referred to as “Reconciliation of
Net Cost of Operations to Budget.”


1.AA. Accounts Payable
Accounts payable are the amounts owed by USACE for goods and services received from other entities, progress in contract
performance made by other entities, and rents due to other entities.


1.AB. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities that are not covered by permanent indefinite
appropriations, which have been enacted and signed into law and are available for use as of the Balance Sheet date.




                                                                                                                                    203




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 2.              Nonentity Assets
       As of September 30                                                           2007                           2006
       (Amounts in thousands)
       1. Intragovernmental Assets
          A. Fund Balance with Treasury                                  $                      7,596    $                    6,028
          B. Accounts Receivable                                                                    3                             0
          C. Total Intragovernmental Assets                              $                      7,599    $                    6,028

       2. Nonfederal Assets
          A. Cash and Other Monetary Assets                              $                      1,371    $                    1,310
          B. Accounts Receivable                                                            1,631,005                     1,751,549
          C. Other Assets                                                                           0                             0
          D. Total Nonfederal Assets                                     $                  1,632,376    $                1,752,859

       3. Total Nonentity Assets                                         $                  1,639,975    $                1,758,887

       4. Total Entity Assets                                            $                 42,889,691    $              41,526,701

       5. Total Assets                                                   $                 44,529,666    $              43,285,588

      Other Information

      Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that USACE has authority
      to use or where management is legally obligated to use funds to meet entity obligations. Nonentity assets are assets
      for which USACE maintains stewardship accountability and responsibility to report but are not available for USACE’s
      operations.

      Intragovernmental nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts
      and is not available for use in operations.

      Intragovernmental nonentity accounts receivable consist of a receivable from the U.S. Coast Guard within the Department
      of Homeland Security for the usage of dredge disposal areas. Nonentity accounts receivables are recorded in unavailable
      receipt accounts, and funds will be returned to the U.S. Treasury when collected.

      Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability that is comprised of change funds for
      recreation cashiers, disbursing officer’s cash, and foreign currency.

      Nonentity nonfederal accounts receivable represents all current and noncurrent receivables due from nonfederal sources.
      This includes noncurrent receivables due from state and local municipalities for long-term water storage contracts;
      current receivables due from state and local municipalities for water storage; accrued interest receivable; penalties, fines,
      and administrative fees receivable; long-term receivables for hydraulic mining; leasing of land acquired for flood control
204   purposes and the allowance for doubtful accounts. Nonentity accounts receivables are recorded in unavailable receipt
      accounts and funds will be returned to the U.S. Treasury when collected.
Note 3.              Fund Balance with Treasury
 As of September 30                                                             2007                         2006
 (Amounts in thousands)
 1. Fund Balances
    A. Appropriated Funds                                              $            9,293,495      $                6,423,985
    B. Revolving Funds                                                              1,178,590                       1,090,769
    C. Trust Funds                                                                     89,257                          93,727
    D. Special Funds                                                                    9,172                           5,287
    E. Other Fund Types                                                               594,958                         533,585
    F. Total Fund Balances                                             $           11,165,472      $                8,147,353

 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                       $           11,252,881      $                8,181,330
    B. Fund Balance per USACE                                                      11,165,472                       8,147,353

 3. Reconciling Amount                                                 $                87,409     $                  33,977

Reconciling Amount

Fund Balance per USACE does not include receipt accounts or cancelled appropriations, which USACE closed according
to the Treasury Financial Manual. In addition, Fund Balance per USACE does not include transfer funds where USACE is
the child in a parent/child relationship. In accordance with OMB A-136, the financial activity is reported in the financial
statements of the parent entity. Fund Balance per USACE includes cash reported by the U.S. Treasury for Inland Waterways
and Harbor Maintenance trust funds, for which USACE is identified as the lead agency for reporting.

Other Information

Appropriated Funds includes net disbursements for undistributed Intragovernmental Payment and Collection (IPAC)
transactions. These are distributed to the appropriate funds the following month.

Other Fund Types (nonentity) consist of deposit accounts that are not available to finance USACE activities. Other
Fund Types (entity) consists of borrowing authority, contributed funds and the suspense account established to finance
Washington Aqueduct operations.


Status of Fund Balance with Treasury
 As of September 30                                                           2007                           2006
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                                   $                 9,222,919    $                 8,970,843
    B. Unavailable                                                                   3,998,871                      3,557,277     205
 2. Obligated Balance not yet Disbursed                            $                 6,045,645    $                 5,478,110

 3. Nonbudgetary FBWT                                              $                     8,481    $                   54,953

 4. NonFBWT Budgetary Accounts                                     $               (8,110,444)    $              (9,913,830)

 5. Total                                                          $               11,165,472     $                 8,147,353




                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Definitions

      The Status of Fund Balance with Treasury reflects the budgetary resources to support the Fund Balance with Treasury
      (FBWT).

      Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
      outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations
      expiring at fiscal year-end that remain available only for obligation adjustments until the account is closed.

      Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received,
      services that have not been performed, and goods and services that have been delivered/received but not yet paid.

      Nonbudgetary FBWT includes entity and nonentity FBWT accounts that represent adjustments that do not have budgetary
      authority, such as clearing accounts.

      NonFBWT Budgetary Accounts represents adjustments to budgetary accounts that do not affect FBWT such as borrowing
      authority, investment accounts, accounts receivable and unfilled orders without advance from customers. This category
      reduces the Status of Fund Balance with Treasury.

      Restricted Unobligated Unavailable Balances

      Unobligated balances are segregated to show available and unavailable amounts in the note schedule. Certain unobligated
      balances may be restricted to future use and are not apportioned for current use. The USACE is the lead agency for
      reporting the financial data for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat
      Restoration trust funds. These trust funds remain invested and restricted for use until transferred to meet current
      expenditure requirements. The U.S. Treasury, Bureau of Public Debt (BPD) maintains the investments and the investment
      accounting records and invests the trust fund receipts.


      Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                        (Decrease)/
       As of September 30                                                                                              Increase from
                                                                                  2005        2006           2007      FY2006 - 2007
       (Amounts in thousands)
       Account
         F3845 – Personal Property Proceeds                                   $         0 $         0    $        0    $           0
         F3875 – Budget Clearing Account Suspense                                     632         855         1,142              287
         F3880 – Lost or Cancelled Treasury Checks                                      0        (168)            0              168
         F3882 – Uniformed Services Thrift Savings Plan Suspense                        0           0             0                0
         F3885 – Interfund/IPAC Suspense                                          (12,215)       (591)         (258)             333
         F3886 – Thrift Savings Plan Suspense                                           0           0             0                0

       Total                                                                  $ (11,583) $         96    $     884     $         788
206
      Abnormalities

      The Interfund/IPAC Suspense has an abnormal balance of ($258.0) thousand due to unrecorded IPAC net disbursements
      for multiple USACE districts. These are distributed to the appropriate funds the following month.

      Other Information

      The F3875 suspense clearing account represents the Disbursing Officer’s suspense. Suspense clearing account F3885
      represents the Interfund/IPAC suspense. These two suspense accounts temporarily hold collections or disbursements until
      they can be assigned or identified to a valid appropriation.
The F3880 suspense clearing account represents the balance of U. S. Treasury checks that: (1) have either been lost by the
payee and need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the U.S. Treasury and
need to be transferred to the original appropriation.

The USACE Civil Works Program does not use the following suspense clearing accounts: F3845 -Personal Property
Processed, F3882 - Uniformed Services Thrift Savings Plan Suspense, or F3886 - Thrift Savings Plan Suspense.


Disclosures Related to Problem Disbursements
Not Applicable.


Note 4.              Investments and Related Interest
 As of September 30                                                                           2007
 (Amounts in thousands)                                                                   Amortized
                                                                          Amortization   (Premium) /    Investments,       Market Value
                                                             Cost           Method        Discount          Net             Disclosure
 1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
      1. Military Retirement Fund                       $             0                  $           0 $               0 $                0
      2. Medicare Eligible Retiree Health Care Fund                   0                              0                 0                  0
                                                                          Level Yield
      3. US Army Corps of Engineers                         4,058,474     Calculation        (44,129)      4,014,345         4,043,109
      4. Other Funds                                                0                              0               0                 0
      5. Total Nonmarketable, Market-Based                  4,058,474                        (44,129)      4,014,345         4,043,109

   B. Accrued Interest                                       24,008                                      24,008      24,008
   C. Total Intragovernmental Securities                $ 4,082,482                      $ (44,129) $ 4,038,353 $ 4,067,117

 2. Other Investments
    A. Total Other Investments                          $             0                  $           0 $               0            N/A

 As of September 30                                                                           2006
 (Amounts in thousands)                                                                   Amortized
                                                                          Amortization   (Premium) /    Investments,       Market Value
                                                             Cost           Method        Discount          Net             Disclosure
 3. Intragovernmental Securities
    A. Nonmarketable, Market-Based
      1. Military Retirement Fund                       $             0                  $           0 $               0 $                0
      2. Medicare Eligible Retiree Health Care Fund                   0                              0                 0                  0
                                                                          Level Yield
      3. US Army Corps of Engineers                         3,632,883     Calculation        (81,320)      3,551,563         3,519,489
      4. Other Funds                                                0                              0               0                 0
      5. Total Nonmarketable, Market-Based                  3,632,883                        (81,320)      3,551,563         3,519,489

   B. Accrued Interest                                       19,893                                      19,893      19,893                   207
   C. Total Intragovernmental Securities                $ 3,652,776                      $ (81,320) $ 3,571,456 $ 3,539,382

 4. Other Investments
    A. Total Other Investments                          $             0                  $           0 $               0            N/A

Other Information

The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked funds.
The cash generated from earmarked funds are deposited in the U.S. Treasury, which uses the cash for general government



                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      purposes. The U.S. Treasury securities are issued to the earmarked funds as evidence of earmarked fund receipts. The
      U.S. Treasury securities are an asset to USACE and a liability to the U.S. Treasury. Because USACE and the U.S. Treasury
      are both parts of the government, these assets and liabilities offset each other from the standpoint of the government as a
      whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial statements. The
      U.S. Treasury securities provide USACE with authority to draw upon the U.S. Treasury to make future benefit payments
      or other expenditures. When USACE requires redemption of these securities, the government finances the securities out
      of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by
      curtailing other expenditures. This is the same way that the government finances all other expenditures.

      The breakdown of total investments among the trust funds is as follows: $3.7 billion in the Harbor Maintenance Trust
      Fund, $204.1 million in the Inland Waterways Trust Fund, and $102.5 million in the South Dakota Terrestrial Wildlife
      Habitat Restoration Trust Fund.

      The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank
      of New York on September 30, 2007.


      Note 5.              Accounts Receivable
       As of September 30                                                          2007                                 2006
       (Amounts in thousands)                                                   Allowance
                                                                               For Estimated       Accounts           Accounts
                                                            Gross Amount Due   Uncollectibles    Receivable, Net    Receivable, Net
       1. Intragovernmental Receivables                      $      873,118                N/A          873,118 $       2,407,555
                                                                                                 $
       2. Nonfederal Receivables (From the Public)           $    1,663,797    $       (5,934)   $   1,657,863 $        1,773,773

       3. Total Accounts Receivable                          $    2,536,915    $       (5,934)   $   2,530,981 $        4,181,328

      Other Information

      The USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages per
      aged category of the cumulative balance of delinquent public receivables. The calculation and financial transaction updates
      are performed automatically in the Corps of Engineers Financial Management System. The Department of Defense does
      not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
      agencies are to be resolved between agencies using the Intragovernmental Business Rules published in the Treasury Financial
      Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.

      The amount of public receivables on the Treasury Report on Receivables Due from the Public (TROR) differs from the
      balance of public receivables reported on the Balance Sheet by the amount of the allowance for uncollectible accounts
      receivable. The TROR, unlike the Balance Sheet, should not include the allowance for estimated uncollectible accounts
      receivable.
208
Aged Accounts Receivable
 As of September 30                                                        2007                        4th Quarter 2006
 (Amounts in thousands)                                      Intragovernmental    Nonfederal    Intragovernmental   Nonfederal
 CATEGORY
 Nondelinquent
   Current                                                   $      854,294 $    69,364 $              739,757 $    71,567
   Noncurrent                                                             0   1,468,864                      0   1,621,941
 Delinquent
   1 to 30 days                                              $         2,544 $         2,370 $         181,164 $         2,931
   31 to 60 days                                                       1,890          94,088           169,359             282
   61 to 90 days                                                          11           2,485                11             147
   91 to 180 days                                                     21,304             272           604,648             334
   181 days to 1 year                                                  8,555           1,594           718,231          15,529
   Greater than 1 year and less than or equal to 2 years              16,880           1,830             1,970          15,857
   Greater than 2 years and less than or equal to
   6 years                                                             3,357            6,528             4,496         43,380
   Greater than 6 years and less than or equal to 10
   years                                                                  6      11,790                     11       7,889
   Greater than 10 years                                                  0       4,612                      0           0
 Subtotal                                                    $      908,841 $ 1,663,797 $            2,419,647 $ 1,779,857
   Less Supported Undistributed                                           0           0                      0           0
   Collections
   Less Eliminations                                                (35,723)          0                (12,092)          0
   Less Other                                                             0           0                      0           0
 Total                                                       $      873,118 $ 1,663,797 $            2,407,555 $ 1,779,857

Nondelinquent Noncurrent Nonfederal Receivables (From the Public)

The $1.5 billion in nondelinquent noncurrent nonfederal receivables consists of amounts due from state and local
municipalities for long-term water storage contracts.

Delinquent Intragovernmental Receivables

The total delinquent intragovernmental accounts receivable is $54.5 million. Of this amount, $44.6 million is due from
the Federal Emergency Management Agency (FEMA), predominately for receivables associated with disaster relief efforts
conducted by USACE New Orleans and Vicksburg districts for hurricanes Katrina and Rita. In FY 2007 and prior, FEMA
required extensive supporting documentation before paying these disaster bills. This requirement for support is labor
intensive, and obtaining support from other federal agencies is difficult, therefore, causing a delay in the payment by FEMA.
The USACE has reduced its FEMA receivables by $1.6 billion since 4th Quarter, FY 2006. The USACE has entered into
a new agreement with FEMA to process collections for disaster relief accounts receivable on a current basis using U.S.
Treasury Intragovernmental Payment and Collection system. Effective in FY 2008, the USACE will no longer be required
to provide supporting documentation before collection can be accomplished. Supporting documentation will be provided               209
to FEMA following the collection. The USACE also has delinquent receivables from the Coast Guard and Environmental
Protection Agency (EPA) totaling $7.4 million. These receivables are primarily for work being conducted under the Oil
Pollution Act of 1990. The Coast Guard and EPA require extensive supporting documentation before paying these bills.
The USACE continues to work with EPA and the Coast Guard to resolve their delinquent receivables and will continue to
provide detailed billing information.

Delinquent Nonfederal Receivables (From the Public)

The amount of delinquent nonfederal receivables is $125.6 million. The USACE has $117.3 million in delinquent



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      receivables for municipal water storage that are currently in litigation, primarily at USACE Jacksonville and Tulsa districts.
      Additionally, $126.7 thousand was referred to the U.S. Treasury offset program, $75.8 thousand was referred to the
      U.S. Treasury for cross servicing, and $8.1 million is being pursued by USACE.


      Note 6.              Other Assets
       As of September 30                                                             2007                          2006
       (Amounts in thousands)
       1. Intragovernmental Other Assets
          A. Advances and Prepayments                                        $                       0    $                          0
          B. Other Assets                                                                            0                               0
          C. Total Intragovernmental Other Assets                            $                       0    $                          0

       2. Nonfederal Other Assets
          A. Outstanding Contract Financing Payments                         $                      0     $                       0
          B. Other Assets (With the Public)                                                       494                       440,839
          C. Total Nonfederal Other Assets                                   $                    494     $                 440,839

       3. Total Other Assets                                                 $                    494     $                 440,839

      Other Information

      Other Assets (With the Public) consists of advances issued to employees for temporary duty and permanent change of
      station travel.


      Note 7.              Cash and Other Monetary Assets
       As of September 30                                                               2007                         2006
       (Amounts in thousands)
       1. Cash                                                                   $                   52       $                 497
       2. Foreign Currency                                                                        1,319                         813
       3. Other Monetary Assets                                                                       0                           0

       4. Total Cash, Foreign Currency, & Other Monetary Assets                  $                1,371       $               1,310

      Other Information

      Cash consists of $48.0 thousand held in the Disbursing Officer’s Accountability for previously issued travel advances
      and $4.0 thousand in change funds for recreation cashiers. Foreign currency consists of Japanese yen, Euro dollars and
      Korean won to process disbursement transactions at Japan, Europe, and Far-East districts. Cash is a nonentity asset and is
      considered a restricted asset that is held by USACE but not available for use in its operations.
210   The USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury Prevailing Rate of Exchange. This rate
      is the most favorable rate that would legally be available to the Federal Government acquisition of foreign currency for its
      official disbursements and accommodation of exchange transactions. There are no significant effects from changes in the
      foreign currency exchange rate. Foreign currency is a nonentity asset and is considered a restricted asset.


      Note 8.              Direct Loan and/or Loan Guarantee Programs
      Not Applicable.


      Summary of Direct Loans and Loan Guarantees
      Not Applicable.
Direct Loans Obligated
Not Applicable.


Total Amount of Direct Loans Disbursed
Not Applicable.


Subsidy Expense for Post FY 1991 Direct Loan
Not Applicable.


Subsidy Rate for Direct Loans by Program
Not Applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY 1991 Direct
Loans
Not Applicable.


Defaulted Guaranteed Loans
Not Applicable.


Guaranteed Loans Outstanding
Not Applicable.


Liabilities for Post FY 1991 Loan Guarantees, Present Value
Not Applicable.


Subsidy Expense for Loan Guarantees by Program
Not Applicable.
                                                                                                              211
Subsidy Rates for Loan Guarantees by Program
Not Applicable.


Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
Guarantees
Not Applicable.




                                             Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Administrative Expenses
      Not Applicable.


      Note 9.              Inventory and Related Property
       As of September 30                                                                2007                            2006
       (Amounts in thousands)
       1. Inventory, Net                                                   $                     15,586      $                      24,259
       2. Operating Materials & Supplies, Net                                                   106,118                             97,081
       3. Stockpile Materials, Net                                                                    0                                  0

       4. Total                                                            $                     121,704     $                      121,340



      Inventory, Net
       As of September 30                                                      2007                                       2006
       (Amounts in thousands)                           Inventory, Gross   Revaluation                                           Valuation
                                                             Value         Allowance        Inventory, Net   Inventory, Net       Method
       1. Inventory Categories
          A. Available and Purchased for Resale  $                  0 $                  0 $           0 $              0         MAC
          B. Held for Repair                                        0                    0             0                0
          C. Excess, Obsolete, and Unserviceable                    0                    0             0                0
          D. Raw Materials                                          0                    0             0                0
          E. Work in Process                                   15,586                    0        15,586           24,259         MAC

         F. Total                                       $      15,586 $                  0 $      15,586 $         24,259

      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
      NRV = Net Realizable Value
      SP = Standard Price
      O = Other
      AC = Actual Cost
      MAC = Moving Average Cost


      Restrictions of Inventory Use, Sale, or Disposition

      There are no restrictions on the use, sale or disposition of Work in Process (WIP) inventory.

      Other Information

      The general composition of the USACE WIP inventory is tangible personal property that is in the process of production.
      The WIP includes associated labor, applied overhead, and supplies used in the delivery of services. The inventory valuation
212   method is based on a moving weighted average based on actual cost divided by quantity. A perpetual record of inventory is
      maintained to allow for recomputation of the average unit cost as new receipts are recorded.

      The inventory data reported on the financial statements is derived from the Corps of Engineers Financial Management
      System (CEFMS). The CEFMS is a comprehensive system that is designed to capture and maintain historical cost data
      necessary to fully comply with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
      Inventory and Related Property.”
Operating Materials and Supplies, Net
 As of September 30                                                      2007                             2006
 (Amounts in thousands)                                 OM&S Gross     Revaluation                                      Valuation
                                                          Value        Allowance         OM&S, Net      OM&S, Net        Method
 1. OM&S Categories
    A. Held for Use                                 $      106,133 $            (15) $      106,118 $        97,081       NRV
    B. Held for Repair                                           0                0               0               0
    C. Excess, Obsolete, and Unserviceable                       0                0               0               0

 D. Total                                           $      106,133 $            (15) $      106,118 $        97,081

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost
MAC = Moving Average Cost


Restrictions of Inventory Use, Sale, or Disposition

There are no restrictions on the use of Operating Materials and Supplies (OM&S).

Other Information

The general composition of USACE OM&S is personal property to be consumed in normal operations. The OM&S
category includes materials used for constructing riverbank stabilization devices, spare and repair parts, miscellaneous
office supplies, and metered mail. The valuation method is based on net realizable value. The relevant cost associated with
maintaining the available operating materials and supplies, as well as the time required to replenish the operating materials
and supplies, are the criteria used in determining the assigned category.


Stockpile Materials, Net
Not Applicable.




                                                                                                                                      213




                                                                     Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 10. General PP&E, Net
          As of September 30                                                               2007                                   2006
          (Amounts in thousands)                       Depreciation/                                (Accumulated
                                                       Amortization     Service       Acquisition   Depreciation/    Net Book   Prior FY Net
                                                         Method          Life           Value        Amortization)    Value     Book Value
          1. Major Asset Classes
            A. Land                                        N/A           N/A      $  8,895,929            N/A $ 8,895,929 $ 8,914,787
            B. Buildings, Structures, and Facilities       S/L         20 - 100     27,940,486 $ (13,433,975)   14,506,511   14,327,074
            C. Leasehold Improvements                      S/L         lease term       38,442        (28,634)       9,808       13,400
            D. Software                                    S/L          2-5 Or 10       84,093        (67,099)      16,994       25,496
            E. General Equipment                           S/L           May-50      1,372,669      (689,859)      682,810      658,023
            F. Military Equipment                          S/L           Various             0               0           0            0
            G. Assets Under Capital Lease                  S/L         lease term            0               0           0            0
            H. Construction-in- Progress                   N/A             N/A       2,531,732            N/A    2,531,732    2,849,493
            I. Other                                                                    27,508              (1)     27,507       33,689
            J. Total General PP&E                                                 $ 40,890,859 $ (14,219,568) $ 26,671,291 $ 26,821,962

      1
          Note 15 for additional information on Capital Leases
      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable


      General PP&E

      In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE
      implemented a new reporting procedure in 1st Quarter, FY 2007, to exclude transfer appropriation accounts for parent/
      child relationships. The circular requires the parent agency, vice the child, report all financial activity in its financial
      statements. The USACE has removed the transfer appropriation accounts from its financial statements. This resulted in a
      decrease of $395.5 million in USACE’s Property, Plant, and Equipment (PP&E), which includes: $40.3 million in land and
      land rights; $196.3 million in construction-in-progress (CIP); $5.3 million in buildings, improvements, and renovations;
      $152.0 million in other structures and facilities; and $1.6 million in equipment.

      The service life for USACE’s multiple purpose project assets is derived from guidance provided by the Federal Energy
      Regulatory Commission based on industry standards. The hydropower project related assets make up $7.6 billion of the
      book value of USACE’s PP&E. The USACE currently operates and maintains 75 hydroelectric power plants, generating
      approximately 24% of America’s hydroelectric power. All power generated by these hydroelectric power plants is
      transmitted to four Power Marketing Administrations for distribution to power companies across the United States.

      In USACE’s FY 2007 CIP account, $151.0 million of the $2.5 billion (6%) is attributable to a dormant project formally
      known as the “Elk Creek Lake Project” located at USACE Portland district. The project, which was authorized by the
      1962 Flood Control Act, was originally authorized for the purpose of flood control. In 1971, construction began on the
      project but after completing only 33% of its design height, the project was shut down due to a court-ordered injunction.
214
      Additional analysis under the National Environmental Policy Act is required to remove the injunction. To date, the
      environmental concerns have not been resolved and the project is in a hold status until such time these issues are resolved.
      Therefore, USACE will continue to carry the construction costs of the “Elk Creek Lake Project” in the CIP account until a
      final decision is made concerning the outcome of the project.

      The USACE civil works program has $126.5 million in General PP&E outside the continental U.S. in the Pacific Ocean
      division. There are no restrictions on the use or convertibility of this PP&E.

      Other consists of assets awaiting disposal.
Heritage Assets and Stewardship Land

Heritage assets are not material to the mission of USACE.

On October 30, 2003, Engineer Regulation (ER) 200-1-5, Policy for Implementation and Integrated Application of
the USACE Environmental Operating Principles and Doctrine, was issued. The ER states, in part, “The Environmental
Operating Principles and associated doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation,
stewardship, and restoration of our nation’s resources. These principles and associated doctrine are based on the premise
that through the restoration and maintenance of environmental health and productivity, both economic development and
social equity can be achieved.”

Heritage assets classified as land are special land plots containing archaeological sites as listed on the National Register of
Historic Places or determined eligible to be listed by the agency and the Keeper of the National Register. Cemeteries
and archeological sites are archeological properties listed on, or eligible for, the National Register of Historic Places.
These archeological assets cover almost the entire range of human occupation of the continental U.S., beginning with
the Kennewick Man Discovery Site in the state of Washington, dating to approximately 10,000 years before present,
to archeological remains of early European-American settlements such as Fort Independence in Georgia. The current
National Register inventory for USACE includes 489 archeological properties determined to be eligible for listing and
97 archeological properties listed.

Buildings and structures include a range of historic resources from a covered bridge in Sacramento district to early farming
structures in Savannah district. It also includes some nontraditional structures such as a snag boat that operated on the
Mississippi River. The USACE has 117 buildings and structures listed on the National Register and 236 determined eligible
for listing.

The USACE acquired no heritage assets during FY 2007.

The USACE currently does not have any land classified as stewardship land.


Assets Under Capital Lease
Not Applicable.




                                                                                                                                     215




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                                                    2007                       2006
       (Amounts in thousands)
       1. Intragovernmental Liabilities
          A. Accounts Payable                                                       $                    0     $                    0
          B. Debt                                                                                   12,917                     13,592
          C. Other                                                                               1,844,756                  1,961,767
          D. Total Intragovernmental Liabilities                                    $            1,857,673     $            1,975,359

       2. Nonfederal Liabilities
          A. Accounts Payable                                                       $                     0    $                     0
          B. Military Retirement and Other Federal Employment Benefits                              251,584                    250,272
          C. Environmental Liabilities                                                              626,773                    653,315
          D. Other Liabilities                                                                       61,000                     77,275
          E. Total Nonfederal Liabilities                                           $               939,357    $               980,862

       3. Total Liabilities Not Covered by Budgetary Resources                      $            2,797,030     $            2,956,221

       4. Total Liabilities Covered by Budgetary Resources                          $            1,369,662     $            1,238,605

       5. Total Liabilities                                                         $            4,166,692     $            4,194,826

      Other Information

      Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before budgetary
      resources can be provided.

      Intragovernmental Liabilities – Debt is comprised of the amount owed by USACE to the U.S. Treasury for capital
      improvements to the Washington Aqueduct. Arlington County, Virginia, and the city of Falls Church, Virginia, provide
      funding to USACE to repay the debt. Refer to Note 13, “Debt,” for additional details and disclosures.

      Intragovernmental Liabilities – Other includes offsetting custodial liability to accounts receivable. The custodial liability
      is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and are primarily related to
      water storage contracts. Budgetary resources are not required for custodial liabilities.

      Nonfederal Liabilities – Military Retirement and Other Federal Employment Benefits include actuarial liability for Federal
      Employee Compensation Act (FECA). Refer to Note 17, “Military Retirement Benefits/Actuarial Liabilities,” for additional
      details and disclosures. The FECA actuarial liability is a future funded expense and will be funded in future appropriations.

      Nonfederal Liabilities - Environmental Liabilities include future funded expense for estimated cleanup costs for contingent
      environmental liabilities. The liabilities will be funded in future appropriations. Refer to Note 14, “Environmental
216   Liabilities,” and Note 15, “Other Liabilities,” for additional details and disclosures.

      Nonfederal Liabilities – Other Liabilities include contingent liability for probable losses related to lawsuits filed by the state
      of Nebraska and the county of Knox, Nebraska, and contingent liability based on percentage of tort, litigation and contract
      dispute claims. Contingent liabilities may be funded in future appropriations.
Note 12. Accounts Payable
 As of September 30                                                                      2007                                           2006
 (Amounts in thousands)                                                          Interest, Penalties, and
                                                             Accounts Payable      Administrative Fees                Total             Total
 1. Intragovernmental Payables                               $       131,567     $                  N/A $              131,567      $    93,841
 2. Nonfederal Payables (to the Public)                              594,790                          0                594,790          442,199

 3. Total                                                    $       726,357     $                     0 $             726,357      $ 536,040

Other Information

Intragovernmental Payables consist of amounts owed to other federal agencies for goods or services ordered and received,
but not yet paid. Interest, penalties, and administrative fees are not applicable to intragovernmental payables.

The USACE has no known delinquent accounts payable; therefore, no amount is reported for interest, penalties, and administrative fees.


Note 13. Debt
 As of September 30                                                          2007                                          2006
 (Amounts in thousands)                                  Beginning             Net               Ending              Net        Ending
                                                          Balance           Borrowing            Balance          Borrowing     Balance
 1. Agency Debt (Intragovernmental)
   A. Debt to the Treasury                           $        13,924    $        (1,007)     $     12,917         $           (676) $     13,924
   B. Debt to the Federal Financing Bank                           0                  0                 0                        0             0
   C. Total Agency Debt                              $        13,924    $        (1,007)     $     12,917         $           (676) $     13,924

 2. Total Debt                                       $        13,924    $        (1,007)     $     12,917         $           (676) $     13,924

Other Information

The outstanding debt consists of interest and principal payments due to the U.S. Treasury. The USACE borrowed funds
for capital improvements to the Washington Aqueduct. During fiscal years 1997, 1998, and 1999, USACE executed three
promissory notes totaling $75.0 million with the U.S. Treasury. The USACE entered into agreements with the District
of Columbia, Arlington County, Virginia, and the city of Falls Church, Virginia, to provide funding to USACE to repay the
debt. As of 2nd Quarter, FY 2004, the District of Columbia had provided its entire portion of the funding to USACE. The
remaining debt balance is scheduled to be paid off in FY 2023. Actual cumulative amount of funds borrowed from the U.S.
Treasury is $74.9 million. There were no withdrawals from the U.S. Treasury for FY 2007. Total principal repayments in
FY 2007 were $675.0 thousand and the remaining capitalized interest of
$332.0 thousand was paid 2nd Quarter, FY 2007.

                                Debt Balance                                               (Amount in millions)
                                                                                                                                                   217
                                Withdrawals from U.S. Treasury                                          $74.9
                                Cumulative principal repayments                                       ($62.0)
                                Balance of debt as of September 30, 2007                                $12.9




                                                                         Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 14. Environmental Liabilities and Disposal Liabilities
       As of September 30                                                                              2007                              2006
       (Amounts in thousands)                                                       Current         Noncurrent
                                                                                    Liability        Liability          Total            Total
       1. Environmental Liabilities--Nonfederal
       A. Accrued Environmental Restoration Liabilities
          1. Active Installations—Installation Restoration Program (IRP)
             and Building Demolition and Debris Removal (BD/DR)          $                      0 $              0 $             0 $              0
             2. Active Installations—Military Munitions Response Program
                (MMRP)                                                                          0                0               0                0
             3. Formerly Used Defense Sites—IRP and BD/DR                                       0                0               0                0
             4. Formerly Used Defense Sites--MMRP                                               0                0               0                0

         B. Other Accrued Environmental Liabilities—Active Installations
           1. Environmental Corrective Action                                              0                0                 0               0
           2. Environmental Closure Requirements                                           0                0                 0               0
           3. Environmental Response at Operational Ranges                                 0                0                 0               0
           4. Other                                                                  139,781          486,992           626,773         653,315

         C. Base Realignment and Closure (BRAC)
           1. Installation Restoration Program                                                  0                0               0                0
           2. Military Munitions Response Program                                               0                0               0                0
           3. Environmental Corrective Action / Closure Requirements                            0                0               0                0
           4. Other                                                                             0                0               0                0

         D. Environmental Disposal for Weapons Systems Programs
           1. Nuclear Powered Aircraft Carriers                                                 0                0               0                0
           2. Nuclear Powered Submarines                                                        0                0               0                0
           3. Other Nuclear Powered Ships                                                       0                0               0                0
           4. Other National Defense Weapons Systems                                            0                0               0                0
           5. Chemical Weapons Disposal Program                                                 0                0               0                0
           6. Other                                                                             0                0               0                0

       2. Total Environmental Liabilities                                         $ 139,781 $ 486,992 $ 626,773 $ 653,315


       Others Category Disclosure Comparative Table
       (Amounts in thousands)                                                                               (Current FY)             (Prior FY)
       Other Accrued Environmental Active Installations-Other
       Formerly Utilized Sites Remedial Action Program, which was established to respond to                      $622,377.0           $653,315.0
       radiological contamination from early U.S. Atomic Energy and Weapons Program.


       Sonoma Firing Range and Underground Storage Tank Monitoring Wells, Mount Morris Dam,                          $ 4,396.0               $0.0
       Bradford Island Landfill, John H. Kerr Dam and Reservoir, Missouri River Project, and J. Strom
       Thurmond Project.
218
       Total                                                                                                     $626,773.0           $653,315.0


      Other Information

      The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was established
      to respond to radiological contamination from early U.S. Atomic Energy and Weapons Program. This program is funded
      through a Civil Works appropriation. The amount of the liability is determined after studies have been completed and final
      Records of Decision documenting the cleanup requirements are prepared. The amount of the liability is recorded as Other
      Accrued Environmental Liabilities.

      The USACE recognizes current and noncurrent environmental liabilities for FUSRAP in the amount of $622.4 million at
      the following project sites: St. Louis Downtown Site Accessible Soils; St. Louis Airport Site; Latty Avenue Properties Site;
St. Louis Airport Vicinity Properties Site; Maywood Site Soils; Middlesex Sampling Plant Soils, Shpack Landfill Site; W. R.
Grace Building 23 Site; Colonie Interim Storage Site Soils; Luckey Site Soils; Linde Air Products Site Soils; Painesville Site;
Ashland Site; St. Louis Downtown Site Inaccessible Soils; Iowa Army Ammunition Plant FUSRAP Site; Colonie Interim
Storage Site Groundwater; Maywood Site Groundwater; Middlesex Sampling Plant Site Groundwater; Combustion
Engineering Site; DuPont Chambers Works Site; W. R. Grace Radioactive Waste Disposal Area Site; Sylvania-Corning Plant
Site; Linde Air Products Site Groundwater; Luckey Site Groundwater; Seaway Industrial Park Site Shallow Land Disposal
Area Site; Former Harshaw Chemical Company Site; Guterl Specialty Steel Site; and Niagara Falls Interim Storage Site.

The USACE recognizes contingent environmental liabilities related to FUSRAP, but the liability amounts are currently
unknown. The project sites are: St. Louis Downtown Site Inaccessible Soils; Iowa Army Ammunition Plant FUSRAP Site;
Middlesex Sampling Plant Site Groundwater; Combustion Engineering Site; DuPont Chambers Works Site; W. R. Grace
Radioactive Waste Disposal Area Site; Seaway Industrial Park Site; Niagara Falls Storage Site; Former Harshaw Chemical
Company Site; Guterl Specialty Steel Site; Colonie Interim Storage Site Groundwater; Josyln Manufacturing; Scioto
Laboratory and Superior Steel Site.

The USACE recognizes other environmental liabilities not related to FUSRAP in the amount of
$4.4 million. The project sites are: Sonoma Firing Range and Sonoma Underground Storage Tanks Monitoring Wells in
Sonoma, California; Mount Morris Dam in New York; Bradford Island Landfill in Oregon; John H. Kerr Dam and Reservoir
in Virginia; Missouri River Project in Nebraska; and J. Strom Thurmond Project in Georgia.


Environmental Disclosures
Applicable laws and regulations for cleanup requirements: Energy and Water Development Appropriations Act, Public Law
106-60 § 611; Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA), 42 United States
Code § 9601 et seq., as amended; and National Oil and Hazardous Substances Pollution Contingency Plan, Title 40 Code of
Federal Regulations 300. There are no changes to total cleanup costs due to changes in laws, regulations and/or technology
related to the current or prior periods. Consistent with the requirements of CERCLA, USACE coordinates with regulatory
agencies, other responsible parties, and current property owners.

The USACE uses site-specific engineering estimates for assigning estimated environmental costs. Both the cost to complete
remedial investigation/feasibility studies through a Record of Decision and the estimated cost of chosen remedies are
reported. Engineering estimates, using appropriate tools, such as the Micro-Computer Assisted Cost Estimating System,
and using the extensive data collected during the remedial investigation/feasibility study phase of the environmental project
are used. The estimated costs of studies are reported during the early part of the remedial investigation and the estimated
cost of the chosen remedy is reported after release of the Proposed Plan.

The USACE is not aware of any pending changes due to inflation, deflation, technology and/or pending changes to
applicable laws and/or regulations. The liabilities can change in the future due to changes in laws and regulations, changes
in agreements with regulatory agencies, and advances in technology.

The volume of contaminated material and the cost to dispose of such material, including transportation, are the elements of
project estimates with the greatest uncertainty and potential for significant effect upon project costs.                            219

The USACE Civil Works Program has no potential to incur costs for restoration initiatives in conjunction with returning
overseas Defense facilities to host nations.




                                                                   Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 15. Other Liabilities
       As of September 30                                                                  2007                              2006
       (Amounts in thousands)                                   Current Liability   Noncurrent Liability       Total         Total
       1. Intragovernmental
         A. Advances from Others                                $      26,768 $                    0       $      26,768 $       9,835
         B. Deposit Funds and Suspense Account Liabilities              2,313                      0               2,313         1,648
         C. Disbursing Officer Cash                                        48                      0                  48           493
         D. Judgment Fund Liabilities                                 167,410                      0             167,410       164,221
         E. FECA Reimbursement to the Department of Labor              20,660                 26,335              46,995        47,746
         F. Other Liabilities                                         127,283              1,516,995           1,644,278     1,763,630

         G. Total Intragovernmental Other Liabilities           $     344,482 $            1,543,330       $   1,887,812 $   1,987,573

       2. Nonfederal
         A. Accrued Funded Payroll and Benefits                 $     399,215 $                       0    $    399,215 $     380,917
         B. Advances from Others                                      111,813                         0         111,813       132,360
         C. Deferred Credits                                                0                         0               0             0
         D. Deposit Funds and Suspense Accounts                         7,596                         0           7,596         6,978
         E. Temporary Early Retirement Authority                            0                         0               0             0
         F. Nonenvironmental Disposal Liabilities
            (1) Military Equipment (Nonnuclear)                             0                         0               0             0
            (2) Excess/Obsolete Structures                                  0                         0               0             0
            (3) Conventional Munitions Disposal                             0                         0               0             0
         G. Accrued Unfunded Annual Leave                                   0                         0               0             0
         H. Capital Lease Liability                                         0                         0               0             0
         I. Other Liabilities                                         142,322                         0         142,322       233,144

         J. Total Nonfederal Other Liabilities                  $     660,946 $                       0    $    660,946 $     753,399

       3. Total Other Liabilities                               $ 1,005,428 $              1,543,330       $   2,548,758 $   2,740,972

      Other Information

      Intragovernmental Other Liabilities (current) includes the custodial liability to offset interest and accounts receivable
      that, when collected, will be deposited in the U.S. Treasury, and the liability for employer contributions and payroll
      taxes payable. Intragovernmental Other Liabilities (noncurrent) represent future revenue from long-term water storage
      contracts and hydraulic mining contracts. The USACE records a custodial liability for receivables from water storage and
      hydraulic mining contracts.

      Nonfederal Other Liabilities includes contract holdbacks on construction-in-progress payments and unfunded contingent
      liabilities for probable losses for contract claims, civil litigation, and tort claims.

220   Judgment Fund Liabilities. The USACE Civil Works Directorate has recognized 38 unfunded liabilities arising from
      Judgment Fund Contract Disputes Act (CDA) settlements in accordance with the Interpretation of Federal Financial
      Accounting Standards No. 2, “Accounting for Treasury Judgment Fund Transactions.” The USACE cannot fund the
      CDA claims since it is funded for projects and does not include an allowance for this type of claim. The USACE sought
      supplemental appropriations for payment of CDA claims in FY 2000 and FY 2006 that were not approved. The FY 2007
      budget does not provide funding for payment of the CDA claims. The U.S. Government Accountability Office is currently
      reviewing the status of the outstanding CDA claims and should provide recommendations regarding the payment or other
      treatment of these claims.


      Capital Lease Liability
      Not Applicable.
Note 16. Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:

The USACE is a party in various administrative proceedings and legal actions, with claims including environmental damage
claims, equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities for legal
actions where USACE Office of the General Counsel (OGC) considers an adverse decision probable and the amount of loss
is measurable. In the event of an adverse judgment against the Government, some of the liabilities may be payable from
the Judgment Fund. The USACE reports Judgment Fund liabilities in Note 15, “Other Liabilities” and Note 12, “Accounts
Payable.”

The USACE has 29 legal cases above the materiality threshold of $7.2 million and OGC has determined that 11 cases are
undeterminable, 9 are remote, 2 are probable, and 7 cases are reasonably possible. The USACE management treated the 11
cases that OCG was not able to determine as reasonably possible. The total amount of these 11 claims is $330.0 million and
the potential loss is not determinable.

The USACE also has a total of $260.0 million in pending contract claims, civil litigation, and tort cases primarily as a
result of damage claims that are individually under the threshold of $7.2 million. As such, the likelihood of an unfavorable
outcome or potential liability is provided as an overall assessment of all cases currently pending and not on an individual
basis (as with the over-threshold cases). The likelihood of an unfavorable or potential liability was determined by using a
three-year historical average. The total dollar amount of the cases closed was divided by the total dollar amount claimed
in those closed cases for each of the last three years that were then used to calculate the three year average of 10%. The
merits of each individual case have not been taken into consideration. Based on the 10% average, a contingent liability was
recorded. Refer to Note 15, “Other Liabilities,” for disclosure of contingent liabilities.

The amounts disclosed for litigations, claims, and assessments are fully supportable and agree with USACE’s legal
representation letters and management summary schedule.

The USACE Civil Works Program does not have undelivered orders for open contracts citing cancelled appropriations that
may remain unfilled or unreconciled and for which the reporting entity may incur a contractual commitment for payment.

The USACE is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, USACE does not have a
systemic process by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may
not fairly present USACE’s contingent liabilities.

The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was established to
respond to radiological contamination from the early U.S. Atomic Energy and Weapons Program. The FUSRAP program
is funded through a Civil Works appropriation. The USACE recognizes liabilities related to this program but the liability
amounts are currently unknown. Refer to Note 14, “Environmental Liabilities and Disposal Liabilities,” for disclosure of
contingent environmental liabilities related to FUSRAP. Since these cases fail to satisfy the criteria to record a contingent      221
liability in accordance with the Statement of Federal Financial Accounting Standard No. 5, “Accounting for Liabilities of the
Federal Government,” no amount is included in the financial statements.




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 17. Military Retirement and Other Federal Employment
               Benefits
       As of September 30                                                                       2007                                 2006
       (Amounts in thousands)                                                        Assumed     (Less: Assets
                                                                       Present Value Interest     Available to    Unfunded       Present Value
                                                                        of Benefits  Rate (%)    Pay Benefits)     Liability      of Benefits
       1. Pension and Health Actuarial Benefits
          A. Military Retirement Pensions                              $         0              $           0 $                0 $          0
          B. Military Retirement Health Benefits                                 0                          0                  0            0
          C. Military Medicare-Eligible Retiree Benefits                         0                          0                  0            0
          D. Total Pension and Health Actuarial Benefits               $         0              $           0 $                0 $          0

       2. Other Actuarial Benefits
          A. FECA                                                      $ 251,584       4.93 $               0 $ 251,584 $ 250,272
          B. Voluntary Separation Incentive Programs                           0                            0         0         0
          C. DoD Education Benefits Fund                                       0                            0         0         0
          D. Total Other Actuarial Benefits                            $ 251,584                $           0 $ 251,584 $ 250,272

       3. Other Federal Employment Benefits                            $      303               $      (303) $                 0 $       303

       4. Total Military Retirement and Other Federal
          Employment Benefits:                                         $ 251,887                $      (303) $ 251,584 $ 250,575

      Federal Employees Compensation Act (FECA)

      Actuarial Cost Method Used and Assumptions: The Department of the Army (DA) actuarial liability for workers’
      compensation benefits is developed by the Department of Labor (DOL) and provided to the DA at the end of each fiscal
      year. The liability for future workers’ compensation benefits includes the expected liability for death, disability, medical and
      miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability
      is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict
      the ultimate payments related to that period. Consistent with past practice, these projected annual benefit payments have
      been discounted to present value using the Office of Management and Budget’s economic assumptions for 10-year U.S.
      Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

      FY 2007
      4.930 % in Year 1
      5.078 % in Year 2 and thereafter

      To provide specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation
      factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or CPIMs) were
      applied to the calculation of projected future benefits. The actual rates for these factors for the charge back year (CBY)
      2007 were also used to adjust the methodology’s historical payments to current year constant dollars.
222

      The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

      CBY            COLA         CPIM
      2007           2.63%        3.74%
      2008           2.90%        4.04%
      2009           2.47%        4.00%
      2010           2.37%        3.94%
      2011+          2.30%        3.94%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was based on
      four tests: (1) a sensitive analysis of the model to economic assumptions, (2) a comparison of the percentage change in
the liability amount by agency to the percentage change in the actual incremental payments; (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2007 to the average pattern observed during the most
current three CBYs; and (4) a comparison of the estimated liability-per-case in the 2007 projection to the average pattern
for the projections of the most recent three years.

Other Disclosures

The estimated actuarial liability is calculated at the end of each fiscal year. The USACE actuarial liability increased $1.3
million since the previous calculation at the end of FY 2006.

Other Federal Employment Benefits consist of accrued civilian severance pay.


Note 18. General Disclosures Related to the Statement of Net
         Cost
 As of September 30                                                       2007                               2006
 (Amounts in thousands)
 1. Intragovernmental Costs                                 $                     1,147,526     $                    1,336,192
 2. Public Costs                                                                  8,082,853                          9,860,164
 3. Total Costs                                             $                     9,230,379     $                   11,196,356

 4. Intragovernmental Earned Revenue                        $                    (2,464,498)    $                   (4,593,977)
 5. Public Earned Revenue                                                          (274,805)                          (510,951)
 6. Total Earned Revenue                                    $                    (2,739,303)    $                   (5,104,928)

 7. Net Cost of Operations                                  $                     6,491,076     $                    6,091,428

Other Information

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
Government. Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
entity.

The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost
of programs and/or organizations that the Federal Government supports through appropriations or other means. This
statement provides gross and net cost information that can be related to the amount of output or outcome for a given
program and/or organization administered by a responsible reporting entity.

The SNC is based on general ledger financial data reported from the Corps of Engineers Financial Management System.
The USACE records transactions on an accrual basis as required by the Statements of Federal Financial Accounting
Standards and generally accepted accounting principles.                                                                              223

There are no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets or
acquiring stewardship land.




                                                                    Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Note 19. Disclosures Related to the Statement of Changes in Net
               Position
       As of September 30                                                                      2007                             2006
       (Amounts in thousands)                                                     Cumulative                       Cumulative
                                                                                  Results of       Unexpended      Results of       Unexpended
                                                                                  Operations      Appropriations   Operations      Appropriations
       1. Prior Period Adjustments Increases (Decreases) to Net
          Position Beginning Balance

         A. Changes in Accounting Standards                                   $ (450,381) $ (35,335) $                          0 $            0
         B. Errors and Omissions in Prior Year Accounting Reports                      0          0                             0              0

         C. Total Prior Period Adjustments                                    $ (450,381) $ (35,335) $                          0 $            0

       2. Imputed Financing
          A. Civilian CSRS/FERS Retirement                                    $     86,981 $                  0 $  92,355 $                    0
          B. Civilian Health                                                       145,685                    0   139,010                      0
          C. Civilian Life Insurance                                                   405                    0       402                      0
          D. Judgment Fund                                                           4,442                    0    29,857                      0
          E. IntraEntity                                                                 0                    0         0                      0

         F. Total Imputed Financing                                           $    237,513 $                  0 $ 261,624 $                    0

      Abnormal Balance

      Budgetary financing sources – non exchange revenue for other fund types has an abnormal balance of $239.0 thousand due
      to the reversal of a prior year transaction in 1st Quarter, FY 2007.

      Other Information

      Prior Period Adjustments: Changes in Accounting Principles. In accordance with Office of Management and Budget
      (OMB), Circular A-136, “Financial Reporting Requirements,” USACE implemented a new reporting procedure in 1st
      Quarter, FY 2007, to exclude transfer appropriation accounts for parent/child relationships. The circular requires the
      parent agency, vice the child, report all financial activity in its financial statements. The USACE has removed the transfer
      appropriation accounts from its financial statements. Therefore, USACE recognized a prior period adjustment of $485.7
      million that is equal to the results of operations for $450.4 million and unexpended appropriations for $35.3 million for the
      period ending September 30, 2006, for the transfer appropriations.

      Appropriations received on the Statement of Budgetary Resources (SBR) do not agree with appropriations received on the
      Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary accounting concepts
      and reporting requirements. The difference is due to additional resources of $1.6 billion in appropriated trust, contributed,
      and special fund receipts included in Appropriations on the SBR. These funds do not update the proprietary appropriations
224
      received amount reported on the SCNP. Refer to Note 20, “Statement of Budgetary Resources,” for additional disclosures
      and details.

      In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues and expenses) for intradepartment activity
      between earmarked and other (non-earmarked) funds are reported on the same lines. This results in an eliminations
      column, which appears to contain no balances. In reality, the column contains all appropriate elimination entries, but all
      net to zero within each respective line, except for intraentity imputed financing costs.

      Cumulative Results of Operations – Earmarked Funds ending balance on the SCNP does not agree with the Cumulative
      Results of Operations – Earmarked Funds reported on the Balance Sheet because the cumulative results on the Balance
      Sheet are presented net of eliminations.
Note 20. Disclosures Related to the Statement of Budgetary
         Resources
 As of September 30                                                                    2007                    2006
 (Amounts in thousands)


 1. Net Amount of Budgetary Resources Obligated for Undelivered
    Orders at the End of the Period                                             $        4,361,099 $              3,985,839

 2. Available Borrowing and Contract Authority at the End of the Period                            0                         0

Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute
budgetary resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not
subject to apportionment because they are not appropriated funds. Funding sources for exempt category comes from
sources outside the Federal Government.

The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A in the
Statement of Budgetary Resources (SBR) includes: $6.9 billion for direct obligations; $37.9 million for direct obligations
exempt from apportionment; and $8.5 billion for reimbursable obligations. The USACE did not report any reimbursable
obligations exempt from apportionment. The USACE has no apportionments under Category B. Undelivered orders
presented in the SBR include undelivered orders-unpaid for both direct and reimbursable funds.

Intraentity transactions have not been eliminated because the statements are presented as combined.

Borrowing authority used consists of amounts withdrawn from the U.S. Treasury. The USACE borrowed funds for capital
improvements to the Washington Aqueduct during fiscal years 1997, 1998, and 1999. USACE executed three promissory
notes totaling $75.0 million with the U.S. Treasury. All borrowing from the U.S. Treasury was completed in 1999. The
USACE entered into agreements with the District of Columbia, Arlington County, Virginia, and the city of Falls Church,
Virginia, to provide funding to USACE to repay the loan. As of 2nd Quarter, FY 2004, the District of Columbia had
provided its entire portion of the funding to USACE. The remaining balance is scheduled to be paid off by FY 2023. Total
principal repayments in FY 2007 were $675.0 thousand and the remaining capitalized interest of $332.0 thousand was paid
in 2nd Quarter, FY 2007.

Permanent Indefinite Appropriations. The USACE receives receipts from hydraulic mining in California; leases of land
acquired for flood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of
navigable water, including maintenance and operation of dams. These funds are available for expenditure.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

Appropriations on the SBR do not agree with appropriations received on the Statement of Changes in Net Position (SCNP)            225
due to differences between proprietary and budgetary accounting concepts and reporting requirements. The difference of
$1.6 billion includes: appropriated trust funds in the amount of $1.2 billion, and contributed and special fund receipts in
the amount of $456.2 million. These funds do not update the proprietary appropriations received amount reported on the
SCNP.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133).
Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the SF133. This money is
not from appropriated funds and is not included in the Office of Management and Budget’s data. The USACE does include
this appropriation in the SBR.



                                                                 Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      The President’s Budget with actual figures for FY 2007 was not published as of the date of this report. The FY 2009
      President’s Budget will include actual figures for FY 2007 reporting. The FY 2009 President’s Budget can be found at:
      http://www.whitehouse.gov/omb, early in FY 2008. The following chart is a reconciliation of the FY 2008 President’s
      Budget actual figures for FY 2006 to FY 2006 SBR as required by the Office and Management Budget (OMB) Circular A-
      136, paragraph 11.4.10.34.

                                                          Department of Defense
                                               U.S. Army Corps of Engineers - Civil Works
                                     Reconciliation of 2006 Year End SBR to 2008 President’s Budget

                                                                 (in millions of dollars)


                      Budgetary       Obligations   Offsetting        Net
                      Resources        Incurred      Receipts       Outlays
                      Line 23.90      Line 23.95    Line 02.99     Line 90.00                  Explanation for reconciling differences
       SBR                 27,771         18,403        1,907             5,534
       Reconciling            (48)           (36)                               7    The SBR includes Treasury symbol 96X6094 for advances
       Difference                                                                    from the District of Columbia for work on the Washington
                                                                                     Aqueduct. It is not included in the President’s Budget
                                                                                     since these are not appropriated funds.
       Reconciling             43             43                                     Transfer funds are not included in OMB’s data. Prior to
       Difference                                                                    2nd Quarter FY 2006, USACE recorded transfer funds
                                                                                     in the financial statements. Per OMB Circular A-136,
                                                                                     the parent agency should report the budgetary activity
                                                                                     for allocation transfers. The child, USACE, shall report
                                                                                     the activity relating to the allocation in all of its financial
                                                                                     statements, except the SBR. Beginning 2nd Quarter FY
                                                                                     2006, adjustments were made to zero out the balances
                                                                                     in the budgetary accounts imported from the CEFMS
                                                                                     trial balances except for the amount needed in SGL 4175
                                                                                     to close out SGL 4201. There was residual activity on
                                                                                     the SBR from beginning balances in undelivered orders,
                                                                                     delivered orders-unpaid, and allocations to be transferred.
       Reconciling                                                        1,907      The SBR reduces net outlays by the amount of distributed
       Difference                                                                    offsetting receipts. The President’s Budget Line Item 90.00
                                                                                     does not.
       Reconciling                                        (75)                       General funds suspense accounts are included as
       Difference                                                                    distributed offsetting receipts in accordance with Defense,
                                                                                     Finance, and Accounting Service guidance. It is not
                                                                                     included in the President’s Budget amount.
       Reconciling             (5)                                                   Appropriation 96X3123 includes budget authority from the
       Difference                                                                    Department of Energy. It is not included in the President’s
                                                                                     Budget.
       Reconciling                                         10                        The President’s Budget includes payment from the general
       Difference                                                                    fund, South Dakota Terrestrial Wildlife Habitat Restoration
                                                                                     trust fund. The SBR does not include this.
       Reconciling                                         24                        The Bureau of Public Debt reports interest on investments
       Difference                                                                    on the accrual basis. This includes interest collected,
                                                                                     premium paid, and accrued interest purchased. The
226                                                                                  President’s Budget includes the accrual amount. The SBR
                                                                                     includes only the actual interest and tax revenue.
       Reconciling                                           8                       Per Treasury Financial Manual, Federal Account Symbols
       Difference                                                                    and Titles, receipt account 96R5125 is not a distributed
                                                                                     offsetting receipt account and is not included in the SBR
                                                                                     as a distributed offsetting receipt. It is included in the
                                                                                     President’s Budget amount.
       Total               27,761         18,410        1,874             7,448
       President’s         27,760         18,409        1,873             7,448
       Budget
       Difference              (1)            (1)          (1)                  0    Due to rounding.
Note 21. Reconciliation of Net Cost of Operations to Budget
As of September 30                                                                            2007                2006
(Amounts in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
   1. Obligations incurred                                                               $     15,403,747     $    18,403,011
   2. Less: Spending authority from offsetting collections and recoveries (-)                  (8,112,277)        (10,400,937)
   3. Obligations net of offsetting collections and recoveries                           $      7,291,470     $      8,002,074
   4. Less: Offsetting receipts (-)                                                              (521,925)          (1,906,618)
   5. Net obligations                                                                    $      6,769,545     $      6,095,456
Other Resources:
   6. Donations and forfeitures of property                                                        11,105               19,888
   7. Transfers in/out without reimbursement (+/-)                                                 23,539                  186
   8. Imputed financing from costs absorbed by others                                             237,513              261,624
   9. Other (+/-)                                                                                       0                    0
  10. Net other resources used to finance activities                                     $        272,157     $        281,698
  11. Total resources used to finance activities                                         $      7,041,702     $      6,377,154
Resources Used to Finance Items not Part of the Net Cost of Operations:
  12. Change in budgetary resources obligated for goods, services and benefits ordered
       but not yet provided:
    12a. Undelivered Orders (-)                                                          $       (427,836)    $     (1,566,815)
    12b. Unfilled Customer Orders                                                                (784,515)            (696,847)
  13. Resources that fund expenses recognized in prior Periods (-)                                 (45,160)             (23,032)
  14. Budgetary offsetting collections and receipts that do not affect Net Cost of
       Operations                                                                                 521,925            1,906,618
  15. Resources that finance the acquisition of assets (-)                                        (13,473)              (7,078)
  16. Other resources or adjustments to net obligated resources that do not affect Net
       Cost of Operations:
    16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
           Budget (-)                                                                              (10,000)             (10,000)
    16b. Other (+/-)                                                                               (34,644)             (20,075)
  17. Total resources used to finance items not part of the Net Cost of Operations       $       (793,703)    $       (417,229)
  18. Total resources used to finance the Net Cost of Operations                         $      6,247,999     $      5,959,925
Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
  19. Increase in annual leave liability                                                 $              0     $              0
  20. Increase in environmental and disposal liability                                              4,396              123,698
  21. Upward/Downward reestimates of credit subsidy expense (+/-)                                       0                    0
  22. Increase in exchange revenue receivable from the public (-)                                  (6,059)             (16,838)
  23. Other (+/-)                                                                                   1,697              326,995
  24. Total components of Net Cost of Operations that will Require or Generate
       Resources in future periods                                                       $              34    $        433,855
Components not Requiring or Generating Resources:
  25. Depreciation and amortization                                                      $        519,322     $        525,076
  26. Revaluation of assets or liabilities (+/-)                                                  471,331             (269,050)
  27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                                    0                    0
    27b. Cost of Goods Sold                                                                         2,025                  743
                                                                                                                                   227
    27c. Operating Material and Supplies Used                                                         254                    0
    27d. Other                                                                                   (749,889)            (559,121)
  28. Total Components of Net Cost of Operations that will not Require or Generate
      Resources                                                                          $        243,043     $       (302,352)
  29. Total components of Net Cost of Operations that will not Require or Generate
       Resources in the current period                                                   $        243,077     $        131,503
  30. Net Cost of Operations                                                             $      6,491,076     $      6,091,428




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Other Information

      The following note schedule lines are presented as combined, instead of consolidated, due to intraagency budgetary
      transactions not being eliminated:

      Obligations Incurred
      Less: Spending Authority from Offsetting Collections and Recoveries
      Obligations Net of Offsetting Collections and Recoveries
      Less: Offsetting Receipts
      Net Obligations
      Undelivered Orders
      Unfilled Customer Orders

      Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not
      Affect Net Cost of Operations: Other – This includes asset donations and the net amount of assets transferred to USACE
      from other government agencies.

      Composition of Components Requiring or Generating Resources in Future Period: Other. This includes current year
      Judgment Fund Contract Disputes Act (CDA) claims and current year unfunded expense for the Federal Employees
      Compensation Act (FECA) actuarial liability.

      Composition of Components not Requiring or Generating Resources: Other. This includes cost capitalization offset
      expense. The cost capitalization offset account provides a mechanism to offset all direct costs in the expense accounts when
      those costs are subsequently capitalized into an in-process account.

      Liabilities not covered by budgetary resources reported on the Balance Sheet and Note 11 decreased $159.2 million.
      Components requiring or generating resources in future periods on Statement of Financing totals $6.0 million, for a total
      difference between the two statements of $165.2 million. Liabilities not covered by budgetary resources are cumulative
      on the Balance Sheet and Note 11. Components not requiring or generating resources in future periods reflect only the
      current fiscal year amounts. The differences are attributed to: (1) custodial liabilities primarily related to water storage
      contracts decreased by $119.4 million with no offsetting reduction in unfunded expense; (2) the unfunded expense related
      to Formerly Utilized Sites Remedial Action Program environmental liabilities decreased by $30.9 million; FECA liability
      decreased by $751.3 thousand; and contracts with continuation clauses decreased by $4.3 million; (3) the unfunded
      principal balance of debt payable to the U.S. Treasury for Borrowing Authority decreased by $674.8 thousand with no
      offsetting reduction in unfunded expense; and (4) the unfunded expense related to Judgment Fund CDA claims and
      contingent liabilities in the General Fund decreased by $9.2 million.


      Note 22. Disclosures Related to Incidental Custodial Collections
      Not Applicable.
228
Note 23. Earmarked Funds
                                                                              Medicare
                                                           Military        Eligible Retiree
 BALANCE SHEET                                            Retirement        Health Care       Other Earmarked
                                                            Fund                 Fund              Funds        Eliminations         Total
 As of September 30, 2007
 (Amounts in thousands)


 ASSETS
   Fund balance with Treasury                             $            0    $             0 $       661,306     $              0 $     661,306
   Investments                                                         0                  0       4,038,353                    0     4,038,353
   Accounts and Interest Receivable                                    0                  0         478,404                    0       478,404
   Other Assets                                                        0                  0       1,244,419                    0     1,244,419
   Total Assets                                           $            0    $             0 $     6,422,482     $              0 $   6,422,482

 LIABILITIES and NET POSITION
   Military Retirement Benefits and Other Federal
   Employment Benefits                                    $            0    $             0 $             0     $          0 $              0
   Other Liabilities                                                   0                  0         111,881             (267)         111,614
   Total Liabilities                                      $            0    $             0 $       111,881     $       (267) $       111,614

   Unexpended Appropriations                                           0                  0               0                0                 0
   Cumulative Results of Operations                                    0                  0       6,310,601         (181,049)        6,129,552

   Total Liabilities and Net Position                     $            0    $             0 $     6,422,482     $ (181,316) $        6,241,166

 STATEMENT OF NET COST
   Program Costs                                          $            0    $             0 $     1,326,345     $    (32,111) $      1,294,234
   Less Earned Revenue                                                 0                  0             (61)              57                (4)
   Net Program Costs                                      $            0    $             0 $     1,326,284     $    (32,054) $      1,294,230
   Less Earned Revenues Not Attributable to Programs                   0                  0               0                0                 0
   Net Cost of Operations                                 $            0    $             0 $     1,326,284     $    (32,054) $      1,294,230

 STATEMENT OF CHANGES IN NET POSITION
   Net Position Beginning of the Period                   $            0    $             0 $     5,380,665     $              0 $   5,380,665

   Net Cost of Operations                                              0                  0       1,326,284           (32,054)       1,294,230
   Budgetary Financing Sources                                         0                  0       2,000,075         (213,103)        1,786,972
   Other Financing Sources                                             0                  0         256,145                 0          256,145

   Change in Net Position                                 $            0    $             0 $       929,936     $ (181,049) $         748,887

   Net Position End of Period                             $            0    $             0 $     6,310,601     $ (181,049) $        6,129,552


Other Disclosures

The Total column is shown as consolidated. All intragovernmental activity within the Department of Defense between
earmarked and nonearmarked funds has been eliminated from this column, which causes assets to not equal liabilities and                           229
net position.

USACE Earmarked Funds

Special Recreation Use Fees, Title 16 United States Code (USC) 4601-6a, granted USACE the authority to charge and
collect fair and equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs
under the jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual
pass fees, and other permit type fees. The revenue is received from the public and is an inflow of resources to the
government. The purpose of the fund is to maintain and operate the recreation and camping facilities. This fund is classified



                                                                       Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      as a special fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

      Hydraulic Mining in California, Debris, Title 33 USC 683, states that those operating hydraulic mines, through which debris
      flows in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission, shall
      pay a tax as determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by
      FERC. Taxes imposed under this code are collected and then expended under the supervision of USACE and the direction
      of the Department of the Army. The revenue is received from the public and is an inflow of resources to the government.
      The purpose of the fund is for repayment of funds advanced by the Federal Government or other agencies for construction,
      restraining works, settling reservoirs, and maintenance. This fund is classified as a special fund and utilizes both receipt and
      expenditure accounts in accounting for and reporting the fund.

      Payments to States, Flood Control Act of 1954, Title 33 USC 701c-3, established that 75% of all funds received and
      deposited from the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including
      the development of hydroelectric power, shall be returned to the state in which the property is located. The USACE
      collects lease receipts into a receipt account. The revenue is received from the public and is an inflow of resources to the
      government. Funds are appropriated in the amount of 75% of the receipts in the following fiscal year and disbursed to the
      states. The funds may be expended by the states for the benefit of public schools and public roads of the county, or counties,
      in which such property is situated, or for defraying any of the expense of county government. This fund is classified as a
      special fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

      Maintenance and Operation of Dams and Other Improvements of Navigable Waters, Title 16 USC 803(f), 810, states
      that whenever a reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now
      known as FERC, shall assess charges against any licensee directly benefited, and any amount so assessed shall be paid into
      the U.S. Treasury. The title further states that all charges arising from other licenses, except those charges established by
      FERC for purpose of administrative reimbursement, shall be paid to the U.S. Treasury from which specific allocations
      will be made. From the specific allocations, 50% of charges from all other licenses is reserved and appropriated as a
      special fund in the U.S. Treasury. This special fund is to be expended under the direction of the Secretary of the Army
      (Secretary) for the maintenance and operation of dams and other navigation structures that are owned by the U.S. or
      for construction, maintenance, or operation of headwater or other improvements of U.S. navigable waters. This fund is
      classified as a special fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.
      The revenue is received from the public and is an inflow of resources to the government.

      Fund for Nonfederal Use of Disposal Facilities (for dredged material) was established by Title 33 USC 2326a. This title
      provides that the Secretary may permit the use of any dredged material disposal facility under the jurisdiction of, or
      managed by, the Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability
      of the facility for project purposes. The Secretary may impose fees to recover capital, operation and maintenance costs
      associated with such use. Any monies received through collection of fees under this law shall be available to the Secretary,
      and shall be used by the Secretary, for the operation and maintenance of the disposal facility from which the fees were
230   collected. This fund is classified as a special fund and utilizes both receipt and expenditure accounts in accounting for and
      reporting the fund. The revenue is received from the public and is an inflow of resources to the government.

      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund was established by Public Law 105-277, Sec. 603.
      Yearly transfers are made from the general fund of the U.S. Treasury to the trust fund for investment purposes.
      Investment activity is managed by the U.S. Treasury, Bureau of Public Debt (BPD). When the fund reaches the aggregate
      amount of $108.0 million, withdrawals may be made by USACE for payment to the state of South Dakota. The state
      shall use the payments to fund the annually scheduled work for wildlife habitat restoration. This fund is classified as a
      trust fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

      Coastal Wetlands Restoration Trust Fund is authorized by Title 16 USC 3951-3956. This title grants parallel authority
      to USACE, along with the Environmental Protection Agency, and the Fish and Wildlife Service to work with the state of
Louisiana to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of wetlands”
in coastal Louisiana. The USACE is also responsible for allocating funds among the named task force members. Federal
contributions are established at 75% of project costs or 85% if the state has an approved Coastal Wetlands Conservation
Plan. This fund is classified as a trust fund expenditure account and receives funding transfers from the Sport Fish
Restoration and Boating Trust Fund.

Rivers and Harbors Contributed and Advance Funds, authorized by Title 33 USC 701h, 702f, and 703, establishes funding
to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification and enlargement
of river channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or political
subdivision thereof shall offer to advance funds for a flood control project duly adopted and authorized by law, the Secretary
may, in his discretion, receive such funds and expend the same in the immediate prosecution of such work. Advances are
from the public and are inflows of resources to the government. This fund is classified as a trust fund and utilizes both
receipt and expenditure accounts in accounting for and reporting the fund.

Inland Waterways Trust Fund (IWTF) is authorized by Title 26 USC 9506. The title made IWTF available for USACE
expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust fund
are from excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received from the
public and is an inflow of resources to the government. The collections are invested and investment activity is managed by
the BPD. The fund is classified as a trust fund and utilizes receipt and expenditure accounts in accounting for and reporting
the fund.

Harbor Maintenance Trust Fund (HMTF) was established by Title XIV of the Water Resources Development Act (the Act) of
1986, Public Law 99-662. The HMTF is authorized to recover 100% of USACE eligible operation and maintenance (O&M)
expenditures for the maintenance of commercial navigation in harbors and channels as well as 100% of the O&M cost of
St. Lawrence Seaway by the St. Lawrence Seaway Development Corporation. As provided in the Act, amounts in HMTF
shall be available for making expenditures to carry out the functions specified in the Act and for the payment of all expenses
of administration incurred by the U.S. Treasury, USACE, and the Department of Commerce. Collections are made into
the trust fund from fees assessed on port use associated with imports, imported merchandise admitted into a foreign trade
zone, passengers, and movements of cargo between domestic ports. The collections are invested and investment activity
is managed by BPD. The revenue is received from the public and is an inflow of resources to the government. The fund is
classified as a trust fund and utilizes receipt and expenditure accounts in accounting for and reporting the fund.


Note 24. Other Disclosures
In FY 2007, USACE received $73.8 million in direct appropriations from the Department of Energy, Power Marketing
Administration, for operation and maintenance activities at hydroelectric power plants operated by USACE at the Portland,
Seattle, and Walla Walla districts.


Note 25. Restatements                                                                                                              231

USACE currently is completing both its FY 2006 and 2007 financial statement audits with expected completion in
December 2007. Based on the on-going audits USACE management has determined there are departures from generally
accepted accounting principles (GAAP). These departures include valuation errors in assets, completeness and valuation
errors in liabilities and the offsetting impacts to revenues and expenses as well as budgetary reclassifications and missing
disclosures required to comply with Office of Management and Budget form and content requirements. USACE will
publish out-of-cycle FY 2006 and 2007 financial statements during December 2007 that will include adjustments to ensure
the statements and disclosures are in full conformity with GAAP. Until the adjustments can be fully reflected in the
December 2007 out-of-cycle financial statements, readers should not fully rely on these statements and disclosures.



                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Following is a summary impact of currently known uncorrected misstatements not reflected in the fiscal year 2006 financial
      statements:

       (Dollars in Thousands)                                                                                    2006
       Consolidated Balance Sheet:                                                                          Increase/(Decrease)
         Accounts Receivable - Intragovernmental                                                                       $288,504
         Accounts Receivable - Public                                                                                   (132,341)
         General Property, Plant and Equipment, Net                                                                     (717,757)
         Other Assets - Public                                                                                          (440,839)
       Total Assets                                                                                                  (1,002,433)
         Accounts Payable - Intragovernmental                                                                              39,188
         Other Liabilities - Intragovernmental                                                                          (132,342)
         Accounts Payable - Public                                                                                       419,836
         Environmental and Disposal Liabilities                                                                             4,182
         Other Liabilities - Public                                                                                       (59,477)
       Total Liabilities                                                                                                 271,387
         Unexpended Appropriations - Other Funds                                                                        (396,843)
         Cumulative Results of Operations - Other Funds                                                               ($876,977)
       Total Net Position                                                                                          ($1,273,820)

       Consolidated Statement of Net Cost:
         Gross Costs                                                                                                   $497,906
         Earned Revenue                                                                                                 148,804
       Net Cost of Operations                                                                                          $349,102


       Consolidated Statement of Changes in Net Position:
         Cumulative Results of Operations
             Appropriations Used                                                                                       $396,843
             Prior Period Adjustment                                                                                   (926,218)
             Imputed Financing From Cost Absorbed by Others                                                               1,500
             Net Cost of Operations                                                                                    (349,102)
       Total Ending Cumulative Results of Operations                                                                   (876,977)
         Unexpended Appropriations
            Appropriations Used                                                                                         (396,843)
       Total Ending Unexpended Appropriations                                                                         ($396,843)

       Combined Statement of Budgetary Resources:
         Recoveries of Prior Year Unpaid Obligations                                                                   $418,243
         Spending Authority from Offsetting Collections - Earned - Collected                                             58,477
         Spending Authority from Offsetting Collections - Earned - Change in Receivable from Federal
         Sources                                                                                                        288,505
         Spending Authority from Offsetting Collections - Change in Unfilled Customer Orders - Advance
         Received                                                                                                        (58,477)
         Spending Authority from Offsetting Collections - Change in Unfilled Customer Orders - Without
         Advance from Federal Sources                                                                                  (288,505)
       Total Budgetary Resources                                                                                        418,243
       Obligations Incurred - Direct                                                                                    341,175
232    Unobligated Balance - Apportioned                                                                                 77,068
       Total Status of Budgetary Resources                                                                              418,243
       Distributed Offsetting Receipts                                                                              ($1,404,342)
Required Supplementary Stewardship Information (RSSI)
                                       Federal Mission Property, Plant and Equipment
                            Yearly Investment in Federal Mission Property, Plant and Equipment

                                          For Fiscal Year Ended September 30, 2007
                                                     (In Millions of Dollars)


                            (a)                             (b)           (c)            (d)            (e)            (f)
                       Categories                        FY2003         FY2004         FY2005        FY2006         FY2007
 1. Bank Stabilization Projects                             nr                  $74            $59            $67            $73
 TOTAL:                                                                         $74            $59            $67            $73


Narrative Statement:

Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE for the
protection of the riverbanks of the Mississippi River and other navigable waterways inside the continental United
States. Stabilization and protection of the riverbanks are important to the flood control and navigation plans, serving
to protect flood control features and to insure the desired alignment of the river’s navigation channel. Stabilizing the
riverbanks and channels provides an efficient navigation alignment, increase the flood-carrying capacity of the river, and
or protection of the levees system to include the tributary basin improvements for major drainage. The process by which
this is accomplished is by cutoffs (shortening the river and reducing flood heights), revetment (controlling the river’s
meandering), dikes (directing the flow), and improvement dredging (realigning the river/channel).

Notes:

     1. The USACE does not have historical data for FY 2003, because FY 2004 was our first reporting of Federal Mission
        Property, Plant and Equipment in the Required Supplementary Stewardship Information section of the financial
        statements. (nr = Nonreporting)


     2. After major floods in 1882, 1912, 1913 and 1927, the Flood Control Act of 1928 was signed that committed the
        federal government to a definite program of flood control. This legislation authorized the Mississippi River and
        Tributaries Project, the nation’s first comprehensive flood control and navigation act.


     3. Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures).
        Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with the
        Federal accounting standards requirements.


                                                                                                                                   233




                                                                  Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


                                                     Nonfederal Physical Property
                                          Yearly Investment in State and Local Governments

                                                 For Fiscal Year Ended September 30, 2007
                                                            (In Millions of Dollars)


                        (a)                       (b)                (c)              (d)              (e)              (f)
                   Categories                   FY2003            FY2004            FY2005           FY2006           FY2007
       Transferred Assets:
       1. Federal Mission Related                 nr                       $4,429           $1,324           $1,229           $1,028
       Funded Assets:
       2. Federal Mission Related                 nr                          $0               $0               $0               $0
       Total:                                                              $4,429           $1,324           $1,229           $1,028


      Narrative Statement:

      Investments in Nonfederal Property refers to those expenses incurred by USACE for the purchase, construction or major
      renovation of physical property owned by State and local governments, including major additions and replacements; the
      purchase of major equipment; and the purchase of improvement of other physical assets. The authority to enter into cost
      share agreements with nonfederal sponsors is governed under numerous Water Resources Development Acts starting with
      the Act of 1992.

      Notes:

           1. The USACE does not have historical data for FY 2003 because FY 2004 was our first reporting of Nonfederal
              Physical Property in the Required Supplementary Stewardship Information. The variance in the FY 2004 and
              FY 2005 amounts is due to the FY 2004 figure being a first report cumulative number and the FY 2005 number is
              for FY 2005 cost share. (nr = Nonreporting)


           2. Under numerous authorities USACE provides design, build and construction services/management for the
              missions of commercial navigation, flood/storm damage reduction, hydropower, regulatory, environmental,
              recreation and water supply.


           3. Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures).
              Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with the
              Federal Accounting Standards requirements.



234
Required Supplementary Information (RSI)
                                                      Heritage Assets

                                            For Fiscal Year Ended September 2007


                    (a)                      (b)               (c)                  (d)               (e)                (f)
             Categories                Measurement       As of 10/1/06          Additions          Deletions       As of 9/30/07
                                         Quantity
Museums                                     Each                          0                                                        0
Monuments and Memorials                     Each                          0                                                        0
Cemetaries                                  Sites                         0                                                        0
Archeological Sites                         Sites                      586                                                     586
Buildings and Structures                    Each                       353                                                     353
Major Collections                           Each                          0                                                        0


Narrative Statement

    1. Dollar Amounts. No asset dollar amounts are shown.


    2. Relevance to the USACE Mission. On February 14, 1990, the Chief of Engineers and Commanding
       General of the U.S. Army Corps of Engineers, Lieutenant General Henry J. Hatch, issued The Strategic Direction to
       Environmental Engineering. General Hatch said, “… to meet our nation’s and world’s needs, an environmental ethic
       must be an integral part of how we conduct business . . . the environmental aspects of all we do must have equal
       standing among other aspects - - not simply a ‘consideration’, but part of the ‘go-no-go’ test, along with economics
       and engineering.”


    3. Stewardship Policy. On 30 October 2003, Engineer Regulation (ER) 200-1-5, Implementation of the USACE
       Environmental Operating Principles, was issued. The ER states, in part, “…[T]he Environmental Operating
       Principles and associated doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation,
       stewardship and restoration of our Nation’s . . . resources. These principles and associated doctrine are based
       on the premise that through the restoration and maintenance of environmental health and productivity, both
       economic development and social equity can be achieved.”


    4. Heritage Asset Categories.

        a. Based on the current definition provided for Monuments and Memorials, USACE does not administer any
           properties that meet the qualifying criteria.
                                                                                                                                       235

        b. The latest listing (October 2, 2007) of the National Register of Historic Places Internet Database (www.
           cr.nps.gov/nr) has been reviewed. Heritage assets classified as Land are special land plots containing
           archaeological sites either listed on the National Register of Historic Places or eligible to be listed by the
           agency and the Keeper of the National Register. Cemeteries and Archeological Sites are archeological
           properties listed on, or eligible for, listing in the National Register of Historic Places. These archeological
           assets cover almost the entire range of human occupation of the Continental United States, beginning with
           the Kennewick Man Discovery Site in Washington State, dating to approximately 10,000 years before present,
           to archeological remains of early European-American settlements, including Fort Independence in Georgia.



                                                                     Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


                    The current National Register inventory for USACE includes 489 archeological properties determined to be
                    eligible for listing and 97 archeological properties listed. This total of 586 archeological properties qualifying
                    as Heritage Assets reflects no change from the previous quarterly report.


               c. Buildings and Structures include a range of historic resources from a covered bridge in the Sacramento
                  District to early farming structures in the Savannah District. It also includes some non-traditional structures
                  such as a snag boat that operated on the Mississippi River. Again, the current National Register of Historic
                  Places Internet Database was reviewed for USACE Heritage Assets in the Buildings and Structures category.
                  There are 117 buildings and structures listed on the National Register and 236 more that have been
                  determined to be eligible for listing. The total of 353 Heritage Assets in this category reflects no change from
                  the previous quarterly report.

                                                General Property, Plant and Equipment
                                             Real Property Deferred Maintenance Amounts

                                                           As of 30 September 2007


                                                              (a)                     (b)
                                               Property Type/ Major Class
                                           1. Real Property
                                           A. Buildings                                        0
                                           B. Structures                             $1,062,358
                                           2. Total                                  $1,062,358


      Narrative Statement:

      Deferred maintenance at Civil Works water resources projects operated and maintained by the U.S. Army Corps of
      Engineers was determined through the budget development process through which operations managers identify
      the operation and maintenance (O&M) needs at each project in the Civil Works inventory. Those needs are based on
      inspections of project features, engineering analyses and historical experience.




236
                                                                 237




Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


      Department of Defense - US Army Corps of Engineers

      STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
      As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                         Civil Works           2007 Combined            2006 Combined
      Budgetary Financing Accounts
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1                                $       9,368,272     $         9,368,272      $          5,003,186
      Recoveries of prior year unpaid obligations                                                    0                       0                         0
      Budget authority
        Appropriation                                                                        7,503,579               7,503,579                12,439,718
        Borrowing authority                                                                          0                       0                         0
        Contract authority                                                                           0                       0                         0
        Spending authority from offsetting collections
            Earned
               Collected                                                                   10,401,272               10,401,273                 9,407,099
               Change in receivables from Federal sources                                  (1,504,481)              (1,504,481)                1,690,685
            Change in unfilled customer orders
               Advance received                                                                  (4,115)                  (4,115)                  22,685
               Without advance from Federal sources                                          (780,400)                (780,400)                 (719,532)
            Anticipated for rest of year, without advances                                            0                        0                         0
            Previously unavailable                                                                    0                        0                         0
            Expenditure transfers from trust funds                                                    0                        0                         0
        Subtotal                                                                     $     15,615,855      $        15,615,856      $         22,840,655
      Nonexpenditure transfers, net, anticipated and actual                                     78,583                   78,583                     (8,068)
      Temporarily not available pursuant to Public Law                                         (10,000)                 (10,000)                  (10,000)
      Permanently not available                                                                    (732)                    (732)                 (54,490)
      Total Budgetary Resources                                                      $     25,051,978      $        25,051,979      $         27,771,283

      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                                       $      6,924,552      $         6,924,552      $          6,902,331
        Reimbursable                                                                        8,479,194                8,479,195                11,500,680
        Subtotal                                                                     $     15,403,746      $        15,403,747      $         18,403,011
      Unobligated balance:
        Apportioned                                                                         8,742,925                8,742,926                 8,621,365
        Exempt from apportionment                                                             895,064                  895,064                   746,850
        Subtotal                                                                     $      9,637,989      $         9,637,990      $          9,368,215
      Unobligated balance not available                                                        10,243                   10,242                        57
      Total status of budgetary resources                                            $     25,051,978      $        25,051,979      $         27,771,283
      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1                               $       5,478,110     $         5,478,111      $          3,945,373
        Less: Uncollected customer payments from Federal sources, brought forward,
        October 1                                                                           (6,421,138)              (6,421,138)               (5,449,985)
        Total unpaid obligated balance                                               $        (943,028)    $           (943,027)    $          (1,504,612)
      Obligations incurred net ()                                                    $     15,403,747      $        15,403,747      $         18,403,011
      Less: Gross outlays                                                                 (14,836,212)             (14,836,212)              (16,870,276)
      Obligated balance transferred, net
        Actual transfers, unpaid obligations ()                                                      0                       0                         0
238     Actual transfers, uncollected customer payments from Federal sources ()                      0                       0                         0
        Total Unpaid obligated balance transferred, net                                              0                       0                         0
      Less: Recoveries of prior year unpaid obligations, actual                                      0                       0                         0
      Change in uncollected customer payments from Federal sources ()                        2,284,880               2,284,881                  (971,153)
      Obligated balance, net, end of period
        Unpaid obligations                                                                  6,045,645                6,045,644                 5,478,111
        Less: Uncollected customer payments () from Federal sources (-)                    (4,136,258)              (4,136,258)               (6,421,138)
        Total, unpaid obligated balance, net, end of period                          $      1,909,387      $         1,909,386      $           (943,027)
      Net Outlays
      Net Outlays:
        Gross outlays                                                                      14,836,212               14,836,212                16,870,276
        Less: Offsetting collections                                                      (10,397,157)             (10,397,157)               (9,429,787)
        Less: Distributed Offsetting receipts                                                (521,925)                (521,925)               (1,906,618)
      Net Outlays                                                                    $      3,917,130      $         3,917,130      $          5,533,871

      The accompanying notes are an integral part of these financial statements.
Department of Defense - US Army Corps of Engineers

STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                   Civil Works           2007 Combined           2006 Combined
Non-Budgetary Financing Accounts
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                $                 0   $                   0   $                   0
Recoveries of prior year unpaid obligations                                                      0                       0                       0
Budget authority
  Appropriation                                                                                  0                       0                       0
  Borrowing authority                                                                            0                       0                       0
  Contract authority                                                                             0                       0                       0
  Spending authority from offsetting collections
      Earned
         Collected                                                                               0                       0                       0
         Change in receivables from Federal sources                                              0                       0                       0
      Change in unfilled customer orders
         Advance received                                                                        0                       0                       0
         Without advance from Federal sources                                                    0                       0                       0
      Anticipated for rest of year, without advances                                             0                       0                       0
      Previously unavailable                                                                     0                       0                       0
      Expenditure transfers from trust funds                                                     0                       0                       0
  Subtotal                                                                     $                 0   $                   0   $                   0
Nonexpenditure transfers, net, anticipated and actual                                            0                       0                       0
Temporarily not available pursuant to Public Law                                                 0                       0                       0
Permanently not available                                                                        0                       0                       0
Total Budgetary Resources                                                      $                 0   $                   0   $                   0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                       $                 0   $                   0   $                   0
  Reimbursable                                                                                   0                       0                       0
  Subtotal                                                                     $                 0   $                   0   $                   0
Unobligated balance:
  Apportioned                                                                                    0                       0                       0
  Exempt from apportionment                                                                      0                       0                       0
  Subtotal                                                                     $                 0   $                   0   $                   0
Unobligated balance not available                                                                0                       0                       0
Total status of budgetary resources                                            $                 0   $                   0   $                   0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                               $                 0   $                   0   $                   0
  Less: Uncollected customer payments from Federal sources, brought forward,
  October 1                                                                                      0                       0                       0
  Total unpaid obligated balance                                               $                 0   $                   0   $                   0
Obligations incurred net ()                                                    $                 0   $                   0   $                   0
Less: Gross outlays                                                                              0                       0                       0
Obligated balance transferred, net
  Actual transfers, unpaid obligations ()                                                        0                       0                       0
  Actual transfers, uncollected customer payments from Federal sources ()                        0                       0                       0   239
  Total Unpaid obligated balance transferred, net                                                0                       0                       0
Less: Recoveries of prior year unpaid obligations, actual                                        0                       0                       0
Change in uncollected customer payments from Federal sources ()                                  0                       0                       0
Obligated balance, net, end of period
  Unpaid obligations                                                                             0                       0                       0
  Less: Uncollected customer payments () from Federal sources (-)                                0                       0                       0
  Total, unpaid obligated balance, net, end of period                          $                 0   $                   0   $                   0
Net Outlays
Net Outlays:
  Gross outlays                                                                                  0                       0                       0
  Less: Offsetting collections                                                                   0                       0                       0
  Less: Distributed Offsetting receipts                                                          0                       0                       0
Net Outlays                                                                    $                 0   $                   0   $                   0

The accompanying notes are an integral part of these financial statements.
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information



       Schedule, Part A DoD Intra-governmental Asset Balances

       AT96 - US Army Corps of Engineers ($ Amounts in Thousands)

                                                                             Fund
                                                             Treasury    Balance with    Accounts      Loans
                                                               Index       Treasury     Receivable   Receivable   Investments   Other
       Unidentifiable Federal Agency Entity (Other
       than DoD entities)                                           0                        $323
       Department of Agriculture                                    12                       $154
       Department of Commerce                                       13                       $375
       Department of the Interior                                   14                    $405,503
       Department of Justice                                        15                        $19
       Department of Labor                                          16                        $12
       Navy General Fund                                            17                       ($63)
       United States Postal Service                                 18                       $130
       Department of State                                          19                       $944
       Department of the Treasury                                   20    $11,165,472          $5                  $4,038,353
       Army General Fund                                            21                      $3,615
       Office of Personnel Management                               24                         $1
       Social Security Administration                               28                       $308
       Nuclear Regulatory Commission                                31                         $0
       Department of Veterans Affairs                               36                       $208
       Government Printing Office                                   4                          $0
       General Service Administration                               47                        $10
       National Science Foundation                                  49                        $10
       Air Force General Fund                                       57                       $918
       Tennessee Valley Authority                                   64                       $159
       Environmental Protection Agency                              68                     $14,335
       Department of Transportation                                 69                       $533
       Homeland Security                                            70                    $361,183
       Agency for International Development                         72                       $119
       Department of Health and Human Services                      75                         $0
       National Aeronautics and Space
       Administration                                               80                        $23
       Department of Housing and Urban
       Development                                                  86                       $213
       Department of Energy                                         89                     $11,671
       Department of Education                                      91                         $0
240    Independent Agencies                                         95                         $6
       Other Defense Organizations General Funds                    97                       $673
       Army Working Capital Fund                           97-4930.001                         $2
       The General Fund of the Treasury                             99                     $71,719
       Architect of the Capitol                                                               $13
       Totals might not match reports                         Totals:     $11,165,472     $873,121                 $4,038,353
Schedule, Part B DoD Intra-governmental entity liabilities

AT96 - US Army Corps of Engineers ($ Amounts in Thousands)

                                                              Treasury           Accounts          Debts/Borrowings
                                                                Index             Payable         From Other Agencies         Other
Department of Agriculture                                        12                       $109                                        $6
Department of Commerce                                           13                     $3,391                                   $4,629
Department of the Interior                                       14                    $11,343                                   $1,747
Department of Justice                                            15                     $1,179                                        $2
Department of Labor                                              16                          $0                                $46,995
Navy General Fund                                                17                     $2,394                                        $0
United States Postal Service                                     18                          $0                                       $0
Department of State                                              19                       $663                                      $19
Department of the Treasury                                       20                       $605                   $12,917      $167,416
Army General Fund                                                21                     $4,971                                        $0
Office of Personnel Management                                   24                          $4                                $13,928
Library of Congress                                              3                           $8
Department of Veterans Affairs                                   36                       $121                                 $10,927
Government Printing Office                                       4                        $129                                        $0
Appalachian Regional Commission                                  46                          $0                                  $2,146
General Service Administration                                   47                    $25,484                                    $188
General Accounting Office                                        5                          $32                                       $0
Air Force General Fund                                           57                         $63                                       $0
Tennessee Valley Authority                                       64                       $640                                        $0
Environmental Protection Agency                                  68                         $91                                     $34
Department of Transportation                                     69                          $1                                       $0
Homeland Security                                                70                     $1,311                                      $19
Small Business Administration                                    73                          $0                                       $1
Department of Health and Human Services                          75                       $649                                    $554
Department of Energy                                             89                     $1,105                                   $6,490
Other Defense Organizations General Funds                        97                       $448                                        $0
Other Defense Organizations Working Capital Funds             97-4930                   $4,834                                        $0
Army Working Capital Fund                                    97-4930.001                     $6                                       $0
Navy Working Capital Fund                                    97-4930.002                  $269                                        $0
The General Fund of the Treasury                                 99                    $71,719                              $1,632,712
Totals might not match reports                                 Totals:                $131,569                   $12,917    $1,887,813

                                                                                                                                            241




                                                                           Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information


       Schedule, Part C DoD Intra-governmental revenue and related costs
       AT96 - US Army Corps of Engineers ($ Amounts in Thousands)
                                                                             Treasury Index   Earned Revenue
       Unidentifiable Federal Agency Entity (Other than DoD entities)               0                      $2,822
       The Judiciary                                                               10                         $11
       Department of Agriculture                                                   12                      $4,265
       Department of Commerce                                                      13                      $6,104
       Department of the Interior                                                  14                     $51,668
       Department of Justice                                                       15                      $3,837
       Department of Labor                                                         16                        $155
       Navy General Fund                                                           17                      $4,848
       United States Postal Service                                                18                        $254
       Department of State                                                         19                      $4,380
       Department of the Treasury                                                  20                         $37
       Army General Fund                                                           21                    $738,808
       Office of Personnel Management                                              24                      $1,427
       Social Security Administration                                              28                        $311
       Federal Trade Commission                                                    29                          $3
       Nuclear Regulatory Commission                                               31                        $656
       John F. Kennedy Center                                                      33                      $3,913
       Department of Veterans Affairs                                              36                      $7,146
       Government Printing Office                                                   4                         $17
       U.S. Equal Employment Opportunity Commission                                45                          $3
       Appalachian Regional Commission                                             46                         $16
       General Service Administration                                              47                      $1,739
       National Science Foundation                                                 49                      $2,300
       General Accounting Office                                                    5                        $712
       Air Force General Fund                                                      57                     $53,287
       Railroad Retirement Board                                                   60                          $1
       Tennessee Valley Authority                                                  64                        $335
       Environmental Protection Agency                                             68                     $81,007
       Department of Transportation                                                69                      $6,671
       Homeland Security                                                           70                  $1,290,905
       Agency for International Development                                        72                      $4,568
       Small Business Administration                                               73                          $4
       American Battle Monuments                                                   74                        $100
       Department of Health and Human Services                                     75                      $6,877
       National Aeronautics and Space Administration                               80                     $16,700
       Department of Housing and Urban Development                                 86                      $2,518
       National Archives and Records Administration                                88                          $1
       Department of Energy                                                        89                     $66,186
       Department of Education                                                     91                         $84
       Independent Agencies                                                        95                        $170
       Other Defense Organizations General Funds                                   97                     $81,507
       Other Defense Organizations Working Capital Funds                        97-4930                        $4
       Army Working Capital Fund                                              97-4930.001                     $51
242    Navy Working Capital Fund                                              97-4930.002                     $76
       Architect of the Capitol                                                                           $18,018
       Totals might not match reports                                           Totals:                $2,464,502
Schedule, Part C DoD Intra-governmental revenue and related costs
AT96 - US Army Corps of Engineers ($ Amounts in Thousands)
                                                             Treasury Index        Transfers In          Transfers Out
Department of the Interior                                         14                      $76,403                   $278
General Service Administration                                     47                            $0                   $61
Tennessee Valley Authority                                         64                            $0                   $11
Department of Energy                                               89                     $104,292                 $1,495
Other Defense Organizations General Funds                          97                           $10                    $0
The General Fund of the Treasury                                   99                   $1,087,889             $1,124,746
Totals might not match reports                                   Totals:                $1,268,594             $1,126,591




                                                                                                                               243




                                                              Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information




244
                                                                 245




Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information




246
                                                                 247




Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information




248
                                                                 249




Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information




250
                                                                 251




Fiscal Year 2007 United States Army Annual Financial Statement
      Civil Works Fund
      Principal Financial Statements, Notes, and Supplementary Information




252
                                                                                                                                                  We are interested in your feedback regarding the content of this report.
                                                                                                                                               Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                                                                                                                                                     Department of the Army
                                                                                                                                                                Office of the Deputy Assistant Secretary of the Army
                                                                                                                                                                     (Financial Management and Comptroller)
                                                                                                                                                                   Office of the Financial Reporting Directorate
                                                                                                                                                                         Room 3A312, 109 Army Pentagon
                                                                                                                                                                            Washington, DC 20310-0109

                                                                                                                                                  Additional copies of this report can be obtained by sending a written request to
                                                                                                                                                                     the e-mail or mailing address listed above.
About the Cover
                                                                                                                                               You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
Bottom Image
Soldiers from the 3rd Brigade Combat Team, 25th Infantry Division. The smoke is from a controlled IED detonation.

Top Image
Soldiers from the 58th Brigade Combat Team practice room-clearing procedures during training. The brigade is preparing to deploy to Iraq.   *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army
                        The Soldier’s Creed
                               I am an American Soldier.
                       I am a Warrior and a member of a team.
                        I serve the people of the United States
                               and live the Army Values.

                         I will always place the mission first.
                                I will never accept defeat.




                                                                                      Fiscal Year 2007 United States Army Annual Financial Statement
                                       I will never quit.
                          I will never leave a fallen comrade.

                       I am disciplined, physically and mentally
                      tough, trained and proficient in my warrior
                         tasks and drills. I always maintain my
                            arms, my equipment and myself.

                       I am an expert and I am a professional.

                        I stand ready to deploy, engage, and
                      destroy the enemies of the United States
                             of America in close combat.

                         I am a guardian of freedom and the
                                American way of life.

                              I am an American Soldier.


                                                                                                                                                       Fiscal Year 2007 United States Army Annual Financial Statement


United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil                                                                    Commitment to Current and Future Readiness
